<html>
<title> - CONSERVATION AND REINVESTMENT ACT</title>
<body><pre>[Senate Hearing 106-935]
[From the U.S. Government Printing Office]




                                                        S. Hrg. 106-935

                   CONSERVATION AND REINVESTMENT ACT

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                                   ON

          S. 25, THE CONSERVATION AND REINVESTMENT ACT OF 1999
         S. 2123, THE CONSERVATION AND REINVESTMENT ACT OF 1999
S. 2181, THE CONSERVATION AND STEWARDSHIP ACT, TO AUTHORIZE FUNDING FOR 
                   A VARIETY OF CONSERVATION PROGRAMS



                               __________

                              MAY 24, 2000

                               __________

  Printed for the use of the Committee on Environment and Public Works


                    U.S. GOVERNMENT PRINTING OFFICE
68-424 cc                   WASHINGTON : 2001
_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington, DC 
                                 20402




               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

               ONE HUNDRED SIXTH CONGRESS, SECOND SESSION
                   BOB SMITH, New Hampshire, Chairman
JOHN W. WARNER, Virginia             MAX BAUCUS, Montana
JAMES M. INHOFE, Oklahoma            DANIEL PATRICK MOYNIHAN, New York
CRAIG THOMAS, Wyoming                FRANK R. LAUTENBERG, New Jersey
CHRISTOPHER S. BOND, Missouri        HARRY REID, Nevada
GEORGE V. VOINOVICH, Ohio            BOB GRAHAM, Florida
MICHAEL D. CRAPO, Idaho              JOSEPH I. LIEBERMAN, Connecticut
ROBERT F. BENNETT, Utah              BARBARA BOXER, California
KAY BAILEY HUTCHISON, Texas          RON WYDEN, Oregon
LINCOLN CHAFEE, Rhode Island
                      Dave Conover, Staff Director
                  Tom Sliter, Minority Staff Director

                                  (ii)



  
                            C O N T E N T S

                              ----------                              
                                                                   Page

                              MAY 24, 2000
                           OPENING STATEMENTS

Baucus, Hon. Max, U.S. Senator from the State of Montana......... 1, 65
Boxer, Hon. Barbara, U.S. Senator from the State of California2, 26, 67
Chafee, Hon. Lincoln, U.S. Senator from the State of Rhode Island52, 64
Crapo, Hon. Michael D., U.S. Senator from the State of Idaho.....    63
Graham, Hon. Bob, U.S. Senator from the State of Florida.........    66
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...25, 62
Lautenberg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey.........................................................    65
Lieberman, Hon. Joseph I., U.S. Senator from the State of 
  Connecticut....................................................26, 67
Smith, Hon. Bob, U.S. Senator from the State of New Hampshire.... 1, 60
Thomas, Hon. Craig, U.S. Senator from the State of Wyoming.......    62

                               WITNESSES

Chenoweth-Hage, Hon. Helen, U.S. Representative from the State of 
  Idaho..........................................................     9
    Prepared statement...........................................    72
Clark, Hon. Jamie, Director, U.S. Fish and Wildlife Service, 
  Department of the Interior.....................................    27
    Prepared statement...........................................    78
Cochran, Hon. Thad, U.S. Senator from the State of Mississippi...     5
    Prepared statement...........................................    69
Hardiman, Mike, American Land Rights Association.................    40
    Prepared statement...........................................   112
    Responses to additional questions from:
        Senator Crapo............................................   117
        Senator Inhofe...........................................   113
Landrieu, Hon. Mary, U.S. Senator from the State of Louisiana....     2
    Prepared statement...........................................    69
Miller, Hon. George, U.S. Representative from the State of 
  Arizona........................................................    22
    Prepared statement...........................................    71
Niebling, Charlie, policy director, Society for the Protection of 
  New Hampshire Forests..........................................    37
    Prepared statement...........................................   124
    Responses to additional questions from Senator Inhofe........   127
O'Brien, Rindy, vice president of policy, The Wilderness Society.    44
    Prepared statement...........................................    95
    Responses to additional questions from:
        Senator Crapo............................................    97
        Senator Inhofe...........................................    98
Schlickeison, Rodger, president, Defenders of Wildlife...........    41
    Prepared statement...........................................    99
    Responses to additional questions from:
        Senator Crapo............................................   109
        Senator Inhofe...........................................   110
Shadegg, Hon. John, U.S. Representative from the State of Arizona    19
    Prepared statement...........................................    73
Sparrowe, Rollin D., president, Wildlife Management Institute....    36
    Prepared statement...........................................   128
    Responses to additional questions from:
        Senator Crapo............................................   130
        Senator Inhofe...........................................   132
Tauzin, Hon. Billy, U.S. Representative from the State of 
  Louisiana......................................................     6
Vetter, Wayne, New Hampshire Fish and Game Department............    47
    Prepared statement...........................................   141
Waller, David, president, International Association of Fish and 
  Wildlife Agencies, director, Georgia Wildlife Resources 
  Division.......................................................    45
    Prepared statement...........................................    87
    Responses to additional questions from:
        Senator Bond.............................................    92
        Senator Inhofe...........................................    89
Young, Hon. Don, U.S. Representative from the State of Alaska....    23
    Prepared statement...........................................    70

                          ADDITIONAL MATERIAL

Analysis, CARA as Passed by the House, Fred Kelly Grant..........   118
Articles:
    CARA Is Anti-Sportsman, Anti-Hunting.........................   115
    Fatal Flaws of CARA..........................................   167
Draft, language to amend Title III of H.R. 701, Association of 
  Fish and Wildlife Agencies.....................................   109
Letters:
    American Land Rights Association.............................   121
    Arnett, G. Ray...............................................   123
    Gerhardt, Lee Ann............................................   165
    Gun Owners of America........................................   116
    International Association of Fish and Wildlife Agencies......   107
    Keep Private Lands in Private Hands Coalition................   165
    New Hampshire Division of Historical Resources...............   136
    New York State Department of Environmental Conservation......    91
    Western States Land Commissioners Association................   173
Resolution, Western States Land Commissioners Association........   173
Statements:
    Keep Lands in Private Hands Coalition.......................143-165
    Kreig, Ray, Anchorage, AK....................................   166
    Miller, Ted..................................................   136
    National Rifle Association...................................   134
    Whitefeather, Bobby, Red Lake Band of Chippewa Indians.......   138
    Wildlife Society.............................................   142
    Yozell, Sally, Deputy Assistant Secretary of Oceans and 
      Atmosphere, Department of Commerce.........................    83

 
                   CONSERVATION AND REINVESTMENT ACT

                              ----------                              


                        WEDNESDAY, MAY 24, 2000


                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:37 a.m. in room 
406, Dirksen Senate Office Building, Hon. Bob Smith (chairman 
of the committee) presiding.
    Present: Senators Smith, Baucus, Boxer, Chafee, Reid, 
Inhofe, Lautenberg, Bennett, Graham, Lieberman, and Crapo.

             OPENING STATEMENT OF HON. BOB SMITH, 
          U.S. SENATOR FROM THE STATE OF NEW HAMPSHIRE

    Senator Smith. The committee will come to order. We have a 
lengthy hearing this morning with several Members of Congress 
and Senators who have asked to testify. I have done my best to 
accommodate everyone. Hopefully, the House members will be here 
shortly. I understand the House of Representatives has a vote 
at 10.
    So with that in mind, I am going to ask Senators to 
withhold opening statements at least until that time that the 
members have had a chance to make their statements.
    Senator Baucus. Mr. Chairman, I would like to say a couple 
of words, first. It is very, very brief. We all have schedules 
to meet and attend. With your permission, I have just a couple 
of words.
    Senator Smith. Well, the only thing is, if we let one 
Senator do it, we have got to let them all do it.
    Senator Baucus. Well, there are only three or four here. 
How about if you hold us to 1 minute?
    Senator Smith. All right, go ahead.
    Senator Baucus. I appreciate it, Mr. Chairman.
    Senator Smith. I just want to give mine afterwards.

             OPENING STATEMENT OF HON. MAX BAUCUS, 
             U.S. SENATOR FROM THE STATE OF MONTANA

    Senator Baucus. I just want to thank everyone here who has 
worked so hard in leadership positions to bring these bills 
forward.
    Senator Landrieu has been probably one of the hardest 
working to get this issue moving, hopefully past this Congress. 
Over in the House, of course, it is Congressman Miller and 
Congressman Young. I very much thank them. Senator Bingaman has 
introduced a bill that I have cosponsored.
    I just want to publicly acknowledge and thank all of you 
who have worked so very, very hard, because I think we have a 
good opportunity this year to enact this measure.
    Thank you, Mr. Chairman.
    Senator Smith. Senator Chafee, you had indicated to me that 
you had to go at 10 anyway to preside. If you would like to 
make some brief remarks here, I will permit that.
    Senator Chafee. I will hold off and give my opening 
statement when I come back at 11. That might work out better 
for everybody.
    Senator Smith. Is there anyone on this side?

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. Mr. Chairman, I just would ask for 30 
seconds, and I will give my full statement later.
    I wanted everyone to know that I introduced the House 
passed bill, and it is sitting at the desk at the Senate. I 
think it is important, because if we can not see a bill come 
out, it makes it easier, from a parliamentary sense, to have 
the House bill at the desk.
    So the actual House bill went to the committee, but I 
introduced the House bill, word for word, even though I am with 
Senator Baucus and Bingaman on Senator Bingaman's language.
    I also want to say that it is terrific to see this all 
coming together, 4,000 organizations. I introduced the original 
bill, which was different from the Carr bill with Congressman 
Miller. Then he left me for Congressman Young.
    [Laughter.]
    Senator Boxer. I am a little hurt, but I think they did a 
good job. That is where we are at this point. I want to thank 
you for holding this hearing.
    Senator Smith. Would anyone else like to make a brief 
remark?
    [No response.]
    Senator Smith. We will come back to Senators for more 
elaboration on the opening remarks in a little while.
    This hearing this morning is to basically hear comment on 
three bills: the S. 25, which is the bill introduced by Senator 
Landrieu and Murkowski; S. 2123, also by Landrieu and 
Murkowski; and S. 2181, by Senator Bingaman.
    Do you have one in there, too, Senator Cochran? Did I miss 
one?
    Senator Cochran. I am co-sponsoring the Landrieu bill.
    Senator Smith. So at this point, let me start with you, 
Senator Landrieu. Of course, your statement will be made part 
of the record.

STATEMENT OF HON. MARY LANDRIEU, U.S. SENATOR FROM THE STATE OF 
                           LOUISIANA

    Senator Landrieu. Thank you, Mr. Chairman. Let me begin by 
thanking you and the Ranking Member for holding this hearing 
this morning and for all of the interest that all of your 
members have expressed on this subject.
    It is going to take great work by this committee, as well 
as the Energy and Natural Resources Committee, and by every 
member of the Senate to move such a significant piece of 
legislation through, and to really work at it from many 
different angles. So I really appreciate your committee, with 
all that you have to do, giving time on this subject this 
morning.
    I am going to be relatively brief. As you all know, I could 
talk hours about this subject, and I have. But I will be brief, 
because I have got another committee, and I have got an able 
partner here.
    But let me just recognize Congressman Tauzin, who I 
understand is here, to thank him for his great work in 
shepherding this initiative through the House. As he will 
testify later, and I sure you all know, there were over 315 
members of the House, both Republicans and Democrats, who have 
led this bill to a great victory in the House.
    Now it is before the Senate. It has tremendous bipartisan 
support here. So I think while we are not there yet, we are 
clearly toward the end of this journey of having a bill that 
will be a great conservation legacy for our Nation.
    The President has indicated tremendous support for this 
effort for the very beginning. I have every confidence that 
when this bill is laid on his desk, something similar to what 
came out of the House, that he will sign it, and it will be a 
great victory for Congress and for this Administration.
    CARA, which I want to speak about this morning, and I thank 
you, Mr. Chairman, for your co-sponsorship of that, rests on a 
couple of very simple principles.
    One, we believe that CARA legislation lays down the 
principle of a fiscal responsibility; that there is a source of 
funding coming from offshore oil and gas revenues, that 
actually would be better spent if they were directed in this 
way, as opposed to the general fund of the Federal Treasury.
    That is because this is not a regular tax. This is not a 
tax that is going to go on indefinitely or forever. This is a 
tax on a finite resource, and that resource is oil and gas 
revenues, primarily off of our coast and primarily off the 
coast of Louisiana, Texas, Mississippi, and the Gulf Coast.
    Just to share some numbers with you all that I hope will 
impress you and I hope that you can keep, since 1950, the 
Federal Government has taken $120 billion from that source in 
taxes. Basically, it has gone directly into the general fund.
    As Senator Feinstein said so eloquently in a press 
conference on this subject, she said, in fact, these funds were 
hijacked 30 years ago, because initially, these funds were 
supposed to, or at least a portion of them, come back to fully 
fund the land and water conservation fund, both the Federal 
side and the State side, and to invest in our environment.
    In fact, they never really have. It has been a hit and miss 
situation, with more misses than hits. So CARA rests on the 
principle that it really is more fiscally responsible, if you 
are going to generate a tax from a finite resource, let us take 
a portion of those revenues and invest them back in the 
environment. That is what CARA does.
    It also says in the CARA principles that many of us came 
together on that environmental protection is more than just 
rules and regulations. It is more than Federal land 
acquisition. Really, this legacy that we are trying to create 
is about good plans, good partnerships, and having financial 
resources to make this real; the partnerships being at the 
Federal and State level; good plans being made at the Federal 
and State level.
    But all the great plans and all the great partnerships in 
the world are not worth very much if there is not money to 
support them.
    So CARA recognizes this special source of revenue. It 
recognizes the fact that all the good plans and partnerships in 
the world, of which many of you on this committee and I have 
also helped to create, are not worth the paper that they are 
written on, if there is not actual money to fund them.
    So this money should go back to fund a variety of programs 
that reinvest in a fiscally responsible way, and provide the 
money, if you will, to make these plans real.
    So the way the CARA bill has been developed and has come 
now is identifying resources for coastal States; $1 billion of 
the $2.8 billion for coastal impact assistance and 
conservation; $900 million to fully fund the land and water 
conservation fund; $350 million for wildlife conservation, 
which is a particular interest to this committee; $125 million 
for urban parks to fully fund historic preservation; $250 
million for conservation easements; and $200 million set aside 
for capital improvements for the land we already own.
    Let me make just one point. In the Senate, this is an issue 
of contention. Should we just go out and buy additional land; 
should not we have some responsibility to care for the land we 
already own?
    So CARA recognizes that. It both enables us to purchase 
land for willing sellers when Congress approves for additional 
land, but it also invests money in improving the lands that we 
already own, and for the western States, particularly, it helps 
recognize by fully funding PILT. Senator, you and I have talked 
about this, although you do not represent a western State. It 
fully funds PILT, payment in lieu of taxes, which is an 
important provision.
    So the bill is balanced. It helps all areas of the Nation. 
It does not just try to help producing States or non-producing 
States or interior and coastal.
    I think that is why, Mr. Chairman, in conclusion, let me 
say that this bill, of all the bills on the subject, has the 
most support and the most bipartisan support, because it really 
has, from its very beginning, wanted to be fair to every part 
of this Nation, the northeast corridor, the great lakes, the 
south, the west. It is very balanced in its approach, fiscally 
conservative, and recognizes the real opportunity.
    Let me just close by saying that some members have 
criticized the fact that there are some producing States, like 
Louisiana, that might get a large amount of this money. Because 
the source of this money is produced almost 80 percent, 
basically, off the coast of Louisiana, our State serves as the 
platform for this oil and gas industry.
    We are happy to do so. We think we can do so in an 
environmentally sensitive way. Some States have chosen other 
ways, or not to do production at all. That is fine.
    But since our State serves as that platform, in Mississippi 
and Texas, we feel that any bill that would come out of this 
Congress should most certainly recognize that, that we produce 
100 percent of the money. We are not asking for 100 percent. In 
fact, CARA asks for less than 12 percent of these dollars to 
come back to the Gulf Coast States.
    We think that is quite generous and quite fair, so that 
this money can be spread around the Nation in ways that will 
make a great legacy.
    My final point is this. If we do not do this now, Mr. 
Chairman, when we are running a surplus, and when we can think 
in the beginning of this new century, what should we do to make 
sure that these surpluses are not just spent frivolously, or 
not just allocated in ways that do not make much sense to our 
future?
    Here is a perfect opportunity to take a small portion of 
this money, which would be less than, I think, one half of 1 
percent of the total Federal budget, redirect it in ways that 
it was supposed to, 30 years ago, and let us create a great 
legacy for this Nation, for land acquisition, land improvement, 
land conservation, working with landowners, respecting the 
rights of private property owners, helping our coastal and 
interior States, and protecting wildlife.
    We could not think of a better way to start this new 
century. We thank this committee for the interest they have and 
look forward to working with you to get a good bill out that we 
can all be proud of.
    Thank you, Mr. Chairman.
    Senator Smith. Well, thank you very much, Senator Landrieu, 
and thank you for your leadership on this issue.
    Senator Cochran, last night on the ``Millionaire'' I think 
you probably would have been able to answer the $64,000 
question, which was, what current famous popular author was a 
member of the Mississippi State Legislature.
    [Laughter.]
    Senator Smith. One of the answers was John Grisham. That 
was the right answer. I knew it, and the guy did not know it.
    Senator Cochran. Oh, really?
    Senator Smith. No, he did not, but I did not get any money 
out of it.
    [Laughter.]
    Senator Smith. Senator Cochran, welcome.

STATEMENT OF HON. THAD COCHRAN, U.S. SENATOR FROM THE STATE OF 
                          MISSISSIPPI

    Senator Cochran. Thank you, Mr. Chairman. I appreciate you 
inviting me to testify at this hearing.
    The Federal Government has, for too long and too often, 
used outer continental shelf revenues for big, high profile 
projects, and has virtually left out States like Mississippi.
    We have smaller projects, and our needs are not nearly as 
great as some of the larger States. Yet, they are very real and 
very important to the people who live in Mississippi.
    This legislation will shift more of the money that comes 
from these resources to States like Mississippi. We have 
environmental organizations and State agencies that are trying 
hard to protect fragile wetlands and fisheries resources. We 
are restoring the habitat of the osprey and the eagle.
    Great progress is being made on these and other similar 
initiatives. But we need the extra money that this bill will 
provide to provide to enable our State to do the job right.
    For many years, we have sought additional funding for the 
State-side portion of the land and water conservation fund, 
which provides Federal funding for State initiatives for the 
protection of valuable natural resources and fish and wildlife 
habitat.
    Our bill provides full funding for the State's share, while 
still providing for Federal programs, coastal conservation and 
impact assistance, wildlife conservation and education 
programs, and historic preservation.
    I am glad to be a co-sponsor of this legislation. I hope 
this committee will recommend its approval by the Senate.
    Senator Smith. Thank you, Senator Cochran. Does anyone wish 
to ask either Senator a question, at this point?
    Senator Inhofe. What is the order, here?
    Senator Smith. Well, we are ready to move up to the House 
members.
    Senator Inhofe. OK.
    Senator Landrieu. If there are no questions, can I just 
turn in, for the record, the list of 4,576 organizations and 
businesses that have supported the CARA legislation, and 
represent a grand coalition from business to environmental 
leaders, Governors and mayors, and other elected leaders from 
around the Nation that support our efforts, Mr. Chairman.
    I am sure you will hear from some of the representatives of 
some of these groups. But for the record, I would like to turn 
it in and thank them for their great work, and for coming 
together, across party lines and across ideological lines to 
create a bill that we can all be proud of and one that will 
truly help our Nation.
    Senator Smith. Without objection, that will be made part of 
the record.
    [The referenced document follows:]
    Senator Smith. I would now call up the House members who 
had indicated they wished to testify: the Honorable Don Young 
of Alaska, the Honorable George Miller of California, the 
Honorable Helen Chenoweth-Hage of Idaho, the Honorable John 
Shadegg of Arizona, the Honorable Billy Tauzin of Louisiana. 
Any and all of those ladies and gentlemen who are here, if they 
would come up.
    We will start with you, Congressman Tauzin. Welcome, and 
your entire statement will be made part of the record. Please 
feel free to summarize it in any way you wish.

 STATEMENT OF HON. BILLY TAUZIN, U.S. REPRESENTATIVE FROM THE 
                       STATE OF LOUISIANA

    Mr. Tauzin. Thank you, Mr. Chairman.
    What I thought I would do is give you a quick backdrop to 
this legislation, which is already, as you know, passed the 
House, 315 to 102. So if the House were properly represented 
here, I guess it would be three to one in favor of the bill, 
but I wanted to give you the backdrop to it.
    It all began with the 1998 memorandum, a report from the 
Department of Interior's Minerals Management Services Agency 
which recommended, based upon a request from Congress, an 
appropriate sharing formula for off-shore revenues.
    Interior States currently share in the revenues produced on 
Federal lands within those States. The Federal law actually 
provides a 50 percent share to the States where interior 
development occurs.
    For example, the State of New Mexico received $5.3 billion 
over the years in its 50 percent share. The State of Wyoming 
has actually received $7.4 billion over the years, as its 50 
percent share of Federal oil, gas, and mineral revenue derived 
from Interior Federal lands.
    No such provision was ever made for the coastal States, who 
have Federal lands from which oil and gas and other minerals 
are derived, and for which major impacts are felt.
    I want you to know, in our State of Louisiana, a little bit 
about the impacts. Since 1930, we have lost over a million 
acres of State coastal lands, much of it, as Mary pointed out 
to you, because of the fact that we have accommodated, as a 
launch pad, the development of oil and gas off those fragile 
wetlands.
    We also produced 29 percent of the Nation's seafood harvest 
from those same wetlands. It was a pretty critical thing to be 
losing them.
    We lost, since the 1930's, an area of land equal to the 
size of Rhode Island. Within the next 10 years, we are going to 
lose enough land equal to the city of San Diego. We have got no 
program in place to try to prevent or stop that immense 
national and, I think, international ecological disaster that 
is occurring in Louisiana.
    Sharing the revenues from oil and gas production is one of 
the ways that Minerals Management suggested we do it. Now 
Minerals Management, as Mary pointed out, did not say, look, 
just share it with the State that produces most of it. It said, 
share it with all the coastal States.
    So a portion of the moneys in the first title of this bill 
are shared with all the coastal States; 35 different States 
share. Louisiana and Texas, obviously, with the most 
production, end up with a large number.
    But, again, the impacts are immense, where the production 
is occurring. We produced 80 percent of that production, which 
is yielded, as Mary said, $120 billion to the U.S. Treasury, 
since it all started offshore in 1948. So the first part of the 
bill is a sharing formula.
    The second part is the land and water acquisition fund, and 
the other great programs in the bill that are really a great 
environmental legacy, that I think our generation leaves to the 
next and, frankly, I think, makes this an incredibly well 
balanced bill.
    I want to talk to you about that balance, briefly. The bill 
was an intricately negotiated package, because it involves the 
concept of environmental protection and land acquisition and 
species protection. It was necessary that we negotiate 
carefully to balance property rights into the package.
    There is still a dispute over what is and what is not in 
this package regarding property rights. So I thought if you 
would give me a second, I would run through how this thing 
works.
    This is what an agency, wanting to acquire land, must do in 
this bill. It must first seek to consolidate the checkerboard 
pattern of Federal landholdings out west. That is its first 
obligation, to consolidate, so that there are fewer inholdings 
and, therefore, fewer restrictions on the owners of those 
inholdings.
    It must second, as a second priority, consider use of equal 
value land exchanges, so that in States with very large 
percentages of Federal landholdings, land exchanges can be used 
to acquire the properties that the Government prefers in its 
land packages.
    Third, it must use permanent conservation easements as an 
alternative, so that farmers and ranchers can grant easements, 
instead of outright sales of their property in this program.
    Fourth, it must prepare a list each year for Congress, 
identifying the lands that have been singled out as surplus 
lands that could be eligible for disposal. That has never been 
done before. Every year, we would get a list of Federal lands 
that the Government thinks it can dispose of, as it acquires 
other more desirable lands for the Nation's benefit.
    Fifth, it must site the statutory authority under which an 
acquisition is occurring, and explain why the track was 
proposed to be acquired, and notify everybody, all the Members 
of Congress, the Senators, the local governments, the land 
management folks, the city, town, village, county, and State 
officials in the area. Nothing, anymore, will be done by 
surprise. Everybody gets notice.
    No moneys could be used to acquire the land until all 
Federal review requirements, for example, like NEPA, are 
complete, and all environmental impact statements are done. So 
the Government is required, Mr. Chairman, to do exactly what 
private landowners have to do. It has got to do all the 
environmental reports and NEPA studies.
    Then it has to submit in a budget request to Congress a 
list identifying each track of land. The Administration must 
say which track of land is available from a willing seller, and 
which they want to acquire from an unwilling seller.
    It can not acquire it from an unwilling seller unless 
something very specific happens here in Congress. In other 
words, all sales are from willing sellers unless we act in a 
very specific way to acquire land from someone who does not 
want to sell. Congress has to act again. This is how that 
happens
    The acquisition of land from an unwilling seller must, 
first of all, be authorized by Congress. Congress must 
authorize and effect each condemnation, and it must authorize 
it in a corresponding appropriations bill and a funding bill. 
It must identify, in fact, each parcel of land acquired in such 
a fashion in the bill; not in the report language, but in the 
bill where we can all see it.
    The bill specifies that under the Fifth Amendment, 
compensation must be paid for any takings that occur. It 
specifies that nothing in this act creates any new Federal 
authority over lands not yet acquired, whether they are inside 
a boundary or outside a boundary. Even though they are proposed 
for acquisition, until they are actually acquired by the 
Government, there are no property rights, no restrictions on 
use of the property.
    As Mary mentioned to you, it provides a mechanism for the 
full funding of PILT, which is critical. The bill is designed 
also to address the $12 billion backlog in in-holders, who want 
to sell their in-holding properties to the Government. And it 
again provides that it must be done from willing sellers. 
Finally, it provides $200 million annually for the maintenance 
of Federal and Indian lands.
    Mr. Chairman, this is a huge package of property rights 
gains for folks in this country, when it comes to Federal 
acquisition. Current law does not have a willing Seller 
provision. It does not have all this notice. It does not have 
all the provisions I mentioned to you.
    These are all new gains for property rights, for property 
owners in America, under the Fifth Amendment, as we balance off 
their rights with this huge program, to make sure that the 
Government has the capacity in the Land and Water Acquisition 
Fund to continue acquiring for the benefit of future 
generations the properties that are critical in that 
acquisition program.
    It is a delicately balanced package, but it is an awfully 
good one. When the House votes for a bill three to one, you 
have got to figure, with Republicans and Democrats joining 
forces in the middle of an election year, there has got to be 
an awful lot of good in here.
    Thank you, Mr. Chairman.
    Senator Smith. Thank you very much, Congressman Tauzin.
    It is nice to see you, Congressman Chenoweth-Hage. Welcome, 
and we look forward to your testimony.

  STATEMENT OF HON. HELEN CHENOWETH-HAGE, U.S. REPRESENTATIVE 
                    FROM THE STATE OF IDAHO

    Ms. Chenoweth-Hage. Thank you, Senator Smith. I want to 
thank you very much for holding this hearing today, and 
allowing me to testify before your committee on the 
Conservation and Reinvestment Act.
    Mr. Chairman, I am fully aware of the support that has been 
amassed for CARA. But I strongly urge this committee and the 
Senate, in its deliberative nature, to pull the reins in on 
this very fast moving wagon, and to take a very long and hard 
look at what we are doing to America.
    This bill establishes a $40 billion mandatory fund over the 
next $15 years, billions of which will be given to the Federal 
Government and States, or tribes, or non-governmental 
organizations, non-profit organizations to purchase private 
property, forever taking lands out of the production and off 
the tax roles.
    Billions more will be at the control of the Secretary of 
Interior to fund everything under the sun, with little 
oversight by Congress; everything under the sun, including the 
listing of non-game species.
    Now if we think we have a headache with the Endangered 
Species Act and the listing of Endangered Species, wait until 
the Federal and State government partnership up in managing 
non-game species.
    This bill also establishes a permanent revenue source for 
non-governmental organizations to carry out their purposes; 
these same governmental organizations that have been active in 
political campaigns, too.
    Mr. Chairman, I only have a few minutes to speak on this 
issue. So I will cut to what I believe are the real central 
issues that Congress must consider in this legislation.
    First, while CARA is being established under the guise of 
environment and conservation protection, its true premise has 
more to do with who will own and control property and the use 
of property in the United States of America.
    When did we conclude that Government can manage the land 
more responsibly and efficiently than the private property 
owner; and when did we decide that it was the duty of the 
Government to consume and govern the use of private property?
    The truth is that a private property owner categorically 
does a better job of utilizing and conserving private property 
than does government.
    Government, by its very nature, is inefficient. When it 
comes to managing the land and water, one only needs to look at 
the recent debacle created by the Federal Government in the 
fires in New Mexico, and the $12 billion in maintenance and 
repairs in the National Park Service facilities, and the woeful 
state of our national forests, to prove this point that I am 
making.
    We need to invest money in the backlog of maintenance, and 
ask the Government to take care of the land that it already 
has.
    Second, Mr. Chairman, what we must look at is what kinds of 
precedents CARA will set in terms of additional mandatory trust 
funds, taken from the general revenue streams; consider what it 
will do to our fiscal priorities, such as paying down the 
national debt, shoring up Social Security, building up our 
national defenses, and providing needed tax relief. Every 
dollar set aside for CARA is a dollar taken away from these 
priorities.
    In fact, Mr. Chairman, when presented with the facts, other 
national priorities far outweigh CARA. In a recent national 
poll, by a margin of 72 to 13 percent, Americans rejected 
spending for CARA, when told that it will shift funds away from 
Social Security and debt reduction.
    Moreover, Americans on an eight to one margin said that we 
should address our maintenance needs first, before acquiring 
more lands. Finally, on a list of priorities, only 1 percent of 
Americans picked land acquisition as our most important 
priority.
    Mr. Chairman, I want to let the committee know that I have 
studied every single provision and every single word in this 
legislation, and have carefully considered how it will be 
interpreted.
    There is so much more to say. I hope that the members of 
this committee will probe into this issue with their questions.
    Mr. Chairman, there are a couple of things that I do want 
to address. One is the PILT payments. This bill does provide a 
provision for PILT payments. But the revenue for the PILT 
payments would be from interest acquired from money that the 
Secretary of Interior did not spend on a yearly basis.
    So in all reality, how many agencies of Government or how 
many Secretaries really have a lot of money left over in their 
accounts to acquire interest?
    Second, in the PILT payments, there is a provision in the 
bill that said the first priority must go to the National 
Wetlands Conservation Plan. That will be the first priority for 
those interest moneys that would be generated. It would not be 
to PILT.
    So second, I would like to address the protection of 
private properties that has been addressed here. Mr. Chairman, 
it does say that property should be acquired under the 
constitutional provisions. But there is a parenthetical clause 
that is often left out in the debate for the private property 
protections.
    That parenthetical clause in this bill states, ``unless 
under some other provision of law.'' So property can be 
acquired under another provision of law using moneys from CARA.
    The willing buyer/willing seller issue really is a very 
tragic situation in America. Because when the Government is the 
only buyer, you know, the seller is at the mercy of the Federal 
Government.
    Finally, I would like to say that in Title 7 of the 
Farmland Protection Program, it clearly states in here that the 
Secretary will provide matching grants to eligible entities. 
Now that can be anybody, by definition; anyone involved in 
conservation.
    I am reading from the bill. ``We will provide to eligible 
entities these grants described in Section D to facilitate the 
purchase of either permanent conservation easements, or other 
interests in lands, when the lands are subject to a pending 
offer from a State or local government.''
    They are primarily concerned about the conversion of 
cropland to less intensive uses than farming the cropland. So 
the last thing we need, Mr. Chairman, is to see our scarce 
farmland taken out of agricultural use.
    There is so much I would like to share with you about this. 
But I hear the bells going off, and I thank you very much.
    Senator Smith. Let me just say, there is about, I think, 6 
or 7 minutes left on approval of the journal vote, if you are 
interested. That is just as a courtesy, in case you want to go.
    Senator Inhofe has indicated that he had a question for 
you, Congress Tauzin.
    Senator Inhofe. Yes, I only have one question, if it is all 
right with the committee to pose that, in case they have to run 
off and approval the journal. For those on this panel who have 
not served on the House, they do not know what we are talking 
about.
    But my question is a very serious one, and I ask it of my 
friend, Billy Tauzin, because he and I, when he was a Democrat 
and I was a House member, he was my Chairman on the Merchant 
Marine and Fisheries Committee. We always got along famously, 
until now.
    Senator Boxer. Now that he is a Republican, you mean?
    [Laughter.]
    Mr. Tauzin. They called me a ``Transvesti-crat'' at one 
point or the other.
    [Laughter.]
    Senator Inhofe. I would like to ask a question that I think 
is rather serious, and I would like to have you give me a very 
serious answer, as you always do. It is a simple question.
    I represent Oklahoma, and you represent Louisiana. Under 
the distribution assist, Louisiana would get annually the 
distribution of $311,660,000 and Oklahoma would get 
$16,699,000.
    My question is this, if I were representing Louisiana 
instead of Oklahoma, I would enthusiastically support this 
bill. If you were representing Oklahoma and I were representing 
Louisiana, would you endorse and enthusiastically support this 
bill as much as you are now?
    Mr. Tauzin. Yes, sir, just as Louisiana supported the bill 
that allows Oklahoma a 50 percent share of all oil and gas 
revenues produced in Federal lands in Oklahoma, which you have 
been enjoying since the beginning of oil and gas production.
    You are getting $16 million with no coastline. You do not 
have any offshore lands. You are getting what we call in Cajun 
Country, ``lonopsha.'' You are getting money that you did not 
earn, because you do not have offshore lands.
    The reason you are getting it is because we agree with the 
Mineral Management Program, that it ought to be shared with 
States across America, and not just with the coastal production 
States.
    So let me say it again. I know my good friend Helen 
Chenoweth-Hage has made the case that this is money that will 
not go to certain areas.
    No one is arguing that we ought to repeal the statute that 
is providing Oklahomans with 50 percent of the oil, gas, 
royalties and payments and leases and bonuses from Federal 
lands located in Oklahoma. You get that every year. Louisiana 
voted for that and supports that.
    We are simply saying, fair is fair. We have Federal lands, 
too, in Louisiana, right off of our coast, but we do not get a 
dime from it. We have all those impacts, just as you, in 
Oklahoma, have impacts from the Federal lands located in your 
State, Senator.
    So fair is fair; in fact, you are being treated more than 
fairly, because you are getting some of our offshore 
production; $16 million more. I have looked at a map recently, 
and I do not remember Oklahoma having a coastline on the Gulf 
of Mexico. So I think it is an abundant fairness that we are 
sharing with all of the States, part of these revenues.
    Senator Inhofe. Well, I would only respond by saying, less 
than 5 percent of the land in Oklahoma is in the Federal 
category.
    Mr. Tauzin. Well, you are lucky. How would you like to be 
in Helen's State? How much is that, Helen?
    Ms. Chenoweth-Hage. It is 70 percent.
    Mr. Tauzin. That is 70 percent, but she collects $7.4 
billion in that 50 percent share, over those years. It is an 
amazing contribution from the Federal Treasury to their State, 
because of the amazing land ownership in their State.
    Ms. Chenoweth-Hage. We would be happy to give it back.
    Mr. Tauzin. I know you would not give it back.
    [Laughter.]
    Mr. Tauzin. All we are saying is, fair is fair. Let us have 
some sharing.
    Senator Bennett. Excuse me, Mr. Chairman, but the Federal 
Government owns two-thirds of the State of Utah. We would be 
delighted to have them give us that ownership and let us 
develop the land.
    I mean, come on, let us not misrepresent what Federal 
ownership is. It is not a great burden and a green bonanza and 
a great boon.
    Mr. Tauzin. Senator, I do not argue that. If I were 
representing a State where the Government owned 70 percent of 
my State, I would probably be sitting with Helen, complaining 
about it.
    I probably would have tried to get in this bill at least a 
no-net gain, which I think Montana got in negotiations on the 
House Floor.
    Yes, I do not like the idea of the Government owning so 
much property in our States. I really do not. I think that is 
why we have set as a priority, land swapping and consolidation 
of checkerboard land patterns.
    All I am saying is that where the Federal Government does 
own land in the interior States, and does have mineral 
production, the law gives you 50 percent of it. We are not 
sharing 50 percent of the offshore. It is not anywhere close to 
that. Mary had the number, 12 percent.
    Senator Bennett. Give me mineral production and I will be 
with you.
    Mr. Tauzin. Oh, of course.
    Senator Smith. Senator Boxer?
    Senator Boxer. Mr. Chairman, I just wanted to put into the 
record a poll that was done by the Luntz Research Companies. I 
think he is pretty much a Republican consultant.
    Mr. Tauzin. Very much so.
    Senator Boxer. He is very much a Republican consultant.
    It is very fascinating about people's views on this, and 
even in the west. These are his words. ``The not-so-wild west; 
the myth of too much public land does not hold, even in the 
western States.'' This is your Frank Luntz.
    The argument that ``there is already too much public land'' 
ranks fourth among four, in testing the most compelling 
negative arguments against this bill, with only 12 percent 
finding it most persuasive. The western mountain States 
residents vary only within the margin of error.
    I just find it very interesting that there is so much 
support across the country for this bill. Now I just want to 
maybe make the bill a little more exciting to my colleagues who 
do not like it.
    I think it goes too far. I mean, Billy, I think you have 
changed the private property rights to the point where, you 
know, I have some problems with it and Senator Bingaman has 
some problems with it.
    So I just want to make sure everyone understands that there 
are those of us on the other side. What they did over there in 
the House, I think, is a tremendous job of trying to deal with 
those people straight down the middle and say, those people who 
have the concerns added a lot of provisions here which, I think 
Representative Tauzin is very much responsible for.
    So I want to put this in the record, though, because I 
think it is very important.
    Senator Inhofe. Senator, let us reserve the right to 
object.
    Senator Boxer. To putting this in the record?
    Senator Inhofe. Yes, I am reserving the right. I would like 
to have you amend your request to have that poll, following by 
a poll that was taken by this month by the Vox-somebody 
Communications.
    Anyway, one of the questions was, in your opinion, do you 
think that the Federal Government should address maintenance 
needs first, or should it continue to purchase more land and 
create new parks? Eighty percent said to take care of 
maintenance first. So can have both of these polls in the 
record.
    Senator Boxer. Sure, well, let the record show that I am 
putting in the Luntz poll and you are putting in the whatever 
it is.
    [Laughter.]
    Senator Smith. Without objection, both polls will be placed 
in the record.
    [The referenced documents follow:]
    Senator Bennett. Does that mean it is a tie?
    [Laughter.]
    Mr. Tauzin. Senator, I would like to elaborate just a 
second on what you said. I do not know if you noticed, but the 
two furthest extreme positions on this bill, one represented by 
the National Defense Fund, the Sierra Club, and Green Peace; 
and the other represented by the most vocal of the property 
rights groups out west, both oppose the bill.
    But an awful lot of environmental people are supporting it, 
and an awful lot of property rights people are supporting it. 
It is not going to please the very ends of the spectrum.
    But try to pass a bill through here that does. It is 
artfully balanced, and that is the best that we can do. I think 
if you can improve on it, with more property rights, sir, I 
would love you to do so.
    If you can not, because Barbara will not let you, I 
understand. We have the same problem in the House.
    Senator Boxer. They have never paid attention to me before, 
anyway. Do not worry about that.
    [Laughter.]
    Senator Inhofe. For clarification, is that true? I was not 
aware that the Sierra Club, Green Peace, and all that were in 
opposition to this bill.
    Mr. Tauzin. Yes, that is right.
    Senator Boxer. Yes, it is true.
    Mr. Tauzin. That ought to give you some comfort, Senator.
    [Laughter.]
    Senator Inhofe. Well, you know, maybe my ratings will go 
up.
    [Laughter.]
    Senator Smith. I am told there are at least maybe one or 
two other Congressmen coming. We are going to have to shut this 
down soon, to go to other witnesses. But I know Senator Crapo 
came in late, and Senator Lautenberg. Do either of you have a 
question of either of these witnesses?
    Senator Crapo. Mr. Chairman, I think Frank was here first.
    Senator Lautenberg. Mr. Chairman, I have a statement, which 
I would like to enter into the record. I have no questions for 
them. I look forward to hearing from the panel.
    Senator Smith. Your statement will be made part of the 
record.
    Senator Smith. Senator Crapo?
    Senator Crapo. Mr. Chairman, if I could enter my statement 
as a part of the record, I would just ask one question of 
Representative Chenoweth.
    Representative Chenoweth, one of the big issues out in 
Idaho is the financial impact on the counties. I was not here, 
and I am sorry, I was not able to get here on time because we 
had a press conference with Taiwan, who was just announcing a 
big purchase of wheat from Idaho, so I apologize that I missed 
your testimony. But I have reviewed it and, of course, am very 
familiar with your positions.
    I wondered if you could explain to us a little bit more 
about the impact that we were concerned about with regard to 
the PILT funding, and the financial impact on the counties that 
this bill could cause.
    Senator Chenoweth-Hage. Well, Senator, the bill ostensibly 
deals with PILT, but not really. PILT funds would be generated 
only from interest accumulated from money left over that had 
not been expended by the Secretary each year.
    Now what Secretary has a lot of money left in his fund to 
generate interest? It just does not happen; not in this town. 
So the PILT funds really will not be there in the manner that 
they have been promised.
    Second, there is a priority in the bill that the PILT money 
or the interest money would go to the Wetlands Conservation 
Plan first, and then to PILT. But the bottom line is, the 
revenue stream would only be from interest accumulated.
    So with the large amount of Federal lands in Idaho and most 
of our western States, the impact of the accumulation of more 
land under Federal control and the shrinking of the tax base in 
our counties that are already on their knees is very, very 
devastating.
    As you know, Senator, in our State, some of our schools are 
only holding classes 4 days a week, because they can not afford 
to stay open 5 days a week. That is how bad off some of our 
counties are, and this would further harm them, and harm 
schools and necessary services.
    Senator Crapo. Thank you very much.
    Mr. Tauzin. Senator, if I can, let me give you the 
mechanism by which it works. The bill provides that as the 
moneys accumulate in the Treasury and with the Secretary, all 
this money that will be used for acquisition, they are going to 
be investing in interest. It will earn substantial interest.
    The bill provides that that money is then used as a match 
to the appropriated funds for PILT. We annually appropriate to 
PILT, but we only appropriate about 50 percent, as you know. We 
have not done our job, frankly, in Congress in fully funding 
PILT over the years.
    This bill would provide a 50 percent match to the 
appropriated funds of the Congress. So, hopefully, if the 
Congress appropriates again at its 50 percent level or better, 
we will fully fund that.
    Senator Crapo. Billy, what would stop Congress from then 
simply saying, well, we see what is available in the fund, so 
we will just reduce what we are going to appropriate, so we 
have what we have.
    Mr. Tauzin. If Congress does not appropriate, there is no 
match.
    Senator Crapo. But if they could calculate that 
mathematically and say, well, this is the amount we would have 
appropriated, and we have got this money over here, so we will 
mathematically adjust that, and end up where we would be.
    Mr. Tauzin. ``They'' is us. We could do that.
    Senator Crapo. Well, that is right. That is one of my 
concerns, that we have been fighting the PILT battle for a long 
time, and it is a big issue.
    Mr. Tauzin. I understand, Senator. What I am saying is, we 
provided a mechanism that if Congress will continue to fund at 
least 50 percent of PILT, the other 50 percent is matched. It 
is our hope, our intent that Congress continues to do that.
    I will support you, and we will all support you in the 
efforts to ensure that the appropriations bills continue to 
appropriate at least that percentage. That gets you to 
approximate full funding, which is what we all want.
    Senator Crapo. Well, I appreciate your support. I know that 
you have been a strong advocate on that. But you can see the 
concern that I have with a Congress that wants to save money, 
which this Congress wants to do. They could mathematically 
simply adjust the appropriation to take advantage of the fund 
without increasing the PILT funding.
    Thank you, Mr. Chairman.
    Senator Smith. Does anyone else have a question?
    Go ahead, Senator Bennett.
    Senator Bennett. I have just a quick comment. I would 
appreciate a response.
    I suppose I am tainted by the fact that I am an 
appropriator, along with Senator Lautenberg and, for awhile, 
Senator Boxer. But she found religion and move on someplace 
else.
    [Laughter.]
    Senator Bennett. I am troubled with the idea of setting up 
yet another trust fund with a dedicated source of revenue for 
that trust fund.
    That trend throughout the government, after a while, 
bothers me, because if we end up with a Government of a series 
of trust funds, dedicated revenue for dedicated purposes, we 
ultimately destroy the power of the Congress to allocate 
resources where they are most needed.
    This is not a pure analogy, but it goes back to Senator 
Boxer's State. Someone, and Senator Boxer can tell us who it 
was, in Marin County left an estate for the purpose of support 
for the arts.
    Now there is not anybody in this Congress more determined 
to support the arts than I am. I have taken heat back home for 
support for the National Endowment for the Arts. A lot of 
people think I am supporting pornography. I disagree with them, 
but that is a separate issue.
    That particular fund has grown to the point where an 
argument could be made that the money could be used some place 
else, and the arts could still fully be supported in Marin 
County.
    In Marin County, California, they have virtually anything 
they want, because there is, what is it, Barbara, $1 billion in 
that particular endowment? It is something of that kind. I 
mean, we do not need the details.
    Senator Boxer. I just want to make one quick correction, 
since I live there. This estate was really for a number of 
uses. She did not just leave it for the arts. She included the 
arts.
    Senator Bennett. OK.
    Senator Boxer. So it is a little better than that, because 
she did say to help the impoverished, et cetera. So there were 
other things.
    Senator Bennett. All right, but we find ourselves with a 
worthwhile goal that is tied to a specific funding source. The 
funding source may not be solid, or it may be excessive. The 
appropriators are denied the right to make the kinds of 
adjustments that we make everywhere else.
    Now we have the airport airways trust fund. I was partially 
responsible for creating that, because I was in the Nixon 
Administration at the Department of Transportation, when that 
came about. It was my responsibility to sell it to the 
Congress.
    We have the Highway Trust Fund. We have the Social Security 
Trust Fund. We have a number of trust funds. We are creating or 
supplementing or tying a source of revenue to another trust 
fund, and creating interest cubicles, if you will, throughout 
the Government, for a particular purpose, a particular goal, 
and ultimately distorting the appropriations process, 
distorting the authorization process.
    Now I am taking no position in this comment about whether 
or not the purposes of this bill are good purposes or bad 
purposes. I happen to believe that the National Park System, 
for example, is seriously under funded.
    I sat on the Energy Committee, with Senator Wallace, and 
said we were not going fund any more a single acre addition to 
the National Park Service, no matter how meritorious, until we 
start funding the maintenance of the National Parks to the 
degree that they deserve to be funded.
    This is from a man who is considered somewhat to the right 
of Attila the Hun, by some people, but I think he was 
absolutely right. We keep acquiring land, and then we do not 
pay to take care of it. We do not pay to fund the Park Service 
as we keep adding acres and acres. It is real nifty to have a 
national park in your State, but who is going to take care of 
the expenses of a national park?
    So it is this overall question of the legitimacy of the 
mechanism created in this bill that I want to address that 
should we do it or should we not do it; should we do this in 
this way?
    Does anybody have a comment on that?
    Mr. Tauzin. Yes, I can give you the results of that same 
poll.
    Mr. Bennett. May I make this comment? I do not want to 
legislate by polls.
    Mr. Tauzin. I understand.
    Senator Bennett. And I do not want an Easterner, even if he 
is solidly in my position in politics, coming out in the West 
and asking a question. Because I can control the results of the 
poll by controlling the wording of the question, and I can give 
you examples of that. I am sorry that I get passionate about 
this, but I do not want to legislate by polls.
    Mr. Tauzin. I do not want you to do that, either.
    Senator Bennett. OK.
    Mr. Tauzin. But it already a part of your record. I thought 
you ought to have the figures, if you want to look at them.
    What it says is that the extremely popular Airport Trust 
Fund was matched up against the extremely popular Highway Trust 
Fund, against this proposal, to trust fund moneys for land and 
water acquisition. Land and water acquisition topped them 45 
percent, 37 to 7. I understand your feeling about polls.
    Mr. Bennett. You are missing the point. Do we want 
Government by trust funds? Regardless of how popular they may 
be, is that a logical way to run the Government?
    Mr. Tauzin. Let me try to answer that. What I wanted to say 
is that we have done that, because indeed the moneys collected 
for airports, we felt as a Congress, should go to airports. We 
felt the money collected for highways should go to highways.
    The moneys collected from these offshore funds was 
dedicated, parts of it were, a long time ago, but it had never 
been used for the purposes intended, for land and water 
acquisition. That is a dedication that Congress made, years and 
years ago.
    Just as we collected money for highways and did not spend 
it on highways, and for airports and did not spend it on 
airports, we corrected that. Now we corrected it with trust 
funding, to make sure that future Congresses did not do what 
past Congresses have done with this offshore money; and that 
is, just stuck it in the general fund and spent it for other 
purposes, other than the purposes it was originally intended 
and dedicated to by Congress, which was land and water 
acquisition.
    Mr. Bennett. I do not mean to be argumentative, but I am 
questioning the whole concept of dedicating source money that 
comes from one source to a source that is only vaguely related, 
if in fact not unrelated.
    Mr. Tauzin. Oh, but it is related.
    Mr. Bennett. Money from the Highway Trust Fund to go to 
repair highways; money from gasoline taxes to repair highways 
is very, very clearly a user fee; and that, I have no problem 
with.
    Mr. Tauzin. Yes.
    Mr. Bennett. Money from the airport airways, where you take 
it from the people who are flying to pay for the airports that 
they are in, in the FAA system, I have no problem with that. 
But when you get to the point where you say, what does oil and 
gas revenue have to do with PILT?
    Mr. Tauzin. I think that is a good question. Let me try to 
answer it. It has a lot to do with it.
    Senator Smith. We will make this the last question, because 
we can debate this somewhere else.
    Mr. Bennett. I apologize.
    Senator Smith. That is OK.
    Senator Bennett. I will try to do it quickly.
    Senator Smith. I want to get to Congressman Shadegg, and we 
do have two more panels.
    Mr. Tauzin. Senator, I invite you to come, whenever you 
would like to, and I would love to entertain you in Louisiana, 
and show you what it has to do with what we go through.
    The pipelines and the canals that service the offshore 
industry that product this $120 billion for the National 
Treasury, all those pipelines have permitted salt water to 
intrude. As I said, we have lost the size of the State of Rhode 
Island, over these years, and we are going to lose a lot more.
    The production of minerals on Federal lands impacts State 
revenues for counties. It impacts the loss of wetlands in our 
State. There is a direct relationship between the moneys 
derived from the people of this country in royalties and 
payments and leases, and the impacts we feel in land and water 
preservation and conservation in both our State and across 
America.
    It has a direct impact to PILT, because it denies the local 
people the revenues they need to operate their schools. This is 
directly connected, and it is as connected as any highway fund 
or airport fund, sir.
    Senator Boxer. Mr. Chairman, could I correct the record on 
something? I think it is important. My good friend, Senator 
Bennett, has an ideological issue with trust funds, which is 
another debate, I think.
    But I wanted to agree with him that we do need to take care 
of lands we already have. I wanted to point out that in CARA, 
there is $200 million a year set aside for Federal and Indian 
land restoration. There is $100 million set aside for historic 
preservation. So when you see some of these beautiful sites in 
your State and mine that are falling apart, we would have that.
    There is $125 million for urban parks, to get in there and 
take down the fences that are around some of these parks. So 
there is money in here to take care of some of the problems we 
are facing. I just wanted to make that point.
    Mr. Bennett. No, I understand that, Senator. My point is, I 
am not arguing, at this point, about the goals of the spending 
side of the legislation, or of the validity of gathering the 
money. I am just wondering how logical a link it is. I have 
exceeded my time, and I apologize for that.
    Senator Smith. There is no apology necessary.
    We do have three more Members of Congress. We had set aside 
a period of 9:30 and 10:30 to do this. It is now 10:30.
    But let me just say to the three Congressmen who have just 
arrived that your statements are made a part of the record. If 
you could summarize in 2 or 3 minutes, we would appreciate it. 
I will just take you in the order you came in.
    Congressman Shadegg of Arizona, welcome.

 STATEMENT OF HON. JOHN SHADEGG, U.S. REPRESENTATIVE FROM THE 
                        STATE OF ARIZONA

    Mr. Shadegg. Thank you, Mr. Chairman. I thank you for the 
opportunity to appear here before you today. I will try to 
summarize in 3 minutes. I will certainly appreciate the 
opportunity to insert my entire statement in the record.
    Let me begin by saying, I agree with Senator Bennett, that 
the goals of this legislation are well intended. I fully 
support the goals of the legislation.
    I want to also begin by saying that I think the authors are 
very, very skilled legislators, and that they put together a 
classic political coalition that is stitched together, district 
by District, with support in the House; and stitched across the 
Nation together, with support across the country.
    But I think Senator Bennett said it well just a moment ago. 
Our duty is not to legislate by polls. Indeed, Edmund Burke 
made it very clear that our duty is to exercise our independent 
judgment on the merits of legislation.
    In that regard, I urge that your committee closely 
scrutinize the merits of this legislation and, in particular, 
the issue that Senator Bennett just raised, which is what is 
the proper structure for achieving these goals.
    Let me begin with some points about the legislation itself. 
The supporters of the legislation will acknowledge that its 
sets aside $450 million a year to acquire new Federal lands; 
that is to buy more Federal land, year in and year out, $450 
million.
    I suggest that one serious flaw with that point is that it 
does not distinguish where that land should be acquired. My 
State of Arizona is already 87 percent owned by one level of 
government or another.
    The last thing we need in Arizona is to buy more Federal 
land, taking it off of the tax roles, increasing the tax burden 
on those who already own private property. So I think that is a 
serious flaw.
    Indeed, in Arizona, there is one county that is mostly 
owned by the Federal Government, and 97 percent of that county 
is owned by the Federal Government. They have to support the 
county government on a tax base of 3 percent of the land.
    The proponents of the bill will defend this by saying, 
well, that was the average amount; $450 million was the average 
amount spent over the last 5 years since the Republican 
majority in the U.S. Congress. So that was a correct number to 
pick.
    You can quibble with the number, because there was a 
particular high issue, but that is not the point I want to 
make. This has been five extremely good economic years.
    If we pick those five extremely good economic years and 
say, well, that has been the average for five tremendously 
strong economic years, let us make it the average in 
perpetuity, forever and ever, and let us not make it the 
average. Let us put it on auto-pilot. Let us turn the switch so 
that every year, good year or bad year, year in, year out, we 
spend $450 million to acquire more Federal land.
    I believe that makes no sense. I would ask the members of 
the panel, which among you believes that the economy is going 
to stay as strong forever in the future as it has been for the 
last 5 years. I suggest no one believes that.
    Yet, this legislation would lock in, in entitlement, $450 
million a year to buy new Federal land, even if the economy 
took a serious dip.
    The second point I want to raise is the one that was just 
raised over here by one of the Senators in regard to the 
maintenance backlog. She pointed out that there is money in 
CARA for maintenance, and that is true. That is a good point. 
But let us look at the real facts and figures.
    The reality is that for every dollar in CARA to maintain 
land that we already own, there is $2.50 to buy new Federal 
land. That means that we are buying $2.50 worth of new Federal 
land for ever dollar of maintenance that we do.
    They will tell us, well, never in the past have we locked 
in money for maintenance. I happen to agree with the comments 
that were made earlier.
    Our national parks, I think, are in dire shape. The Grand 
Canyon National Park is in my State. There are several others, 
and it is a disaster. We have not built new roads. We have not 
built a parking lot at the Grand Canyon National Park since I 
visited it when I was 13. I am here to tell you that was a long 
time ago.
    I believe the priorities in this bill with regard to 
maintenance are simply backward. If you pass legislation to 
achieve these goals, I would strongly urge you to put a greater 
emphasis on maintenance. You can go visit any park in America, 
and you can see a desperate and crying need for maintenance.
    The next to the last point that I want to make is the whole 
structure of entitlement. We are here for a reason. We have a 
duty to exercise our judgment, and to make discretionary 
decisions about where money ought to go.
    This bill creates a new entitlement. In doing so, it puts 
money ahead of every other priority. Who in this room would say 
that $450 million every year, automatically spent on acquiring 
more Federal land is more important than education?
    Who in this room would say that doing that every year, even 
in a bad economy, is more important than national defense? Who 
is this room would say that doing that every year, even in a 
bad economy; forget the past 5 years of good economy, but we 
should do it automatically in a terrible depression year, ahead 
of health care?
    I suggest no one in this room believes that the acquisition 
of more Federal land, when the Federal Government already owns 
roughly a third of the land in the country, should be placed 
ahead of education, ahead of national defense, ahead of health 
care, and ahead of care for the indigent and the needy.
    Yet, this bill does that. It creates an automatic pilot. It 
puts it in entitlement status. I think that is a serious flaw 
with the mechanism and, again, I agree with the goals of the 
author.
    The last point I want to make is that you will hear much 
about the support for this legislation. You will hear that 
Governors support it, mayors support it, city council members 
support it, Parks Department members support it, hunters 
support it, fishermen support it, and no doubt they will say 
many, many others. That is true.
    It is a tribute to the skill of its authors that they 
stitch together a bill that achieves those goals. But I would 
simply ask you to look closely at why those people support it, 
and to recognize the difference between your role in the 
process and their role in the process.
    Governors support it because it gives money to States. 
Mayors support it because of the point that was just made about 
being able to buy new park land in their cities.
    Parks Departments love it for that reason. Hunters love it 
because it does some very good things for hunting, and I am an 
avid hunter and a fisherman, and believe in it. All of those 
constituencies support it, but they are looking just at their 
little piece of the pie; their little stream of income that 
becomes an entitlement, and comes to them every year to spend.
    I think every one of us here would like to have more money 
to spend each year, just funneled to us. It is our job to look 
at the omnibus legislation to look at the whole picture, and to 
decide if this is the right way to spend these moneys.
    I appreciate the time.
    Senator Smith. Thank you very much, Congressman Shadegg.
    Next is Congressman Don Young, an old colleague and friend, 
and Chairman of the Houses Resources Committee.
    Mr. Young. Mr. Chairman, with your prerogative and with my 
prerogative, I would like to let Mr. Miller go first. I would 
like to bat clean-up, if that is all right.
    [Laughter.]
    Senator Smith. All right, fair enough, if he does not use 
up all the time, we will let you come back.
    Mr. Miller. It is a strange relationship that we have, it 
is trust and verify, and he wants to go last.
    [Laughter.]

 STATEMENT OF HON. GEORGE MILLER, U.S. REPRESENTATIVE FROM THE 
                        STATE OF ARIZONA

    Mr. Miller. Mr. Chairman and members of the committee, 
thank you very much for providing this opportunity for us to 
testify.
    I think we have sent to the Senate a magnificent piece of 
legislation. When we started out on this journey, Chairman 
Young and Senator Murkowski and Senator Landrieu introduced a 
bill called the Conservation Reinvestment Act.
    Senator Boxer and I introduced Resources 2000. Nearly 
everyone said that these bills were too big, too expensive, and 
too far reaching. When we said we would try to merge the bills 
and everyone said it was impossible, Don Young and George 
Miller together, we did it.
    When they said we would never get it out of the Resources 
Committee, we did it with a three to one bipartisan vote.
    They said that we would never get the national coalition of 
parks and wildlife, the soccer enthusiasts, and that we would 
not get the hunters and the fishermen, together with the 
traditional environmental groups, and we would not get the 
hikers and the State and local officials together, and sports 
teams and manufactures, but we did.
    Over 4,000 organizations supported us. Why; because they 
understand that this is the first opportunity to develop an 
environmental infrastructure that so many of our communities 
and many suburban communities are struggling with because of 
the incredible growth in those communities.
    They said that we would never get a schedule on the House 
Floor, and there was too much ideological opposition, too many 
budget questions, too many jurisdictional fights between 
committees. But 3 weeks ago, 315 members of the House, a 
majority of both parties, proved all of the doubters wrong.
    We delivered to the American people on a promise we made to 
them 36 years ago, and then forgot; a permanent substantial 
commitment to invest a portion of offshore revenues back into 
our parks, our coast, our urban recreation and our wildlife.
    Despite the inflamed rhetoric that you will hear from a 
tiny minority of voices, we did it responsibly, without 
trampling on private property rights or States' rights. In 
fact, our legislation takes special care to protect property 
owners by giving them notice and ensuring that all are involved 
in the process and focusing on alternatives to acquisition, and 
putting most of the money, about 80 percent of it, in the hands 
of State and local officials, and not in the hands of those 
promoting State land acquisition.
    Now the responsibility is yours. You can listen to the 
rhetoric and the naysayers and the doubters, and try to kill 
this legislation, or you can listen to the 80 percent of this 
country that puts a very high value on parks, recreation, and 
the conservation of wildlife.
    Or you can do as we do in the House; you can look at the 
bill and what it really says, not how it is characterized, 
listen to your constituents, not to the hysterical voices and 
the misstatements on the intent of the letter of the 
legislation, and put aside the party and ideological 
jurisdictional differences long enough to do something that 
will endure longer than any of us.
    If Don Young and George Miller can figure out how to work 
together to pass CARA with 315 votes, I believe the U.S. Senate 
can figure it out, also.
    When a number of us were down to the White House a few 
weeks ago, with Senators Murkowski, Landrieu, Breaux, Bingaman, 
and Boxer; and Congressman Young, Congressman Tauzin, John 
Dingle, and Congressman John, the President told us, and 
everyone in that room agreed, it would be shameful if we failed 
to pass this bill, having brought it so far. He was right, and 
the American people overwhelming agree with this.
    So let us figure out how to get it done. Our resources, 
whether on the coast of Louisiana or the wildlife or the parks 
or the soccer teams or any others who will benefit, are at 
risk. We do not have years to delay. We have been waiting three 
decades. The time is now to redeem the promise that we made the 
American people.
    Senator Smith. Thank you very much, Congressman Miller.
    We welcome Representative Young, Chairman of the House 
Resources Committee.

STATEMENT OF HON. DON YOUNG, U.S. REPRESENTATIVE FROM THE STATE 
                           OF ALASKA

    Mr. Young. Thank you, Mr. Chairman.
    I would like to thank the committee for having this 
hearing. I also would suggest what Mr. Miller has said ought to 
be done, along with Mr. Tauzin, we ought to move this bill.
    I have been very reluctant to get involved on the Senate 
side, because I know you have your own way of doing things, and 
I understand that. I have two Senators over here, and I talk to 
them continuously. One of them happens to be a sponsor of this 
legislation.
    I would like to just address the issue of financing, No. 1. 
This Congress, and I collectively say the Senate and the House, 
owe the American people approximately $15 billion, because we 
have not spent the money on the original Land and Water 
Conservation Act, itself. We spent it on programs, very 
frankly, that we collect that money for, and it was not to be 
spent for.
    I suggest, respectfully, those that say this is going to 
break the bank are not looking at the past history. I would 
suggest if you really want to do this, just take the $15 
billion, apply it to CARA as it is. That gives about 6 years, 
under the present funding program. If it is not working out and 
it is not correct, then we can revisit it.
    We keep forgetting that every Congress is here temporarily. 
Of all the naysayers that testified before this committee and 
the other committees, if what they say comes true, we can 
always change it. In fact, the people will demand it.
    Right now, the people are demanding the passage of CARA. 
Now it seems strange, you may think, that a person who has a 
100 percent private property rights record would be supporting 
this bill, because I truly believe this bill better supports, 
better protects the private property rights people. The money 
is there. It should be spent.
    For those that say that this should not be done, I would 
suggest, we did not draw this bill up according to polls. If 
you look at our society today, it is changing. It is changing 
dramatically.
    We have a large organized area. When I first came here, Mr. 
Chairman, we had approximately 7.5 percent of our population 
that was in rural areas. Today, it is 1.5. There is a demand 
for space. There is a demand for hunting and fishing and 
recreation areas. There is a demand for historical 
preservation. There is a demand for conservation easements. 
There is a demand for the purchase of land.
    But nothing says we are going to spend $480 million a year 
to purchase land. This is a collective effort to try to solve, 
I think, a very serious problem, as it comes down to this 
Nation and this year 2000 and beyond.
    I am a person who believes very strongly that the Congress 
speaks for the people. There are 4,755 organizations that 
support this legislation from all walks of life. These are the 
people. It is not by a poll. This is the people that are asking 
us to do this.
    My job is to encourage you to do it. I am not going to tell 
you how to do it or where to do it or when to do it. We all 
know there will be differences. I expect to be on the 
conference. I expect this to be done, and I hope to have your 
help, Mr. Chairman, because it think it is truthfully 
important.
    I think the biggest disappointment is, we can have 
differences of opinion on the House side on ideology and 
philosophy of how this Nation should be run. But I have never 
done anything by a poll or have done anything by the will or 
the whim, or by how the wind blows. I have done during my whole 
career, all my 28 years, what I believe is correct.
    I have that respect, and I do believe everybody should 
respect my opinions, and I respect theirs; but never question 
the integrity of this legislation, because it was well thought 
out, put forth. We included everyone. We had the discussion, 
and I believe we achieved that goal.
    By the way, if you extracted the appropriators from the 
legislation, we would have probably had 140-some odd Members of 
the Congress on our side of the aisle. There was a majority.
    It is a minority that was opposing this. It is a minority 
in the full House. It is a minority in my party. I do not think 
you necessarily always have to listen to the minority. Let us 
listen to the people of America.
    Thank you, Mr. Chairman, for having this hearing.
    Senator Smith. Thank you very much, Congressman Young.
    Unless someone has a pressing question, I would prefer to 
let the Congressmen and women leave, and bring the next panel 
up. But Senator Graham and Senator Lieberman, you did come in 
after they came, and if you have a question, I would be happy 
to yield for that.
    Senator Lieberman. No, thank you.
    Senator Inhofe. Mr. Chairman, before they leave, I have one 
observation that I have made, and I have enjoyed listening to 
the presentations.
    But of the estimated yearly CARA funding distribution, it 
comes to a total of $2.8 billion. Of the four States that 
comprise almost half of that, three of those States, we have 
heard from in this testimony.
    Again, you were not here when Representative Tauzin was 
here, but I would have had to ask the same question here. Would 
you enthusiastically support this the same if you were in a 
State like Oklahoma, that would get $16.6 million, as opposed 
to $380 million?
    Mr. Young. I would, absolutely. This is the right thing to 
do, and that is more money that you are getting with this than 
you are getting right now.
    Mr. Miller. We have always thought the Senate would take a 
close look at that.
    Senator Inhofe. Well, that is not quite true, Don, when you 
consider the money that otherwise would be going into the 
general fund for other purposes.
    Senator Smith. Thank you very much. I am going to take only 
a 3-minute recess, while C Clark comes up.
    [Recess.]
    Senator Smith. The committee will come to order.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Mr. Chairman, if I might, rather than to go 
through a rather lengthy statement, most of my points have 
already been made. I would like to enter my statement into the 
record, and at the same time, associate myself with the 
testimony of Ms. Chenoweth and Representative Shadegg.
    I think particularly Representative Shadegg had some points 
that I think are very significant, and I agreed with everything 
that he said. I want the record to reflect that.
    Senator Smith. Thank you, Senator Inhofe. Your statement 
will be made part of the record. I also would ask unanimous 
consent for a statement from Senator Warner to be added to the 
record in support of S. 2123.
    Senator Smith. Senator Graham?
    Senator Graham. Mr. Chairman, I would like to also ask to 
submit for the record a statement. At some point, I would like 
to talk about the issue of the appropriateness of using a trust 
fund model for the purposes of this legislation. It will be 
based on the experience of my and other States in similar long-
term land acquisition programs.
    Senator Smith. Thank you, Senator Graham, we will certainly 
have that opportunity.
    Senator Lieberman?

        OPENING STATEMENT OF HON. JOSEPH I. LIEBERMAN, 
           U.S. SENATOR FROM THE STATE OF CONNECTICUT

    Senator Lieberman. Thanks, Mr. Chairman, I, too, would like 
to enter an opening statement into the record. I would just 
briefly say that it is that we are at a moment of extraordinary 
and, I suppose in some sense, unexpected opportunity. It is 
very important to try to blend or work together to actually get 
something done here in the Senate.
    There is a great sense of expectation and hopefulness in 
States like my own, which are effected by development that want 
very much to acquire and preserve open spaces and wildlife 
areas.
    While our State last year actually adopted a open space and 
watershed land grant program, with the goal of preserving 21 
percent of the State as open space, the money that would come 
to Connecticut, smaller though it may be than what will go to 
the larger States, it nonetheless would have a significant 
impact.
    So I look forward to working with you and other members of 
the committee and the Energy Committee to see that we get this 
done, and do it in the right way. Thank you.
    Senator Smith. Thank you, Senator Lieberman.
    Senator Boxer, go ahead.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
      U.S. SENATOR FROM THE STATE OF CALIFORNIA--CONTINUED

    Senator Boxer. Thank you. I did speak briefly. I would ask 
unanimous consent to place my full statement in the record. I 
would like to speak for about a minute.
    To me, this is that moment in history that we can do 
something across party lines. I was very heartened by the vote 
in the House, to see that coming together around this notion, 
that we need to have a legacy for our lands.
    There are many bills here on the Senate side. Senator 
Bingaman was unable to be here because of a markup. I just 
wanted to make sure that I mentioned the good things in Senator 
Bingaman's bill that I hope any bill will have in the end. 
Because to me, whatever bill it is, it is unimportant; whatever 
name is on it is unimportant.
    To me, the important thing is, one, we have substantial and 
permanent funding for conservation purposes; that we ensure the 
funds are used to benefit the environment; that we give 
adequate guidance to direct the funds to the most pressing 
needs; and that the bill be free of any incentives for offshore 
oil and gas drilling. I think that would be a mistake. This is 
a conservation bill, and not an incentives for drilling bill.
    I think that Jeff Bingaman's bill, 2181, which is supported 
by Senators Baucus and myself and, I am not sure, but I think 
Senator Lieberman is on that bill, but it has some 
distinguishing characteristics that are worth highlighting in a 
few seconds here.
    One, it includes an incentive program for landowners who 
contribute to the recovery of threatened and endangered 
species. Increased outreach to landowners, I think, is 
desperately needed for the continued survival of many 
endangered species.
    Like some other bills, it provides funding to State fish 
and wildlife agencies for wildlife protection. But it does 
require that the States do a strategic plan for using these 
funds.
    This ensures that funds will be used for non-game and game 
species, alike. The funds will be directed to the species that 
have the greatest conservation needs. That is the Bingaman 
bill.
    It also provides greater clarity to coastal States to 
ensure that the funds will be used for the environment. 
Finally, it includes safeguards to ensure that the bill in no 
way creates incentives for that drilling that I talked about. I 
hope that we can work those elements of the Bingaman bill into 
the CARA bill.
    My last point is, again, I wanted to reiterate that it was 
my intention to hold the House bill at the desk. But it moved 
so quickly that I did not have a chance to do that.
    So what I did was to take the House bill, word for word, 
and as I said before, it should be some comfort to Senators 
Inhofe and Crapo and others, I do have some problems with it. 
But I think it is a wonderful starting place for us.
    We have introduced that as a bill, and we have put it on 
the Senate calendar. So if we get trapped and stuck, and if no 
committee can get a bill out, Senator Lott, who supports the 
CARA bill, can just put it right there on the Floor. So that is 
why I did that, as a little strategic move to make sure that we 
can get this done.
    So with that, Mr. Chairman, I really want to thank you, 
because I know that you did not have to have this hearing. You 
did this because a lot of us urged you to. I appreciate it very 
much.
    Senator Smith. Thank you, Senator Boxer, and of course, 
your statement will be made a part of the record.
    As you can see from the hearing, we did get all sides heard 
here, which was the objective.
    Senator Boxer. Yes.
    Senator Smith. We still have the Honorable Jamie Clark, as 
well as another panel following.
    Before I introduce the Director of the U.S. Fish and 
Wildlife Service, I just wanted to announce that this hearing 
is the first EPW hearing to be simulcast on the Worldwide Web.
    Senator Boxer. Oh, great.
    Senator Smith. So it will be maintained for future viewing 
on the committee web site. For those that are interested, it is 
www.senate.gov/epw. So we are in the modern world.
    Senator Boxer. Yes, we are.
    Senator Smith. Director Clark, it is great to have you 
here. You know the drill here. Your statement will be made part 
of the record. If you could summarize it briefly, we would 
appreciate it.

STATEMENT OF HON. JAMIE CLARK, DIRECTOR, U.S. FISH AND WILDLIFE 
                            SERVICE

    Ms. Clark. Thank you, Mr. Chairman. I do appreciate the 
opportunity to present the Administration's views on S. 25, 
2123, and 2181, each of which provides permanent funding for 
conservation programs from outer continental shelf oil and gas 
receipts.
    The President does feel strongly that this is the year to 
secure permanent funding for State, tribal, and community 
efforts to protect wildlife and local green spaces, to 
reinforce Federal efforts to save natural and historic 
treasures, and to expand efforts at all levels to protect ocean 
and coastal resources. These bills all seek to accomplish this.
    The Administration has several broad goals for the final 
version of this legislation. We believe it must ensure that new 
funding is devoted to purposes consistent with the conservation 
goals of this legislation; that new funding for wildlife 
protection be targeted primarily for at risk and non-game 
species; and that an appropriate oversight role be secured for 
the Department of Commerce.
    We also strongly recommend that the bill not establish new 
incentives for offshore exploration or development, and that it 
not impose burdensome or unnecessary restrictions on Federal 
authority to acquire and protect lands.
    There is a tremendous degree of common ground between the 
Administration's objectives and the bills pending before the 
committee, and the Administration is fully committed to working 
with you to achieve these goals.
    The Fish and Wildlife Service, as you know, is involved in 
a number of programs that these bills address. The first is a 
coastal impact aide program found in differing forms in both 
bills.
    There are extensive coastal responsibilities in both the 
Department of Interior and the Department of Commerce. Our own 
coastal programs and activities are detailed in my formal 
statement.
    We urge you to provide for a shared role by the two 
departments in this, as the most effective way to assure 
coordination and to avoid duplication and waste.
    In contrast to the divergence on coastal programs, the 
bills have virtually identical provisions from matching grants 
to the States for wildlife conservation, and we seek only a few 
changes.
    Both bills require an ``emphasis'' on non-game species, and 
``emphasis'' is in quotes. We feel strongly that there should 
be greater direction that the funds be used for at-risk, non-
game species.
    These grants, particularly if focused as we request, can be 
an invaluable tool to help prevent species from declining to 
the point where they would need listing under the Endangered 
Species Act.
    Apart from Pittman-Robertson and Dingle-Johnson Acts, which 
are focused on game species, virtually all Federal programs 
have been devoted toward species that are already in serious 
trouble.
    Funding of the magnitude proposed in these bills could have 
tremendous benefits for the Nation's at-risk non-game wildlife 
species. We urge the committee to aggressively pursue enactment 
of this wildlife grant program, and hope that we can work with 
you to set its proper focus.
    We are also very concerned about funds for administering 
the program. S. 2123 provides 2 percent of available funds for 
administration of the other programs it authorizes, while 
prohibiting any administrative funds for the non-game wildlife 
grants.
    S. 2181 makes 2 percents of the funds available for 
administration. The program will surely fail without 
appropriate oversight and administration, and we need a 
permanent and adequate source of funding for administration if 
we are truly to make it work effectively.
    We are pleased to see that 2123 provides for the interest 
generated on the funds set aside for non-game grants to be made 
available for the North American Wetlands Conservation Act.
    As this committee well knows, this is one of the most 
successful and population conservation programs in the country, 
and demands for grant moneys with matching funds far exceeds 
the Federal funds available to make the grants each year. So 
any funding that can be made available for this incredibly 
successful program will be effectively and efficiently used.
    Both bills provide funds for cooperative Endangered Species 
recovery agreements, which is one of the most exciting concepts 
within the legislation, and would be of tremendous value in 
furthering our species recovery efforts.
    Recovery, like all natural resources conservation, can not 
succeed as a totally Governmental effort. The current demand 
for landowner incentive grants to support species recovery 
initiatives far exceeds available funding. Guaranteed funding 
is probably the single most effective action that Congress 
could take to speed recovery for listed species across this 
country.
    Last, we have refuge revenue sharing. S. 2123 provides 
funding to pay a portion of the costs of the refuge revenue 
sharing and payment in lieu of taxes programs, while S. 2181 
provides funding only for PILT.
    Currently, counties are receiving less than 60 percent of 
their refuge revenue sharing entitlement. We, therefore, 
welcome any additional sources of funds for this program, and 
would hope that the committee would address this in the final 
version of the legislation.
    Mr. Chairman, the Administration does, indeed, look forward 
to working with this committee and the rest of the Senate to 
build on the bipartisan spirit shown by the House, and to find 
a way to do what the public clearly wants us to do; to leave a 
legacy of financial resources adequate to protect our Nation's 
national treasures.
    This is truly an opportunity, in the words of Theodore 
Roosevelt, to leave an even better land for our descendants 
than it is for us.
    I would be happy to respond to any questions. Thank you.
    Senator Smith. Thank you very much, Director Clark.
    Right on the point of the refuge revenue sharing, in your 
opinion, in S. 2123, is the revenue provided or the funding 
provided in that bill adequate to address the needs of all the 
communities across America that may have a refuge within their 
borders?
    Ms. Clark. Well, it is clear that it provides a portion. I 
am not sure that it provides for the full entitlement, but the 
opportunity is certainly there, with a little bit of tweaking, 
that we would be glad to work with you on.
    Senator Smith. But the Administration is supportive of 
spending money on this program; is that correct?
    Ms. Clark. Yes, it is.
    Senator Smith. As you know, last year, when GAO testified 
before the House Resources Committee, they had some rather 
harsh words for the Pittman-Robertson program. I think the 
exact term was, the program was being administered in a manner 
that ``spawned a culture of permissive spending.'' That is one 
of the reasons why S. 2123 does not permit administrative funds 
to be used for the Pittman-Robertson program.
    What changes have been made in this program to rectify 
these problems?
    Ms. Clark. We have been in the midst of making a number of 
changes, Mr. Chairman. Clearly, we heard loud and clear from 
the Congress about their concerns about administration of this 
program, and from the GAO, as well, although we still await 
their final report.
    The Fish and Wildlife Service also, along with a lot of 
support from our State partners, conducted a fairly extensive 
oversight review of the Federal aid program across this 
country. Indeed, we also dealt with some internal evaluations, 
dealing with how the dollars are accounted for, what the 
appropriate oversight of our own program is, how we are going 
to resolve audits.
    We are in the midst of shoring up that program as we speak. 
Rather than going to a lengthy report, I would be glad for the 
record to demonstrate the distance we have come.
    Certainly, the reaction in this legislation should not be, 
in any negative way, aimed at compromising our ability to do 
our part to shore up natural resources.
    Senator Smith. On that, for the record, unless you want to 
respond to it here, I just want to make sure that you indicate 
how the Fish and Wildlife Service would administer this 
program, if the funds are not authorized to administer the 
additional revenue, if you could provide that for the record. 
In view of the fact that GAO was critical, I think it is 
important to clarify that.
    Ms. Clark. I would be happy to.
    Senator Smith. Senator Boxer?
    Senator Boxer. I do not have any questions.
    Senator Smith. Senator Crapo?
    Senator Crapo. Thank you, Mr. Chairman.
    Jamie, I appreciated your comments and your testimony about 
the impact of PILT legislation or the lack of PILT funding and 
other resources for the counties. I just wanted to pursue that 
with you a little bit.
    As you indicated, the counties are now seeing, especially 
in rural areas that are heavily impacted by Federal ownership 
of land, dramatic losses of resources, as we see the timber 
revenues shrink up and other resources shrink. As a result of 
that, needed funds for our rural education programs and some of 
the other critical programs that the counties operate are going 
unmet.
    It is a constant battle here in Congress to get the 
adequate funding for those support programs, even though it is 
properly the Federal Government's responsibility to make up for 
those loss of funds.
    Do I take it from your testimony that the Administration 
would support some effort in this legislation to not only 
address that, but address it in a way that makes the solution 
permanent, like some of the solutions that are in the bill 
already are permanent, with regard to dedicating resources to 
other purposes?
    In other words, can we assure the counties, not that there 
is a match if the Congress decides to do it in the right way, 
but assure the counties that there will be adequate PILT 
funding, or similar types of funding, for county support?
    Ms. Clark. Well, Senator, every time you say PILT, I am 
going to put ``refuge revenue sharing'' on the end, because I 
am certainly concerned about the refuge system.
    Senator Crapo. Fair enough.
    Ms. Clark. But clearly, we have been exploring for a number 
of years ways to respond to the counties and ways to reimburse, 
so to speak, the counties from refuge revenue sharing. The 
Administration is absolutely prepared to work within the 
confines of this legislation to provide the level of certainly 
that we believe is important.
    Senator Crapo. So the Administration would not oppose 
trying to put some kind of certainty, in terms of that funding, 
into this legislation?
    Ms. Clark. No.
    Senator Crapo. Let me move to a another area. One of the 
issues that has come up quite often is the issue of maintenance 
of our currently owned public lands and facilities.
    From what I understand, the maintenance backlog is in the 
billions of dollars. I have seen numbers that range from $12 to 
$20 billion, in terms of maintenance needs across the country. 
First of all, are those numbers in the ballpark? Do we have 
that large a maintenance need in the country?
    Ms. Clark. There is a very substantial maintenance need 
within the land agencies. Within the Fish and Wildlife Service, 
it is about $800 million, of the backlog of maintenance needs 
for the National Wildlife Refuge System.
    So I would imagine when you add the Park Service and the 
Bureau of Land Management and the U.S. Forest Service, that it 
is pretty substantial.
    Senator Crapo. It is a substantial amount.
    In that context, I can tell you from our experience in 
Idaho, that the maintenance needs are crying for some type of a 
solution. That also has an impact on the local counties, and 
the economies of these counties that depend on the tourism and 
the recreation and the other activities that are related to the 
use of the public lands.
    Again, in that context, I would like to have your opinion 
on whether we should not seek, as we address this overall 
issue, to apply a larger portion of the resources we have to 
maintenance, and to dedicate them to that objective.
    Ms. Clark. Well, that is certainly an issue worthy of 
discussion, as we look at the balance of targeted resources 
within this bill. The Administration would be glad to engage 
that.
    We have been in this conversation with the Appropriations 
Committees in both the House and Senate for a number of years, 
and they have been very thoughtful and very generous about that 
support. But it is certainly worth discussion.
    Senator Crapo. All right, thank you. I have no further 
questions at this time, Mr. Chairman.
    Senator Smith. Thank you, Senator Crapo.
    Senator Baucus?
    Senator Baucus. Thank you, Mr. Chairman.
    Ms. Clark, I would like to discuss with you a provision in 
the House bill, Section 211, which is a Montana-specific 
provision. It was introduced by Congressman Hill from Montana. 
I would like to have just your thoughts about it and how well 
it would work or not work.
    Clearly, we do not want excessive Federal ownership. 
Nobody, I think, does. On the other hand, we also do not want 
to discourage transactions that have broad public support.
    The provision in the House bill essentially says that with 
respect to Montana only and no other State, that an exchange or 
an acquisition must be designed to ensure that there is no 
increase in total acreage of Federal lands in Montana, that is 
above de minimis.
    I do know that in many cases, there are land exchanges 
where acreage is not totally one-for-one. That is, acreage on 
the one hand might be large, but the value of that acreage 
might perhaps in the dollar value per acre is much less than 
the dollar value of acreage that might be exchanged, or there 
may be some cash involved in the land exchange.
    I mention all of this because in Montana, we have had great 
success lately, as you know very well, having been part of 
this, with land exchanges.
    The whole purpose of this is to consolidate private 
ownership, and to consolidate Federal ownership to try to undo 
the problem that was created years ago with checkerboard 
Federal ownership patterns, caused by Congress in passing 
legislation to give incentives to railroads, for example.
    It went to private Federal land and just caused tremendous 
management problems, both for the Federal Government, for the 
Forest Service and BLM, and for private ownership, whether it 
is timberlands or recreational land or whatnot.
    So I am concerned about this provision. I just wondered, 
from your perspective, how you see that working, and just 
basically what your view is of that provision in the bill.
    Ms. Clark. Sure, Senator, well, I share your concerns. 
First, the notion of consolidation of Federal ownership is 
something that the Fish and Wildlife Service and, I imagine, my 
colleagues, are already focusing on. So that provision is, in 
reality, unnecessary.
    The notion of consolidating Federal land ownerships is 
important to us, not only from an efficiency and effectiveness 
of management standpoint, but to shore up the biological 
integrity of these lands that we are entrusted to protect for 
the future.
    The de minimis requirement, I believe, is somewhat counter-
productive for a lot of the reasons that you just laid out. You 
are right, when we are engaged in some of these really creative 
land exchanges, it is not a one-for-one.
    Oftentimes, what you are exchanging in one area, whether we 
are shoring up biological value or land costs or intended use 
of the area, it is not at a one-to-one.
    So this notion of de minimis, I think, could seriously not 
only limit options, but it could seriously affect the 
biological integrity or the intentions of some of these 
exchange opportunities. But it also could compromise, in a 
negative way, the flexibility of the people of the State of 
Montana.
    Senator Baucus. You know, obviously, we do not want, as I 
mentioned earlier, excessive Federal ownership. But it is just 
my experience, frankly, at least in Montana, for example, the 
purpose of the Royal Teton Ranch to help wildlife migration 
patterns, north of Yellowstone Park.
    Ms. Clark. Absolutely.
    Senator Baucus. This is very, very important to the elk 
herd and the other wildlife in Yellowstone Park.
    But also other consolidations have been fully vented to the 
public. I mean, there are untold hearings. It just seems to me 
that we do not want an artificial constraint that is going to 
prevent the public from accomplishing some result that seems to 
the public to make sense.
    Ms. Clark. Well, I certainly do not think you want do 
compromise public involvement. Equally and importantly, you do 
not want to compromise flexibility or opportunities to 
ultimately get the best deal for all involved parties.
    This amendment could compromise any kind of creativity and 
flexibility that would be gained in any kind of open forum, 
anyway.
    Senator Baucus. Thank you very much. I want to thank you 
for your good work, too. You have been a real credit to the 
Administration and to the people of the United States.
    Ms. Clark. Thank you.
    Senator Smith. Thank you, Senator Baucus.
    Senator Graham?
    Senator Graham. Thank you, Mr. Chairman, and thank you for 
holding this hearing. I would like to make a couple of 
preliminary comments.
    I put this legislation in the context of history; history 
looking backward and historic challenges looking forward. It is 
interesting to me, as we start the third century of the history 
of the United States, that we have an opportunity, analogous to 
that which was presented to us at the beginning of the first 
and the second century.
    In the first century, during the Administration of Thomas 
Jefferson in 1802, we purchased Louisiana. It doubled the size 
of the United States. It made the United States a continental, 
rather than an Atlantic nation.
    It prevented North America from being the site of colonial 
wars among competing European interests. It was a bold, 
visionary and, at the time, a very expensive undertaking. But 
clearly, it was a great gift to the future of the Nation.
    At the beginning of the second century, Theodore Roosevelt 
added to the treasury of the public lands of the United States 
an area that was the equivalent of all of the States from Maine 
to Florida; again, a great gift, which has benefited our 
Nation.
    As we start the 21st century, we have a national population 
of approximately 270 million to 275 million people. The Census 
Bureau projects that by the beginning of the fourth century of 
America's existence, we will have a population of 571 million 
people.
    So our challenge is what are we going to do, similar the 
actions of Thomas Jefferson and Theodore Roosevelt to be 
prepared for not only that substantially larger number of 
Americans that has been indicated, but a number of Americans 
who will be even more urban.
    They will also be older, and they will be more diverse than 
the Americans today and, therefore, will have a wider range of 
interests and desires to be able to participate in the outdoor 
experience that this legislation intends to make more 
available.
    So I think we are talking about a piece of legislation that 
is not the normal work that we do, but is really of historic 
significance.
    Second, there have been discussions about whether it is 
appropriate to use a trust fund model for this. I will say from 
my own experience as a State legislator and then Governor of a 
State which had a very expansive land acquisition program, it 
was our finding that unless you had a dedicated source that 
could be depended upon, and which people had confidence in, 
that a land program tended to become an annual fight within the 
political entities as to who could get on the train that was 
leaving town that day, because there was no confidence that 
there was going to be another train leaving on the following 
day.
    One of the benefits of having an assured source of funding 
is not only the adequacy of the funds, but the fact that it 
allows you to do intelligent planning and the establishment of 
priorities.
    People who may look at that list and say, I am on the 
priority list but I am 5 years downstream, will have enough 
confidence that the program will exist 5 years from now that 
they will be willing to defer their aspirations until their 
time has come.
    So I think this funding mechanism is critical to 
accomplishing the very objectives for which we are establishing 
this program.
    Let me turn to the question that you were just discussing. 
That is the issue of the accumulated maintenance requirements 
on Federal lands.
    Does the Department of Interior, in the various areas in 
which it is a steward of Federal land, have a strategy for 
beginning to deal with this accumulated backlog of maintenance, 
and how does this legislation integrate with that strategy; and 
would you recommend any modifications in this legislation in 
order to more effectively impact that backlog of maintenance?
    Ms. Clark. Clearly, Senator, the Administration has taken 
very seriously the need to protect what we have. Indeed, the 
Department of Interior does, in fact, have a strategy to 
address the maintenance backlog on our lands.
    We have dealt with it in 5 year intervals. This is 
something that we can grab on to, with a primary focus on 
health and safety, safe visits, safe passage, and then 
following focus on resource priorities needs, and on and on.
    So, certainly, for the Fish and Wildlife Service, we have a 
very documented, strategic plan to address the backlog of 
maintenance needs in the national wildlife refuse system.
    I believe that this legislation, along with the initiations 
already under way within the Department, could compliment each 
other in a very positive way. It is so important that we take 
care of what we have.
    The initiatives in these bills before the Senate and the 
work that is already ongoing in the department could very 
significantly leverage and compliment each other. We look 
forward to that discussion.
    Senator Graham. Well, my time is up. But I recognize this 
committee's principle jurisdiction on this matter is in your 
agency, and that other areas of the Department of Interior, 
such as the national parks, are in other committees.
    But I would be interested in getting some further materials 
on what the strategic plan is, and your thoughts about how this 
legislation might be part of actually achieving that strategic 
plan, and if that suggests any modifications in this 
legislation.
    Ms. Clark. Certainly, I would be glad to.
    Senator Graham. If you could do that for your agency, and 
if you could mention to Mr. Stanton and some of the other 
folks, that we would like a similar analysis for their areas of 
responsibility.
    Ms. Clark. I will pass the word.
    Senator Smith. Thank you, Senator Graham.
    Senator Crapo, do you have any further questions?
    Senator Crapo. I have no questions, Mr. Chairman.
    Senator Smith. Senator Boxer, do you have any further 
questions for the witness?
    Senator Boxer. I just might have one. Why is it important 
to provide the funding for the non-game wildlife?
    Ms. Clark. For a number of reasons; we have a very 
successful program, the Pittman-Robertson program, that focuses 
on game species, and rightfully so, as the income for that 
program is derived from excise tax, derived from hunting and 
hunters. The States have been incredibly successful at 
maintaining and supporting populations of game species, over 
the years.
    We all know about the Endangered Species Act, and what 
happens when it is at the end of the track, and the serious 
investment that comes with trying to recover a species from the 
brink of extinction, when they have already kind of gotten in 
the bottom of the emergency room.
    What we have in between is the vast majority of species, 
the non-game species, for which the American public is 
increasingly putting focus on, with bird watching, nature 
photography, and on and on, as you know.
    At-risk species, migratory bird species is a concern; 
candidate species, species that are tumbling toward the 
Endangered Species list; declining species within State 
boundaries, sensitive species that are on other Federal 
agencies list.
    I certainly believe that they deserve dedicated focus. I 
believe that the public deserves that they deserve dedicated 
focus. It is far more efficient, far more effective. We have so 
significantly much more flexibility if we can plan and address 
the needs of those species, before they are sitting on my desk 
in a red folder, putting them on the Endangered Species List.
    Senator Boxer. So it is prevention, in way?
    Ms. Clark. Absolutely, it is prevention and sustaining a 
really rich biological heritage for this country.
    Senator Boxer. Thank you very much, Jamie.
    Senator Smith. Senator Graham, did you have any followup, 
second round?
    Senator Graham. Mr. Chairman, I think I have covered the 
principle issue that I wanted with Mr. Clark. I am looking 
forward to her followup materials.
    Senator Smith. Thank you.
    Thank you, Director Clark. We appreciate it very much.
    We will now turn to the third panel. I will introduce them, 
in the interest of time, as they come to the table: Mr. David 
Waller, the President of the International Association of Fish 
and Wildlife Agencies, accompanied by Mr. Wayne Vetter, the 
Executive Director of the New Hampshire Fish and Game 
Department; Ms. Rindy O'Brien, Vice President of Policy of the 
Wilderness Society; Mr. Rodger Schlickeisen, President, 
Defenders of Wildlife; Mr. Mike Hardiman, American Land Rights 
Association; Mr. Charlie Niebling, Policy Director, Society for 
the Protection of New Hampshire Forests; and Dr. Rollin 
Sparrowe, President, Wildlife Management Institute.
    Ladies and gentlemen, welcome to all of you. In the 
interests of time, if you could summarize your statements in 2 
or 3 minutes, we would appreciate it. Your statement will be 
made a part of the record.
    I will just start from left to right here, and start with 
you, Dr. Sparrowe.

STATEMENT OF ROLLIN D. SPARROWE, PRESIDENT, WILDLIFE MANAGEMENT 
                           INSTITUTE

    Mr. Sparrowe. Thank you, Mr. Chairman.
    We at the Wildlife Management Institute are pleased to lend 
our strong support for a consolidated approach to legislation 
reflected in the three pending Senate bills.
    This is an issue on which people have been working for a 
long, long time, and I want to offer some historical 
perspective that you may not have.
    Way back in 1973, a model non-game law proposal was 
presented by Winchester Arms, with assistance from our 
institute. In 1975, our institute worked with the Council on 
Environmental Quality to do an assessment nationally of the 
needs for non-game work by the States.
    There was an early desire in this to see non-hunters and 
fisherman share in the cost of conservation. The legitimate 
needs surfaced in these early studies are some of what has 
driven us through legislative attempts such as the 1989 Fish 
and Wildlife Conservation Act, which was not funded by the 
Congress.
    So the needs are still there, and a lot of people have been 
working on this, including the sporting community, for a long 
time.
    Our agencies are beset with increasing responsibilities for 
things like environmental reviews, the fall-out from public 
furor over what to be done with wildlife inhabitants on public 
lands, as well as the private lands within States. This has 
become a significant burden limiting the abilities of agencies 
to keep up.
    As an example, just across my desk yesterday, the State of 
Montana's annual report shows license revenues at 64 percent, 
and Federal aid at 22 percent of their entire budget. Yet, they 
have to deal with an array of declining species. There is no 
buffer for the periodic ups and downs in this kind of funding 
that comes to the States. So the need is there, and it is very 
critical.
    We feel very strongly that such new funding would 
strengthen the existing fish and wildlife agencies with habit 
responsibilities for fish and wildlife. They have the 
authority. This would keep that activity in their hands, where 
it belongs.
    It would add more habitat accessible to tradition uses, 
like hunting and fishing as a dividend from broader 
conservation. It would widely expand the public involvement now 
in guiding and supporting these agencies.
    I want to differ a bit from some of the testimony you have 
heard. The Pittman-Robertson program has no limitation and 
never has on focus on game species. It was a natural focus, 
because those game species, in 1937, were essentially the 
Endangered Species in North America.
    When we started the teaming with wildlife activity here 
about a decade ago, a survey of States showed that almost 40 
percent of the money going into non-game and Endangered Species 
programs in the State wildlife agencies was coming directly 
from licensed revenues, from hunting and fishing, or from the 
Federal aid existing programs. So they have supported a good 
bit of the non-game work that has been done.
    We feel very strongly that a management function with 
stable funding in the agencies has to compliment any national 
effort for land protection and land preservation, because in 
order to get the benefits from this, we certainly think there 
has to be active management in the long term of these wildlife 
resources.
    So our common message is that the need is clear and well 
documented. There is a model in the existing Federal aid 
programs that is very good, that we can buildupon. We want to 
see the authority for these things kept with our States.
    I have just a couple of final points. The vision of this, 
from the beginning, back as early as 1973, was to fund work on 
non-game species. That remains the vision of most of the people 
who support this legislation.
    I think there is an equal interest on the part of the 
hunters and anglers of America in the Land and Water 
Conservation Fund. This was not something hatched by modern 
environmental groups, many of whom did not exist when Land and 
Water came forward.
    In fact, the Isaak Walton League supported this initially, 
and it was hunters and anglers that pushed for that fund, and 
were its supporters in its earlier days, and remains so. We all 
have a stake in many parts of this legislation.
    Thank you, Mr. Chairman.
    Senator Smith. Thank you very much, Dr. Sparrowe.
    Mr. Niebling, welcome.

STATEMENT OF CHARLIE NIEBLING, POLICY DIRECTOR, SOCIETY FOR THE 
              PROTECTION OF NEW HAMPSHIRE FORESTS

    Mr. Niebling. Thank you, Mr. Chairman.
    Founded in 1901, the Society for the Protection of New 
Hampshire Forests is a non-profit membership organization, 
dedicated to the wise use of our natural resources, in their 
complete protection and places of special environmental or 
scenic importance.
    We are also private landowners. We own and manage 33,000 
acres of productive woodlands, which I believe makes us unique 
among State-based conservation organizations.
    Just last week, Mr. Chairman, the New Hampshire legislature 
passed and funded a new program called the Land and Community 
Heritage Investment Program. The Forest Society led a coalition 
known as Citizens for New Hampshire Land and Community 
Heritage, involving 120 farm and forest landowners, business, 
civil, tourism, recreation, wildlife, historic preservation, 
and land conservation organizations, over a 2-year period, to 
secure passage of this landmark legislation.
    This same coalition has also formally and actively lobbied 
for the CARA bill, since 1999. For the record, we support 
passage of the CARA bill, S. 2123.
    There are elements of the Conservation and Stewardship Act, 
S. 2181, that we support and would like to see incorporated 
into 2123. There are elements of the recently passed H.R. 701, 
the House version of CARA, that merit serious consideration by 
this committee.
    While there are many important provisions within 2183, one 
important accomplishment is the restoration of full and 
dedicated funding for LWCF. We are particularly supportive of 
the significant dedicated funding for LWCF. We are particularly 
supportive of the significant dedicated funding allocated to 
the stateside program of land and water.
    With the recent passage of our State Conservation Bill, 
which also has a matching funding requirement, New Hampshire 
communities are ready, willing, and able to take advantage of 
stateside land and water funding.
    This legislation would be improved, however, by 
modifications embodied in S. 2181. In particular, Senator 
Bingaman's bill would first, create an additional, more 
flexible fund, which is capable of addressing important State-
led projects of local, regional, or national significance, 
which exceed the capacity of the traditionally administered 
stateside program.
    Second, it would encourage the private, public partnership 
embodied in the Forest Legacy Program and the Farmland 
Protection Program. This provides a critically important tool 
by allocating funds to purchase conservation easements from 
willing sellers, thereby keeping our most productive forest and 
farmlands in private ownership.
    I want to briefly address each of these provisions. First, 
flexible funding, Title II of S. 2123 reauthorizes Federal and 
stateside programs of LWCF. Both are highly successful 
programs, serving critical needs, and both deserve full and 
permanent funding.
    However, LWCF currently does not provide funding for larger 
State or local projects of regional and national importance 
that exceed the capacity of the stateside program. In addition, 
States with little Federal land, or with small populations, 
such as New Hampshire, do not have access to significant 
Federal funding.
    Many Senators and others have expressed concerns that the 
distribution of funds under Title I, the Coastal Impact 
Assistance, is unfair and disproportionately benefits a few 
States.
    A way to rectify this is to modify the formula and utilize 
some of these funds in a competitively bid, flexible fund to 
which all regions of the country, with well documented 
conservation needs, that exceed the stateside formula, will 
have equal access.
    S. 2181 does this by adding a new Section 14 to the Land 
and Water Conservation Fund Act, creating a fund known as the 
Non-Federal Lands of Regional or National Interest Fund. H.R. 
701 accomplishes the same, under Section 206 of Title II.
    Many States, most notably New Hampshire, are looking for 
ways to protect important working forests and ecologically or 
recreationally important lands, without creating or expanding 
Federal units. Supporting alternatives to new Federal ownership 
promotes local control and partnerships that respect local 
values and priorities. We hope the consensus Senate bill will 
include this flexible funding provision.
    Second is the Forest Legacy and Farmland Protection 
Programs. New Hampshire has a long history of using 
conservation easements to permanently protect land from 
development, while retaining private ownership and control. Our 
State has utilized legacy funds to protect thousands of acres 
of productive, managed woodlands.
    For example, there is much current interest in our State to 
buy a conservation easement on 171,000 acres of productive 
timberlands owned by a large corporate timberland owner. The 
owner is a willing party to these discussions.
    A legacy easement will keep these lands in private 
ownership, keep them contributing to the tax base in the local 
economy, and will protect both the economically important uses, 
such as timber production, hunting, and snowmobiling, and 
ecologically important features of the land.
    Under Title VII, S. 2123 authorizes a conservation easement 
program. Yet, it is unclear how this program relates to 
existing Federal easement programs, such as Legacy or the 
Farmland Protection Program.
    Title VIII of S. 2181 addresses this by specifically 
authorizing funding for Forest Legacy, the Farmland Protection 
Program, and a new program called the Ranch Land Protection 
Fund.
    H.R. 701, as passed by the House on May 11, includes 
language that we support, allowing qualified, non-profit 
organizations to hold easements under these programs. We hope 
the Senate will work to reconcile these slightly varying 
approaches.
    Let me just speak briefly to the issue of PILT, if I may, 
Mr. Chairman. If the Federal Government is going to continue to 
acquire lands, it must fully fund its authorized payment in 
lieu of tax and refuge revenue sharing obligations.
    Maintaining fiscal relationships with local governments is 
as important an aspect of Federal land stewardship as is the 
responsible management of the land.
    As you know, Senator Smith, the Federal Governments pays 
about 46 percent of the authorized PILT payments on lands of 
the White Mount National Forest. This is a source of much 
tension between our rural northern communities and the U.S. 
Forest Service.
    To summarize, Mr. Chairman, we strongly urge you to use 
this hearing and other means to communicate with the leadership 
of the Senate and the Energy and Natural Resources Committee to 
insist the differences be bridged and sound conservation 
legislation be enacted this year.
    There are considerable hurdles, budgetary and otherwise, 
yet to overcome. Like you, however, we recognize that recent 
passage of H.R. 701 in the House provides us with a rare 
opportunity to pass significant legislation.
    The House vote is an indication of a broad cross section of 
Americans speaking loudly in support of CARA. Their message, to 
paraphrase the American Express commercial is, do not leave for 
home without it.
    With that, Mr. Chairman, I will conclude my testimony. 
Thank you.
    Senator Smith. Thank you, Mr. Niebling.
    Mr. Hardiman?

  STATEMENT OF MIKE HARDIMAN, AMERICAN LAND RIGHTS ASSOCIATION

    Mr. Hardiman. Thank you, Mr. Chairman, for inviting the 
American Land Rights Association to testify today.
    I am inholder of private property located in California 
that is surrounded by the Bureau of Land Management. I 
purchased the parcel 11 years ago, anticipating that access to 
government-owned land would continue to be cutoff by the Desert 
Protection Act and other laws.
    That prediction has certainly held true. I use the property 
for recreational purposes, such as camping, and as a base camp 
for rock climbing and hiking.
    On a per capita basis. S. 2123 is a remarkable cash cow for 
two States, Louisiana and Alaska. Louisiana Benefits $71 per 
capita, more than six times the average, and Alaska rakes in 
$266 per capita annually or 24 times what the average State 
receive.
    These two States may have legitimate claims to the funds. 
However, I implore the Senate to avoid the creation of a $45 
billion, 15 year land acquisition trust fund, as part of a 
political deal to satisfy those claims. It will provide the 
power and money for Government agents to kick people like me 
off my land.
    Over-zealous regulators, joined by environmental pressure 
groups, both have a front row seat on the CARA grant money 
gravy train. They will make folly of the ``willing seller'' 
clause by harassing owners of properties targeted for 
acquisition, and discouraging other potential buyers. It is not 
possible to negotiate as a ``willing seller'' when Government 
is the only buyer.
    Every owner of a ranch, woodlot, or game preserve will be 
at risk of being targeted by Government agencies, working in 
tandem with environmental, anti-hunting, and animal rights 
pressure groups.
    Ironically, since they hold the most desirable properties, 
private landowners who have been the most diligent caretakers 
of their holdings will be on top of the land grab list for 
government takeover.
    The umbrella group that is coordinating the campaign in 
support of CARA is an outfit called Americans for Heritage and 
Recreation.
    Proudly displayed on their web site are their Guiding 
Principles, which include this statement regarding property 
rights protections. ``AHR adamantly opposes any restrictions on 
the Land and Water Conservation Fund, especially those that 
limit acquisition to Federal inholdings or adjacent lands, 
employ arbitrary geographic restrictions on the use of funds, 
require new authorizations, or prevent condemnation.''
    The differences between S. 25, introduced early in 1999, 
and S. 2123, introduced early this year, kowtow to AHR's 
demands. I will quote here a transcript of Senator Murkowski, 
discussing land acquisition on Alaska Public Radio on May 9, 
just 2 weeks ago.
    Murkowski: ``This is the Senate Bill 25. It has to be 
within units established by an act of Congress. It has to be 
two thirds of the money spent east of the 100th meridian, which 
is primarily east of the Mississippi, and the purchases of over 
$5 million require Congressional approval. So we have got some 
safeguards in here that are responsible.''
    Caller: ``Is the Senator willing to filibuster if those 
property protections are stripped out?''
    Murkowski: ``Well, I would be happy to respond to the 
caller, based on what kind of a debate we get in, and whether 
this bill ultimately moves or not.''
    Those protections are, in fact, not included in S. 2123. 
Furthermore, in accordance with AHR's wishes, amendments to 
prohibit use of CARA funds for condemnation of private 
property, outside of the Federal side of LWCF, which is only 
one-sixth of the total, were rejected by the bill's sponsors, 
both in committee and on the Floor on the House side.
    There are some hoops that the Government is required to 
jump through on the Federal side of Title II, which is the Land 
and Water Conservation Fund, but those in S. 2123 apply to only 
$450 million out of nearly $3 billion per year that is 
disbursed.
    S. 2123, and its companion legislation, H.R. 701 is a 
fraud. It is a political sell-out of landowners, in exchange 
for huge piles of cash for Louisiana and Alaska. In per capital 
terms, nickels and dimes are handed out to other States to buy 
them off. It is a tragic and unprecedented attack on private 
property ownership in the United States.
    Attached to my testimony are additional statements opposing 
CARA from several other organizations, the Gun Owners of 
America, Citizens Against Government Waste, the Sixty-Plus 
Senior Association and others.
    Thank you for the opportunity to testify today, Mr. 
Chairman.
    Senator Smith. Thank you, very much, Mr. Hardiman.
    Mr. Schlickeisen?

   STATEMENT OF RODGER SCHLICKEISEN, PRESIDENT, DEFENDERS OF 
                            WILDLIFE

    Mr. Schlickeisen. Thank you. I guess I have been placed 
here to give a contrary view. I guess I can do that.
    Mr. Hardiman. I am outnumbered seven to one, today.
    Mr. Schlickeisen. I am here representing the Defenders of 
Wildlife, Mr. Chairman. I am happy to submit our testimony for 
the record. It is also representing testimony of a number of 
other members of our fairly sizable environmental coalition, 
supporting this general legislation before you.
    All of these bills have in common the very laudable goal of 
rescuing the funding principle and promise that was enacted 
into law in 1964, when the Land and Water Conservation Fund was 
created as a kind of quid pro quo for expanded drilling in the 
outer continental shelf.
    As a number of people, including Senator Landrieu, for 
example, and Representative Young, have commented that 
principle and promise was to use the royalties generated by 
exploitation of non-renewable oil and gas to provide permanent 
protection for other natural resources.
    That said, while the bills have that in common, I would 
like to use my few minutes here to focus on a handful of 
serious flaws in the legislation. I will focus primarily on S. 
2123, the likely mark-up vehicle, I assume. These are flaws 
that we think require correction before any law is signed into 
being.
    We think that all of the components necessary for an 
excellent piece of legislation are present in the various bills 
that are before this committee, or otherwise offered. What is 
necessary is to combine them in a way that maximizes the 
conservation benefits.
    Looking first at Title I of S. 2123, I will not dwell on 
this, but our coalition has been very concerned about the 
incentives that are in S. 2123 for additional drilling, 
especially off the coast of Alaska.
    I will not dwell on it, Mr. Chairman, because 
Representative Young promised the President that he would take 
those incentives out. Indeed, he and Representative Miller did 
take them out, when the bill came to the House Floor. So those 
incentives are not in the legislation now, for all practical 
purposes.
    A second problem, though, with Title I has to do with the 
usage of the funds. We are very concerned, in this case, that 
there is a great potential here to violate the basic 
conservation principle of the bill.
    That is that if you look closely at the legislation, while 
there are a number of good environmental uses that are 
possible, it is also possible that the seven OCS states could 
spend approximately $730 million on infrastructure, 
environmentally destructive projects, such as making additional 
roads and additional piers, and what have you.
    We do not think that was the purpose of the legislation. We 
encourage you to look at the approach taken in S. 2181, to 
assure that the projects that are funded by this legislation by 
Title I would all be environmentally friendly.
    In the provisions in Title II of S. 2123 dealing with the 
Land and Water Conservation Fund, our chief concern here is 
that for some reason that we do not understand, 2123 singles 
out the Land and Water Conservation Fund, the Federal side of 
it, to be treated differently from every other program in the 
bill. For all other programs, annual funding is mandatory. But 
for Federal LWCF, there must be a specific appropriation.
    We think there is no small amount of irony in this. I mean, 
after all, if you think back in 1964 when it was established as 
quid pro quo, the idea was that these funds would go into this 
fund and be dedicated to this purpose.
    A number of speakers, as I mentioned earlier today, have 
commented on these. I think it was Mary Landrieu that commented 
that these funds had been hijacked. Representative Young 
commented about this, himself.
    Yet, when you look at 2123, you will find out, for some 
reason, Federal LWCF is the only program for which funding is 
not mandatory in this bill.
    I am pleased to say that a large number of the other pieces 
of legislation before the committee now and introduced on this 
subject, and also the President's budget Land Legacy proposal, 
all make this funding for Federal LWCF permanent and mandatory, 
or the equivalent, thereof. So I encourage this committee to 
look at that possibility, as they decide their position on this 
bill.
    Finally, I want to turn to Title III of S. 2123. This is a 
new program that has a great deal of potential value that I 
think would be of interest to this committee. It creates a new 
program. It is kind of a revenue sharing program in the way 
right now that it is written, unfortunately. It is a program 
that provides $350 million per year to State fish and game 
agencies for wildlife conservation purposes.
    This provision would be a lot better if it had the kind of 
planning requirements in it that a number of other people have 
called for. There are a majority of comprehensive bills that 
call for planning in this case. The White House, and Jamie 
Clark sitting here a little bit ago, said that it was important 
to them.
    We have a letter that I want to submit for the record where 
19 fish and game wildlife conservation agencies have banded 
together to call for this planning provision to be in the 
language. Yet, inexplicably, it continues to be missing from S. 
2123.
    I was very pleased, Mr. Chairman, in your letter to me of 
May 4th, that you indicated very strong support for this 
planning language. I appreciate it a great deal.
    We are experiencing a growing problem with Endangered 
Species, and Jamie referred to that. At a time when the 
Congress can only find $180 million to fund ESA in the two 
agencies that oversee it, to provide a new program with $350 
million per year, and not require that the States at least make 
a contribution to helping make sure that these imperiled 
species and imperiled habitats do not become endangered does 
not make any sense to us at all.
    Nobody enjoys the kind of Endangered Species battles we 
have been in over the last couple of decades. But if we are 
going to get away from this, clearly, we need an upstream 
solution to the Endangered Species problem. The upstream 
solution has got to be one where the States who own our 
wildlife assume their proper responsibility. This is the kind 
of provision that can get that done.
    Twenty years ago, this committee saw that. Under the 
leadership at that point, the chief author of the bill, John 
Chafee, put out a piece of legislation, the Fish and Wildlife 
Conversation Act of 1980, that became law, and gave grants to 
the States, and required them to do some planning to save non-
game and at-risk species, to avoid the Endangered Species 
problem.
    The planning language that was in that bill, Mr. Chairman, 
is almost exactly the planning language that is in S. 2181. I 
encourage this committee to strongly support that. I do not 
know what that provision does for this committee, absent that 
kind of language.
    Thank you.
    Senator Smith. Thank you, Mr. Schlickeisen.
    Ms. O'Brien of the Wilderness Society, welcome.

   STATEMENT OF RINDY O'BRIEN, VICE PRESIDENT OF POLICY, THE 
                       WILDERNESS SOCIETY

    Ms. O'Brien. Thank you. I appreciate getting the 
opportunity to testify today.
    The Wilderness Society believes that the House passed 
legislation is a sound starting point for the Senate's 
deliberations. Along side our colleagues in the environmental 
community, we would welcome the opportunity to further improve 
the bill, as it comes through the Senate.
    I think Senator Boxer outlined a lot of the concerns that 
we have, and the places where we would like to see some 
improvements. But we also clearly acknowledge that there has 
been substantial progress already made in balancing the 
competing interests.
    Between 1987 and 1997, three out of every four dollars were 
spent elsewhere from the Land and Water Conservation Fund. 
Oftentimes, people have said that the environmental community 
has been too polite in not demanding that the funds that were 
promised by Congress, some 36 years ago, be spent for the 
purposes.
    During this same period, the Land and Water Conservation 
Fund spent an average $230 million, or just 25 percent of the 
$900 million that had been authorized to flow into the fund.
    There were some numbers presented earlier today about some 
arbitrary number of $450 million being picked out for this 
legislation. The fact is that the $900 million was authorized 
35 years ago at that level to be split between the Federal side 
and the state side. It is not an arbitrary number that has just 
been calculated, looking at past numbers. If you are going to 
do that, you would go to $230 million.
    Clearly, there is a need and there is an obligation to have 
acquisition under the Land and Water Conservation Fund, both on 
the Federal and state side.
    There were discussions earlier today about dueling polls. 
As one of the organizations that actually hired Mr. Luntz to do 
the poll, I wanted to speak to something in my testimony that 
goes beyond dueling numbers.
    That is what our voters are doing actually when they go the 
polls. These are not just research tools, but what they are 
actually voting on.
    In 1998, 148 State and local open space measures were on 
the ballot; 124 were approved. That is a resounding 84 percent 
approval rate on these measures. Collectively, that represents 
$5 billion in public revenues to preserve America's open 
spaces.
    The figures from 1999 are equally impressive, and this is 
in an off election year. Of 102 open space ballot initiatives, 
92 were successful. That is a 90 percent success rate, and 
those 92 measures committed another $1.8 billion to public land 
acquisition.
    So you can either accept or reject research tools. But what 
the voters are saying as they go to the ballot box around the 
country, consistently, is that they believe that the Government 
needs to be spending money to protect open space.
    The Wilderness Society has three essential elements that 
they find crucial, as you move through this legislative 
process. First, the legislation must permanently remove the 
Land and Water Conservation Fund from the financial obligations 
that far too long have limited its effectiveness. This is the 
year to take the Land and Water Conservation off budget, once 
and for all.
    A point that needs to be clarified from the morning debate, 
as well, is during the House debate of H.R. 701, it was amended 
to make it clear that expenditures under the legislation passed 
there would not occur if they diminish the funds available for 
Social Security and Medicare.
    We have no dispute that these funds needs to be placed 
above those two acts. But we firmly believe that the efforts to 
protect our open spaces deserve the same protection that 
Congress has provided for the Highway Trust, and most recently 
for the Federal Aviation Trust.
    If we can set aside money to pave it, we believe we can set 
aside money to save it.
    Second, the Land and Water Conservation Fund needs to be 
fully funded. After years of diverting as much as 75 percent of 
the intended money of the Land and Water Conservation Fund, now 
is the time to make good on that promise.
    Third, we believe the Land and Water Conversation Fund 
should move forward, unencumbered by new restrictions on how it 
operates.
    I think that the committee members this morning from the 
House side went through all of the provisions that were in the 
House passed bill to protect property rights. We believe that 
that has established some changes that maybe go beyond where we 
need to, but we clearly believe we do not need to go as far as 
the Hill language, which restricts a non-net gain in these 
States. We actively oppose that.
    Thank you.
    Senator Smith. Thank you, Ms. O'Brien.
    Mr. Waller, Director of the Wildlife Resources Division, 
Representing the International Association of Fish and Wildlife 
Agencies, welcome.

STATEMENT OF DAVID WALLER, PRESIDENT, INTERNATIONAL ASSOCIATION 
   OF FISH AND WILDLIFE AGENCIES, DIRECTOR, GEORGIA WILDLIFE 
                       RESOURCES DIVISION

ACCOMPANIED BY:
        WAYNE VETTER, EXECUTIVE DIRECTOR, NEW HAMPSHIRE FISH AND GAME 
            DEPARTMENT
    Mr. Waller. Thank you, Mr. Chairman.
    We appreciate the opportunity to appear before your 
committee today to share with you the collective strong support 
of all 50 State fish and wildlife agencies for the Conservation 
and Reinvestment Act or for CARE, as it is more commonly 
called.
    Whether you hunt, fish, bird watch, hike, play soccer, or 
just enjoy the peace and tranquility of being outdoors, 
appreciating the vast natural bounty of our nation, this bill 
will ensure that our children and future generations will enjoy 
this natural wealth.
    We urge your favorable attention to the Conservation and 
Reinvestment Act, and encourage your cooperation and assistance 
to Chairman Murkowski to facilitate a bill being expeditiously 
reported to the full Senate for its consideration this year.
    The association strongly supports CARA, because it is a 
bipartisan consensus bill and common sense approach to 
conservation that makes good economic sense, good common sense, 
and good political sense.
    The coalition of over 4,500 organization, and this has been 
brought out two or three times today, has really come together 
across the nation, and sounded a loud voice for conservation, 
in general.
    Our goal is to bring dedicated, consistent funding to 
State-based fish and wildlife conversation programs, land and 
water conservation, coastal conservation and environmental 
programs, State and local outdoor recreation, historic 
preservation, and incentives for our landowners to continue 
good stewardship of their land in open space uses like 
farmland, ranch land and forest land.
    CARA places decisions on identifying needs and spending 
priorities at the State and local level, which we believe can 
best reflect the interest of our citizens. It does that while 
giving greater protection than exists in current law to private 
property owners, with respect to Federal land acquisition.
    The most significant benefit of CARA to fish and wildlife 
conservation is that State fish and wildlife agencies will 
finally be in a position to take preventive measures to 
conserve declining fish and wildlife species before they reach 
a status where they must be listed as endangered or threatened.
    In this way, the State fish and wildlife agencies can work 
cooperatively with private landowners through voluntary, non-
regulatory means, such as incentives, technical assistance, 
easements, and other such measures.
    Preventative conservation now is an investment that will 
continue to pay dividends far into the future. It simply costs 
much less to conserve fish and wildlife species by responding 
to early warnings of decline than it does to recover those 
species, once they have been listed.
    Let me share with you a few perfecting amendments that the 
association recommends for Title III. The first one, we would 
like to see the floor for minimum states increased from \1/2\ 
to 1 percent. That would benefit 10 States, and yours is one of 
them, Mr. Chairman.
    Senator Smith. That got my attention.
    [Laughter.]
    Mr. Waller. It would benefit 10 States that really need 
additional funding, because of the size and the population, and 
those kinds of things.
    We would like to see a 5-year phase-in period, with 90 
percent Federal and 10 percent State match, because right now, 
it is 70/25, as it is in Pittman-Robertson.
    But many of the States would have a tough time coming up 
with a 25 percent match. We would like to have 5 years for the 
States to be able to develop that kind of match.
    We would like to remove the 10 percent cap on wildlife-
associated recreation spending. That really handicaps a lot of 
States very considerably, from State to State, and we feel like 
the States should have a role in that, and let us not put a cap 
on it.
    We would like to reinstate the provision for up to 10 
percent of the funds to be used for law enforcement. That was 
in the original bill. Law enforcement is an important component 
of wildlife conservation in the States, and we would like to 
have that prerogative to have some funding included for that.
    We would like to see the wildlife conversation planning 
language included, as some of the other panelists have 
suggested. We think that is important. We work with many of the 
conservation groups around the country, and we think that is an 
important part of it.
    We would like to see establishing a floor of $350 million, 
and a ceiling of up to 10 percent for the incoming OCS 
receipts, whichever is greater. This bill started out at 10 
percent for the wildlife fund, which would roughly be $450 
million. We would like to see a floor of $350 million, but 
allow it to go up, if OCS revenues increase.
    In support of Director Clark, we would also like to see 
adequate funding to the U.S. Fish and Wildlife Service for 
delivering the CARA funds to the State. We think that is 
important.
    I would just like to say, we all want to work with you and 
work together on getting this landmark legislation passed.
    Thank you.
    Senator Smith. Thank you, Mr. Waller.
    Mr. Vetter, the Executive Director of New Hampshire Fish 
and Game, do you have a comment or two?

    STATEMENT OF WAYNE VETTER, NEW HAMPSHIRE FISH AND GAME 
                           DEPARTMENT

    Mr. Vetter. Yes, I do. Thank you, Mr. Chairman.
    Mr. Chairman, I have some written testimony, but in the 
interest of time, I will not read it. I just want to say thank 
you to you for the opportunity to be here and testify, and 
thank you for your support.
    This CARA bill is good legislation. It proved that in the 
House when it passed so overwhelmingly. We, the directors of 
the State fish and game agencies, through our President, David 
Waller, and through the International Association of Fish and 
Wildlife Services have come up with some ideas to make a good 
piece of legislation better.
    Those are offered to you in these amendments. We urge you 
to support those amendments, and pass this bill.
    Thank you very much, again, for the opportunity.
    Senator Smith. Thank you very much, Mr. Vetter.
    I was interested, Mr. Waller, in your term ``perfecting 
amendments'' suggestions. The problem is, there are those who 
suggest perfecting it in different directions. It makes our job 
a lot more difficult.
    Let me just start off with a couple of questions, and we 
can just open it up here and finish the hearing this morning.
    Mr. Schlickeisen, you said in your testimony that we must 
do no harm in enacting CARA. I would agree with you on that, 
although I believe that each of the Senate bills, I think you 
can make the case, would achieve great good.
    The question I have for you is, do you support the passage 
of S. 2123 or the House bill in their current form; do you 
support either/or of those two bills, in their current form?
    Mr. Schlickeisen. I think of the two, I would prefer the 
House-passed bill, primarily because of what it does with the 
incentives issue in Title I.
    But I think for the Defenders of Wildlife and for, I think, 
probably almost all of our coalition, we would not like to see 
any of them become law without some further improvements. Those 
improvements were the ones that I identified in my testimony.
    Senator Smith. But the House provided for basically a 
snapshot in time. It limits payments to the coastal States.
    Mr. Schlickeisen. Right.
    Senator Smith. Does that address your concern?
    Mr. Schlickeisen. I think it does. We are especially 
encouraged by the Alaska conservation groups that have helped 
our coalition groups examine this. They feel that that goes a 
long way toward solving the problem.
    I do not think they ever think that incentives are totally 
removed. But the fact that they have not got a 5-year look-back 
here, so that it would encourage the State and the cities and 
the towns, and what have you, to see a pay-off down the road, 
if they accept drilling now, I think that that went a long to 
solving the problem.
    Senator Smith. And Ms. O'Brien, in the perfecting language 
issue, you indicated that the funds should be authorized 
without any restrictions.
    Do you think that any of these bills, and particularly the 
House bill, has struck an appropriate balance, here?
    Ms. O'Brien. Well, as my written testimony said, we believe 
that the language adopted, minus one amendment, the Hill 
amendment, that was ultimately adopted on the Floor, our 
improvements to ease some of the concerns of the private 
property side, we could stand by those changes, although we do 
not believe they all were necessary. But if they do go toward 
easing some of the concerns of the property rights, we are fine 
with that.
    The Hill amendment, though, went a step further. It 
basically, as Senator Baucus went through this morning, first 
of all, singles out one State for treatment different than the 
other 50 States, which I think from a policy side is not good.
    Second of all, we do not believe that the Land and Water 
Fund should be a question of trading one acre off for another 
acre. That was not the purpose of the Land and Water 
Conversation Fund.
    We do believe in consolidation of lands. We believe in 
exchanges and easements. We do not believe you should have to 
trade on acre for another acre, just so it is a number game. 
You really need to look at what the resource is, and why you 
are acquiring it, or having it for easement.
    So that provision is very troubling to us. The rest that 
was in the bill, as it went to the Floor, is fine.
    Senator Smith. Mr. Niebling, it is interesting that your 
group is representing, I do not know the number, several 
thousand essentially woodlot owners or owners of substantial 
pieces of property, and yet you are supportive of the bill.
    I would agree with Mr. Hardiman on the concerns, that we 
should respect absolutely the concerns of private property 
owners. This is a substantial group of people who would have 
every reason to be concerned about any private property group. 
Yet, your group does support this legislation.
    One of the provisions in the bill, and I think it is Title 
VII, provides that there would be grants to landowners to 
protect Endangered Species, if in fact you were stuck with a 
situation where you had some limited use of your land, because 
of an Endangered Species.
    Would you agree that this is going to be helpful in 
promoting partnerships with landowners, and could achieve a 
real benefit here?
    Mr. Niebling. Absolutely, Mr. Chairman. Like others who 
have testified this morning, we have all been troubled and 
frustrated by the tremendous difficulties in resolving the 
reauthorization of the Endangered Species Act.
    I think in the last couple of years, a number of 
organizations, national, regional, and local, have begun to 
recognize that a more incentive-based approach, whereby 
Congress gives incentives to private landowners to manage their 
properties in such a way that they do not diminish their 
rights, necessarily, but they meet the interests of the 
Endangered Species in question, and it is the right direction 
to go in.
    I know that you have been an advocate of provisions in 
Senator Kempthorne's bill, I believe, last year, which would 
have really focused on the role of incentives and more 
nonregulatory approaches to accomplishing the goals of the act.
    So, yes, to answer your question, we think that is a good 
way to go, and support those provisions of the bill.
    Senator Smith. The bottom line is, without these 
modifications, any particular woodlot owner or member of your 
organization could be in a situation where they would not be 
able to do anything with their land, and at the same time, have 
may not be in a financial position to provide any help at all 
to enhance that species. So at some point, they could. Is that 
correct?
    Mr. Niebling. That is correct. If I may, Mr. Chairman, for 
8 years, I served as Executive Director of the New Hampshire 
Timberland Owners Association. While my current organization is 
not comprised entirely of landowners, there are a great many 
landowners.
    You could say that I cut my teeth representing and 
advocating for the rights and responsibilities of private 
property owners. It is my firm belief that the legislation, as 
passed by the House, has instituted a number of provisions that 
will go a long way to addressing the issues and concerns of 
private property owners, which I think are very different in 
the west than they are in our part of the country.
    If I may further, Mr. Chairman, you have my absolute 
commitment that if this legislation is enacted, it will be 
carried out in a way in New Hampshire that is supportive of and 
based upon the best interests of private landowners.
    I think that is the New Hampshire tradition. I see nothing 
in this bill that would suggest any cause for concern, from our 
perspective.
    Senator Smith. Thank you.
    Senator Boxer?
    Senator Boxer. Thank you.
    Mr. Hardiman, I am sure you feel very much in the minority 
on this panel, but I think that you gave your best 
presentation.
    I have a couple of questions for you. On this property 
rights, it is my understanding, as I follow the legislation, 
that even some of the most ardent defenders of property rights 
in the House admitted that, in fact, they went out of their way 
to address the concerns.
    If you heard Congressman Tauzin's presentation, for 
example, there can be no condemnation of land, as I understand 
it, which although it is very rarely used in every other act, 
we do not say you can not do it.
    So that was, I thought, quite something. Then they also 
said that nothing in the bill shall impact private property 
rights or water rights. So I have great respect for your point 
of view, but I have a sense that your concerns were addressed 
here.
    I also picked up, you said that the Gunowners of America 
did not support this bill. Is that what you said?
    Mr. Hardiman. Yes, that is correct, and you have the 
testimony there.
    Senator Boxer. Yes, because I see that the National Rifle 
Association does. I thought there was some connection between 
the two groups.
    Mr. Hardiman. They are two separate organizations.
    Senator Boxer. Well, I wanted to say on the record that the 
National Rifle Association, that I do not agree with, supports 
this bill. The National Shooting Sports Foundation supports 
this bill, and the North American Hunting Club.
    So, again, I want to make the point, since guns are always 
an issue that, I guess, is agitated, it seems that most of the 
gun groups seem to support this, because in terms of 
recreation, it is going to do a tremendous amount.
    I am going to ask you to comment on why you think I am 
misled here. Then I just have one other question for all the 
others that would just require a show of hands. So if you could 
answer that.
    Mr. Hardiman. Yes, thank you, Senator, for the opportunity 
to respond.
    Condemnation is prohibited on the Federal side of the Land 
and Water Conservation Fund. That is $450 million out of nearly 
$300 billion per year. There is no prohibition on condemnation 
for the other $2.5 billion per year.
    As a matter of fact, in Title IV, the Urban Parks and 
Recreation, existing prohibitions on acquiring land are 
removed. Section 411 of S. 2123 removes the existing 
prohibition in UPAR for acquiring land. So this is prohibition 
on condemnation for $1 out of $6 that comes out of this bill.
    Regarding the willing seller issue, actually, this is 
something that is nationwide. For example, there is plenty of 
money available under the current appropriations process, to 
buy out legitimately willing sellers.
    The first time I saw the willing seller scam was actually 
in the New Jersey State legislature, for which I worked in the 
1980's. There was Green Acres bond money, which is a very 
popular bond issue that was passed in New Jersey. That money 
went the Pinelands Commission, which oversees much of the pine 
barons in South Jersey. I worked for a State legislator, who 
represented a lot of that area.
    They had money available to buy out willing sellers. The 
legitimate willing sellers that ask to be bought out were 
ignored. They took that money and went after people who were 
not willing sellers.
    Anyone who wanted to do anything with their property, they 
had plenty of money to harass and buy out those people. But the 
legitimate willing sellers were ignored, hoping that they would 
stop paying taxes on the property, for example, and that they 
would be able to pick it up for peanuts at a tax sale, later 
on. So there are a lot of shenanigans that go on at the State 
and Federal level regarding willing sellers.
    I can tell you what will happen on my property in Southern 
California. After this bill passes, I will have the Federal 
Bureau of Land Management, some entity in DOI, come to me and 
say, well, Mr. Hardiman, we will offer you $1 for your 
property. I will say, no, I am not interested in selling.
    Then the State of California, using Federal CARA funds, 
will come to me and say, well, Mr. Hardiman, our appraiser says 
your land is worth 82 cents. If you do not sell, we are going 
to condemn you.
    Senator Boxer. Is this in California, that land is worth 82 
cents?
    Mr. Hardiman. No, no, I am using this as an example; $1 
versus 82 cents, so I am picking out a number. I am saying that 
for every $1 that DOI would offer me, the State of California 
might offer, for example, 82 cents on $1, for example, with a 
threat of condemnation.
    I would then, voluntarily, become a willing seller to the 
Federal Government for $1, under threat of condemnation for, 
for example, 82 cents on $1. That is what a fraud the willing 
seller clause is, in this bill.
    With the unprecedented fire hose of money from this bill, 
people will be forced into being willing sellers. Legally, 
technically, people like me will become willing sellers. 
Practically speaking, we will be in no way willing sellers.
    Senator Boxer. Let me just say this, first of all, there 
can be no condemnation under the $450 million, we agree. No. 2, 
the other $450 million is States' rights, and the States will 
decide. I think most conservative members of the U.S. Senate 
think that probably the best way is to have the States decide.
    No. 3, for the vast majority of the remainder of the bill, 
the moneys can not be used for land acquisition.
    Mr. Hardiman. No, it can be.
    Senator Boxer. Excuse me, sir, I will put that 
documentation into the record.
    Clearly, there are titles of the bill that deal with PILT 
and other things that have nothing to do with land acquisition. 
So let us get that straight. So your point that it is only a 
tiny percent that is impacted, I do not believe is correct.
    The vast majority is State's rights and prohibition on 
condemnation, plus a statement clearly in the bill that this 
bill can have no adverse impact on property rights or water 
rights.
    Outside of Mr. Hardiman, who I clearly get, does not want 
any bill, so I know he does not want any bill, I would ask the 
rest of you to help me out with a show of hands. I am going to 
give you about three options.
    Do you prefer the House-passed CARA bill, the Murkowski/
Landrieu bill, or the Bingaman bill? Do you all feel 
comfortable on that? If you have no preference, do not raise 
your hand at all, but try to tell me, because I think it is 
really important that I have the answer.
    Let us start off with the House-passed CARA bill. How many 
prefer that?
    [Show of hands.]
    Senator Boxer. There are one, two three of you.
    How many prefer the Murkowski/Landrieu bill?
    [Show of hands.]
    Senator Boxer. How many of you prefer the Bingaman bill?
    [Show of hands.]
    Senator Boxer. OK, thank you.
    Let the record show, Mr. Hardiman does not want any of the 
bills.
    Thank you very much.
    Senator Smith. Did somebody get those responses?
    Senator Boxer. It is more for me than anybody else.
    Senator Smith. Senator Chafee?

           OPENING STATEMENT OF HON. LINCOLN CHAFEE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Chafee. Thank you, Mr. Chairman, for holding this 
hearing, and for your interest in this subject. I would like my 
opening statement to be submitted for the record.
    I would just say that I think we are in an historic moment 
in time, when we can finally fully fund LWCF, which we have 
been waiting for since 1965. We have a great opportunity to do 
that.
    My experience, as City Councilman and Mayor, in a community 
that did go from dairy farms to department stores is that this 
a very good thing to be doing.
    The most important way to control growth is to buy land, to 
buy the valuable land. Because in America, people do have the 
right to sell their land. Under zoning, they have a right to 
develop it.
    The way to have wise growth, I think, is to have a very 
aggressive open space acquisition initiative in communities all 
across the country, whether it is Boise, Idaho or Salt Lake 
City, Utah, or wherever it might be, where we are seeing 
extraordinary growth.
    We need to have these Federal funds available to make sure 
that growth is in everybody's best interest. So I am in favor 
of full funding, and I am also in favor of the flexible funding 
provisions.
    My question would be, Mr. Niebling, I did not see you raise 
your hand on either or any of the three options. Is that true?
    Mr. Niebling. Right, thank you, Senator Chafee. Please do 
not construe my reluctance to raise my hand as non-support. I 
guess there are provisions in all three bills that we like.
    I indicated in my testimony that we support Senator 
Murkowski's legislation. I do not know if you were here when I 
spoke. But there were elements of Senator Bingaman's bill and 
the House-passed bill that we wanted to see incorporated into 
that legislation. So maybe I should have raised my hand on all 
three, but I am not sure.
    [Laughter.]
    Senator Chafee. I came in, just in the middle of your 
testimony.
    Senator Smith. Thank you, Senator Chafee.
    Let me ask just a couple more, and then we can wrap up 
here.
    Mr. Vetter, many of the programs funded through CARA do 
require the State or the local government to provide a match. 
Some critics say that the States will be unable to provide the 
necessary funds to take advantage of those programs.
    New Hampshire does have such a fund that would enable them 
to provide that State or local match, as you know. Is this 
unique, and perhaps Mr. Waller could respond to this, also; do 
other States have established funds to provide this match?
    Mr. Vetter. I believe, Senator, that we are unique. But I 
will refer that to Mr. Waller, because he is in touch with 
that.
    Senator Smith. Maybe Mr. Waller can tell me how many States 
have that.
    Mr. Waller. I think it will vary considerably, from State 
to State. Some States will not have any funding to work with. 
They will have to develop a funding source. Some States, you 
know, already have some in place.
    So that is why we are suggesting going for the first 5 
years with a 90/10 match, to give some of the States the 
opportunity to develop a funding source for their match.
    Senator Smith. Mr. Hardiman, I know you feel like you have 
been ganged up on, here. But I think you understand that there 
were some pretty articulate private property advocates on the 
first panel from the House side. So we have tried to give it as 
much balance as possible.
    I, as a strong private property advocate myself, share some 
of your concerns. I do not seem to find in the language of the 
bills before me the concerns that you have. This is my 
difficulty.
    I mean, right now, I am told there is about a $10 billion 
backlog on people who want to sell their land to the Federal 
Government. So whatever position you want to take, whether we 
should or should not do it, the point is, the funds are not 
there to do it, anyway.
    So I do not know where we are coming up with taking land 
from unwilling sellers in this legislation. I am trying hard to 
understand that, because I do not want to do that. I will be 
very honest with you. I would not be supportive of the 
legislation if I thought that land was going to be taken from 
unwilling sellers or condemned.
    So I am not trying to be hostile. I am just trying to 
understand where you are coming from. If you could be specific 
in terms of where these concerns are, I would like to try to 
address them.
    Mr. Hardiman. Certainly, Senator, thank you.
    The list of $10 billion worth of allegedly willing sellers, 
I have never seen or heard of such a list. I would like to see 
it. I am not familiar with that list.
    I am familiar with, of course, the maintenance backlog 
issue, which opens at $5 billion, and goes up from there. That 
was covered in the March issue of ``Government Executive 
Magazine'' quite extensively.
    I will give you a specific example of willing sellers being 
ignored, while an unwilling seller was gone after. In the 
national recreation area in Los Angeles in Ventura County in 
California, and I forget the name of it, but that area of the 
mountains north of Los Angeles in Ventura County, the National 
Park Service wanted to buy a parcel of land of private property 
owned; the guy's name was Donald Scott.
    They repeatedly asked to purchase the land. When Mr. Scott 
refused, they trumped up a drug charge against him. They went 
to the Los Angeles County Sheriff's Department.
    Senator Smith. Who is ``they?'' Who did this?
    Mr. Hardiman. The National Park Service did this. They went 
to the Los Angeles County Sheriff's Department. The National 
Park Service had no money to buy out the legitimate willing 
sellers. However, this is what they did to Mr. Scott, whose 
property they did want to buy, because it was on a mountain 
top.
    They got together with the Los Angeles County Sheriff's 
Department, and raided Mr. Scott's house at 7 a.m. on a Sunday 
morning. Mr. Scott appeared at the top of the stairs with a 
revolver. They shot and killed Mr. Scott. His dying bleeding 
body fell down the stairs and landed at his wife's feet.
    The widow then filed suit against the National Park Service 
and the Los Angeles County Sheriff's Department. Seven years 
later, just a couple of months ago earlier this year, the 
National Park Service settled for a $5 million wrongful death 
lawsuit.
    The widow absolutely promises and Mr. Scott's children 
promise that they will never, never in 1,000 years sell that 
property to any Government entity.
    When the National Park Service or other agencies want 
property, they find the money to go after it, while at the same 
time ignoring legitimate willing sellers.
    That $5 million, of course, is money that will not go to 
land acquisition, since it is going to Donald Scott's widow.
    Senator Smith. Well, do you believe that in the purest 
sense, that there is ever a case where the U.S. Government 
should acquire either conservation easements or purchase land 
outright, for future generations?
    Mr. Hardiman. The American Land Rights Association supports 
the current appropriations process, where everyone has a say. 
The American Land Rights Association have both agreed and 
disagreed, numerous times, with the authorizing and 
appropriating committees on the Senate side and on the House 
side.
    Sometimes we win. Sometimes we lose. But the regular 
appropriations process is democracy. Trust fund is not 
democracy.
    Senator Boxer. Excuse me, if you do not mind, Mr. Chairman.
    Senator Smith. Go ahead, Senator Boxer.
    Senator Boxer. This bill subjects these purchases to the 
regular appropriations process. As a matter of fact, some of us 
feel that we would prefer that it did not go that far to do it.
    But Congress can stop any of these acquisitions. That was 
one of the issues. That is why I like the Bingaman bill better 
because, frankly, I like the idea of a trust fund. Let the 
administration go. If Congress does not stop it, then let the 
funds go. But the way the bill came out of the House, Mr. 
Hardiman, it is subjected to the appropriations process.
    Mr. Hardiman. There is one-sixth of the bill, only the 
Federal side of Title II, and that was money that must be 
spent. It no longer competes with other priorities; anything 
from illuminating the estate tax to Social Security to the core 
sole of the other education, all of the other priorities. So, 
once again, that is only one-sixth of the bill.
    Senator Boxer. You keep going back to that. But if I just 
might say, that is the heart and sole of the bill, the $900 
million, in terms of purchase. Half of it, as my Chairman 
reminded me, the States have the right to make those decisions. 
So that you would have to take up with the States, how they 
would handle their state-side money.
    But the Federal money here which, again, you know, I have 
to just be honest with you, I prefer the trust fund notion that 
this Administration, whichever, Republican or Democrat, can put 
the list out and go for it. That is not going to happen here. 
It subjected to the appropriations process.
    Thank you, Mr. Chairman, for yielding.
    Senator Smith. Senator Chafee, do you have any further 
questions or comments?
    Senator Chafee. The only one would be, again, to Mr. 
Hardiman. My experience is that the most heavy need to purchase 
land is when the developers are coming in. That is when the 
community usually rises up, and wants to buy that land, before 
it is turned into whatever it is zoned for, commercial, 
industrial, residential.
    That has certainly been my experience. As we see changing 
demographics, I just think that having these funds available, 
all across the country, it is just in everybody's best 
interests. I suppose there are those isolated incidence of 
hostile actions. But I think there were extremely isolated.
    Mr. Hardiman. I would respectfully have to obviously 
disagree. I would say hostile takeover might be more accurate. 
It appears to be many times in everyone's interest to buy a 
piece of land, except for the landowner.
    Senator Smith. Well, let me just thank the witnesses for 
being here today. I know that many of you traveled long 
distances. We appreciate it.
    Dr. Sparrowe, I would say that you have got the appropriate 
name for the organization you are with.
    [Laughter.]
    Senator Smith. You have probably heard that before.
    Mr. Sparrowe. I have.
    Senator Smith. I am going to close on a statement that I 
did not get the opportunity to make, early on. If witnesses 
need to leave, please feel free to do that as I am speaking. It 
is all right.
    I just want to say that there has been some discussion 
about the jurisdiction on the committee. There is a overlap in 
jurisdiction between the Energy and Natural Resources 
Committee, here in the Senate, which has primarily 
jurisdiction.
    Several of the programs, however, as Senator Boxer and I 
were just discussing, were affected by this bill, and are under 
our jurisdiction, such as Pittman-Robertson, Endangered Species 
act. They are within our jurisdiction.
    So it is our committee's responsibility to review this 
legislation, although under the rules, we can not mark it up. 
But it is appropriate for us to review it.
    You heard considerable testimony today on three bills: S. 
25, S. 2123, and S. 2181. They have been introduced in the 
Senate, to fund various conservation programs. We talked a 
little bit about the House bill. The issue has received a lot 
of attention.
    Certainly, with the passage of the House bill under the 
leadership of Congressmen Young, Tauzin, and Miller, in a 
bipartisan manner, by a margin as was stated here of three to 
one, I think that is an incredible effort on their part.
    The bill in my State, as I think you could tell from the 
witnesses that are there this morning, and also in my travels 
and meetings that I have held over the past 6 weeks in New 
Hampshire, has broad support among the constituents of New 
Hampshire.
    I have heard from the New Hampshire Society of Forests. You 
have heard from the Fish and Wildlife representatives here, and 
I have heard from many others that there seems to be 
overwhelmingly a strong majority support, if you will, on the 
concepts of the bills. There may be some refining that we have 
to do, but there is broad support.
    You know, I am a conservative Republican. I think most 
people know that. I do not think there is anybody that has been 
more fiscally responsible than I have. I want to make a few 
points here, though, that I believe need to be made.
    I want to say, we have heard from Washington, over and over 
again, that there is not any money available for conservation 
programs. There is always money available for something else, 
where it is Americorps or whether it is taking the Department 
of Education from $3 billion to $34 billion in 15 or 20 years. 
There is money for everything else.
    They have also said, well, conservation is not up to the 
Government, or it is not up to the States, or it is not up to 
the local government or the Federal Government. It is up to the 
landowners. Let them bear all the burden.
    Well, they are the stewards, and I support that. They are 
the stewards of saving our land and resources, but sometimes, 
they need help. I think Mr. Niebling brought that point up very 
well.
    It is time now for the Federal Government to help out here. 
We have not been doing our fair share. The Federal deficit is 
now gone, and the budget is balanced. However, we do have a 
huge national debt, and that is not going to be paid off in the 
short term. It will be paid off, if we continue to manage 
wisely our budget.
    But we have to think about not the next election, not 10 
years from now, but generations from now. I have said, over and 
over and over and over again, since I have assumed the 
Chairmanship that environmental policy is not about the next 
election. It is about the next generation.
    Environmental policy, although it is good politics, 
sometimes, the Democrats have done a good job of politicizing 
this, frankly, and we deserve a lot of the attacks that we 
take.
    But we have a unique opportunity to use outer continental 
shelf revenues on the programs that they were originally 
intended to fund, plus several other conservation programs that 
have been underfunded.
    Now the issue that Senator Bennett brought up, which is a 
good one and fair one, about all of these trust funds, off 
budget; fine, if we want to take all of the trust funds off 
budget and deal with it through the appropriations process, 
fine, but let us not pick some, rather than others.
    Highways are no more important than preservation of land. 
Some would say they are less important. I am not going to make 
that case, but I am going to say they are no more important 
than preservation of land.
    You talk about urban sprawl. Why is there urban sprawl? It 
is because we have a place to sprawl to, and with no 
regulations. That is a new term.
    It is time to keep the promise that we made years ago to 
the OCS revenues, responsibly, and put some of those dollars 
back to what they were intended to be for. That is all we are 
asking to do.
    We do not owe it to ourselves necessarily, as much as we 
owe it to the future generations. We have to make decisions 
today that are going to impact the future of this country.
    I have sat here for 20 years almost in this Congress, and I 
have fought hard to get that budget balanced, to get the 
deficit eliminated, and to pay off that debt. If my votes had 
prevailed, it would have been paid off 10 or 15 years ago, and 
we would have had more money to deal with things that matter: 
infrastructure, environmental programs in this country, 
environmental land, preservation and clean-up.
    That is what this is about. That is what this debate is 
about. It is not about CARA. That is an acronym. I do not care 
about the term. That is not what this is about.
    We heard a lot of good people talking today, from all 
across the political spectrum. I never thought in a million 
years that I would, and I do not think Barbara Boxer did 
either, see George Miller and Don Young on the same side of an 
issue, let alone sitting at the same table.
    [Laughter.]
    Senator Smith. It does indicate there is support. Now some 
would say, maybe it indicates there is something wrong with it. 
Well, we will look it. We will look at that very carefully.
    [Laughter.]
    Senator Smith. But the bottom line is, Americans like to 
spend time outdoors, especially in this high pressure situation 
we have. It is true that our parks are not maintained, and we 
need to do something about that. There is no question about it.
    We all have our preferred vacation spots, whether it is 
Yosemite or Yellowstone. I honeymooned in Yosemite, by the way. 
Almost all Americans, probably as high as 90 percent, believe 
we ought to be spending more money, not less, not necessarily 
at the Federal level, on protecting our water and protecting 
our land, our parks, our seashores, and so forth.
    There is a growing consensus, and I am one of them, and you 
can say, oh, I have had an evolution. Well, I am the same guy I 
was 20 years ago. But we now have an opportunity to do 
something about it that we did not have the opportunity to do 
earlier.
    We have to act now, not tomorrow but now, or we are going 
to lose some very special places in this country. It is time we 
stand up and realize it. We are going to lose the Everglades. 
We could lose the Arctic National Wildlife Refuse. There are a 
lot of places that we can lose, and a lot of small woodlots, 
which is what CARA is about, and other small pieces of 
property, all across America.
    I agree with those Americans in those polls, and I am not 
government by polls. If it was the other way around, as you 
have heard with me on the Elian Gonzalez case, where it was 70/
30 against my position, I still stuck to my position, because I 
was right, and history will prove it.
    [Laughter.]
    Senator Smith. I want to do what I can to ensure that those 
areas remain for our children and our grandchildren. That is 
what this is about.
    Now as we have heard, each of these bills has been 
introduced in the Senate, including the one introduced by 
Senator Boxer last week, as a companion to the House passed 
bill. There is plenty of opportunity to debate these, to blend 
them together, if you will. But the time is right to pass this 
kind of legislation, because we do owe it to our future 
generations.
    Numerous States have been struggling for years to preserve 
open space, limit urban sprawl, provide residents with a better 
quality of life, with virtually no assistance, nothing from the 
Federal Government.
    Now it is time, in my view, for the Federal Government to 
step up to the plate and assist, not to land grab, not to take 
land from unwilling sellers, not to put easements on properties 
that owners do not wish them to be on; but rather to do the 
right thing to assist the States and the landowners.
    Why are we holding this hearing? I just indicated that 
because we do have the jurisdiction to do it. I regret to say 
that a couple of my colleagues were upset, saying that we were 
infringing upon somebody else's jurisdiction. I get a little 
tired of hearing that.
    We ought to air these issues. If we can air them here, then 
that is good and that is positive for the issue, for the 
proponents, as well as the opponents, as far as I am concerned.
    Let me just conclude on the private property rights 
concerns. Several of our colleagues raised these concerns, I 
thought very eloquently. I share their support for the rights 
of landowners and their concern that there should be limits on 
Federal acquisition of land.
    I believe that some of those concerns are misplaced. I am 
prepared to take a hard look at where those concerns are 
raised.
    Senator Murkowski in S. 2123 and the House bill that was 
passed a few weeks ago, addressed many of these concerns, or at 
least so I thought. Contrary to popular belief, S. 2123 
contains no new Federal land acquisition programs, that I know 
of.
    In addition, S. 2123 provides an unprecedented level of 
protection for the private landowner. We heard that from 
private landowners here today.
    For example, funds from this bill can not be used by the 
Government to implement regulations on private property. All 
too often, the Federal Government places so many restrictions 
on private property that the owner can no longer use it. This 
bill prevents that unfair and probably unconstitutional 
practice. That is the way I read it. If I am wrong, I will be 
happy to listen to the opposition on that.
    Under the Murkowski bill, for example, any Federal 
acquisitions of land through the Land and Water Conservation 
Fund would also be subject to significantly more restrictions 
than under current law. In fact, this bill helps landowners who 
have Endangered Species on their land, as you brought out, Mr. 
Niebling, today.
    So in conclusion, let me just say, I will stack my record 
up as a fiscal conservative against anybody. If somebody wants 
to match it, then let us talk about it, and we will see who has 
been the most conservative around here.
    We made a promise, and we ought to keep that promise, 
whether we make it to the Social Security recipient, or the 
veteran, or whether we made a promise to the lease and oil gas 
rights on the outer continental shelf, to dedicate a portion of 
the revenues to the environment. That is why they are paying 
that money.
    Now if we do not like that and we want to get rid of all 
trust funds, then let us talk about that. But let us not single 
out certain trust funds, as opposed to others, because the 
environment is not less important than airports. It is not less 
important than roads or anything else. You might say it is as 
important, but it is not less important.
    This is no different than the Highway Trust Fund. We have 
not lived up to that promise in this time of budget surpluses, 
and it is time we do.
    So fulfilling our commitment to use revenue generated from 
offshore oil drilling to preserve the environment elsewhere is 
a balancing act, and it has been out of balance too darn long. 
We have been taking without giving.
    President Teddy Roosevelt summed it up when he said, ``I 
recognize the right and duty of this generation to develop and 
use natural resources of the land. But I do not recognize the 
right to waste them, or to rob by wasteful use the generations 
that come after us.'' That is what this debate is about.
    Thank you.
    Senator Boxer. Mr. Chairman, may I just compliment you 
mightily on your statement. I am so please. I think they may 
have Miller/Young over there, but we have got Smith/Boxer over 
here.
    [Laughter.]
    Senator Boxer. Let me tell you, this issue is either going 
to make us loved or something. But I am just so absolutely 
pleased to hear you make that very heartfelt statement. I know, 
because we have worked together on animal protection before, 
that when you feel deeply about something, you are going to be 
there for this fight.
    I think we are going to have a bit of a battle. But with 
your help, I just think we are going to see the light of day. 
So I am very encouraged. I thank you for that statement.
    Senator Smith. Now if you could just join me on a few other 
issues, we would be all right.
    [Laughter.]
    Senator Smith. Thank you very much to the witnesses. The 
hearing is adjourned.
    [Whereupon, at 12:40 p.m., the committee was adjourned.]
    [Additional material submitted for the record follows:]
    Statement of Hon. Bob Smith, U.S. Senator from the State of New 
                               Hampshire
    Good Morning. Thank you for joining us here today to discuss the 
bills that have been introduced in the Senate to fund various 
conservation programs, including the Land and Water Conservation Fund, 
from oil and gas production on the Outer Continental Shelf.
    This issue has received a lot of attention lately with the passage 
of a companion bill in the House, under the leadership of Congressmen 
Young, Tauzin and Miller, by a margin of three to one. I want to 
congratulate them on their effort.
    I have heard from many constituents in New Hampshire, and the 
overwhelming majority strongly support the concepts in these bills. For 
years now, they have heard from Washington that there isn't any money 
available for conservation programs and that it's up to landowners to 
bear the burdens of saving our land and resources. Well, those days are 
over. Now, it's time for the Federal Government to contribute its fair 
share. After many years of tightening our belts, the Federal deficit is 
under control. We have a unique opportunity to use Outer Continental 
Shelf revenues on the programs that they were originally intended to 
fund, plus several other conservation programs that have been woefully 
underfunded.
    It's time to keep the promise we made years ago to use OCS revenues 
responsibly to put back some of those dollars into restoring and 
protecting the environment. We owe it to generations of Americans yet 
to come.
    It isn't often that you get Congressman Don Young from Alaska, 
Billy Tauzin from Louisiana, and George Miller from California to agree 
on environmental legislation. I'm willing to bet it's the first time 
that those three have come before this committee to testify in support 
of a single bill. That's a reflection of just how much broad, popular 
support there is across the country for preserving our natural 
resources whether they are small urban parks or pristine wilderness 
areas.
    The bottom line is that Americans like to spend their time 
outdoors. Over half of all Americans will tell you that their preferred 
vacation spots are national parks, forests, wilderness areas, beaches, 
shorelines and mountains. And almost all Americans 94 percent believe 
we should be spending more money on land and water conservation because 
parks, forests and seashore provide an opportunity to visit areas 
vastly different from their own. There is a growing consensus that we 
must act now or we will lose many special places, and if we wait, what 
is destroyed or lost will be gone forever. I agree with those Americans 
who enjoy the special places that make America unique. I want to do 
whatever I can now to ensure that those areas remain for our children 
and grandchildren.
    As we have heard, each of the bills that has been introduced in the 
Senate, including the one introduced by Senator Boxer last week as a 
companion to the House-passed bill, provides permanent funding to the 
Land and Water Conservation Fund, as well as a number of other 
important conservation initiatives, through Outer Continental Shelf 
revenues. I believe the time is right to pass this kind of legislation. 
We owe it to future generations to do what we can to preserve and 
protect our scarce and unique resources. Numerous States have been 
struggling for years to preserve open space, limit urban sprawl and 
provide residents with a better quality of life, with virtually no 
assistance from the Federal Government. It is time for the Federal 
Government to step up to the plate and assist the States in their 
efforts.
    Many of you may be wondering why the Environment and Public Works 
Committee is holding a hearing on these bills considering that they 
have been referred to the Energy and Natural Resources Committee. While 
the Energy Committee has primary jurisdiction, several of the programs 
affected by the bills, such as the Pittman-Robertson Act and the 
Endangered Species Act, are clearly within our jurisdiction. As the 
committee with jurisdiction, it is our responsibility to review the 
proposed changes to those programs and, based on the committee's 
institutional expertise, make recommendations as to any amendments that 
may be appropriate. Next month, the Energy and Natural Resources 
Committee plans on holding a markup. As most of you know, earlier this 
year I cosponsored S. 2123, a bipartisan bill introduced by Senators 
Landrieu and Murkowski. Since no bill is ever perfect, I look forward 
to working with Senators Murkowski and Landrieu to make several 
improvements that will address the needs of small States such as New 
Hampshire.
    Earlier, several of our colleagues from the House raised concerns 
about the potential impact of these bills on private property rights. 
While I share their very strong support for the rights of private land 
owners, and their concern that there should be limits on Federal 
acquisition of land, I believe that some of their concerns may be 
misplaced. I believe that Senator Murkowski, in S. 2123, and the House, 
in the bill passed a few weeks ago, have addressed many of the 
legitimate concerns that were raised by the property rights community. 
Contrary to popular belief, S. 2123 contains no new Federal land 
acquisition programs. In addition, S. 2123 provides an unprecedented 
level of protection for the private land owner.
    For example, funds from this bill cannot be used by the Federal 
Government to implement regulations on private property. All too often 
the Federal Government places so many restrictions on private property 
that the owner can no longer use it. This bill prevents that unfair and 
probably unconstitutional practice.
    Under the Murkowski bill, any Federal acquisitions of land through 
the Land and Water Conservation Fund would also be subject to 
significantly more restrictions than under current law. S. 2123 
requires Congressional approval of all Federal acquisitions, 
notification to the local communities, and prohibits the condemnation 
of land unless Congress directs otherwise.
    In fact, this bill helps landowners who have endangered species on 
their land. For the first time, private landowners will be able to 
apply for a grant to assist in the recovery of endangered of threatened 
species on their property. In other words, they would be eligible to 
get compensation for some of the conservation measures that they now 
have to pay for themselves. In my opinion, that is a big step forward.
    The programs funded in S. 2123 have worked well throughout the 
years. One in particular is the Land and Water Conservation Fund (LWCF) 
state-side matching grant program. I have long supported this program, 
and have worked tirelessly for the past several years to ensure that 
some funds are appropriated. States rely heavily on this program to 
purchase much needed recreation areas and facilities. Since the LWCF's 
creation in 1964, the state-side matching grant program has funded more 
than 37,000 projects and conserved approximately 2.3 million acres. 
This program should serve as a model because the decision to conserve 
land is made at the local level. Who better to know what lands should 
be preserved than the people who live there.
    There are many good provisions in this legislation. I am pleased to 
be a cosponsor of S. 2123. I look forward to working with Senators 
Murkowski and Landrieu to make further improvements to the bill and to 
do what I can to help pass this historic piece of legislation.
    I would also like to take this opportunity to extend my 
appreciation to Wayne Vetter, Executive Director of the NH Fish and 
Game Department, and Charlie Niebling of the Society for the Protection 
of N.H. Forests. I appreciate their taking the time to come here today 
to testify in support of these bills.
    In closing, I think it is important to remember that it is not 
anti-conservative to be pro-environment.
    I'll stack my record as a fiscal conservative up against anyone's. 
We made a promise when we decided to lease oil and gas rights on the 
Outer Continental Shelf to dedicate a portion of those revenues to the 
environment. This is no different than the highway trust fund. We 
haven't lived up to that promise. In this time of budget surpluses, I 
believe it's about time we do.
    Fulfilling our commitment to use revenue generated from offshore 
oil drilling to preserve the environment elsewhere is a balancing act. 
Unfortunately, for too long we have been taking without giving. I 
believe that President Teddy Roosevelt summed it up best when he said: 
``Conservation means development as much as it does protection. I 
recognize the right and duty of this generation to develop and use 
natural resources of the land; but I do not recognize the right to 
waste them, or to rob, by wasteful use, the generations that come after 
us.''
                               __________
   Statement of Hon. James M. Inhofe, U.S. Senator from the State of 
                                Oklahoma
    Mr. Chairman, thank you for calling this Hearing today on CARA. 
This is a very important issue to this committee and my subcommittee, 
since it deals with both the Outer Continental Shelf and private 
property rights. I appreciate you inviting Mr. Hardiman with the 
American Land Rights Association at my request, although I believe he 
is outnumbered here. I know the Farm Bureau and the Cattlemen are 
opposed to this bill as are numerous property rights groups.
    I have serious reservations about this legislation and I can not 
support it as currently drafted. While the goals of protecting and 
preserving land are certainly commendable, this bill just has too many 
problems.
    1. On the Budget side, we should not be taking $3 billion off-
budget. It is not fiscally responsible. This bill creates a mandatory 
program in which $2.4 billion is spent with no oversight by Congress 
through the appropriations process.
    2. The bill is primarily concerned with acquiring new land. It does 
nothing to address the maintenance backlog on existing National Parks 
and other Federal lands which is estimated at $15 billion. In fact it 
will make the problem worse since we will not be able to afford the 
maintenance on the new lands purchased.
    3. Property rights for private citizens are not protected. The few 
protections that are there only apply to $450 million of the total $3 
billion per year, and in fact Title 4 actually repeals some existing 
property rights protections involving condemnations in urban areas.
    4. The Federal Government already owns and controls too much land, 
particularly out West. Overall the Federal Government owns over 30 
percent of all land, and that does not include States or local 
governments.
    5. Finally, while I understand that States and localities will 
receive funds for projects, it should be noted that the Federal 
Governments will have a dramatically increased role in local 
decisionmaking. Cara requires the Federal Government to review and 
approve most of the plans the States submit for the use of CARA funds. 
I have serious concerns with the Federal Government making planning 
decisions for Oklahoma.
    I hope this bill does not come before the Senate in its current 
form. There are too many budget problems and we would be trampling on 
the rights of individual property owners. I look forward to the 
testimony.
                               __________
 Statement of Hon. Craig Thomas, U.S. Senator from the State of Wyoming
    Mr. Chairman, I appreciate this opportunity to discuss the 
Conservation and Reinvestment Act bills currently pending before the 
Senate Energy and Natural Resources Committee.
    As you know, there are a number of legislative proposals pending 
before Congress which would use the outer continental shelf (OCS) 
revenues to help fund the Land and Water Conservation Fund (LWCF) and 
various conservation programs. Senator Murkowski's bill, S. 2123, is 
the likely legislative vehicle moving in the Senate, so I will focus my 
comments on that bill. However, my major concerns with S. 2123 can also 
be associated with the other related measures.
    While some of the goals of this legislation may be laudable, I also 
have several major concerns about the bill's language and its impact on 
private property rights. We need to continue working to reduce the 
number of inholdings on public lands throughout the West, including our 
national parks. However, rather than purchasing these areas, as 
proposed under S. 2123, I believe we should work to coordinate land 
exchanges that will allow us to reduce these inholdings without 
increasing Federal land ownership. I do not believe we should take any 
action that would reduce the already limited amount of private property 
in my State.
    I remain concerned about protecting private property rights and tax 
bases and still have concerns about the lack of protection against 
Federal land grabs in S. 2123. That is why I will seek to amend S. 2123 
when it is brought before the Energy and Natural Resources Committee 
next month.
    My amendment would limit the amount of private land the Federal 
Government could acquire in States where 25 percent or more of the land 
is federally owned. Additionally, when the government purchases 100 
acres or more, it would be required to sell back into private ownership 
land of equal value in the same State. Since 50 percent of Wyoming is 
already owned by the government, I am concerned about adding more 
federally owned land to our State that might be restricted for specific 
uses. Without successfully attaching my ``No Net Loss Of Private 
Lands'' amendment, S. 2123 has little if any chance of passing.
    S. 2123 would also result in $45 billion in new entitlement 
programs over the next 15 years, increasing the difficulty to control 
spending by the Federal Government. Creating $3 billion in yearly 
permanent appropriations, which is not subject to review by Congress, 
allows the Administration too much discretion with Land and Water 
Conservation Funding (LWCF). Authorizing large permanent appropriations 
will require Congress to find offsets and place restrictions on other 
public land programs.
    Over the past year, the National Park Service, Forest Service and 
BLM have all given estimates to Congress of backlog maintenance needs 
of several billion dollars each. We do not need to increase Federal 
lands' responsibilities, we need to ensure land managers take care of 
what they already have.
    The Senate Energy Committee has scheduled a markup of S. 2123 and I 
will be working with my colleagues to address the concerns I have 
raised. However, significant changes must be made to the bill to ensure 
that private property rights are protected and budget problems are 
addressed before it will gain my support.
    Mr. Chairman, I will continue doing everything I can to return a 
sense of fiscal responsibility to this debate and protect private 
property owners in Wyoming as consideration of this issue continues.
                               __________
   Statement of Hon. Mike Crapo, U.S. Senator from the State of Idaho
    Mr. Chairman, thank you for holding this hearing. Although the CARA 
bills have been referred to the Senate Energy and Natural Resources 
Committee, many of the provisions of this bill fall within the 
jurisdiction of the Environment and Public Works Committee. As such, I 
appreciate the opportunity to further discuss the merits and flaws in 
these bills.
    First, I would like to recognize the presence of Representative 
Helen Chenoweth-Hage of my State and thank her in advance for her 
testimony. As chairman of the House Resources Subcommittee on Forests 
and Forest health, Helen is acutely aware of the existing needs of our 
public lands and I welcome her testimony--not to mention her passion 
for private property protections.
    I also appreciate seeing so many of my good friends from the House 
here to testify on these bills. It is a rare treat and truly an 
indication of the magnitude of this effort.
    Let me begin by saying there are many very good provisions in each 
of these bills. I support many of the items in these bills and have 
participated in past efforts to secure funding for them, and I will 
continue to support many of these projects.
    However, I have concerns about the mandatory spending requirement 
and the impact on budget priorities. For example, in Southern Idaho, in 
the Sawtooth National Recreation Area, securing LWCF funds for scenic 
and conservation easements has been one of my priorities. Nonetheless, 
it must be considered as a reasonable priority-a reasonable priority 
within the constructs of a balanced budget.
    I am also concerned by the failure of these bills to address the 
sizable maintenance backlog on our public lands. The recent fire in Los 
Alamos underscores the danger of failing to actively maintain our 
public lands. The cost to mitigate the damages, and restore the 
ecosystem could have been prevented. There are more than 39 million 
acres of National Forest System Land in the West that is in danger of 
catastrophic fire. Many more millions of acres are at risk from insects 
and disease. Is acquisition more important than adequately maintaining 
our existing lands, particularly when the agencies estimate a 
maintenance backlog of anywhere between $14 and $20 billion.
    Should not taking care of our existing lands be given a priority 
when we talk about adding to the Federal inventory, especially when the 
Federal Government has not proven to me that it is a better steward of 
the land that private property owners? Federal ownership of land is not 
necessary for private property owners to achieve recreation or 
environmental goals on their own land that benefit the public.
    I also have unresolved concerns over the private property 
provisions in the bill. In Idaho, the Federal Government owns over 63 
percent of the land. Understandably, many Idahoans are skeptical of 
further ownership in the State and how that land may be acquired. 
Additionally, the impact on counties when property values are reduced 
or taken off the tax roles is important to note. Payment in Lieu of 
Taxes has not been fully funded and when we talk of acquiring more 
public lands, it is incumbent upon us to first address this shortfall. 
I share the concerns of numerous Idahoans regarding the impact of 
public land ownership and look forward to future discussion of these 
issues.
    Many of the goals of these bills are laudable. They are reasonable 
objectives, but like many reasonable policies, they must be considered 
in the context of all our priorities and obligations.
    That said, I appreciate the efforts my colleagues have made in 
crafting these bills, and as chairman of the subcommittee on Fisheries, 
Wildlife, and Water, I am keenly interested in its goals and 
provisions. I look forward to working with my colleagues on both the 
Environment and Public Works Committee and the Energy and Natural 
Resources Committee on these bills.
    Again, thank you, Mr. Chairman. I look forward to hearing the 
testimony of the panelists.
                               __________
Statement of Hon. Lincoln Chafee, U.S. Senator from the State of Rhode 
                                 Island
    Thank you, Mr. Chairman, for holding this hearing on these very 
important bills pending before the Senate. I can think of few 
environmental issues facing this Congress more important than efforts 
to conserve open space. This Congress has an opportunity to make some 
critical investments in our nation's natural resources, and I hope that 
we can take advantage of this opportunity.
    The notion that revenues from the depletion of oil and gas 
resources should be reinvested into our natural resources is not a new 
or revolutionary idea. Congress recognized the wisdom of this idea in 
1964, and passed the Land and Water Conservation Fund Act. In 1986, 
President Reagan's Commission On the American Outdoors reported that:
    ``Preservation of fast disappearing open space, investment in 
rehabilitation of deteriorating facilities, getting ahead of urban 
growth as it runs across the land--these are actions which cannot wait, 
but must be taken now, for tomorrow they will be more expensive, or, in 
some cases, impossible.''
    For the past 40 years, many in and out of the Federal Government, 
have talked about the need to increase investment in the Land and Water 
Conservation Fund, efforts to conserve fish and wildlife, historic 
preservation and park restoration activities. I think we have had 
sufficient talk, and now is the time to act.
    Immediate action is necessary because the current opportunities to 
conserve land and recover threatened and endangered species will not 
exist in 10 or 15 years. As a city council member for 4 years, and a 
local mayor for the past 7 years, I have witnessed firsthand the 
conversion of dairy farms into department stores. My experience in 
local government has taught me that the most critical element of 
controlling growth is the wise acquisition of valuable open spaces. We 
don't want the developers to have it all! And I am sure that this 
sentiment is true in every State. In fact, in 1998, over 200 ballot 
measures were approved across the country for green space acquisition. 
And this year, the State of Rhode Island has proposed a $50 million 
bond initiative for open space acquisition for the next 20 years. Many 
local and State governments desperately want to conserve and protect 
their precious natural resources areas. Unfortunately, existing funding 
is not enough to accomplish the enormous task at hand. The Federal 
Government must become involved in these efforts. If Congress fails to 
act, we will continue to develop some of our most precious natural 
areas, and we will continue to witness a decline in open space, 
endangered species, recreational opportunities and our quality of life. 
This issue is about our legacy to future generations, and our failure 
to act will be costly.
    While I strongly support the goals of the bills before us today, I 
also believe that we can improve on the proposals. I urge the following 
principles be incorporated in any bill that passes the Senate.
    State lines do not trace ecosystems and some of America's most 
important natural areas--the Northern Forest of New England, the 
Mississippi Delta, and the Great Lakes--are not contained in one State 
alone. This fact makes it difficult--particularly for small States like 
those in New England--to preserve treasures like the ones I just 
mentioned. The addition of a flexible funding component to the LWCF 
could provide additional money that could be used by an individual 
State for a costly project of national significance, or by a group of 
States for preservation of areas that spill over State boundaries.
    We should also avoid creating incentives for off-shore oil 
drilling, and ensure that moneys earned from the nation's environmental 
resources ought to be reinvested into other natural resources as 
envisioned by the original 1965 bill--not used to build more roads or 
lay new sewer lines. I recognize that there are legitimate 
infrastructure impacts in OCS producing States that need to be 
addressed, but I also believe that a significant portion of the funding 
should be allocated toward mitigating the adverse impacts of OCS 
production on the environment.
    We also need to make greater investments in the protection and 
recovery of endangered species and place greater emphasis on 
conservation efforts that will prevent other declining species from 
being added to the Threatened or Endangered lists. The value of open 
space is not only in the land, but also the wildlife that the land 
sustains. Current funding for wildlife conservation and management 
efforts should be increased for threatened and endangered species, and 
indeed for all wildlife--game and non-game species.
    I want to thank you once again Mr. Chairman for holding this 
hearing on such an important and timely environmental issue. I look 
forward to the testimony of the witnesses.
                               __________
  Statement of Hon. Max Baucus, U.S. Senator from the State of Montana
    Thank you, Mr. Chairman.
    First, I want to thank all of those whose leadership has brought us 
this far.
    In the House, it's been the work of Congressman Young, Congressman 
Miller, and others.
    In the Senate, it's been Senator Murkowski. And Senator Bingaman, 
who has written a very good bill that I am proud to cosponsor.
    I want to pay a particular complement to Senator Landrieu. I don't 
agree with every provision of her bill. But she's been a determined and 
articulate advocate, pressing her case at every opportunity.
    There's not much time left in this session of Congress. But, if we 
roll up our sleeves, and work together, we can pass a solid lands 
legacy bill. A bill that not only is good for coastal States, like 
Louisiana, Alaska, and California, but that also is good four the 
entire nation, including the west.
    From the western perspective, some folks are concerned about the 
impact that they think these bills might have on private property 
rights.
    We may have differences about that.
    But there's a lot that we ought to be able to agree on.
    For example, all of the bills would increase funding under the 
Pittman-Robinson Act, which supports State conservation programs.
    All of the bills provide financial incentives for landowners to 
take voluntary steps to improve the environment, such as through 
conservation easements.
    The Bingaman-Baucus bill would provide funding for voluntary 
agreements with landowners to protect endangered species, which is 
critical to making the Endangered Species Act work better and achieve 
more widespread support.
    And the Bingaman-Baucus bill would fully fund to make payments in 
lieu of taxes, to offset the impact that Federal land ownership has on 
our local tax base.
    These are important improvements.
    Mr. Chairman, with the legislation before us today, we have an 
important opportunity. We can write a solid, bipartisan bill that 
leaves our children and grandchildren a legacy, in the tradition of one 
of your heroes, Theodore Roosevelt.
    We must not let the opportunity pass.
                               __________
 Statement of Hon. Frank R. Lautenberg, U.S. Senator from the State of 
                               New Jersey
    Mr. Chairman, I am pleased that the committee is holding a hearing 
on such an important issue, and I look forward to hearing the views of 
our distinguished witnesses. I strongly support legislation to 
establish permanent funding for the protection of our precious natural 
resources.
    Enactment of this critical legislation would make an enormous 
difference in the legacy we leave to future generations of Americans. I 
am pleased to say that I am a cosponsor of S. 2181 sponsored by Senator 
Bingaman, as well as S. 446 sponsored by Senator Boxer.
    Over the past 30 years, appropriations from the Land and Water 
Conservation Fund have purchased three million acres of land for the 
national park, forest, and refuge systems. And States have purchased 
another two million acres with grants from the Fund. However, we must 
do more. It is critical that we establish a secure long-term source of 
funding for conservation activities.
    In the past several years, this program has often received less 
than one-quarter of the total authorized level, with no funding going 
to the State and local portion of the program between 1995 and 1999.
    Congress' failure to fully appropriate LWCF funds has delayed the 
purchase of tens of millions of acres of land for previously authorized 
park projects.
    These delays typically result in higher prices for the land when it 
is ultimately acquired, and natural resources' values are often lost or 
degraded in the interim.
    If we are going to make a significant investment in our nation's 
natural resources and preserve our open spaces, a dedicated revenue 
stream is essential.
    Currently, we have a $10 billion backlog in Federal land 
acquisition needs that includes areas vital to conserving wetlands, 
watersheds, and wilderness; protecting refuges and habitat; preserving 
important historic and cultural sites; and providing trails and open 
spaces for outdoor recreation. If these national treasures are not 
protected, they may be lost forever.
    In addition to critical needs in the area of land acquisition, the 
bills before us fund many other essential environmental programs, 
including wildlife conservation, the Urban Park and Recreation Recovery 
Program, historic preservation and coastal protection.
    Mr. Chairman, unrestrained development is putting pressure on our 
existing public lands. Urban and suburban sprawl and the loss of open 
space have become primary concerns for communities throughout the 
country.
    In the 1998 elections, there were over 240 State and local parks 
and conservation ballot initiatives.
    Approximately 72 percent were successful, including a $1 billion 
open space initiative in my own State of New Jersey.
    The American people are making their voices heard on this critical 
issue, and passage of conservation legislation is a strong and 
meaningful way to respond.
    I look forward to working with the members of this committee to 
ensure that we do the right thing by preserving and protecting our 
critical natural resources.
                               __________
  Statement of Hon. Bob Graham, U.S. Senator from the State of Florida
    Mr. Chairman, thank you for holding today's hearing. This year 
during the 106th Congress we have an opportunity to enact the broadest 
conservation measures since the 1980 Alaska lands bill and the original 
Land and Water Conservation Fund of the 1960's. Our committee will be 
playing a key role in forging the compromise that will be necessary if 
we are to pass this critical legislation this year.
    We are beginning the third full century of our nation's history. 
The first was marked by the Louisiana Purchase which added almost 530 
million acres to the United States. It changed the United States from a 
eastern, coastal nation to one covering the entire continent. The 
second century of our nation's history was marked by additions to the 
public land trust. President Theodore Roosevelt started the century by 
designating for Federal protection between 1901 and 1909 almost 230 
million acres--a land area equivalent to that of all of the East coast 
States from Maine to Florida and just under one-half of the area 
purchased in the Louisiana purchase.
    As we enter the third full century of our nation's history, we must 
ask ourselves, how can we preserve these national treasures given the 
changing nature of American society? In the next century, America will 
become a different place. The Census Bureau predicts that our 
population will grow from 275 million to 571 million. This population 
will become progressively more urban, more diverse, and older. We must 
work today to ensure that our approach to conservation is in tune with 
the greater demands that will be placed on our natural system. We must 
strive to meet the challenge posed by Theodore Roosevelt, who said, 
``We must ask ourselves if we are leaving for future generations an 
environment that is as good, or better, than what we found.''
    As a member of ENR Committee I have been engaged in the CARA bill 
debate since early 1999. I believe one of the most critical elements of 
the final package is one outside of the jurisdiction of this committee, 
but critical in our nation's conservation policy--funding for our 
national parks. In April 1999 I introduced The National Park 
Preservation Act, S. 819, with my colleagues Senators Reid, Mack, and 
Cleland. This bill would establish a National Park Preservation Fund of 
$500 million for actions by the National Park Service to protect or 
restore core park resources that are threatened by actions inside or 
outside park boundaries. Over the last year, I have visited multiple 
national parks throughout the Nation and have been stunned by the 
condition of park resources.
    In the Everglades, human manipulation of watershed led to ecosystem 
devastation. At Ellis Island National Monument, historic structures 
left unmanaged are dilapidated. At Bandelier National Monument, 
cultural artifacts are soiled by graffiti and are left unprotected from 
erosion.
    This weekend I will be visiting Olympic National Park to broaden my 
perspective on the State of our national parks. My legislation will 
provide the National Park Service with the funding it needs to address 
the condition of its natural, cultural, and historical resources. I 
hope that each of you will join me in my support for our National Park 
System and for forward progress on the OCS Revenue bills that we are 
considering today.
    This Congress has the opportunity to meet the challenge posed by 
Theodore Roosevelt to leave our world a better place for future 
generations. We have the opportunity, with action on the bills before 
us today, to reach the people of the next century with the vision of 
John Muir who said: ``Thousands of tired, nerve-shaken, over-civilized 
people are beginning to find out that going to the mountains is going 
home; that wilderness is a necessity; and that mountain parks and 
reservations are useful not only as fountains of timber and irrigating 
rivers, but as fountains of life.''
    Thank you, Mr. Chairman.
                               __________
 Opening Statement of Hon. Joseph I. Lieberman, U.S. Senator from the 
                          State of Connecticut
    Thank you Mr. Chairman for holding this important hearing. Rarely 
are we presented with choices that will so profoundly influence the 
environmental future of this nation as this one, the debate over Outer 
Continental Shelf (OCS) oil and gas revenues. Happily, we have already 
witnessed a tremendous commitment of time and effort to this important 
subject, both here in the Senate and in the House. Let me begin by 
recognizing that commitment, particularly on the part of my colleagues 
who have introduced their own legislation, including Senators 
Murkowski, Bingaman, Landrieu, Boxer, and Graham.
    I am glad to have the opportunity to discuss this subject further 
and look more closely at S. 25, S. 2123, and S. 2181 here today, 
because I know that the conservation of land and wildlife is of great 
concern to the people in my home State of Connecticut and around the 
country. Last year, Connecticut passed an Open Space and Watershed Land 
Grant Program with a goal of preserving as open space 21 percent of the 
State--roughly half a million acres--by the year 2023. One hundred and 
15 land trusts are now active and growing in Connecticut. Across the 
United States, similar groups are also working hard to protect and 
preserve lands in their own backyards.
    The stakes are large, and it is clear that these groups cannot do 
it alone. Local and State efforts need the support of a larger, 
national vision of conservation and stewardship. The concept behind all 
three bills we will consider today is straightforward: we should 
reinvest the proceeds gained by the depletion of federally owned, non-
renewable natural resources such as oil and gas, into a reliable source 
of funding for State, local, and Federal conservation and environmental 
stewardship efforts. There are differences between how the bills would 
achieve this goal, some of them significant, but before addressing 
those differences, I believe it is important to recognize the value of 
the underlying concept.
    A few years ago, the late Senator John Chafee and Senator Jim 
Jeffords and I also developed legislation on this subject, S. 1573, the 
Natural Resources Reinvestment Act. We drafted S. 1573 based on four 
basic principles that I still believe are relevant to crafting an 
environmentally sound and regionally equitable proposal for reinvesting 
OCS revenue. First, OCS revenues should be reinvested in the nation's 
resources--environmental, natural, cultural and historic. Second, this 
reinvestment must be meaningful and lasting. Third, we should 
distribute the revenues equitably among all regions of this great 
nation. Fourth, we should make the funding for our national 
reinvestment permanent.
    The bills before us today address these fore, core principles to 
varying degrees. There is still time to blend them into a final 
legislative product. I look forward to hearing our witnesses today and 
learning from their perspectives on the principles I have described, as 
well as on other improvements that might yet be made. Finally, I look 
forward to a constructive dialog with my colleagues in the coming weeks 
as we address these remaining challenges and work toward creating a 
tremendous national environmental legacy that seems increasingly within 
our reach and our grasp.
                               __________
    Statement of Hon. Barbara Boxer, U.S. Senator from the State of 
                               California
    Mr. Chairman, I want to thank you for holding a hearing on what I 
consider to be the most important and historic conservation legislation 
to come before this Congress. I am pleased to say that I have been 
involved from the very start in the effort to create a permanent source 
of conservation funding. In February 1999, Representative Miller and I 
introduced the Permanent Protection of America's Resources 2000 Act, a 
bill that would provide nearly $3 billion in funding for a variety of 
important conservation programs. Since then, I have worked closely with 
Senator Bingaman and Senator Baucus to develop the Conservation and 
Stewardship Act, S. 2181. I am deeply committed to the passage of 
conservation funding legislation.
    I want to begin by congratulating my colleagues, Chairman Young and 
Representative Miller, for their remarkable and successful efforts to 
pass H.R. 701, the Conservation and Reinvestment Act. I am thrilled 
that we have gotten to the point we are at now. The House-passed bill, 
while not perfect, offers a useful starting point for the Senate. I was 
particularly pleased with several key changes that I believe largely 
address the question of drilling incentives.
    Several days after the victory on the House floor, I introduced 
identical legislation in the Senate and had it placed on the Senate 
calendar. I did this not because I endorse everything that is in the 
House bill but rather, because I believe that the fastest way to pass 
conservation funding legislation is to take up where the House left 
off. With so few days left in the legislative calendar, I fear the 
Senate will miss its opportunity to work on this important issue unless 
we move forward expeditiously. It would be a tragedy if we let this 
session of Congress end without passing this critical legislation to 
protect our invaluable natural and cultural heritage.
    I understand that Chairman Murkowski has scheduled a mark-up for 
these bills in mid-June. I commend the chairman, Senator Bingaman, 
Senator Landrieu and others on the Energy Committee who have been 
working for many months to find a compromise; I hope that they are 
indeed able to move a strong bill out of their committee.
    Whatever bill becomes the final vehicle, it should accomplish the 
following four goals: 1) provide substantial and permanent funding for 
conservation purposes; 2) ensure that the funds will be used only for 
the benefit of the environment; 3) give adequate guidance to direct the 
funds to the most pressing conservation needs; and 4) be free of any 
incentives for increased offshore oil and gas development.
    I believe that S. 2181 most effectively accomplishes these goals. 
Although many of the bills have similar features, S. 2181 has some 
important distinguishing characteristics that are worth highlighting. 
Importantly, S. 2181 includes an incentives program for landowners who 
contribute to the recovery of threatened and endangered species. 
Increased outreach to landowners is desperately needed to ensure the 
continued survival of many endangered and threatened species that are 
found primarily on private lands.
    Like many of the other conservation funding bills, S. 2181 also 
provides funding to State fish and wildlife agencies for wildlife 
protection. The bill, however, provides specific guidance to the 
States, including a requirement that they develop a strategic plan for 
using these funds. This ensures that the funds will be used for nongame 
and game species alike and that the funds will be directed to the 
species that have the greatest conservation needs. The planning 
language for this title is supported by a broad array of wildlife 
interest groups.
    S. 2181 also provides greater clarity to coastal States about the 
use of coastal impact assistance funds. It ensures that the funds will 
be used only for projects related to environmental enhancement or 
restoration. Without such explicit restrictions, there will be pressure 
at the State level to siphon off these dollars for activities 
completely unrelated to conservation, including environmentally harmful 
activities.
    Finally, S. 2181 includes safeguards to ensure that the bill in no 
way creates incentives for State or local governments to support 
increased offshore oil and gas drilling.
    These are all features that should be incorporated into any bill 
that moves forward in the Senate. The level of public awareness and 
interest in these conservation issues has grown dramatically as people 
realize that our natural and cultural treasures will continue to 
disappear unless we act quickly to save them. During the last election 
there were a record number of successful State ballot initiatives 
directed at the protection of open space, slowing of suburban sprawl, 
and increasing environmental protection. By margins of nearly 2 to 1, 
Californian voters passed two major bond initiatives: a $2.1 billion 
bond for land acquisition, outdoor recreation, urban parks, farmland 
protection, and wildlife habitat; and a drinking water bond providing 
$1.9 billion for watershed restoration and water quality improvement. 
Americans understand that we can't afford not to make a long-term 
investment in our natural treasures.
    This level of public interest is reflected by the fact that nearly 
every Governor has expressed support for the idea of permanent 
conservation funding. The White House has sent strong signals of 
endorsement. And most recently, the House demonstrated unequivocally 
that broad bipartisan support exists across the political spectrum and 
from all geographic regions. This is as it should be.
    It is time now for the Senate to act. I am committed to doing 
everything I can to create a permanent source of conservation funding, 
and I am hopeful that we can pass legislation to do so this year.
                               __________
    Statement of Hon. Thad Cochran, U.S. Senator from the State of 
                              Mississippi
    Mr. Chairman, thank you for inviting me to testify at this hearing 
today.
    The Federal Government has too often used Outer Continental Shelf 
revenues for big, high profile projects, and has virtually left out 
small States like Mississippi. We have smaller projects, and our needs 
are not nearly as great as some of the larger States, but yet they are 
very real and very important to the people who live in Mississippi.
    This legislation will shift more of the money that comes from these 
resources to States like Mississippi.
    We have environmental organizations and State agencies that are 
trying hard to protect fragile wetlands and fisheries resources, and we 
are restoring the habitat of the osprey and eagle. Great progress is 
being made on these and other similar initiatives, but we need the 
extra money this bill will provide to enable our State to do the job 
right.
    For many years, we have sought additional funding for the ``State-
side'' portion of the Land and Water Conservation Fund, which provides 
Federal funding for State initiatives for the protection of valuable 
natural resources and fish and wildlife habitat. Our bill provides full 
funding for the State's share while still providing for Federal 
programs, coastal conservation and impact assistance, wildlife 
conservation and education programs, and historic preservation.
    I'm glad to be a cosponsor of this legislation, and I hope this 
committee will recommend its approval by the Senate.
                               __________
  Statement of Hon. Mary L. Landrieu, U.S. Senator from the State of 
                               Louisiana
    Mr. Chairman, thank you for inviting me here today to discuss the 
Conservation and Reinvestment Act (S. 2123). The Conservation and 
Reinvestment Act represents a unique opportunity to enact legislation 
making the largest commitment to conservation in the history of our 
nation. This compelling and balanced bipartisan legislation would 
reinvest a significant portion of the annual funds received from the 
liquidation of a capital asset of the nation--offshore oil and gas in 
the conservation of our coasts, our wildlife resources, our scenic 
natural resources and our children, through enhanced outdoor and 
recreational opportunities. It is free of harmful environmental impacts 
to coastal and ocean resources; does not unduly hinder land acquisition 
yet acknowledges Congress' role in making these decisions; reflects a 
true partnership among Federals State and local governments and 
reinvests in the renewable resource of wildlife conservation through 
the currently authorized Pittman-Robertson program by nearly doubling 
the Federal funds available for wildlife conservation and education 
programs. The legislation is supported by a grassroots coalition of 
approximately 4,500 organizations from around the Nation including the 
Nature Conservancy and the U.S. Chamber of Commerce. To date we have 19 
cosponsors and counting, including members from both sides of the aisle 
and from coastal and interior States. In fact, I am proud to point out 
that four members of this committee: Chairman Smith as well as Senators 
Warner, Bond and Wyden are cosponsors of S. 2123.
    On May 11, the House of Representatives passed H.R. 701, the 
bipartisan House companion to S. 2123, by an overwhelming vote of 315 
to 102. Congressmen Don Young (R-AK), George Instiller (D-CA), Billy 
Tauzin (R-LA), John Dingell (D-MI), Chris John (D LA) deserve accolades 
for this remarkable compromise.
    This legislation provides $2.8 billion for seven distinct 
reinvestment programs. Title I authorizes $1 billion for Impact 
Assistance and Coastal Conservation by creating a revenue sharing and 
coastal conservation fund for coastal States and eligible local 
governments to mitigate the various impacts of OCS activities while 
providing funds for the conservation of our coastal ecosystems. ID 
addition, the funds of Title I will support sustainable development of 
nonrenewable resources without providing incentives for new oil and gas 
development. All coastal States and territories will benefit from 
coastal impact assistance under this legislation, not just those States 
that host Federal OCS oil and gas development. Title II guarantees 
stable and annual funding for the State and Federal sides of the Land 
and Water Conservation Fund (LWCF) at its authorized $900 million level 
while protecting the rights of private property rights owners as I am 
sure my colleagues from the House side will be more than happy to point 
out during their testimony. The bill will restore Congressional intent 
with to the LWCF, the goal of which is to share a significant portion 
of revenues from offshore development with the states to provide for 
protection and public use of the natural environment. Title III 
establishes a Wildlife Conservation and Restoration Fund at $350 
million through the successful program of Pittman-Robertson by 
reinvesting the development of nonrenewable resources into a renewable 
resource of wildlife conservation and education. This new source of 
funding will nearly double the Federal funds available for wildlife 
conservation. This program in particular enjoys a great deal of support 
through the tireless support of a coalition of over 3,000 groups known 
as Teaming with Wildlife. In addition, the Wildlife Conservation 
program would be enhanced without imposing new taxes. Title IV provides 
$125 million for the Urban Parks and Recreation Recovered program 
through matching grants to local governments to rehabilitate and 
develop recreation programs, sites and facilities. The Urban Parks and 
Recreation program would enable cities and towns to focus on the needs 
of its populations within our more densely inhabited areas with fewer 
greenspaces, playgrounds and soccer fields for our youth. Stable 
funding will provide greater revenue certainty to State and local 
planning authorities. Title V provides $100 million for a Historic 
Preservation Fund through the programs of the Historic Preservation 
Act, including grants to the States' maintaining the National Register 
of Historic Places and administering numerous historic preservation 
programs Title VI provides $200 million for Federal and Indian Lands 
Restoration through a coordinated program on Federal and Indian lands 
to restore degraded lands, protect resources that are threatened with 
degradation and protect public health and safety. Title VII provides 
$150 million for Conservation Easements and Species Recovery through 
annual and dedicated funding for conservation easements and funding for 
landowner incentives to all in the recovery of endangered and 
threatened species. Finally, there is up to $200 million available for 
the Payment In-Lieu of Taxes (PILT) program through the annual interest 
generated from the CARE fund.
    I would like to close by pointing out that the opportunity exists 
to make the Conservation and Reinvestment Act even stronger. There are 
additional programs such as urban forestry and national park resources 
which we plan to address. In addition, as many of you know, Senator 
Bingaman has introduced a bill, the Conservation and Stewardship Act, 
which shares similar goals, albeit through a slightly different 
approach. I applaud Senator Bingaman for his efforts and hope we are 
able to reach a compromise in the near future as prospects for this 
legislation may never again be as positive as they are in the year 
2000. We must resolve our differences of approach and enact this major 
commitment to conservation that will benefit not just certain people or 
certain regions of the country, but all Americans for generations to 
come.
    Thank you, Mr. Chairman.
                               __________
  Statement of Hon. Don Young, U.S. Representative from the State of 
                                 Alaska
    Mr. Chairman, committee members, thank you for allowing me to 
testify today on the Conservation and Reinvestment Act, the bill known 
as CARA. While there are several conservation measures before the 
Senate, I will focus my testimony on H.R. 701 which passed the House 
Thursday, May 11, 2000.
    After 2-days of debate and 26 amendments, the Conservation and 
Reinvestment Act of 2000 passed the House of Representatives by a vote 
of 315 to 102. This vote was important as it is a clear super-majority 
of the House and represents a majority of both Republicans and 
Democrats.
    I am certain this overwhelming bipartisan support was possible 
because of the process CARA was formed within. It was a fair and 
lengthy process that demanded a great deal of commitment and most 
importantly patience. The Resources Committee held 5-days of 
legislative hearings and hours of Member negotiations;
    Ultimately, two things made our process effective. First, we had a 
commitment to work together in solving real problems. As you have 
witnessed, this initiative uncovers several problems. Some of the 
solutions were challenging and others are too difficult to resolve 
within this bill. However, H.R. 701 finds balance on issues ranging 
from incentives for new oil and gas drilling to providing unity for the 
wildlife community. CARA addresses the concern that it could create 
incentives for new oil and gas development, by protecting current 
moratoria areas. And the new wildlife program provides funding for a 
State-controlled wildlife conservation and education program to the 
benefit of game and non-game species.
    The most persistent issue for CARA has been the discussion on 
property rights. Let me say for the record, H.R. 701 protects the 
rights of landowners--It does not diminish them.
    If you care about willing sellers, a process to notify the public 
of new Federal land acquisitions, a reasonable Congressional process 
for new Federal land acquisition and Federal regulatory limitations--
you cannot be happy with current law. Current law falls terribly short 
on these issues and CARA corrects these problems to the benefit of land 
owners.
    But don't just take the advocates word for it. I ask that you read 
the bill. But also listen to one of CARA's critics who voted against 
the bill in committee and on the House Floor. Congressman Richard Pombo 
of California, a long-time champion of property rights, said the 
following: ``I will have to also say that I do not believe that there 
is anything in this legislation that directly takes away people's 
property rights.'' Congressman Pombo has fought for property rights 
along the side of Billy Tanzin and I long before it became a popular 
issue.
    The second issue that made our House process successful is the 
revelation that the most significant enemy of this good legislation is 
perfection. I think we all use that statement quite often, but it seems 
to apply to this legislation.
    CARA is such a comprehensive conservation and recreation package, 
it is almost every Member's first instinct to see how one additional 
change will bring the bill closer to perfection. In the end, we found 
that the negotiated bill was worth protecting. As amendments and 
changes have been made, we have successfully worked to protect the 
central components of the bill. However, by returning CARA to an on-
budget framework, providing protections for Social Security and 
Medicare and making reasonable changes for land acquisition policy, 
CARA has become a more balanced package.
    This conservation and recreation package will benefit the Nation 
for decades to come and the Senate has a historic opportunity to 
continue the efforts of this growing coalition by passing a bill this 
session. I hope that your process will be one that capitalizes upon the 
coalition that has rallied around these issues. A coalition that has 
grown to 4,576 Governors, local governments, national and local 
organizations and countless individuals across the nation.
    Thank you for allowing me to testify and I ask that the list of the 
4,576 supporting organizations be included in the record.
                               __________
Statement of Hon. George Miller, U.S. Representative from the State of 
                               California
    Mr. Chairman, Senator Baucus, and members of the committee, I 
appreciate your providing me the opportunity to testify today on the 
most important environmental and resource protection initiative to come 
before Congress in many years.
    When we began formulating various versions of this proposal--
Chairman Young, Senator Murkowski and Senator Landrieu called theirs 
``The Conservation and Reinvestment Act,'' Senator Boxer and I called 
ours ``Resources 2000''--nearly everyone said the bills were too big, 
too expensive, too far reaching.
    When we said we would try to merge the bills, nearly everyone said 
it was impossible. Don Young and George Miller, together at last? But 
we did it. They said we'd never get it out of the Resources Committee; 
we did, by a 3-1 bipartisan vote.
    They said we could never build a national coalition of parks and 
wildlife and trails and soccer enthusiasts; of hunters and hikers and 
State and local officials; of sports teams and sports manufacturers, of 
police and firmer city recreation programs. We did, and over 4,000 
organizations and individuals and dozens of newspapers and Legislatures 
and city and county governments and others embraced our bill.
    They said we'd never get it scheduled for the House floor; too much 
ideological opposition, too many budget questions, too many 
jurisdictional fights between committees. But 3 weeks ago, 315 Members 
of the House, a majority of both parties, proved all the doubters 
wrong.
    We delivered to the American people on a promise we made 36 years 
ago--and then forgot: a permanent, substantial commitment to invest a 
portion of offshore revenues back into our parks and our coasts, our 
urban recreation and our wildlife.
    And despite the inflamed rhetoric you will hear from a tiny 
minority of voices, we did it responsibly, without trampling on 
property rights or States rights. In fact, our legislation takes 
special care to protect property owners by giving them notice, ensuring 
they are involved in the process, focusing on alternatives to 
acquisition, and by putting most of the money--about 80 percent of it--
into the hands of State and local of finials, not into the hands of 
those promoting Federal land acquisition.
    So now the responsibility is yours. You can listen to the rhetoric 
of the nay-sayers and the doubters and kill this legislation; you can 
say ``no'' to the 80 to 90 percent of people in your State--in 
practically every State, Frank Luntz' poll tells us--who want to fund 
parks and recreation and wildlife.
    Or you can do what we did in the House: look at what this bill 
really says, not how it is characterized. Listen to your constituents, 
not to hysterical voices who mix--state the intent and the letter of 
the legislation. Put aside the party and ideological and jurisdictional 
divisions just long enough to do something that will endure longer than 
any of us.
    If Don Young and George Miller can figure out how to work together 
to pass CARA with 315 votes in the House, I think the U.S. Senate can 
figure it out, too.
    When a number of us were down at the White House a few weeks ago--
Sens. Murkowski, Landrieu, Breaux, Bingaman and Boxer; Congressmen 
Young, Tauzin, John, Dingell and I--the President told us, and every 
one of us agreed, that it would be shameful if we fail to pass this 
bill after having brought it so far. He's right. And the American 
people overwhelmingly agree with him.
    So let's figure out how to get it done. Our resources--whether the 
coast of Louisiana, or the wildlife, or the parks, or the soccer teams, 
or any of the others who will benefit are at risk--we don't have years 
to delay. We've been waiting for three decades. Let's redeem the 
promise now.
                               __________
 Statement of Hon. Helen Chenoweth-Hage, U.S. Representative from the 
                             State of Idaho
    Mr. Chairman, thank you for holding this hearing today, and for 
giving me the opportunity to testify before the Senate today on the 
``Conservation and Reinvestment Act,'' (or CARA), a bill which will 
have far reaching implications for the nation. I also want to recognize 
my own Chairman, Don Young, who is here today to testify on behalf of 
the legislation. I want to reiterate that although we fundamentally 
disagree on this legislation (which is rare), I do admire the ability 
of Chairman Young to work across party lines, and I think it is 
important to be able to agree with one another and work together. But 
not at the expense of our constituents out there, our private property 
owners.
    Mr. Chairman, I am fully aware of the support that has been amassed 
in support of CARA. But I strongly urge this committee and the Senate 
in its deliberative nature to pull the reigns on this fast-moving 
wagon, and take a long and hard look at what we are doing. This bill 
establishes a $40 billion mandatory fund over the next 15 years, 
billions of which will be given to the Federal Government, States, 
tribes and even non-profit organizations to purchase private property, 
forever taking lands out of production and off the tax rolls. Billions 
more will be at the control of the Secretary of Interior to fund 
everything under the sun, with little oversight by Congress. This bill 
also establishes a permanent revenue source for non-governmental 
organizations, to carry out their purposes.
    The point is, Mr. Chairman, is that CARA will dramatically impact 
the lives of many of our constituents, it will dramatically expand the 
scope and power of the Federal Government, and it will dramatically 
reduce the Constitutional role of Congress to control the purse 
strings. And for that reason, we cannot, we must not let CARA be 
enacted into law. Whatever temporary benefits are derived, or pressure 
that is relieved from clamoring special interest groups, will be more 
than outweighed by the ultimate costs of this legislation.
    Mr. Chairman, I only have a few minutes to speak on this issue--so 
I will cut to what I believe are the central issues that Congress must 
consider on this legislation. First, while CARA is being established 
under the guise of ``environment'' and ``conservation,'' its true 
premise has more to do with who will own and control property and its 
use in the United States of America.
    When did we conclude that the government can manage the land more 
responsibly and efficiently than the private property owner?
    When did we decide that it was the duty of the government to 
consume and govern the use of private property?
    The truth is that a private property owner categorically does a 
better job of utilizing and conserving private property. Government, by 
its very nature, is inefficient and unhealthy when it comes to managing 
land and water. One only need to look at the recent debacle created by 
the Federal Government in the fires of New Mexico, the $12 billion 
backlog in maintenance and repairs for NPS facilities, and the woeful 
state of our national forests to prove this point.
    Second, Mr. Chairman, we must look at what kinds of precedents CARA 
will set in terms of additional mandatory trust funds taken from 
general revenue streams? Consider what it will do to our fiscal 
priorities such as paying down our debt and shoring up Social Security, 
building up our national defense, and providing tax relief. Every 
dollar set aside for CARA is a dollar taken away from these priorities.
    In fact, Mr. Chairman, when presented with the facts, other 
national priorities far outweigh CARA. In a recent national poll, by a 
margin of 72 percent to 13 percent, Americans rejected spending for 
CARA when told that it will shift funds away from Social Security and 
debt reduction. Moreover, Americans on an eight to one margin said that 
we should address our maintenance needs first before acquiring more 
lands. Finally, on a list of priorities, only 1 percent picked land 
acquisition as our most important priority.
    Mr. Chairman, I want to let the committee know that I have studied 
every provision and word in this legislation, and have carefully 
considered how it will be interpreted. There is so much more to say, 
and I hope that the Members of this committee would probe this issue 
through questions.
    Finally, Mr Chairman, in considering CARA, I would urge the 
committee to keep the words one of our founders John Adams in the 
forefront of their minds. Adams warned: The moment that the idea is 
admitted into society that property is not as sacred as the Laws of God 
and there is not a force of law and public justice to protect it, 
anarchy and tyranny commence. Property must be sacred or liberty cannot 
exist.
    Again, thank you for giving me the opportunity to share my views on 
this critical issue.
                               __________
 Statement of Hon. John Shadegg, U.S. Representative from the State of 
                                Arizona
    Chairman Smith, thank you for the opportunity to testify regarding 
the Conservation and Reinvestment Act (CARA). While I oppose this 
legislation, I want to take a moment and compliment its three principal 
authors, Representatives Young, Tauzin, and Miller. I think it is safe 
to say that this coalition of men who have often been fierce 
adversaries on issues relating to the environment and Federal land 
policy is what has enabled this legislation to move forward. Each of 
these Members brought their own distinct and differing priorities to 
the table. Mr. Young fiercely advocated funding for the Pittman-Roberts 
Wildlife Program. Mr. Tauzin fought to secure funding for coastal 
States, such as his home State of Louisiana, which permit off-shore 
drilling. Mr. Miller advanced the notion of full funding for Federal 
and State land acquisition programs. On their own, each of these 
proposals might not have gone very far in the legislative process. 
Indeed I am confident that Mr. Young would have opposed a stand alone 
measure which guarantees funding for Federal land acquisition just as 
fiercely as Mr. Miller would have opposed funding that assisted a State 
on the basis that it permitted offshore drilling. These Members, 
however, were able to put aside their policy objections in the name of 
creating one omnibus bill with a little bit of Federal money for 
everyone, to create in the words of The Washington Post, a 
``legislative freight train.'' In so doing they increased the 
likelihood that each of them would see their own priority enacted into 
lane While this arrangement may make good politics, I am afraid it 
makes awful public policy.
    Permit me to cite a few examples for the committee.
    Private Property Rights--Proponents of CARA will tell you that 
their bill strengthens private property rights and indeed the bill does 
include several provisions such as community notification and 
Congressional approval that improve the Federal land acquisition 
process. However, the price paid for these provisions was extremely 
high, namely the creation of an annual $450 million mandatory funding 
stream for Federal land acquisition. Many private property rights 
advocates, myself included, would argue that one of the greatest 
threats to private property is the existence of such a large mandatory 
funding stream exclusively for the purpose of acquiring more Federal 
land. The proponents of this legislation will argue that this is not a 
threat at all because to paraphrase them, ``on average, the Republican 
Congress has provided around $400 million a year for Federal land 
acquisition anyway.'' I would alert the committee to the fact that the 
key to that statement is ``on average.'' While mathematically correct, 
the use of an average by the proponents distorts the actual funding 
trend. As you may recall, the 1997 Balanced Budget Agreement included, 
at the demand of President Clinton, a one-time appropriation for 
Federal land acquisition of $697.7 million. This one-time agreement 
dramatically inflates the 5-year average cited by proponents. If the 
funds provided pursuant to the BBA agreement are excluded, the average 
funding for Federal land acquisition during the Republican Congress 
$263.4 million, almost $200 million less than what is provided annually 
under CARA. Furthermore the bill actually repeals private property 
rights protections that exist in current law under the State-side LWCF 
Program and the Urban Parks Program.
    Backlog Maintenance--Even in regards to protecting environmentally 
sensitive land, the central issue which CARA is intended to address, 
this legislation does more harm than good. CARA allocates $450 million 
each year for Federal land acquisition but only allocates $180 million 
per year for the upkeep and maintenance of existing Federal lands and 
facilities. There currently exists between a $12 and $15 billion 
maintenance backlog for federally owned properties. So at a time when 
the Federal Government owns a third of all the land in the United 
States and has a $15 billion maintenance backlog, CARA provides $2.50 
for more Federal acquisition for every $1 it provides for maintenance. 
At this rate, it will take 83 years to eliminate the current backlog. 
Of course by acquiring more land we will increase our maintenance needs 
and ultimately increase the backlog.
    Financial Flexibility and Oversight--CARA creates a mandatory 
spending program of approximately $3 billion per year for a 15 year 
period; in effect, setting future Congresses on an autopilot course to 
spending $45 billion. The Outer Continental Shelf revenues which CARA 
will utilize are currently available for Congress to address any need 
or priority, including education, our national defense, and tax relief. 
Under CARA, this flexibility disappears. What is even worse is most of 
the proposals for a dedicated funding stream for conservation, 
including the proposal originally brought to the House floor by Mr. 
Young, would spend $3 billion a year irrespective of the Federal 
Government's financial situation. I think that most of use here today 
would agree that it is foolish to assume that the economic prosperity 
enjoyed by the American people and the Federal Government this year 
will continue unchanged for the next 15 years. CARA, however, foolishly 
locks us into spending $3 billion a year for the next 15 years.
    The creation of a mandatory funding program also undermines the 
ability of Congress to perform effective oversight over these Federal 
programs. One of the most powerful tools of oversight this or any other 
Congress enjoys is the power of the purse. Every year a majority of 
each body attaches restrictions on the use of appropriated funds as a 
way of addressing mismanagement, waste, and abuse in Federal programs. 
When we take discretionary programs and turn them into mandatory 
programs, we lose part of our ability to perform effective oversight. 
CARA turns $3 billion a year for the next 15 years over to the 
executive branch with relatively few strings attached.
    There are numerous other policy objections to this legislation, 
including increasing Federal land use planning, inadequate funding for 
Payment in Lieu of Taxes, and the creation of funding mechanisms for 
private non-governmental organizations. Each of these are outlined more 
fully in the Policy Brief prepared by the House Conservative Action 
Team which I am submitting for the record.
    In closing, I would like to encourage my colleagues in the Senate 
to be leery of the argument that we should pass this legislation 
because it is what the American people are demanding. It is true, as 
its proponents claim, that CARA has been endorsed by most of the 
Governors, numerous mayors, and thousands of groups across this 
country. A close look at this list, however, reveals that it is almost 
entirely made up of groups which would be eligible for funding under 
one or more titles of the bill. Those who have looked at this 
legislation objectively, including both the Washington Post and the 
Washington Times, two papers which rarely agree on anything, have 
concluded that the bill is simply bad public policy.
    Edmund Burke famously stated, ``Your representative owes you, not 
his industry only, but his judgment; and he betrays, instead of serving 
you, if he sacrifices it to your opinion.'' With the promise of free 
money, it is very easy to get a group behind almost any legislative 
proposal. CARA has attracted its supporters with little more than the 
promise of free money. I encourage my colleagues in the Senate to look 
at these proposals objectively and weigh the benefits and the costs not 
in a vacuum but in the context of our many competing national 
priorities, and in the context of the most pressing conservation needs. 
Analyzed in those contexts, I believe that you will find that these 
proposals are full of good intentions, but bad policy.

                       CONSERVATIVE POLICY BRIEF
Conservation and Reinvestment Act (CARA)--H.R. 701 Analysis & Review
    SUMMARY: CARA sets up a mandatory funding mechanism whereby $2.825 
billion is annually taken from Outer Continental Shelf Revenues (mainly 
oil and natural gas royalties which under current law are set aside to 
address the environmental impact of offshore drilling) to the following 
programs:
    $1 billion to be distributed to Coastal States (includes any State 
bordering the Great Lakes) $450 million for Federal Land and Water 
Conservation Fund land acquisition $450 million for State Land and 
Water Conservation Fund land acquisition $350 million for Federal Aid 
in Wildlife Restoration (Pittman Robertson) $125 million for Urban Park 
and Recreation Recovery Act $100 million for National Historic 
Preservation $200 million for Indian and Federal Land Restoration $ 100 
million for acquisition of Conservation Easements $50 million for 
Endangered and Threatened Species Recovery.
    CARA also makes up to $200 million annually in interest on the fund 
available for Payments in Lieu of Taxes (PILT) and Refuge Revenue 
Sharing. However, the amount disbursed under the bill would be the 
lesser of the amount appropriated from general funds or $200 million. 
If Congress appropriated nothing from discretionary funds for PILT or 
refuge revenue sharing, then CARA would also provide no funds.
    The bill sunsets on September 30, 2015.
    Budgetary impact: CARA declares off-budget the entire $2.825 
billion it takes from the Outer Continental Shelf Fund and the interest 
on the fund of up to $200 million. Since this money is currently 
considered on-budget, the bill would have the effect of removing $3 
billion annually from the budget process for the next 15 years. Since 
the Budget Resolution adopted by Congress last month allocates all of 
the surplus to either public debt reduction or tax relief. passage of 
this bill would require Congress to either dip into Social Security, 
cut the amount set aside for reducing the debt, or reduce the amount of 
funds set aside for tax cuts.
    Property rights: CARA contains a number provisions (including 
notification of the public and government officials, willing seller 
requirements, and Congressional approval) to protect private property 
owners, HOWEVER, those provisions only apply to $450 million for the 
Federal Land and Water Conservation Fund. There are no private property 
rights protections restricting the use of funds provided to State and 
local governments. In fact, the bill actually eliminates property 
protection provisions in current law related to acquisition of land. 
Under the Urban Parks and Recreation Program (passed by a Democrat 
Congress and signed into law by President Carter) none of the funds 
made available by the Federal Government could be used for land 
acquisition. CARA repeals that provision. Under the State Land and 
Water Conservation Fund, the bill eliminates the current prohibition on 
the use of funds for incidental costs related to State land 
acquisition.
    Some property rights advocates are also concerned that despite the 
protections provided against Federal land acquisition, the creation of 
an annual $450 million fund primarily dedicated for land acquisition 
will only further encourage increased Federal acquisition. Right now, 
funds for land acquisition have to compete against other priorities. In 
the past it has been a priority of the Republican Congress to hold down 
spending on acquisition and redirect funds to other priorities.
    Maintenance backlog: Current cost estimates of the maintenance 
backlog for federally owned properties, including the national park 
system, range anywhere from $8 to $15 billion. CARA only allocates $180 
million a year for Federal land maintenance, yet it allocates $450 
million a year for Federal land acquisition. Over 15 years that is $2.7 
billion for backlog maintenance and $6.75 billion for land acquisition. 
In other words, CARA provides $2.50 to buy new Federal land for every 
$1 it provides for maintenance. Furthermore, these new Federal lands 
will also require maintenance which may further exacerbate the 
maintenance backlog problem.
    Funds for private organizations: Four of the seven titles within 
CARA either specifically or implicitly provide authority for funds to 
be transferred to private organizations. Title I--Impact Assistance and 
Coastal Conservation--allows for cooperative initiatives with ``private 
entities.'' Title III--Wildlife Conservation and Restoration--
authorizes grants and contracts for ``wildlife conservation 
organizations and outdoor recreation and conservation education 
entities. Title V--Historic Preservation Fund--authorizes funding for 
the ``management entity for any national heritage area.'' Many of these 
heritage areas are operated by private foundations. Title VII--
Conservation Easements--allows funds to be provided by the Secretary of 
the Interior to private 501(c)(3) groups which are organized for 
``conservation purposes'' to cover up to 50 percent of the costs of 
acquiring an easement. CARA provides that these private organization 
may hold title to and enforce any conservation easement. Some Members 
are concerned that this is a method of funding land acquisition by some 
environmental groups.
    While it is impossible to put a dollar figure on the amount of 
funds that could be provided to private organizations under CARA, it is 
quite possible that millions of dollars a year could flow to private 
organizations, such as the Sierra Club, the Nature Conservancy, and the 
Environmental Defense Fund with specific environmental or conservation 
agendas. Indeed, this concern is significant enough that CARA includes 
a provision to prohibit funds under Title III--Wildlife Conservation 
and Restoration--from being used to promote or encourage opposition to 
hunting.
    Federal land use planning: CARA contains several provisions which 
could significantly increase the Federal Governments involvement in 
local land use planning. In order to receive funds under Title I 
(grants to Coastal States) each State is required to submit a Coastal 
State Conservation and Impact Assistance Plan setting outlining how 
funds are to be used. This plan must be approved by the Secretary of 
the Interior. Under Title II (Land and Water Conservation Fund) States 
are also required to prepare a State Action Agenda ``in partnership 
with its local governments and Federal agencies, and in consultation 
with its citizens.'' (Emphasis added)
    CARA also expands the ability of the Secretary of the Interior to 
disapprove conversion requests submitted by State and local 
governments. Under both the Land and Water Conservation Fund and the 
Urban Parks program, current law states if a State or local government 
wish to convert land that was acquired or developed with the assistance 
of Federal funds to some other non-conservation or non-recreation 
purpose (such as a new road) then it must be approved by the Secretary 
of the Interior. Current law provides that the Secretary shall approve 
of such conversions if he is satisfied that other properties of 
equivalent fair market value and usefulness are set aside to replace 
the land being converted. CARA expands the authority of the Secretary 
of the Interior by providing that he shall only approve a conversion 
request if the State ``demonstrates no prudent or feasible alternative 
exists''. This exact language currently applies to conversion of 
conservation lands for Federal transportation purposes. This authority 
was recently used by the Secretary of the Interior to extract $20 
million for the U.S. Fish and Wildlife Service from the Minneapolis / 
St. Paul Airport as compensation for having flights approach the 
airport over a wildlife reserve. (Source: Dear Colleague circulated by 
Rep. Don Young 2-9-99)
    Limited government: CARA resurrects two programs (State Land and 
Water Conservation Fund and the Urban Parks Program) that the 
Republican Congress had previously taken credit for eliminating. 
(Source: Appropriations Committee Press Release touting ``Commitment to 
Cut Government'' in Fiscal Year 1996)
                          additional concerns
    1) Given that Congress has yet to fully fund Payments in Lieu of 
Taxes (PILT), some Members are concerned that taking more land out of 
private hands will significantly impact local economies and tax bases, 
particularly for local schools and law enforcement. CARA does not 
provide a guaranteed level of funding for PILT, the amount provided is 
entirely dependent upon the amount provided in regular discretionary 
appropriations.
    2) In the view of some Members, CARA represents a significant 
expansion of Federal spending. This will reduce the surplus directly 
impacting Congresses ability to cut taxes, reduce debt, and meet other 
priorities.
    The views expressed in this Policy Brief do not necessarily reflect 
the views of all Members of the Conservative Action Team. The 
Conservative Action Team is a Congressional Member Organization of over 
50 Republican House Members and is chaired by Representative John 
Shadegg (R-AZ).
                              ATTACHMENTS


----------------------------------------------------------------------------------------------------------------
           CATs Policy Brief                    Young/Tauzin Response            CATs Response to Young/Tauzin
----------------------------------------------------------------------------------------------------------------
In regard to PILT and Refuge Revenue     CARA creates a mechanism that        Under CARA funding for PILT and
 Sharing ". . . the amount disbursed      should provide full funding for      Refuge Revenue Sharing is
 under the bill would be the lesser of    PILT and Refuge Revenue Sharing.     contingent upon the amount
 the amount appropriated from general     CARA funds will be used to match     appropriated by Congress in
 funds or $200 million.                   the annual appropriation up to the   regular appropriations bills. If
                                          statutory cap for both programs.".   Congress appropriates no money
                                                                               for PILT or Refuge Revenue
                                                                               Sharing, then CARA would provide
                                                                               no funds for either program. This
                                                                               is sharp contrast with the
                                                                               mandatory funding provided for
                                                                               other programs under CARA.
There are no private property rights     This may or may not be true in       There is a fundamental difference
 protections restricting the use of       every State. However, it is our      between federal mandates and
 funds provided to State and local        understanding that many, if not      restricting the use of federal
 governments.                             most, States have protections for    funds provided to the States. The
                                          the rights of property owners.       Republican Congress has
                                          Legislating federal dictates to      repeatedly included restrictive
                                          local governments and States is      language in grant programs. In
                                          not a Republican nor                 fact CARA includes several
                                          Constitutional principle.            provisions restricting the use of
                                                                               funds including, a cap on
                                                                               administrative expenses and
                                                                               penalties for using CARA funds
                                                                               for unauthorized purposes.


In the past it has been a priority of    That statement is not supported by   While mathematically correct, the
 the Republican Congress to hold down     the facts. Our Republican Congress   lectures provided by the
 spending on acquisition and redirect     has granted an average of $160       Resources Committee distort the
 funds to other priorities.               million above the Administration's   actual funding trend. The 1997
                                          request for LWCF land                Balanced Budget Agreement
                                          acquisitions, and average of $402    included a one-time appropriation
                                          million each year.                   for LWCF of $697.7 million which
                                                                               inflates the average provided by
                                                                               the Committee. If the funds
                                                                               provided pursuant to the BBA
                                                                               agreement are excluded, the
                                                                               average funding for LWCF during
                                                                               the Republican Congress is $263.4
                                                                               million.


Regarding Conservation easements--Some   This title (Title VII, Subtitle A)   CATs will review the new language
 conservatives are concerned that this    will be re-written per an            in order to ascertain whether it
 is a method of funding land              agreement with the Committee on      addresses the concerns raised in
 acquisition by some environmental        Agriculture. The new language        the Policy Brief.
 groups..                                 utilizes the funding for the Farm
                                          Protection Program administered by
                                          the Secretary of Agriculture--a
                                          program supported by House
                                          Republicans.
CARA contains several provisions which   CARA does not provide the federal    Current law regarding the
 could significantly increase the         control the policy brief alludes     development Comprehensive State
 federal government's involvement in      to. Within Title I, the Secretary    Plans does not require a State to
 local land use planning.                 of the Interior is required to       develop its plan in conjunction
                                          approve State plans are consistent   with the Federal Government.
                                          with CARA's uses. While there is a   CARA, however, specifically
                                          plan within Title II, each State     States that plans developed under
                                          defines its own priorities and       Title II shall be developed in
                                          criteria.".                          conjunction with "Federal
                                                                               agencies."

Given that the government currently      This complaint speaks to the         As discussed above, once the
 owns 30% of all land in the United       current process--a process CARA      annual funding level is adjusted
 States and that last year the            improves. As mentioned above, CARA   for a one-time appropriation.
 Appropriations Committee identified      is near the Republican Congress      CARA's annual funding level of
 $15 billion in backlog maintenance       average annual appropriation ($402   $450 million for land acquisition
 requirements, some conservatives do      million). CARA creates many          would be significantly higher
 not approve of additional land           property protections that do not     than the Republican Congress
 acquisition. The bill appropriates       currently exist. At the same time,   average of $263.4 million.
 significantly more money for federal     CARA will provide an additional
 land acquisition, $450 million, than     $200 million for current
 it does for maintenance, $200 million.   maintenance efforts. This year,
                                          the administration has requested a
                                          ratio of maintenance funding to
                                          land acquisition at 3:1. The $200
                                          million provided by CARA will be
                                          in addition to the amount
                                          appropriated by Congress.


CARA does not provide a guaranteed       Today, the amount of funding         Under CARA every program except
 level of funding for PILT, the amount    provided for PILT Is `entirely       PILT and Refuge Revenue Sharing
 provided is entirely dependent upon      dependent upon the amount provided   has a guaranteed level of
 the amount provided in the regular       in the regular discretionary         funding.
 discretionary appropriations.            appropriations'. With CARA, the
                                          appropriators simply continue to
                                          appropriate at historic levels and
                                          the matching CARA funds do the
                                          rest. CARA provides the only
                                          opportunity to fully fund PILT and
                                          Refuge Revenue Sharing.".

----------------------------------------------------------------------------------------------------------------

                               __________
 Statement of Jamie Rappaport Clark, Director, U.S. Fish and Wildlife 
                  Service, Department of the Interior
    Mr. Chairman, I appreciate this opportunity to present the 
Administration's views on S. 25, S. 2123 and S. 2181, all of which in 
differing detail provide for permanent funding for a variety of 
conservation programs from Outer Continental Shelf (OCS) oil and gas 
receipts. The House 2 weeks ago passed its version of this legislation, 
H.R. 701, the ``Conservation and Reinvestment Act of 2000?, or CARA, 
which is very similar to S. 2123. I would like to first present the 
Administration's goals for this legislation, summarize the bills, and 
then address the specific areas in which the Fish and Wildlife Service 
is involved and that are under the jurisdiction of the committee.
    The President feels strongly that this is the year to secure 
permanent funding for State and community efforts to protect wildlife 
and local green spaces, reinforce Federal efforts to save natural and 
historic treasures, and expand efforts at all levels to protect ocean 
and coastal resources.
    The Land and Water Conservation Fund was established to devote a 
significant portion of the revenues from our offshore oil and gas 
resources to conservation and outdoor recreation. Historically, as we 
are all aware, the spending from the Fund has fallen far short of its 
objectives, which is one of the reasons there has been such a 
groundswell of support for the new legislation. We believe the time has 
come to secure permanent funding to ensure that the vision for the Land 
and Water Conservation Fund is fulfilled, and that this vision is 
adapted to meet today's conservation challenges.
    More specifically, while we believe there must continue to be a 
strong Federal role in the protection of our natural resources--
particularly resources of national significance for which the 
responsibility for protection goes beyond the State or local level--
there is a growing need and demand for additional assistance to States, 
Tribes and communities struggling to preserve green space, restore 
degraded lands and provide increased recreational opportunities. 
Natural resource protection is Rotund cannot be the exclusive role of 
the Federal Government. Many conservation needs are most appropriately 
and most effectively addressed at the State or local level; or through 
public-private partnerships.
    The bills before you take this approach--matching grants for 
acquisition or easements to protect locally important lands, matching 
grants to States to preserve wildlife habitat and protect and restore 
coastal areas, matching grants to help recover endangered species, 
grants and technical assistance for urban parks, and matching grants to 
protect farms and ranches from development--along with guaranteeing 
funds for Federal acquisition from the Land and Water Conservation 
Fund.
    The Administration has several broad goals for the final version of 
this legislation. We believe it must not impose burdensome or 
unnecessary restrictions on Federal authority to acquire and protect 
critical lands; it must ensure that new funding is devoted to purposes 
consistent with the environmental and conservation goals of the 
legislation; it must ensure that new funding for wildlife protection be 
targeted primarily for at-risk and non-game species; in order to 
provide continuity between Federal and State programs, the Department 
of Commerce must have appropriate oversight authority for marine or 
coastal plans, without modifying the existing responsibilities of other 
agencies, and it must not establish new incentives for offshore 
exploration or development. We also believe it must provide permanent 
funding for conservation purposes within a balanced budget framework.
    There is a tremendous degree of common ground between the 
Administration's objectives and the bills pending before the committee. 
The Administration is fully committed to working with Congress to 
achieve these goals. We are pleased that H.R. 701 has passed the House 
with such a broad bipartisan majority, and that you have scheduled this 
hearing so quickly after the House action.
    This is truly an opportunity, in the words of Theodore Roosevelt, 
to leave ``an even better land for our descendants than it is for us.''
    In the interest of simplicity, I will address my comments to S. 
2123 and S. 2181, as Senator Landrieu, the sponsor of both S. 25 and S. 
2123, has indicated she and the other cosponsors plan to base their 
efforts on the latter bill.
    Both bills provide permanently appropriated annual funding for a 
similar but not identical group of conservation programs. S. 2123 
provides for $1 billion to be allocated among all coastal States to 
address the impacts of OCS oil leasing, while S. 2181 provides $365 
million for an Oceans and Coastal Conservation Fund and a separate $100 
million for impact aid to coastal producing States.
    Both S. 2123 and S. 2181 provide the fully authorized amount of 
$900 million for the Land and Water Conservation Fund, to be split 50 
percent for Federal acquisition and 50 percent for State programs. In 
addition, S. 2181 provides for $ 125 million for a new grant program to 
assist in the conservation of Non-Federal Lands of Regional or National 
Interest.
    Both S. 2123 and S. 2181 provide $350 million for grants to the 
States for wildlife conservation, to be managed through the existing 
Federal Aid in Wildlife Restoration (Pit/man-Robertson) program. I will 
subsequently discuss these provisions in more detail.
    S. 2123 provides $100 million for historic preservation, while S. 
2181 provides $150 million. S. 2123 provides $125 million for urban 
parks and recreation recovery, while S. 2181 has $75
    million, plus 550 million for an Urban and Community Forest 
program. S. 2123 has $150 million for endangered species recovery 
efforts and cooperative conservation easements, while S. 2181 has $50 
million for endangered species recovery efforts, $50 million for 
ranchland protection efforts under the Secretary of the Interior and 
$50 million each for farmland and urban forest protection efforts under 
the Secretary of Agriculture.
    S. 2123 has $200 million for restoration of degraded Federal and 
Tribal lands, while S. 2181 has $60 million for Youth Conservation 
Corps projects, $150 million for National Park Service resource 
protection, $ 15 million for coral reef protection efforts under the 
Secretary of the Interior, with another $ 15 million available to the 
Secretary of Commerce for coral reef activities under the Oceans and 
Coastal Conservation Fund, and $25 million each for Forest Service 
Rural Development Assistance and Rural Community Assistance programs.
    S. 2181 makes funds directly available for Payment in Lieu of Taxes 
(PILT), but does not include the Refuge Revenue Sharing program. S. 
2123 makes up to $200 million in interest on the conservation funds 
available to supplement appropriations for Revenue Sharing and PILT. It 
also-makes between $40-50 million available annually from interest for 
the North American Wetlands Conservation Fund; this is not covered in 
S. 2181.
    The portions of these programs in which the Fish and Wildlife 
Service is actively involved and which I understand to be in whole or 
part within the jurisdiction of the Committee on Environment and Public 
Works are the coastal impact assistance, the wildlife conservation 
grants to the States, the endangered species recovery and conservation 
easement grants; in S. 2123, funding for Refuge Revenue Sharing and the 
North American Wetlands Conservation Act; and, in S. 2181, the coral 
reef programs. We are also involved and interested in the Federal 
portion of the Land and Water Conservation Fund and in S. 2123, the 
Federal Lands Restoration Fund, both of which I understand to be under 
the jurisdiction of the Energy Committee and which I will therefore not 
address today.
    The two bills take very different approaches to the issue of 
coastal impact aid. S. 2123 has a large overall program under the 
Secretary of the Interior, who has jurisdiction over the offshore 
leasing program and who oversees numerous programs addressing coastal 
conservation and environmental issues. However, this approach makes 
only limited provision for the interests of the Department of Commerce, 
which has several major coastal programs that directly relate to the 
purposes of the State grants.
    Many Senators are familiar with the Department of Commerce's marine 
programs under the Magnuson-Stevens Fishery Conservation and Management 
Act, the National Marine Sanctuary Act, the Coastal Zone Management 
Act, the Marine Mammal Protection Act, the Endangered Species Act, the 
Oil Pollution Act, CERCLA, the Clean Water Act, the National Invasive 
Species Act, the Hydrographic Services Act, the Coastal Wetlands 
planning, Protection and Restoration Act, and Nation Sea Grant College 
Program Act. You may not be as familiar with the Fish and Wildlife 
Service's activities and authorities. Commerce will submit a statement 
for the record setting forth these authorities.
    Under the Marine Mammal Protection Act, we have jurisdiction over 
polar bears, walrus, sea otters and manatees, while Commerce has 
jurisdiction over truly marine species like whales and dolphins. We 
have shared jurisdiction with Commerce for many anadromous fish such as 
Atlantic salmon and striped bass. We co-chair with Commerce the Aquatic 
Nuisance Species Task Force, and the President's budget requests 
includes over $10 million for Service activities to address this 
problem.
    The Fish and Wildlife Service is statutorily designated to comment 
on fish and wildlife impacts from Clean Water Act section 404 permits 
and other water-related development activities under Federal 
authorization or permit. Over 45 percent of all threatened and 
endangered species, virtually all of which are our responsibility, 
inhabit coastal areas, as do, at one point or another in their life 
cycle, 85 percent of all waterfowl and other migratory birds, which are 
solely under our jurisdiction.
    We have a Coastal Program dedicated to conserving coastal habitats 
for the benefit of fish, wildlife and people, primarily through 
partnership efforts. Since 1994, we have protected over 166,000 acres 
of coastal habitat through easements or acquisition, restored more than 
46,000 acres of coastal wetlands and 17,000 acres of coastal uplands, 
and reopened nearly 2,300 miles of coastal streams for anadromous fish. 
The budget request for this program for fiscal year 2001 is nearly 
$9,000,000. We also administer the Coastal Barrier Resources Act, which 
prevents taxpayer subsidies for development in Congressionally 
designated undeveloped coastal barriers along the Atlantic and gulf 
coasts.
    We have over 150 National Wildlife Refuges in coastal, bay or 
estuarine areas in every coastal State, comprising a total of nearly 36 
million acres. Through these refuges, we manage and conserve virtually 
all elements of coastal and coastal-related ecosystems. In the last 
three fiscal years we have received a total of over $106 million for 
land acquisition at our coastal refuges. In addition, some of these 
refuges contain major areas of coral reef resources. We estimate that 
1.5 million acres of coral reef resources are under our management and 
control within National Wildlife Refuges. There are an additional 
approximately I.4 million acres of coral reef habitat that occur in the 
immediate vicinity of these refuges, where we are working in 
cooperation with State, local and other jurisdictions on conservation 
efforts.
    Under the Coastal Wetlands, Planning, Protection and Restoration 
Act, we made grants of over $ 11 million to coastal States last year, 
and work with the Corps of Engineers and other Federal and State 
agencies on coastal wetlands restoration in Louisiana. We administer 
the North American Wetlands Conservation Act, under which funds (also 
$11 million last year) are earmarked for coastal wetland protection and 
enhancement grants. One of our major programs, Federal Aid in Sport 
Fish Restoration, provides grants to States for both freshwater and 
marine fishing, fish habitat, and water access projects. In recent 
years, we have provided an average of over $40 million annually to 
coastal States for projects related to marine fishing or marine 
fisheries habitat protection. In addition, we administer under the main 
Sport Fish program the Clean Vessel Act, which provides grants for 
pumpout stations for boat toilets, and a new Recreational Boating 
Infrastructure grant program, both of which benefit both coastal and 
inland waters. The grant amounts for those programs this year will be 
$10 million and $8 million, respectively.
    In contrast to the divergence on coastal programs, the bills have 
virtually identical provisions for matching grants to the States for 
wildlife conservation. We seek only a few changes with respect to Title 
III. Both bills require an emphasis on species that are not hunted or 
fished; however, we feel strongly that there should be greater 
direction that the funds be used for at-risk and non-game species.
    These grants, particularly if focused as we request, can be an 
invaluable tool to help prevent populations of non-game fish and 
wildlife from declining to the point where they would need regulatory 
protections such as listing under the Endangered Species Act. Game 
species have had decades of assistance through the current Pittman-
Robertson Act program, which is financed by excise taxes on firearms, 
ammunition, bows and arrows and related items. While non-game species 
also receive major benefits from the habitat protection funded by the 
Pittman-Robertson Act, the primary focus has quite understandably been 
on game species.
    The nation's hunters have long been enthusiastic supporters of this 
program, and it was their lobbying efforts in the 1930's which led to 
imposition of the taxes and creation of the program. Regrettably, there 
has since then not been any consensus on a similar funding mechanism 
for non-game species.
    Apart from the Pittman-Robertson Act, virtually all Federal 
programs have been devoted toward species that have already declined to 
the point that they need the protection of the Endangered Species Act. 
There has been nothing in between, although we have been making efforts 
in that direction through the Candidate Conservation program; yet this 
also benefits only species that are on the brink of needing ESA 
listing. Funding of the magnitude proposed in these bills could have 
benefits for the nation's at-risk, non-game wildlife species that would 
be almost impossible to exaggerate.
    In addition to the inherent benefits to fish and wildlife, there 
are nearly 63 million Americans who watch, feed or photograph wildlife 
who would benefit from enactment of this program. These 63 million 
people spend nearly $30 billion annually in the course of their 
activities. There is therefore a strong economic benefit to be derived 
from a non-game program.
    We urge the committee to aggressively pursue enactment of this non-
game wildlife grant program, and hope that we can work with you to 
determine the appropriate focus for the program.
    We also believe the Tribal governments need to be included in the 
wildlife conservation grants. As you know, the Administration included 
within our budget a request for $100 million for non-game wildlife 
grants to States. Within that, we proposed that 3 percent of the funds 
be available for grants to Tribal governments, on a competitive basis, 
and we would hope that you would consider a similar arrangement.
    We are also very concerned about funds for administration of the 
program. S. 2123 generally provides 2 percent of available funds for 
administration of the various grant programs it authorizes, while 
prohibiting any administrative funds for the non-game wildlife grants. 
We understand that the prohibition in S. 2123 is a direct outcome of 
the largely resolved problems which have been identified with 
administration of our Federal Aid programs, an issue which I understand 
the committee plans to take up next month. While we have been assured 
from the House side, where the prohibition originated, that funding for 
this program will be incorporated into final legislation, I wanted to 
alert you to this issue. The program could fail without appropriate 
oversight and administration, and we need an adequate level of funding 
for administration if we are to make it work effectively.
    S. 2181 does make 2 percent of Title III funds available for 
administration of that Title. I would urge you to include provisions 
for program administration funding within whichever version of these 
bills eventually emerges.
    I would also note that S. 2123 provides that the interest generated 
on the funds set aside for the non-game grants would be made directly 
available to the Secretary of the Interior for the North American 
Wetlands Conservation Act. As the committee well knows, this is one of 
the most successful and popular conservation programs in the country, 
and demands for grant moneys, with matching funds, far exceed the 
Federal funds available to make the grants. Through early fiscal year 
2000, the $320 million in Federal funds issued as grants under this 
program have generated over $800 million in matching funds from over 
900 partners. Any funding which can be made available for this program 
will be effectively and efficiently used.
    Both bills provide funds for cooperative endangered species 
recovery agreements. This is one of the most exciting concepts within 
the legislation, and would prove of tremendous value to our recovery 
efforts. Recovery, like conservation generally, cannot succeed as a 
totally governmental effort. Unfortunately, we have had until recently 
rather limited tools for assisting participation in recovery efforts by 
non-Federal parties. We began receiving funds for landowner incentive 
grants toward recovery in fiscal year 1999, the same year our Safe 
Harbor policy became final. Both of these have proven extremely 
successful, with the demand for landowner incentive grants far 
exceeding available funding. Inclusion of a guaranteed funding source 
in the final version of this legislation is probably the single most 
effective action Congress could take to speed recovery for listed 
species.
    I would note that S. 2181 makes no provision for participation by 
the Department of Commerce, in Title IV, the Endangered Species 
Recovery Fund, nor for any use of the Title II Coastal Stewardship Fund 
for listed species. Commerce does have jurisdiction over certain 
anadromous fish species listed under the ESA, including salmon species 
on the West Coast, and they should have the ability to either 
participate in the Endangered Species Recovery Fund. Title VII of S. 
2123 has participation by both the Secretaries of Interior and 
Commerce, without any allocation of funds. Absent further Congressional 
action on this point, the Administration would allocate the funds 
between the two Departments as part of the budget process each year, 
and act to ensure proper coordination between the Departments to avoid 
duplication and waste.
    Lastly, we have Refuge Revenue Sharing. S. 2123 provides for the 
OCS funds to earn interest while awaiting obligation, up to $200 
million of which would be available to pay a portion of the costs of 
the Refuge Revenue Sharing and Payment in Lieu of Taxes (PILT) 
programs, while S. 2181 provides ``such sums as may be necessary'' 
directly from the OCS receipts to ``fully fund payments to units of 
general local governments as provided in this Act''. Inasmuch as this 
portion of the bill is entitled ``Payments in Lieu of Taxes'', it would 
appear that S. 2181 would not include Refuge Revenue Sharing.
    As you may know, the Refuge Revenue Sharing program was not 
designed as a Payments in Lieu of Taxes program, but has come to be one 
in all but name. It authorizes the Secretary to make payments to local 
governments based on the greater of 25 percent of revenue generated 
from the sale of products, privileges and leases on National Wildlife 
Refuges within their boundaries (not including fees), three-fourths of 
1 percent of appraised fair market value of the refuge lands, or 75 
cents per acre. If refuge receipts are not sufficient to meet the 
entitlement, Congress is authorized to make up the difference with 
appropriated funds. If sufficient funds are not available from either 
source, the payments are proportionately reduced. I would urge you to 
include the Refuge Revenue Sharing Program with the PILT program in 
whichever version of these bills emerges.
    Mr. Chairman, that concludes my specific comments. The 
Administration looks forward to working with this committee and the 
rest of the Senate to build on the bipartisan spirit shown by the House 
and to find a way do what the public clearly wants us to do--leave a 
legacy of financial resources adequate to protect our Nation's national 
treasures. I would be pleased to respond to any questions you may have.
                               __________
 Statement of Sally Yozell, Deputy Assistant Secretary for Oceans and 
                   Atmosphere, Department of Commerce
    Mr. Chairman, thank you for the opportunity to present the 
Administration's views on S. 25, S. 2123, and S. 2181, all of which 
provide permanent funding for a variety of conservation programs from 
the Outer Continental Shelf (OCS) oil and gas receipts.
    The Administration applauds the efforts of the Congress to provide 
a permanent stream of significant new resources to support State and 
community efforts to protect ocean and coastal resources. We believe 
your efforts go hand in hand with strides the Administration has made 
toward conserving and protecting these precious resources. The 
President has outlined his priorities for land and water conservation 
in the Lands Legacy Initiative submitted to Congress in his fiscal year 
2001 budget request. Under this Initiative, the Department of Commerce 
is requesting a significant increase ($263.3 million) for coastal and 
marine activities. The total Department of Commerce Lands Legacy 
request of $428.5 million is almost one-third of the total Lands Legacy 
package--all dedicated toward protecting and conserving our precious 
coastal and marine resources. This increase includes $100,000,000 for a 
Coastal Impact Assistance Fund for coastal States.
    The Administration supports the objectives of these conservation 
bills, and we have several broad goals that we believe should be in any 
final version of legislation:

    <bullet>  it must not contain burdensome or unnecessary 
restrictions on current Federal authority;
    <bullet>  it must ensure that moneys available under the bill be 
devoted to purposes consistent with the environmental and conservation 
goals of the legislation;
    <bullet>  it must ensure that funding for wildlife-related entities 
and programs is targeted primarily for at-risk and non-game species; 
and
    <bullet>  the legislation must not establish new incentives for 
offshore exploration or development. We also believe it must provide 
permanent funding for conservation purposes within a balanced budget 
framework.

    In addition, to provide continuity between Federal and State 
programs, the Department of Commerce must have appropriate oversight 
authority for marine or coastal plans, without modifying the existing 
responsibilities of other agencies.
    I would like to direct almost all of my comments today to the 
``coastal titles'' of the bills before us. As I am sure most of you 
know, the Department of Commerce houses the National Oceanic and 
Atmospheric Administration (NOAA), the Nation's ``ocean agency.'' NOAA 
has the scientific and management expertise, statutory authorities and 
experience to address the marine and coastal issues included in these 
bills. The Congress, throughout the years, has given NOAA a range of 
authorities for managing coastal and marine resources, including: the 
Magnuson-Stevens Fishery Conservation and Management Act (Magnuson-
Stevens Act), the Coastal Zone Management Act (CZMA) (including the 
National Estuarine Research Reserve program), the National Marine 
Sanctuaries Act (NMSA), the Marine Mammal Protection Act (MMPA), the 
Endangered Species Act (ESA), the Coastal Wetlands Planning, 
Protection, and Restoration Act (CWPPRA), the Oil Pollution Act (OPA), 
the Comprehensive Environmental Response, Compensation and Liability 
Act (CERCLA or ``Superfund''), the Clean Water Act, the National 
Invasive Species Act (NISA), the Hydrographic Services Act, and the 
National Sea Grant College Program Act (Sea Grant). Under each of these 
statutes, NOAA has authority for conserving and managing the Nation's 
marine and coastal resources.
    Under the Magnuson-Stevens Act, NOAA has broad management authority 
for the conservation and management of living marine resources off the 
U.S. coasts,-the implementation and enforcement of domestic and foreign 
fishing regulations in the U.S. Exclusive Economic Zone, and the 
implementation and enforcement of international fishery agreements. The 
Magnuson-Stevens Act established a unique management system for marine 
resources through a system of regional fishery management councils, 
with which many of you are familiar. These regional councils provide a 
mechanism for bringing diverse fisheries interests together in 
developing fishery management measures to ensure sustainable fisheries 
resources. In fiscal year 2000, NOAA received $170 million in 
appropriations to implement the Magnuson-Stevens Act and is requesting 
an increase of $40 million for fiscal year 2001.
    The CZMA is another effective and long-standing tool that NOAA and 
the States use to protect our precious coastal areas. Under the 
authorities of the CZMA, NOAA implements the Coastal Zone Management 
Program in partnership with the coastal States and territories of which 
34 out of 35 are now participating. This program is completely 
voluntary and coastal States have joined it over the years because it 
works. This program aims to balance competing demands on coastal land 
and water resources within the coastal zone, such as habitat 
protection, coastal hazard mitigation, public access and development. 
After receiving Federal approval through the Department of Commerce for 
their State coastal zone management plans, the programs are carried out 
through State laws that are consistent with national guidelines set by 
NOAA. In fiscal year 2000,NOAA is providing $54.7 million in grants to 
address the complex set of challenges that coastal States and 
territories face, and another $2.5 million to strengthen efforts to 
reduce the flow of polluted runoff into coastal waters. The President 
has requested an increase of almost $100 million for this vital program 
to better help States with the variety of issues facing their coasts 
such as urban sprawl, polluted runoff, and other coastal hazards.
    A vital part of the CZMA is the National Estuarine Research Reserve 
System. This system of 25 estuarine field sites protects coastal 
resources, provides a network of laboratories for scientific 
investigation of coastal processes, and provides critical management 
information to coastal decisionmakers. NOAA operates this program in 
partnership with the 21 coastal States and territories that have, or 
will soon have, designated Reserves. More than one million acres of 
estuarine lands and waters are now protected through this system. The 
fiscal year 2000 budget for this program is $6.0 million, with another 
$ 13.25 million for construction and land acquisition within the 
Reserve System. In fiscal year 2001, the System will grow to 27 sites 
and has a requested budget of $20 million.
    I would like to talk next about our National Marine Sanctuaries 
program and the authorities vested in NOAA through the NMSA. Under NMSA 
authorities, NOAA has established a unique network of marine protected 
areas dedicated to the conservation of nationally significant areas of 
the marine environment. This is unique legislation that focuses 
protection solely on marine and coastal resources, which is NOM's 
specific expertise. The National Marine Sanctuary Program currently 
consists of 12 sites around the United States off the coasts of 
Massachusetts, American Samoa, California, Washington, and Florida. We 
even have one sanctuary, the Flower Garden Banks, in the middle of 
``oil country'' in the Gulf of Mexico. Under the primary mandate of the 
NMSA, NOAA protects the sanctuary resources, including natural and 
cultural resources, through direct management actions, education, and 
research programs. Management is through an ecosystem approach, 
protecting biological, physical, and chemical qualities. NOAA's budget 
for this vital program is $25.9 million for fiscal year 2000 and we are 
requesting a total of $35 million for fiscal year 2001.
    Under the MMPA, NOM is the lead agency for the conservation, 
protection and recovery for over 100 species of marine mammals, such as 
whales, dolphins, seals and sea lions. As the USFWS outlined earlier, 
they manage four marine mammals under the MMPA--polar bears, manatees, 
sea otters and walrus. Under the ESA, we have jurisdiction over marine 
species, such as Pacific salmon and share jurisdiction over Atlantic 
salmon and sea turtles with USFWS. NOAA received approximately $155 
million under these two authorities in fiscal year 2000. The 
President's fiscal year 2001 request includes a large increase and 
totals $280 million.
    Under CWPPRA, NOM serves on a Task Force with four other Federal 
agencies and the Governor of Louisiana as part of an ongoing effort to 
restore the coastal wetlands of Louisiana. CWPPRA provides funding and 
support for the restoration, protection, conservation and enhancement 
of threatened wetlands in the Louisiana coastal zone. This ongoing 
partnership between the Federal Government and the State has resulted 
in funding for 111 restoration projects totaling over $340 million, 
designed to address the rapid loss of Louisiana's wetlands. The Task 
Force was responsible for the preparation of a comprehensive coastal 
Restoration Plan for the State of Louisiana, which was completed at the 
end of 1993, and conducts a scientific evaluation of the completed 
wetlands restoration projects every 3 years and reports the findings to 
Congress. In fiscal year 2000, NOAA is spending approximately $7 
million on CWPPRA implementation.
    NOAA is also the primary Federal trustee for protecting and 
restoring coastal and marine resources injured by releases of oil and 
other hazardous substances under the Clean Water Act, CERCLA, and OPA, 
except in certain cases where the resources are managed by the 
Department of the Interior. The President has designated specific 
Federal officials to act on behalf of the public for natural resources 
managed or controlled by the United States, including land, fish, 
wildlife, biota, air, water, ground water drinking water supplies, and 
their supporting ecosystems. The National Contingency Plan, which was 
first drafted in 1968 to provide a blueprint for the Federal 
Government's response efforts, specifically directs the Secretary of 
Commerce, to act as a trustee for natural resources managed or 
controlled by DOC and for natural resources managed or controlled by 
other Federal agencies that are found in, under, or using water 
navigable by deep draft vessels, tidally influenced waters, or waters 
of the contiguous zone, the exclusive economic zone and the outer 
continental shelf.
    NOAA fulfills these responsibilities and has recovered over $250 
million for the restoration of the public's coastal and marine 
resources. The trustee authority is premised upon NOAA's expertise in 
managing: Commercial and recreational fishery resources; Anadromous 
species; Endangered and threatened marine species and their habitats; 
Marine mammals; Marshes, mangroves, seagrass beds, coral reefs, and 
other coastal habitats; and Resources associated with National Marine 
Sanctuaries and National Estuarine Research Reserves.
    NOAA also provides critical scientific advice during spills of oil 
and hazardous materials. Our national oil and hazardous substance spill 
response strategy is based on the National Oil and Hazardous Substances 
Pollution Contingency Plan (NCP 40 CFR 300 et seq.). The NCP provides 
the organizational structure and procedures for preparing for and 
responding to discharges of oil and releases of hazardous substances, 
pollutants, and contaminants. The NCP establishes ``special forces'' to 
assist the Federal On-Scene Coordinator (FOSC) during a response. 
NOAA's Scientific Support Coordinators (SSCs) are identified in the NCP 
as a special team available to the FOSC. NOAA SSCs provide the primary 
scientific support to the United States Coast Guard for spills 
occurring in U. S. navigable waters, and respond to approximately 100 
oil and hazardous substance spills a year. NOAA provides expertise in 
oil slick tracking, pollutant transport modeling, natural resources at 
risk and environmental tradeoffs of countermeasures and cleanup.
    Under the National Invasive Species Act, NOAA performs various 
research and outreach activities relating to aquatic nuisance species. 
We provide $800,000 for NISA activities including regional activities 
and support for the aquatic nuisance species task force which we 
cochair with Department of the Interior, $3 million under Sea Grant to 
fund grants for aquatic nuisance species research and outreach 
activities, and fund aquatic nuisance species prevention and control 
research at the NOAA's Great Lakes Environmental Research Laboratory. 
In conjunction with the Department of the Interior, we provide $850,000 
for ballast water demonstration projects to develop technology to 
control aquatic nuisance species.
    NOAA is the primary Federal agency for ensuring safe navigation 
through coastal and marine waters. Through the Coast and Geodetic 
Survey Act and the more recent Hydrographic Services Improvement Act of 
1998, NOAA and the Department of Commerce undertake acquisition of 
hydrographic data and provide hydrographic services for safe 
navigation. These responsibilities are supported through our nautical 
charting, geodetic control, and real time tides and currents programs. 
These programs not only ensure that hydrographic activities and data 
serve to support the Nation's economy but also to protect the coastal 
and marine environment by reducing groundings and spills from 
navigation related activities. An important aspect of this is water 
level information collected from around the coast and the Physical 
Oceanographic Real-Time Systems (PORTS), which is the only Federal 
supported program of its type, that NOAA has in partnership with 
regional and local governments.
    In addition, under the National Sea Grant College Program Act, NOAA 
provides grants for research, education, training, and advisory service 
activities in fields related to ocean, coastal, and Great Lakes 
resources. The National Sea Grant College Program network currently 
consists of 30 Sea Grant college programs located in all coastal and 
Great Lakes States and Puerto Rico. In addition, national strategic 
investments in fields relating to ocean, coastal, and Great Lakes are 
authorized. The President has requested $59.3 million for this 
important program in fiscal year 2001. In summary these statutory 
authorities clearly outlines NOAA's primary responsibilities as steward 
for marine and coastal resources.
    I would like to provide some comments on the conservation 
legislation before us. First, I would like to comment on S. 2123, 
legislation that mirrors H.R. 701 as introduced in the House. As I 
stated earlier, while the Administration supports the objective of the 
legislation, we do remain concerned about several aspects of S. 2123 
and strongly support amendments to improve and strengthen the 
legislation. For example, Title I of the legislation creates a wholly 
new coastal State program requiring the development and approval of 
``State Action Plans''. However, creating a new program is unneeded; 
there are existing authorities in place, such as the Coastal Zone 
Management Act (CZMA) planning process, and other Commerce and Interior 
coastal programs that can be used to address the environmental 
consequences of outer continental shelf (OCS) oil and gas development, 
and the activities identified in Title I. This is the approach taken in 
the President's Lands Legacy initiative. The Lands Legacy initiative 
proposes $100 million be provided to affected States to mitigate 
environmental impacts of OCS development. NOAA would allocate the funds 
to the affected States through the CZMA, which States and the Federal 
Government have been using since 1972 to coordinate activities within 
the coastal zone. In addition, Lands Legacy includes $159 million for 
traditional CZMA State grants and another $170 million in related 
coastal and marine programs. This is a total of $429 million within 
existing authorities to address coastal concerns, including mitigating 
the environmental impacts of OCS development.
    We recommend that whatever form Title I takes in any final 
legislation that it provide appropriate oversight authority to the 
Department of Commerce for coastal or marine plans without modifying 
the existing responsibilities of other agencies. Title I currently does 
not recognize existing responsibilities of the Department of Commerce, 
acting through NOAA, for State and local conservation, research, and 
management programs. Giving the Department of Commerce the authority to 
approve the States' coastal or marine plans would eliminate confusion 
and duplication of State efforts and make more efficient use of 
existing Federal Government programs and resources. All the plans 
submitted to the Department of Commerce would automatically be sent to 
the Department of the Interior. With respect to those plans that affect 
programs under the jurisdiction of the Department of the Interior, we 
would obtain Interior's concurrence. We would develop a mechanism, such 
as a memorandum of agreement, with Interior to ensure an effective and 
efficient process to ensure both agencies' mission responsibilities are 
fully met. Such a process should be transparent to the States and 
minimize States' needs to manage an approval process through multiple 
Federal Governmental offices while ensuring each agency's environmental 
and management responsibilities are respected.
    All of the 11 authorized uses of Federal grant funds contained in 
Title I of S. 2123 refer to programs that have Federal counterparts 
administered by the Department of Commerce, through NOAA, by authority 
of Reorganization Plan No. 4 of 1970 or subsequent legislation. In 
fact, the creation of NOAA as a single, unified agency was intended to 
bring together and improve coordination of a variety of synergistic 
Federal programs, in cooperation with State and local governments, 
dealing with living marine resources, coastal management and 
conservation, marine education, maritime commerce and marine research. 
Providing Department of Commerce oversight of the State and local 
programs proposed in Title I would ensure consistency and coordination 
with existing NOAA programs including the existing State and Commerce 
coordination under the CZMA planning process.
    Also, S. 2123 could cause confusion because it does not explicitly 
provide that the new ``State Action Plans'' developed under the bill be 
consistent with State Coastal Zone Management plans. We recommend that 
language be added to both bills to clarify that the State plans be 
consistent with the already-approved CZMA plans. In addition, we are 
pleased to note that Title VII of S. 2123, which deals with endangered 
species recovery efforts, has participation by both the Secretaries of 
Interior and Commerce, without any allocation of funds. We would like 
to see funds provided to the Department of Commerce so that we may also 
continue our work under the authorities of the Endangered Species Act. 
Absent further Congressional action on this point, the Administration 
would allocate the funds between the two Departments as part of the 
budget process each year, and act to ensure proper coordination between 
the Departments to avoid duplication and waste.
    As for S. 2181, the Administration applauds the objective of the 
legislation and supports language in the bill that gives appropriate 
jurisdiction over Title I to the Department of Commerce. We are also 
pleased to see that priority is given to activities and plans which 
support and are consistent with NOAA programs such as the National 
Estuarine Research Reserves, the National Marine Sanctuaries, Coastal 
Zone Management, and other Federal laws, such as the Magnuson Act, 
MMPA, and ESA, which govern the conservation or restoration of coastal 
or marine fish habitat. We also support priority being given to 
activities and plans that promote coastal conservation, restoration or 
water quality protection and other conservation needs. The Land and 
Water Conservation Fund was created to better protect our environment 
and it is crucial that funds be spent on activities consistent with 
this goal.
    Finally, Title IV of S. 2181 governs endangered species, over which 
the Department of Commerce has joint management responsibility with the 
Department of the Interior. Specifically, the Department of Commerce 
has jurisdiction over most marine and anadromous species, and we have 
joint jurisdiction over species such as sea turtles. And yet the bill 
makes no provision for participation by the Department of Commerce in 
Title IV, the Endangered Species Recovery Fund. The Department of 
Commerce does have sole jurisdiction over certain anadromous fish 
species listed under the ESA,including salmon species on the West 
Coast, and shortnose sturgeon on the East Coast, and we should have the 
ability to participate in the Endangered Species Recovery Fund for our 
endangered species recovery efforts.
    This concludes my specific comments. In closing, I would like to 
reiterate that the Administration applauds the great strides this 
Congress has made toward ensuring passage of OCS Revenue legislation 
this year. The Administration looks forward to working with this 
Committee, and the rest of the Senate to build on the bipartisan spirit 
shown in the House. We are at the turn of a new century--a time we can 
really make a difference in the future of our Nation. We hope we can 
all work together to leave a legacy of financial resources to protect 
our Nation's land and water treasures.
    The Office of Management and Budget has advised that, from the 
standpoint of the Administration's program, there is no objection to 
the presentation of this statement to the Congress.
                               __________
Statement of David Waller, President, International Association of Fish 
                         and Wildlife Agencies
    Thank you, Mr. Chairman. My name is David Waller, Director of the 
Georgia Division of Wildlife, and President of the International 
Association of Fish and Wildlife Agencies. Accompanying me today is 
Wayne Vetter, Executive Director of the New Hampshire Game and Fish 
Department, and President of the Northeast Association of Fish and 
Wildlife Agencies.
    We appreciate the opportunity to appear before your committee today 
to share with you the collective strong support of the 50 State Fish 
and Wildlife Agencies for the Conservation and Reinvestment Act, a bill 
that will ensure a conservation legacy for all Americans. This bill is 
unquestionably the most significant legislative initiative for fish and 
wildlife (and other natural resources) conservation in the last several 
decades. Whether you hunt, fish, bird watch, hike, play soccer or just 
enjoy the peace and tranquility of being outdoors appreciating the vast 
natural bounty of our Nation, this bill will ensure that our children 
and future generations will enjoy this bountiful natural wealth.
    The overwhelmingly bipartisan House vote last week sending H.R. 701 
to the Senate clearly shows that conservation programs are an extremely 
high priority for the American people. This vote dedicating funding for 
conservation sends an unmistakable message that certainty for 
conservation program funding has finally achieved the standing in the 
national budget that it truly deserves. As you know and appreciate, Mr. 
Chairman, natural resource conservation and recreation programs 
contribute significantly to our quality of life, our socio-economic 
stability, and our Nation's health and well-being. Just as Social 
Security is a financial safety net, conservation of our natural 
resources is resource safety net for both this and future generations.
    We urge your expeditious favorable attention to the Conservation 
and Reinvestment Act, and encourage your cooperation with and 
assistance to Chairman Murkowski to facilitate a bill being 
expeditiously reported to the full Senate for its consideration this 
year. Lets take advantage of the tremendous opportunity afforded us in 
this bill to do something for all Americans!
    The Association testified last year before this committee (on March 
18, 1999) and before the Energy and Natural Resources Committee (on May 
4, 1999), on S. 25 and several other proposals that would dedicate 
Outer Continental Shelf (OCS) revenues to State-based enhanced programs 
for fish and wildlife conservation, conservation education, and 
wildlife associated recreation; land and water conservation; outdoor 
recreation; and coastal conservation and impact assistance. Since that 
time, Senator Landrieu and Senator Murkowski have introduced S2123 (the 
House Resources Committee reported H.R. 701); Senator Bingaman has 
introduced S2181, and, just last week, the House passed H.R. 701 and 
sent it to this body for action. The Association strongly supports the 
Conservation and Reinvestment Act because it is a bipartisan, 
consensus-built, and common sense approach to conservation that makes 
good economic sense, good common sense, and good political sense. We 
sincerely appreciate the work of Senator Bingaman and Senator Baucus on 
the wildlife title of S. 2181, and you'll find our recommended 
improvements to Title III of CARA are certainly consistent with some of 
their bill.
    The coalition of over 4500 organizations that has come together in 
support of CARA, and worked so tirelessly for House passage 2 weeks 
ago, truly represents both broad and diverse grass-root support of the 
business community, conservation organizations, elected officials at 
all levels of governments, industry, the recreation community and other 
interests. Citizens from ``soccer moms'' to hunters and wildlife 
photographers strongly support CARA. Our common goal is to bring 
dedicated, consistent funding to state-based fish and wildlife 
conservation programs; land and water conservation; coastal 
conservation and environmental programs; State and local outdoor 
recreation; historic preservation; and incentives for our landowners to 
continue good stewardship of their land in open space uses as farmland, 
ranchland and forest land. CARA places decisions on identifying needs 
and spending priorities at the State and local level which we believe 
can best reflect the interest of our citizens, and, it does that while 
giving greater protection than exists in current law to private 
property owners with respect to Federal land acquisition. This 
coalition truly represents America's interest in our natural and 
cultural heritage, and our need to conserve that heritage for future 
generations. The work of this coalition over the last 2 years has 
resulted in the bipartisan, consensus-based bill that the House has 
sent over to you, a product that we urge you to give serious 
consideration as you undertake your own legislative deliberations.
    As we have testified before, the most significant benefit of CARA 
to fish and wildlife conservation is that the State fish and wildlife 
agencies will finally be in a position to take preventative 
conservation measures to address the life needs and habitat 
requirements of declining species before they reach a status where they 
must be listed as endangered or threatened species. This will save 
money and prevent the social and economic disruption associated with 
species being threatened or endangered. By acting proactively when more 
conservation options are available to us, the State fish and wildlife 
agencies can work cooperatively with private landowners through 
voluntary, non-regulatory means such as incentives, technical 
assistance, easements, and other such measures. Prevention makes good 
biological sense, good economic sense, and good common sense. 
Preventative conservation now is an investment that will continue to 
pay dividends far into the future. It simply costs much less to 
conserve fish and wildlife species by responding to early warning signs 
of decline, than it does to recover these species once they have to be 
listed.
    Also, as you know, Mr. Chairman, outdoor recreation is the fastest 
growing industry in this country, and CARA will position the State fish 
and wildlife agencies to help local communities identify and take 
advantage of wildlife related tourism opportunities. Programs to 
capture these opportunities can significantly enhance the economy of 
these rural communities.
    Let me briefly share with you today the few perfecting amendments 
the Association would urge be made to the Wildlife Title (Title III) of 
the Conservation and Reinvestment Act before Senate passage. The 
Association staff will continue to work closely with your committee 
staff on the details of these suggested improvements.
    First, the Association strongly urges that the floor (or minimum 
amount) of Title III allocation for States be raised from \1/2\ of 1 
percent to 1 percent. This relatively simple change would benefit 10 
States, including New Hampshire, where pressures on fish and wildlife 
and their habitats are significant, and where this modest adjustment 
would greatly enhance these States' programs for fish and wildlife 
conservation, conservation education, and wildlife associated 
recreation. The 10 States benefiting from this change include ME, NH, 
VT, RI, CT, DE, WV, ND, SD and HI. All of the State fish and wildlife 
agencies concur with this requested change even though some, like my 
State of Georgia, would have to give up a small amount of Title III 
funds to raise the floor for the other States. A table showing 
comparative allocations with the + percent and 1 percent minimum is 
attached.
    Second, the Association, in cooperation with many other fish and 
wildlife conservation organizations, supports the inclusion of 
``conservation strategy'' language that describes the decisionmaking 
process the State fish and wildlife agencies will engage in to identify 
the needs and priorities for spending Title III funds. This is 
basically a process that our agencies already go through to decide how 
to spend limited funds. It involves a comprehensive consideration of 
the distribution and status of fish and wildlife species, availability 
of habitat, land-use activities, planned infrastructure, demands on the 
fish and wildlife resources and their habitats, etc. The language 
(attached) we are recommending represents the hard work and good faith 
efforts of many parties, and enjoys widespread support of the wildlife 
conservation community.
    Thirdly, we strongly encourage you to allow, at the discretion of 
the State fish and wildlife agency, the expenditure of up to 10 percent 
of the Title III funds for conservation law enforcement activities. 
This discretion was removed from the House bill at committee mark-up, 
but the Association sincerely urges you to provide for it in the Senate 
bill. As you know, State fish and wildlife conservation officers have 
many opportunities to work with landowners and the public to implement 
voluntary, proactive fish and wildlife protection and public education 
and outreach programs. They also prevent poaching, or over-utilization 
of fish and wildlife resources, thereby reducing the likelihood that a 
species may become threatened or endangered in the future. Further, 
they provide for public safety, security, search and rescue functions, 
and resolution of outdoor user conflicts. In short, conservation law 
enforcement is an integral component of a comprehensive State fish and 
wildlife program and should, at the discretion of the State Director, 
be eligible for up to 10 percent funding under CARA.
    Fourth, in the House passed H.R. 701, and in S. 2123, we would like 
to call your attention to the 10 percent spending cap restriction on 
wildlife related recreation expenses. In 1996, over 62 million 
Americans participated in wildlife viewing with an economic impact of 
nearly $30 billion. Wildlife related recreation is critical in the 
fostering of the public's commitment to wildlife conservation in short, 
responsible nature-based tourism development, the promotion of nature 
and birding festivals, active wildlife-watching skill-building, and 
other creative activities build and sustain a growing wildlife 
conservation constituency. Although we recognize the concern that 
infrastructure needs might divert needed funding away from on the 
ground conservation, States need to be able to provide quality, safe 
opportunities for wildlife viewing and photography which are not only 
highly popular but provide significant economic benefits to 
communities. Such wildlife recreation opportunities would be provided 
consistent with other needs for wildlife management. Also, one-time 
capital investments to provide wildlife related recreation facilities 
while maintaining ongoing programs could require more funding than the 
10 percent annual cap would allow. State fish and wildlife agencies are 
in the best position to decide what mix of Title III funds should be 
applied to conservation, wildlife associated recreation, and 
conservation education, and we encourage your support for eliminating 
the 10 percent cap on expenditures for wildlife associated recreation.
    Fifth, the Association asks for your serious consideration of 
allowing a 90 Federal: 10 State ratio match for the Title III funds for 
the first 5 years of the program. This will allow some States, whose 
fish and wildlife agencies currently receive no general funds, to build 
their program in an orderly way as they go about securing State 
matching funds.
    Sixth, the Association supports the provision of an adequate amount 
of funds, with appropriate Congressional direction on its use, be made 
available to the USFWS for delivering apportioned CARA funds to the 
States. The Association recommends that 2 percent-3 percent would be an 
appropriate level, and urges that an additional 2 percent be made 
available to the FWS to administer a Multi-State Conservation Grant 
program to fund projects of regional or national significance such as 
Partners in Flight. In addition to their on-the-ground benefits for 
fish and wildlife resources, the cost of developing and implementing 
these projects of multi-state benefit is significantly less than if 
each State undertook the project on its own.
    Finally, we would like to make an observation that puts funding for 
comprehensive fish and wildlife conservation in perspective. The 
Association estimates $1 billion or more in additional funding needs 
annually for all 50 States for the programs that would be funded under 
Title III of CARA. We are sincerely and genuinely appreciative of the 
funding level in CARA now, but fully recognize that the needs are much, 
much greater. Spending money now to address and conserve the so-called 
nongame species will clearly save money in the future when these 
species don't have to be listed as threatened or endangered to secure 
their status. We encourage you to consider allowing the Title III funds 
to rise if OCS gas and oil receipts rise, by establishing a floor of 
$350 million, and a ceiling of up to 10 percent of the incoming OCS 
receipts, which ever is greater. That way, as exploitation of this non-
renewable natural resource proceeds, the revenue can be used to 
conserve renewable and sustainable natural resources as fish and 
wildlife, and associated recreation for our citizens.
    Mr. Chairman, in closing, the Association stands ready to assist 
you in whatever way we can to make programs which would be funded under 
CARA a reality for all of our citizens. Let's work together to pass 
this landmark legislation now, and provide a future for our citizens 
that we can all be proud of passing on.
    We would be pleased to answer any questions the committee may have.
    Thank you for the opportunity to share the Association's 
perspectives with you.
                                 ______
                                 
 Responses by David Waller to Additional Questions from Senator Inhofe

    Question 1. Please elaborate on the Federal Government's role in 
State and local planning decisions under S. 25, S. 2123, and S. 2181.
    Response. The Federal Government is given no additional role in 
State and local planning decisions under any of these proposals. What 
CARA can and will do, however, is help States, counties, and local 
communities make more informed land-use decisions regarding growth and 
development that are consistent with natural resources conservation 
since the State natural resources (and other) agencies will have better 
information on what significant habitats, etc. need conservation 
attention.

    Question 2. If the Department of Interior disagrees with a State's 
or locality's planning decision, could DOI withhold funds?
    Response. I read nothing in any of the proposals that would give 
DOI the authority to do that.

    Question 3. I am concerned with the impact of S. 25, S. 2123, and 
S. 2181 on lands used for hunting and fishing. The flood of money 
provided by CARA will enable buying and turning over to the government, 
private lands currently used for hunting and fishing. This will subject 
the property's sporting use to the whim of public opinion, and a 
bureaucracy increasingly hostile to sport, fishing, trapping, and gun 
ownership.
    An example of my concern is what happened in New York last year 
with the largest land purchase in that State's history. For over one 
hundred years, Champion International Timber Company and previous 
private owners has leased out 139,000 acres of its holdings for 
recreation, including fishing and hunting. When the State of New York 
purchased the land, the State's first ``management'' action was to 
eliminate hunting access and drastically limit other recreation uses. 
Included with these mandates was ordering the destruction of 298 
hunting cottages used by 3,000 sportsmen each year.
    Under S. 25, S. 2123, and S. 2181, how likely are scenarios like 
this?
    Response. The case you cite was raised by former Assistant 
Secretary (USDI) Ray Arnett and was apparently and erroneously based on 
press reports. Attached is a letter from Peter Duncan, Deputy 
Commissioner of the NY Dept. of Environmental Conservation, who points 
out that, contrary to Mr. Arnett's statement, the land will be 
available for public hunting and fishing. Mr. Duncan was specifically 
involved in the negotiations for the property, while Mr. Arnett's 
allegations are based on erroneous information.
    CARA Title III funds will be administered by the State fish and 
wildlife agencies which have a long-standing and unquestionable record 
of support for hunting, fishing and trapping as legitimate and 
sustainable uses, under scientific wildlife management, of fish and 
wildlife resources. The scenario you describe is extremely unlikely to 
occur.

    Question 4. Under S. 25, S. 2123, and S. 2181, how is the 
applicability of the Pittman-Robertson Act expanded?
    Response. With the exception of the very limited opportunity for 
the CARA subaccount funds to be used for wildlife conservation 
education and conservation law enforcement, the Pittman-Robertson Act 
is not expanded under CARA. Only the source of funds for the CARA 
subaccount is expanded from the original funding source.

    Question 5. Could the additional funds lead to abuses of the 
Pittman-Robertson fund?
    Response. Congress is currently considering bills to legislatively 
reform the administration of the Pittman-Robertson (and Wallop-Breaux) 
programs by the USFWS. We anticipate that such reforms to the 
administration of the underlying Act would also apply to the 
administration of the CARA subaccount.

    Question 6. Under S. 25, S. 2123, and S. 2181, what is the total 
scope of potential land acquisition?

    Question 7. Under S. 25, S. 2123, and S. 2181, how much land 
acquisition power has any restrictions or protections placed upon it?
    Response. With respect to Title III, we do not anticipate that a 
significant amount of the funds will be spent on land acquisition. The 
needs for acquisition either fee title, conservation easements or 
purchase of development rights will depend on the State and will depend 
on the species that need to be addressed and their habitat needs. For 
example, in States that have a lot of public land, the mountain areas 
tend to be in public ownership and the valleys tend to be privately 
owned. Those valleys in many cases constitute critical winter range for 
a large number of species, both game and non-game. A very practical 
approach and a very workable one is to work with landowners on 
conservation easements or purchase of development rights so those lands 
could remain under private ownership but remain available for wildlife 
during the critical winter period. This is beneficial both to 
landowners who would like to remain on the land and to the future of 
wildlife. At the same time there may be areas particularly in the east 
where there is heavy human populations or it may be absolutely 
essential to acquire through fee title or conservation easements 
several hundred or thousands of acres of significant habitat in short 
supply. Again to the extent that the State can meet its objective, we 
would expect it to be done through conservation easements with maybe 
some of it being subject to fee title in order to provide a level of 
public use and public access to streams, canoe areas, etc.

    Question 8. Under S. 25, S. 2123, and S. 2181, what is the 
potential for significant increases in discretionary spending above and 
beyond what would be dedicated to the trust fund?
    Response. Congress will decide through the appropriations process 
whether (and how much) to spend additional discretionary funds for 
conservation/recreation purposes.

    Question 9. Does creating a CARA trust fund violate the fiscal year 
2001 budget resolution?
    Response. Congress will decide which mix of spending will be 
consistent with the fiscal year 2001 budget resolution.
                                 ______
                                 
   New York State Department of Environmental Conservation,
                              Offices of Natural Resources,
                                                  February 9, 2000.

To the Congressional Sportsmen's Caucus:

    I understand that a letter regarding the proposed Conservation and 
Reinvestment Act penned by G. Ray Arnett and sent to the House 
Resources Committee on November 5, 1999 continues to circulate and 
confuse. The Arnett letter is a classic example of misinformation 
designed to deceive the reader. Mr. Arnett falsely opines that 
``overzealous regulators, joined by environmental pressure groups . . . 
will make folly of the ``willing seller'' clause by harassing owners of 
properties targeted for acquisition.'' Mr. Arnett falsely claims the 
recent acquisition of Champion International lands by New York State an 
example of such a ``folly.'' As a negotiator in the Champion Lands 
agreement, I would like to set the record straight. In fact, was 
Champion who approached New York State with a proposal to sell its 
lands. There was never pressure from regulators or any other entity to 
negotiate this win-win agreement that benefited Champion Internationad 
as well the citizens of New York State. A better example of a truly 
``willing seller'' is hard to imagine.
    Contrary to Mr. Arnett's letter, New York State has not eliminated 
hunting access to the lands recently purchased from Champion 
International. In fact, this landmark acquisition, completed with a 
willing seller and in accord with New York's Open Space Conservation 
Plan, is the single largest addition to New York's publicly accessible 
hunting and fishing land in this century. This complex transaction, 
when fully implemented, will result in all New York anglers, hunters 
and trappers once again having access to over 140,000 acres of lands 
and waters that have been previously closed to the public for the past 
100 years.
    As part of this acquisition, New York State acquired fee titlee to 
about 30,000 acres of famous ``northern flow'' river corridor lands 
formerly owned and managed by Champion International. Upon acquisition, 
these lands became part of New York's Forest Preserve, which by 
provision of the New York State Constitution must remain forever wild. 
However, New York State ensured that all existing hunting club leases 
to the Champion lands were fully honored and that reasonable transition 
periods were allowed before exclusive hunting rights pursuant to these 
leases expired. As a result, leaseholds located on forest preserve 
lands were granted a 1-year transition period at which time they have 
the opportunity to keep their camps for 5 years including one-acre 
envelope of exclusive use around each camp or relocate during the 5-
year period to the easement lands in order to take advantage of a 15-
year transition period. Beginning in July of 2000, all of these fee 
title lands (forest preserve) will again be open to the public 
including existing leaseholders, for a full range of recreational 
activities including hunting, fishing and trapping.
    The remaining Champion lands, approximately 110,000 acres, were 
purchased in fee by a private timber investment company and will remain 
in active forest management. Tke State of New York acquired 
conservation easement, including development rights and recreation 
rights, on these same 110,000 acres. Beginning in July 2000, these 
easement lands will also be open to the public for a variety of outdoor 
recreational uses, including hiking, canoeing and fishing. As part of 
the acquisition, New York Sate agreed to end the exclusive hunting 
rights of existing leaseholders on these 110,000 acres of easement 
lands for a period of 15 years, even though the leases were annual 
leases and the State had no legal obligation to renew or extend them. 
Our goal was to provide the leaseholders with a transitional period in 
which could continue to enjoy exclusive hunting on these easement lands 
for a reasonable transition period. At the end of that fifteen-year 
period, these easement lands will once again be opened to hunting and 
trapping for not only the existing hunting camp lessees but for all the 
public.
    In negotiating this complex transaction the State has assured that 
the interests of the existing leaseholders were considered, that the 
easement lands will be maintained in productive and sustainable forest 
management, that the habitat value of lands will be enhanced through 
responsible forest management, and that all hunters and trappers will 
have access to these land forever thereafter.
    Mr. Arnett in dead wrong on how this important land acquisition end 
management partnership will impact public access for hunting, fishing 
and trapping. Mr. Arnett contends that lands under government ownership 
and control will soon prohibit ``consumptive use of wildlife 
resources'' without providing any justification for such a position. 
All New York anglers, hunters and trappers will soon enjoy the access 
to all of the former Champion land where previously those lands were 
off limits to all but select few. We are proud of the Champion land 
acquisition and believe it clearly demonstrates the value the Nation's 
anglers, hunters and trappers can derive from a willing seller-based 
acquisition program. We look forward to passage of the Conservation and 
Reinvestment Act to provide New York and other States with the 
financial resources to build on this record of success.
            Sincerely,
                             Peter S. Duncan, Commissioner.
                                 ______
                                 
  Responses by David Waller to Additional Questions from Senator Bond

    Question 1. I notice that the Conservation and Reinvestment Act 
includes conservation, conservation education and wildlife related 
recreation. Briefly describe for me why these three different aspects 
of Title III are important.
    Response. Conservation includes first determining what we call the 
status of the hundreds of species of wildlife that we regularly see 
(such as many of the common birds that return in the spring) and 
systematically collecting that information over time in order to 
determine which species are declining and what their habitat 
requirements are. With this information we can work cooperatively and 
voluntarily with landowners to ensure that the species do not decline 
to the point where they become threatened and endangered. We of course 
already know a number of species that are declining and will 
undoubtedly become threatened and endangered unless we begin immediate 
work to reverse that decline. We also know some types of habitat that 
are in decline and that the amount of that habitat may be getting less. 
For example, there are remnants of historical prairie type grasses that 
are very important to a number of species. There is a lot of interest 
on the part of landowners to restoring the prairie habitat type. We 
have the technical know how to do that and with some technical 
assistance and other work with landowners, we believe in many cases we 
could restore substantial part of that habitat which would be very 
important for a lot of species.
    The second part, conservation education, we think is fundamentally 
important to conservation over time. There was a time when most of our 
people lived on the land and had a fairly good idea of what constituted 
conservation of land and water. As we have become a land of urbanites 
and suburbanites, there is less understanding of the basic principles 
of conservation which are important for both urban and rural areas. We 
might as Aldo Leopold expressed, reach a point where we believe that 
heat comes from the stove and milk from the milkman. We need to 
understand our dependence on natural resources and the things that we 
can do as individuals to help protect water, air, vegetation and soil.
    The third part of Title III is wildlife related outdoor recreation. 
The fastest growing form of outdoor recreation in the United States 
today is related to wildlife. Whether it is along the northeast coast, 
where there is an unparalleled level of migration of birds: or bears in 
Montana or Alaska; or bats in Texas, the public wants to be able to 
see, to photograph and to take home with them the experience of seeing 
wildlife. Most people who visit national parks and national forests and 
wildlife refuges, for example, record that the high point of their trip 
is seeing some form of wildlife that they have not seen before. There 
is a tremendous economic impact for communities from that type of 
visitation.

    Question 2. During the consideration of the wildlife title, there 
was already considerable amount of conversation about game versus non-
game and whether this legislation ought to restrict OCS funds to non-
game species. What is the States' answer to that question?
    Response. (1) We do not believe that the legislation should 
restrict use of funds to non-game species. In the first place, wildlife 
requires specific habitat and in virtually all habitats there are both 
game and non-game species, so artificially restricting funding to game 
or non-game does not make sense. (2) Recognizing that fact, a large 
spectrum of wildlife related organizations ranging from the National 
Wild Turkey Federation to Rocky Mountain Elk Foundation to National 
Rifle Association to Defenders of Wildlife have all agreed on so-called 
planning strategy language which we commend for your use rather than 
dealing with game or non-game restrictions or emphasis. The planning 
strategy language simply says that a State will look carefully at the 
status of species and the status of habitat and will address priority 
needs for declining species and scarce habitat as it goes about 
preparing the 5-year program. That is a reasonable and practical 
approach and the process will include public involvement as the 
planning strategy is developed. We believe that will provide a sound 
approach to planning that is flexible enough for the States to meet its 
overall needs for wildlife management, while at the same time providing 
emphasis on species that are declining and on scarce habitat. As a 
practical matter, in most States the species that are declining the 
most tend to be non-game species simply because we do not have adequate 
funding to address the needs of those species.

    Question 3. Do you anticipate that a high percentage of the 
wildlife money will be spent on acquisition?
    Response. No, I do not. The needs for acquisition either fee title, 
conservation easements or purchase of development rights will depend on 
the State and will depend on the species that need to be addressed and 
their habitat needs. For example, in States that have a lot of public 
land, the mountain areas tend to be in public ownership and the valleys 
tend to be privately owned. Those valleys in many cases constitute 
critical winter range for a large number of species, both game and non-
game. A very practical approach and a very workable one is to work with 
landowners on conservation easements or purchase of development rights 
so those lands could remain under private ownership but remain 
available for wildlife during the critical winter period. This is 
beneficial both to landowners who would like to remain on the land and 
to the future of wildlife. At the same time there may be areas 
particularly in the east where there is heavy human populations or it 
may be absolutely essential to acquire through fee title or 
conservation easements several hundred or thousands of acres of 
critically short habitat. Again to the extent that the State can meet 
its objective, we would expect it to be done through conservation 
easements with maybe some of it being subject to fee title in order to 
provide a level of public use and public access to streams, canoe 
areas, etc.

    Question 4. Does Title III provide additional regulatory power for 
either the Federal Government or the States?
    Response. No, Title III is a completely non-regulatory, voluntary, 
incentive based approach to wildlife management. That is the approach 
valued by the States which has been very successful, as you know.

    Question 5. How much money do the States have now on wildlife 
management programs and who pays the bill?
    Response. Nationally more than 80 percent of the bill is paid for 
by hunters and anglers, either through license fees or through excise 
taxes on guns, ammunition, fishing tackle or motorboat fuel taxes. The 
balance comes from a variety of sources such as a \1/8\ percent sales 
tax in Arkansas and Missouri, a portion of the sales tax in Virginia, 
and a portion of the lottery in Arizona and Colorado. In more than half 
the States, 100 percent of the wildlife management program is funded by 
hunters and anglers. T am submitting a copy of the latest survey that 
shows how the State fish and wildlife agencies are funded for the 
record.

    Question 6. Why do the States think a dedicated fund from OCS oil 
receipts is so important compared to other approaches?
    Response. We know that from the experience of the Pittman-Robertson 
and Wallop-Breaux Acts, funds from which (beginning in 1937) have 
provided a dedicated source of funding for wildlife that really works. 
By knowing each year that we will have funding over time, it is 
possible to lay out long-term programs to hire competent staff and to 
establish a program of cooperation with landowners that works. I 
believe that approach saves a lot of money rather than dealing with 
rapidly changing program levels each year which makes it very difficult 
to either hire staff or to establish long-term working programs with 
landowners.

    Question 7. You are aware that some believe that this new funding 
should be restricted to non-game or at least there should be a mandate 
that it be used primarily for non-game. Is the current Pittman-
Robertson program funded by those who buy guns and ammunition 
restricted to game species?
    Response. No, neither the Pittman-Robertson nor Wallop-Breaux funds 
are restricted to game species. We recognize that in many States, 
because all of the funding comes from hunters and anglers, that the 
States must spend money on a wide variety of species, particularly 
threatened and endangered species in order to carry out wildlife 
habitat improvement programs. The annual report of the Association 
indicates the States spend substantial amounts of money each year from 
Pittman-Robertson and Wallop-Breaux funds for threatened and endangered 
and other non-game species. The States also provide public information, 
conservation education, and other services to the public whether the 
public is interested in game or non-game species.

    Question 8. What would keep the States from simply taking this new 
money and carrying out the same old program and not addressing the 
broad array of species or otherwise modifying the program to address 
non-game species?
    Response. The first pragmatic reason, of course, is that with the 
huge coalition that has been developed around the Conservation and 
Reinvestment Act, and the requirement for public involvement in 
developing a 5-year program, there is simply no practical way the 
States, even if they wanted to, could ignore that new constituency. All 
of the States recognize that new constituency that is part of the 
funding. Second, the States, more than a decade ago, recognized the 
need to have a broad program that addressed the needs of the broad 
array of species as reflected in this act. The States for 10 years have 
supported this extra effort to obtain additional funding. The State 
fish and wildlife agencies better than anyone else recognizes the need 
for funding the at least 1500 species of wildlife that we now do not 
have funding to address.

    Question 9. In your proposal today, you ask that we not only pick 
up the planning strategy language but that we also raise the minimum 
per State from \1/2\ percent to 1 percent and that we move the upper 
limit on outdoor recreation which was added to the Senate. You also 
asked us to allow the States to use the up to 10 percent of the funds 
for law enforcement, provide a transition funding from starting at 90 
percent and being reduced to 75 percent over 5 years, and that we 
increase the total amount of funding to $450 million. Would you please 
address each one of those briefly.
    Response. I would be glad to. (1) The planning strategy language 
has been agreed to by a broad cross section of wildlife interests as 
the realistic approach to addressing the needs of a broad array of 
species whether they be game or non-game.
    We believe that the raising of the minimum per State from \1/2\ to 
1 percent is very important because with the \1/2\ percent of 1 percent 
it really did not provide enough for States to have an effective 
program, particularly those States that have a small land base but high 
populations, where there is a lot of pressure being put on natural 
resources. That includes such States as New Hampshire, Delaware, Rhode 
Island, Connecticut, etc. A second kind of State where the \1/2\ of 1 
percent is a problem are States such as North Dakota, South Dakota and 
West Virginia, where there is a larger land base but very low relative 
population. There are 10 States that would gain from the change from 
\1/2\ percent to 1 percent. Several States such as New York, Alaska or 
Texas would not change at all. The States that would get a little bit 
less per State would provide a big help to the States where the minimum 
is raised.
    The ceiling of 10 percent on outdoor recreation funding was added 
by the House apparently out of concern that the States would be lobbied 
for outdoor recreation facilities and would spend too much money on 
those activities. First, that is highly unlikely because you are 
dealing with a State fish and wildlife agency which is very concerned 
about wildlife. Our main concern, though, is that by providing a 10 
percent limit per year, a State if it wanted to do any capital 
investment such as building trails, a visitor facility or nature 
center, would have to string out the billing of that facility over a 
number of years because of the limitation. That would be both 
inefficient and in our view counterproductive. Again, the States are 
going to have to put together a 5-year program with public involvement 
and we believe that the States are in the best position for determining 
priorities and a 10 percent arbitrary limit simply does not make sense 
particularly on a year to year basis.
    On law enforcement, the State fish and wildlife agencies feel 
strongly that appropriate conservation law enforcement is an important 
part of a wildlife management program. Law enforcement personnel not 
only provide outreach to many communities and assist in conservation 
education, but law enforcement is necessary to guard against those who 
are included to take wildlife in disregard of the law, such as capture 
of wildlife for pets, which will be deterred by a law enforcement 
presence. Again the State has the discretion of spending up to 10 
percent of the funds for law enforcement, and we believe that is where 
the discretion should rest.
    On funding of 90 percent to the transition to 75 percent Federal 
share over time?. it its particularly important to States who have no 
ready source of match for this particular funding. States have 
historically used hunting and fishing license fees to match Pittman-
Robertson and Wallop-Breaux programs. There is no parallel source of 
funding for this new OCS funding. States will have to work hard to 
develop the non-Federal source of the funds and it would be helpful if 
there is a transition period to do so. States like Alaska, New 
Hampshire, Montana and Idaho are examples of States that have very 
little funding except that provided by hunters and anglers.
    Finally, on raising the total amount of funding from $350 million 
to a ceiling of 10 percent (or $450 million), we recognize that this is 
difficult to do within the context of the total amount of money that 
can be provided. To place the program needs within context, however, we 
recognize that the States spend about $1.5 billion on less than 100 
game and sportfish species. The need for the 1500 species we are 
talking about now is at least $1 billion per year. The $350 million 
will certainly be a great help to allow substantial progress to be 
made, but we simply want to emphasize that the need is significantly 
greater than the $350 million provided. Originally we were talking 
about 10 percent of the amount of OCS oil which would have provided 
about $450 million or so.
                               __________
     Statement of Rindy O'Brien, Vice President, Public Policy The 
                           Wilderness Society
    Mr. Chairman and members of the committee, I appreciate the 
opportunity to submit this testimony for the record on S. 25, S. 2123, 
and S. 2181, bills to fund a variety of conservation programs through 
use of revenues received from Outer Continental Shelf oil and gas 
production.
    On behalf of The Wlderness Society's 200,000 members nationwide and 
the many grassroots partners that have worked tirelessly for the past 
35 years protecting the Land and Water Conservation Fund, today's 
hearing is a momentous occasion. The Wilderness Society founded in 1935 
works to protect America's wilderness and wildlife and to develop a 
nationwide network of wild lands through public education, scientific 
analysis and advocacy. Our goals is to ensure that future generations 
will enjoy the clean air and water, wildlife, beauty and opportunities 
for recreation and renewal that pristine forests, rivers, deserts and 
mountains provide.
    The Senate has an historic opportunity this year to create a 
lasting conservation legacy. By enacting legislation that will reinvest 
Outer Continental Shelf oil revenues into the preservation of America's 
wild and natural places, the 106th Congress can preserve irreplaceable 
natural resources that are an essential part of our nation's heritage.
    The legislation before the committee today is perhaps the most far-
reaching and complex piece of environmental legislation to be 
considered by Congress in the past decade. As the committee knows, The 
House of Representatives recently passed CARA legislation (H.R. 701) 
with a strong bi-partisan majority of 315 to 102. Over 2 years, the 
architects of H.R. 701 worked to accommodate the concerns of a wide 
range of interests. In the end, the bill was supported by a diverse 
coalition, cutting across partisan, geographic, and ideological lines.
    The Wilderness Society believes this carefully crafted legislation 
is a sound starting point for the Senate's deliberations. Alongside our 
colleagues in the environmental community, we would welcome the 
opportunity to further improve this bill. But, we also clearly 
acknowledge the substantial progress already made in balancing 
competing interests.
    The committee will be hearing testimony from other conservation 
organizations today on various aspects of these bills. I would like to 
focus my remarks on the Title II provisions dealing with the Land and 
Water Conservation Fund (LWCF). Over the 35-year history of LWCF, The 
Wilderness Society has been a relentless advocate for full funding of 
this critical conservation program.
    As you know, when Congress created the Land and Water Conservation 
Fund in 1964, a portion of the revenues from Federal offshore oil and 
gas leases, amounting to about $900 million a year, was earmarked for 
the Fund to purchase and protect ``areas of natural beauty and unique 
recreational value.'' But Congress never spent all of the money for its 
intended purpose. Between 1987 and 1997, $3 out of every $4 were spent 
elsewhere. During the same period, LWCF spending averaged just $230 
million or 25 percent of the $900 million authorized to flow into the 
Fund. Congress did a little better in the early years of the Fund, but 
not much.
    One of the principal motivations of this under-spending was to make 
the Federal budget appear to be less out of balance. But the failure to 
take full advantage of LWCF's potential has also been a result of 
insufficient commitment to the Fund's purpose in some corners of 
Congress. Senators, we can no longer afford that lack of commitment.
    Despite operating with severely less funding than originally 
intended, LWCF has performed some small and large miracles for the 
American environment. This little known and, until recently, almost 
forgotten Fund was the invisible hand behind some of the most important 
and vital Federal land acquisitions of the past three decades. On the 
Eastern seaboard, these include: the Cape Cod National Seashore in 
Massachusets, the New Jersey Pinelands, the expansion of the Florida 
Everglades, and the completion of the Appalachian National Scenic 
Trail. The Fund has preserved fisheries, wetlands, and wildlife 
habitats. The state-side portion, when it actually received any money, 
created scores of parks, soccer and baseball fields, community swimming 
pools, greenways and bikeways in all of our neighborhoods, including 
some of this nation's harshest urban settings.
    Almost 7 million acres of land have been purchased with LWCF funds.
    This committee has an opportunity to advance hundreds of additional 
projects such as these. It is an opportunity that comes in a time of 
both enormous need and extensive public support.
    In 1998, of 148 State and local open space measures on the ballot, 
124 were approved. That's a resounding 84 percent approval rating on 
measures which, collectively, committed over $5 billion in public 
revenues to preserving America's open spaces. The figures from 1999 are 
equally impressive. Of 102 open space ballot initiatives, 92 were 
successful. That's a 90 percent success rate and those 92 measures 
committed another $1.8 billion to public land acquisition.
    Leaders all across the country, Democrats and Republicans alike, 
are stepping up to the plate to protect our natural heritage. It's time 
for the Senate to join them and when you do, you can be assured of 
broad public support. According to a recent survey conducted by the 
Luntz Research Companies, 88 percent of voters nationwide agree with 
the proposition that ``we must act now or we will lose many special 
places and, if we wait, what is destroyed or lost cannot be replaced.''
    In The Wilderness Society's view, there are three elements 
essential to the final legislation as it relates to LWCF.
    First, that legislation must permanently remove LWCF from the 
financial machinations that,
    for far too long, limited its effectiveness.
    This is the year to take LWCF off-budget once and for all. During 
the House debate, H.R. 701 was amended to make it clear that 
expenditures under this legislation will not occur if they diminish the 
funds available for Social Security and Medicare. We have no dispute 
with that provision. But, we firmly believe that efforts to protect 
open spaces deserve the same protection Congress has provided for the 
Highway Trust Fund and, most recently, the Federal Aviation Trust Fund.
    If we can set aside money to pave it, we can set aside money to 
save it.
    Here again, the American people agree. In the previously mentioned 
Luntz study, voters were asked what use should be made of any Federal 
off-budget trust funds. They chose protecting open space (45 percent) 
over building highways (37 percent) and airport construction (7 
percent).
    Second, the LWCF must be fully funded.
    After years of diverting as much as 75 percent of the intended 
money out of LWCF, partial reparations are not good enough. The 
original bipartisan intentions of Congress in 1964 should be honored by 
funding LWCF at the full $900 million level.
    Third, the LWCF should move forward unencumbered by new 
restrictions on how it operates.
    The LWCF isn't broken, and there is no need to fix it. Those who 
are genuinely committed to its success will not, with one hand, finally 
give LWCF the financial resources it needs, while, with the other hand, 
taking away its effectiveness by adding new and needless restrictions 
on how the Fund works. Why hamstring the 30 years of success?
    S. 25, one of the pieces of legislation before the committee, 
contains a number of needless and counter-productive restrictions on 
the Federal side of LWCF. The House wisely rejected those restrictions 
and we urge the Senate to do the same.
    We also vigorously urge that the Senate reject any and all attempts 
to impose a ``no net gain'' provision on Federal land acquisition. The 
public lands now in existence were set aside for purposes other than 
today's environmental needs, and, as they are now, they are not 
sufficient to the ecological tasks we are imposing on them.
    Today, development pressures on open spaces are unrelenting, 
gobbling up land resources that, as you all should recognize, are vital 
to the continued health, both economic and environmental, of our 
nation. Seven thousand acres of land are lost every day to development. 
And at least 110 species of plants and animals are now extinct in the 
United States.
    When Congress allocates funds for a new highway or a new runway, it 
doesn't require that an equal-sized area by returned to an undeveloped 
State. Especially in an era of rapidly expanding development, decisions 
about protecting open spaces should be made on the merits, unencumbered 
by an artificial ``no net gain'' limitation that has no support in 
either science or common sense.
    I'd like to close my remarks by directly addressing the specious 
arguments being advanced by so-called ``property rights'' advocates who 
are working hard to defeat CARA legislation. Senators, they would have 
you believe that the bills you are considering today weaken the rights 
of private landowners. The reality is that the House-passed bill 
strengthens and clarifies their rights.
    As Representative Don Young (R-Alaska), sponsor of the House-passed 
CARA, commented during the House debate, ``For those that oppose the 
bill on private property rights, again I will tell them that this bill 
improves private property rights. It helps those people; it does not 
hurt them.''
    In fact, the House-passed bill contains a Protection of Private 
Property Rights section (Sec. 10). Section 10 says:
    Nothing in the Act shall authorize that private property be taken 
for public use, without just compensation as provided by the Fifth and 
Fourteenth amendments to the United States Constitution.
    Under the provisions, of this bill:
    All transactions must be carried out with willing sellers. CARA 
prohibits the government from using adverse condemnation to acquire 
lands unless specifically authorized by Congress.
    The Administration must seek to use exchange and conservation 
easements as alternatives to fee-simple acquisition.
    The Administration must seek to consolidate Federal land holdings 
in States with checkerboard Federal land ownership patterns.
    The Congressional representatives, Governor, local government 
officials and public (via a widely distributed local newspaper) must be 
notified of proposed acquisitions.
    I believe that, the conservation community has gone out of our way 
to make certain that the concerns some real, some imagined--of those on 
the other side of this debate have been addressed in the development of 
the LWCF provisions of CARA legislation. The wide margin of the House 
vote indicates that a vast bipartisan majority of that body agrees that 
we have achieved a compelling and persuasive balance of competing 
interests.
                                 ______
                                 
 Responses by Rindy O'Brien to Additional Questions from Senator Crapo

    Question 1. The Maintenance backlog on our public lands in immense, 
however, these bills propose to increase Federal ownership of lands. 
Does it make sense to require a cost analysis of future operations and 
maintenance costs associated with land to be acquired? If not, why?
    Response. It is important to understand the reason why we have a 
backlog on our public lands. For 12 years under the Reagan 
Administration, lead initially by James Watt, Sec. Of DOI, the 
Republican administrations of Reagan and Bush cut dramatically the 
budgets for our public lands. The maintenance backlog is the result. 
With increased budgets and better economic security, more funds have 
been spent over the past 10 years to improve these agencies, and we are 
beginning to see results. But these increases don't even bring these 
agencies to baseline.
    Almost all public lands are authorized by Congress. Many contain 
specific authorization levels, and do exactly as you request of a cost 
analysis. Congress requires CBO to score such legislation. Isn't your 
request one in the same? Would we not be duplicating efforts?

    Question 2. The House passed version of CARA, H.R. 701, includes an 
amendment that would preclude the transfer of money to the CARA fund if 
the CBO does not certify that Congress is on-track to eliminate the 
national debt by 2013, or meet Social Security or Medicare obligations. 
Do you support a similar amendment to the Senate bills and why? If not, 
Why?
    Response. Yes, we are seeking a dedicated funding trust, but do not 
believe it has to be constructed like Social Security and Medicare. We 
do not have a problem with it being structure in the same way that the 
Highway Trust and Aviation Trust bills are dedicated and under 
sequester rules if there is a national debt.

    Question 3. Do you believe that the Federal Government is a better 
steward of land than private ownership? Why?
    Response. There are good examples of stewardship in both the 
government and private ownership sectors. There are also examples of 
bad stewardship in both. It begs the important questions--there should 
be places in our country that the public has a right to access and use. 
We should not allow international and large corporations buy up the 
last remaining untamed lands of our nation for their own private use, 
denying families and others a chance to hunt, fish, picnic, etc.

    Question 4. S. 2181 provides full funding for PILT. S. 2123 
provides a match for PILT and Refuge Revenue Sharing. S. 25 is silent 
on both points. Given the impact of increased Federal land ownership on 
local communities, do you support providing full funding for PILT and 
Refuge Sharing as part of CARA? If not, Why?
    Response. We have always supported and worked hard each year with 
the appropriations committee to achieve full funding of PILT and Refuge 
sharing.

    Question 5. Do any of the CARA bills adequately address the 
operations shortfalls or maintenance backlog on Federal lands? If not, 
should the CARA bills address this problem? If not, why?
    Response. We do hope the CARA proposal will contain money for 
backlog maintenance. We only ask that it not be at the expense of the 
LWCF fund. We, as a nation, can afford both.
                               __________
 Responses by Rindy O'Brien to Additional Questions from Senator Inhofe

    Question 1. Please elaborate on the Federal Government's role in 
State and local planning decisions under S. 25, S. 2123, and S. 2181.
    Response. The Land and Water Conservation Fund was established 30 
years ago. To ensure recreational opportunities are available for all 
Americans, the Land and Water Conservation Fund (LWCF) has a State 
matching-grant component. The state-side 50/50 match empowers 
communities to realize their own ``green dreams'' and recreational 
goals. This fund is distributed to States on a State formula that is 
designated as part of the authorizing bill. Each State must conduct its 
own inventory of needs and submit that inventory to the Secretary of 
Interior. Once such an inventory exists, the Secretary releases the fun 
to the Governor of the State. The Governor or his designee then 
distributes the funds to local and or stat projects that have 
demonstrated a 50 percent match. The projects do not have to be on the 
inventory, per se, although often they are. The program really is 
controlled at the State and local level.

    Question 2. If the Department of Interior disagrees with a State's 
or locality's planning decision, could DOI withhold funds?
    Response. The decision to approve projects rest with the Governor 
not DOI.

    Question 3. I am concerned with the impact of S. 25, S. 2123, and 
S. 2181 on lands used for hunting and fishing. The flood of money 
provided by CARA will enable buying and turning over to the government, 
private lands currently used for hunting and fishing. This will subject 
the property's sporting use to the whim of public opinion, and a 
bureaucracy increasingly hostile to sport, fishing, trapping, and gun 
ownership.
    An example of my concern is what happened in New York last year 
with the largest land purchase in that State's history. For over one 
hundred years, Champion International Timber Company and previous 
private owners has leased out 139,000 acres of its holdings for 
recreation, including fishing and hunting. When the State of New York 
purchased the land, the State's first ``management'' action was to 
eliminate hunting access and drastically limit other recreation uses. 
Included with these mandates was ordering the destruction of 298 
hunting cottages used by 3,000 sportsmen each year.
    Under S. 25, S. 2123, and S. 2181, how likely are scenarios like 
this?
    Response. Actually, the CARA program will do just the opposite. I 
hear often from hunters and fishing folks that they are being denied 
access to lands that traditionally have been in private ownership and 
no are being sold to international corporations that fence and post no 
hunting and fishing access. Actually CARA would provide funding for 
conservation easements that would allow the both of two worlds. Private 
ownership could remain but corporations could be paid to allow the more 
traditional use of their property. There is no funding in the current 
stewardship arena to do that.

    Question 4. Under S. 25, S. 2123, and S. 2181, how is the 
applicability of the Pittman Robertson Act expanded?
    Response. I do not have expertise or knowledge of title III to 
address that question.

    Question 5. Could the additional funds lead to abuses of the 
Pittman-Robertson fund?
    Response. Do not know.

    Question 6. Under S. 25, S. 2123, and S. 2181, what is the total 
scope of potential land acquisition?
    Response. I do not know that anyone knows the answer to this 
question. There are thousands of inholders around the country that have 
been waiting for the appropriations of LWCF to acquire, as willing 
seller, their inholdings. This would allow the government to complete 
promises made years ago. I emphasize that the land acquisition needs 
have almost always (with a few exceptions) been by willing seller. This 
would also allow for land exchanges and consolidation to provide better 
management of our public lands.

    Question 7. Under S. 25, S. 2123, and S. 2181, how much land 
acquisition power has any restrictions or protections placed upon it?
    Response. S. 25 would have placed geographic restrictions. All 
bills contain language to strengthen the willing seller acquisition, 
and all bills insure the constitutional rights of property owners.

    Question 8. Under S. 25, S. 2123, and S. 2181, what is the 
potential for significant increases in discretionary spending above and 
beyond what would be dedicated to the trust fund?
    Response. None.

    Question 9. Does creating a CARA trust fund violate the fiscal year 
2001 budget resolution?
    Response. Yes, the FYI, 2001 budget resolution would have to be 
amended. But, as I said in my testimony, if this nation can take 
highway building off-budget, it should spend a fraction of the money 
for preserving our parks and heritage. With the surplus funds of this 
government, amending the budget should not be an issue.
                               __________
Statement of Rodger Schlickeisen, Defenders of Wildlife and the Natural 
                       Resources Defense Council
    Mr. Chairman and members of the committee, my name is Rodger 
Schlickeisen and I am President of Defenders of Wildlife, a national 
non-profit conservation organization representing the interests of 
400,000 members and supporters. The mission of Defenders of Wildlife is 
the conservation of all plants and animals in their natural 
communities. I thank you for the opportunity to present this testimony 
today regarding the Conservation and Stewardship Act (S. 2181), the 
Conservation and Reinvestment Act (S. 2123) and the Conservation and 
Reinvestment Act (S. 25). I am presenting this testimony today on 
behalf of Defenders of Wildlife, the Natural Resources Defense Council, 
American Oceans Campaign, and the Center for Marine Conservation.
    First, we are extremely grateful to authors and cosponsors of all 
the proposals that have been introduced in the Senate and appreciate 
their leadership and commitment in seeking to ensure funding for these 
critical conservation needs. We also thank the committee for holding 
this hearing and hope the committee will use its influence in assuring 
that any final conservation funding legislation is environmentally 
sound and truly provides dedicated funding for all covered programs.
    Our highest legislative priority this Congress is the passage of 
sound legislation that will provide dedicated funding to aid in the 
conservation of our nation's imperiled biodiversity. To provide the 
ongoing means for achieving the landscape level conservation needed in 
this new century and to maintain and restore our once vibrant 
biological heritage, such legislation must include funding for a broad 
array of conservation tools including: land acquisition at the local, 
State, regional and Federal levels; permanent conservation easements 
for private landowners to conserve habitat on working lands; incentives 
for private landowners to recover threatened and endangered species; 
programs to protect and restore fragile coastal and marine resources; 
and funding to States for State wildlife and habitat conservation 
guided by a comprehensive habitat planning process. We also believe it 
to be absolutely imperative that any final legislative package ``first, 
must do no harm.'' We have won nothing if we take a step forward by 
providing funding for critical conservation programs and then two steps 
back by doing it in such a way that results in irreparable damage to 
our coastal and marine areas.
Background
    A 1998 survey by the American Museum of Natural History confirmed 
that a majority of scientific experts believe that we are in the midst 
of a mass extinction of living things. These scientists agree that:
    the loss of species will pose a major threat to human existence in 
this century; during the next 30 years as many as one-fifth of all 
species alive today could become extinct; this so-called ``sixth 
extinction'' is the fastest in the Earth's 4.5 billion-year history, 
but unlike prior mass extinctions, is primarily the result of human 
activity and not natural causes; biodiversity loss is a greater threat 
than the depletion of the ozone layer, global warming or pollution and 
contamination.
    In the United States alone, there are over 1,200 species listed as 
endangered or threatened under the Endangered Species Act (ESA). 
Unfortunately, this list merely represents the tip of the iceberg. The 
Nature Conservancy currently lists more than 6,900 U.S. species as 
either critically imperiled, imperiled or vulnerable representing 1 in 
3 of our native vertebrate, flowering plant and selected invertebrate 
species.
    Equally troubling as the demise of wild species is the loss and 
degradation of entire ecosystems. A 1995 U.S. Department of the 
Interior report identified 82 ecosystem types in the United States that 
have lost more than 70 percent of their extent since European 
settlement. Of these, 27 have declined by more than 98 percent. These 
include natural communities from across the country, including eastern 
deciduous old-growth forest, oak savanna in the Midwest, pine rocklands 
in South Florida, canebrakes in the Southeast, native grasslands in 
California, and Palouse prairie in the Pacific Northwest.
    The loss of wild species and ecosystems or collectively, 
biodiversity is clearly one of our most important environmental 
problems. Fortunately, this Congress has before it an historic 
opportunity to enact landmark legislation that will greatly increase 
the number of tools available to conserve our dwindling biodiversity.
 I. S. 2181, THE ``CONSERVATION AND STEWARDSHIP ACT, IS MORE EQUITABLE 
  AND WILL ACHIEVE GREATER CONSERVATION BENEFITS THAN S. 2123 OR S. 25
    S. 2181, the Conservation and Stewardship Act, distributes Federal 
funding more equitably than either version of the Conservation and 
Reinvestment Act by reducing the amount provided for coastal impact 
assistance and distributing it among other important conservation 
programs. S. 2181 removes problematic incentives for Outer Continental 
Shelf (OCS) activity off Alaska and more effectively restricts OCS 
impact grants to environmentally beneficial uses. Compared with S. 
2123, S. 2181 provides more money for conservation easements and adds 
funding to protect lands of regional and national interest and urban 
forests. It also increases funding to protect important cultural and 
historic resources through the Historic Preservation Fund and adds 
funding for the Youth Conservation Corps and Forest Service programs to 
assist rural resource dependent communities. We recommend, however, 
expanding S. 2181's National Park System Resource Protection Fund in 
Title VI to cover Fish and Wildlife Service, Bureau of Land Management, 
Forest Service and Indian lands, similar to Title VI in S. 2123. We 
also think it important to note that even though funding provided to 
oil producing States in S. 2123 is excessive, the distribution of 
funding in the bill as a whole is more equitable than in S. 25 which 
does not fully fund the Land and Water Conservation Fund, and does not 
provide dedicated funding for conservation easements, endangered 
species recovery landowner incentives, coastal and marine conservation, 
Federal lands restoration or historic preservation.
    S. 2181 also addresses major problems associated with both S. 25 
and S. 2123 which will be discussed below. We therefore, strongly 
support and endorse the Conservation and Stewardship Act while 
acknowledging that a few changes are needed to perfect the bill. We 
will provide testimony regarding three of the areas under jurisdiction 
of the Environment and Public Works Committee: potentially damaging 
effects of coastal impact assistance upon habitat, State wildlife 
habitat conservation, and incentives for recovery of listed species. 
Because we think an intact and permanently funded Land and Water 
Conservation Fund is the very core of an effective conservation funding 
bill, we are including remarks on that as well.
      II. S. 2181 WOULD REQUIRE DEVELOPMENT AND IMPLEMENTATION OF 
      COMPREHENSIVE STATE WILDLIFE HABITAT CONSERVATION STRATEGIES
    S. 2181, S. 2123, and S. 25 all propose to provide a portion of OCS 
revenues to fund State wildlife conservation programs a goal that we 
strongly support. These bills would all accomplish this goal by 
augmenting State fish and game agency funding through the existing 
Federal Aid in Wildlife Restoration Act (a.k.a. Pittman-Robertson). We 
strongly support the approach taken in S. 2181 because, of the three 
referenced bills, it is the only one that requires each State to 
develop a wildlife habitat conservation strategy that prioritizes the 
expenditure of Federal funds to comprehensively protect biodiversity. 
H.R. 4377, the House-passed version of CARA, is deficient because it 
does not contain a wildlife habitat conservation strategy provision.
    In 1980, Congressman Forsyth and Senator Chafee cosponsored 
landmark legislation designed to provide much-needed financial 
assistance to State fish and game agencies to begin to better address, 
in a comprehensive and proactive way, the conservation needs of the 
array of species that make up our wildlife heritage. The Fish and 
Wildlife Conservation Act (FWCA) recognized the many significant values 
of wildlife species, the majority of which are neither hunted, trapped 
or otherwise caught. It also recognized that the traditional sources of 
funding for wildlife management, such as those available through 
Pittman-Robertson, were so closely tied to game species, that ``nongame 
species'' were not receiving adequate conservation attention, and as 
one result, many were becoming listed as threatened and endangered. 
This far-sighted legislation sought to do two things. First was to 
establish a reliable source of funding for nongame management to 
complement the very successful game management programs of the State 
fish and wildlife agencies. The second was to ask the State fish and 
game agencies to develop and implement conservation plans and programs 
for nongame fish and wildlife. Although enacted into law, the FWCA was 
never funded by Congress.
    Title III of S. 2181 embodies the spirit and goals of the FWCA it 
emphasizes the particular needs of species that are not hunted or 
fished and requires comprehensive State wildlife habitat conservation 
strategies but with refinements that recognize the fundamental value of 
biodiversity the full array of species and the natural communities and 
ecosystems they form across the landscape. It also recognizes that the 
leading threat to the maintenance of our biodiversity is the continued 
loss and degradation of habitat, and that without proper habitat 
protections, game and nongame species alike can become threatened or 
endangered species in short order.
    I was extremely pleased, Mr. Chairman, to see in your letter to me 
of May 4, 2000, your agreement that Title III language in S. 2181 is 
superior to that in S. 2123. You stated, ``I agree with you, however, 
that there are elements in Senator Bingaman's competing bill, S. 2181, 
that would improve on the language of CARA. For example, I will request 
that language outlining a process to dedicate funds for low population 
and declining species, be included in CARA as well. This language, 
expected to benefit primarily non game species, is similar to language 
contained in Title III of S. 2181.'' Mr. Chairman, your support will 
help ensure that this critical language is included in any final bill.
A Strategic Approach to State Wildlife Habitat Conservation
    S. 2181's emphasis on sound, comprehensive planning is particularly 
important. Even with the significant funding levels proposed in all 
three bills, it will be necessary for the States to strategically 
prioritize and target how the money is spent most effectively and 
efficiently to conserve biodiversity. It is certainly not unreasonable 
or overly burdensome for Congress to require each State to develop 
write lay out on paper its vision and comprehensive wildlife habitat 
conservation strategy for spending its share of $350 million annually 
in Federal funds. S. 2181 recognizes the need for a comprehensive, 
state-wide assessment of our wildlife species, their habitat needs, the 
threats to these species and their habitats, and the management actions 
necessary to address those threats. It will ensure that each State 
undertake an intensive look at what is necessary to conserve all 
species. Equally important, it recognizes the need for meaningful 
public participation in the development, implementation and revision of 
State wildlife habitat conservation strategies. Twenty years after 
passage of the FWCA, with an ever-growing list of threatened and 
endangered species now more than 1,200 native species, 85 percent of 
which are at risk due to habitat loss the need for comprehensive state-
based planning efforts has never been greater.
    What are the key elements of state-based habitat conservation 
strategies?
    1. They are broad-based, both biologically and institutionally. 
They cover all animal and plant species, but they can do so through a 
coarse filter (community-based) fine filter (rare, threatened, or 
endangered species occurrences) approach. They also should be done in 
coordination with other relevant State and Federal land and resource 
management agencies.
    2. They identify the key habitat areas that must be maintained in 
current land uses to provide adequate habitat for all natural community 
types (the coarse filter) and all focal species (e.g. threatened, 
endangered, or otherwise of management concern, whether game or 
nongame).
    3. They identify the key threats to focal species and essential 
habitats, and identify and prioritize management options and research 
needs for addressing those threats.
    4. They use the best available data and information, such as State 
Gap Analysis and Natural Heritage data bases and, if necessary, 
identify additional survey needs where data gaps exist.
    5. They establish a practical and informative program of monitoring 
and assessment of essential habitat and focal species status that can 
assist the agency in taking an adaptive management approach to 
conservation. Such programs should be geared to evolving the State's 
habitat conservation system plan on a periodic basis to address 
changing conditions.
    6. As any good government planning exercise must, they provide for 
meaningful public participation in the development, implementation and 
periodic revision of the strategy.
    7. They provide opportunities to educate and inform the public on 
the importance of conserving wild species and their habitats.
    Entities in two States Florida and Oregon have attempted such 
comprehensive, state-wide habitat conservation strategies. In Florida, 
the effort was led by the Game and Freshwater Fish Commission, 
demonstrating what the State agencies could do with adequate funding of 
the FWCA. In Oregon, I am proud to say that the effort was led by 
Defenders of Wildlife and The Nature Conservancy, but with active 
participation and support from relevant State and Federal agencies, and 
the private sector. I have brought copies of each strategy and I offer 
them for the record and your consideration. Each effort has its own 
unique features but each serves as a prototype for the type of 
comprehensive, state-wide conservation planning that will be necessary 
to maintain our nation's biodiversity. This is the kind of far-sighted, 
proactive, problem-solving approach to conservation that was envisioned 
in the FWCA and that, with passage of a planning provision such as in 
S. 2181, can become a reality in all States.
    We believe such planning exercises are absolutely essential to the 
effective and efficient conservation of our wildlife heritage, be it 
game, nongame, or endangered species. Properly done, such strategies 
could be the blueprints for biodiversity conservation success, and 
could provide a common framework for effective coordination for 
existing or new conservation programs at the Federal, State, and local 
levels.
    The habitat conservation strategy provision in S. 2181 incorporates 
the above elements and is strongly supported by a broad spectrum of 
wildlife conservation groups. Last year a number of these groups 
including the International Association of Fish and Wildlife Agencies, 
Wildlife Management Institute, National Wildlife Federation, National 
Wild Turkey Federation and Defenders of Wildlife, among others, sent a 
letter to Congressman Don Young requesting that the very same planning 
language in S. 2181 be included in the House version of CARA. A copy of 
that letter is attached to my testimony.
    Defenders has recently conducted a survey of State fish and game 
agencies, natural heritage programs, and State planning offices. More 
than a dozen States indicated strong interest in developing 
comprehensive habitat conservation plans. Many States indicated the 
lack of available funding as a major impediment to completing such 
plans.
    Finally, we note that H.R. 4377, the House-passed bill, limits to 
10 percent the amount of Title III funds that a State could spend on 
wildlife-related recreational projects. We think that this is a 
reasonable and appropriate restriction, given the existing biodiversity 
crisis and tremendous need among State wildlife agencies for 
substantially increased wildlife and habitat conservation funding. We 
urge that a similar provision be included in any final Senate 
legislation.
 III. S. 2181 AND S. 2123 WOULD PROVIDE CRITICALLY NEEDED FUNDING FOR 
           THE RECOVERY OF ENDANGERED AND THREATENED SPECIES
    Defenders strongly supports Title IV of S. 2181, the Endangered and 
Threatened Species Recovery Fund, which would provide much needed and 
dedicated funding to assist in the recovery of those species of 
wildlife most in need endangered and threatened species. We also 
support a similar provision in S. 2123. Through non-regulatory 
incentives other than fee simple acquisition, this money would be 
available to those private landowners interested in assisting with the 
recovery of federally listed species. S. 25, however, includes no such 
provision.
    The ESA is the most important piece of legislation ever enacted 
into law to conserve endangered species and their habitats. Since 1973, 
the ESA has prevented the extinction of hundreds of species and has 
helped focus attention on the need to conserve our nation's imperiled 
biodiversity. We can and must, however, do better. Due in part to 
improper implementation and inadequate funding, few species listed 
under the ESA have recovered. If we are to fulfill the goal of the ESA 
the conservation of endangered and threatened species and the 
ecosystems upon which they depend we cannot be satisfied with merely 
holding species at the brink of extinction. There must be a concerted 
effort to implement programs and actions that promote the recovery of 
listed species and their habitats.
    Habitat loss is recognized as the primary factor leading to the 
endangerment of species in the United States. Much of that habitat is 
found on non-Federal lands. Over 40 percent of all federally listed 
species occur exclusively on non-Federal lands, and over 60 percent of 
all listed species' populations are on non-Federal lands. Clearly, if 
we are to recover our nation's endangered and threatened species, we 
must conserve and restore their habitats on non-Federal lands.
    S. 2181 and S. 2123 would help accomplish this goal by providing 
much needed funding for the purpose of enlisting the voluntary 
participation of private landowners in the recovery of endangered and 
threatened species. Under this provision, $50 million a year of 
dedicated funds would be available to the U.S. Fish and Wildlife 
Service and National Marine Fisheries Service for the purpose of 
assisting private landowners in the development and implementation of 
endangered and threatened species recovery agreements. This provision 
contains two important standards to guide the types of agreements to be 
funded, but without being so prescriptive as to restrict innovation. 
First, the agreement must clearly contribute to the recovery of an 
endangered or threatened species. Second, financial assistance under 
this program would be restricted to voluntary activities that are not 
otherwise required under law; mitigation performed under an ESA 
incidental take permit or statement would not be eligible.
 IV. S. 2181 TAKES A SIGNIFICANT STEP FORWARD IN PREVENTING HARM FROM 
COASTAL IMPACT ASSISTANCE AND REQUIRING ENVIRONMENTALLY BENEFICIAL USES 
                                OF FUNDS
    It is our view that the overarching goal for the coastal/ocean 
title of these bills must be protection and restoration of our nation's 
valuable and fragile coastal and marine resources. To achieve this, 
there must be no incentives to States or local governments to accept 
new offshore oil and gas activities, and the money allocated to States 
and local governments must be spent in ways that help, not harm, the 
environment. Of the bills addressed in our testimony today, S. 2181 
comes closest to achieving these critical goals. Recognizing the need 
for a small number of changes, we strongly support and endorse it.
A. Incentives for OCS activity
    A major issue surrounding the debate over CARA and related bills 
has been incentives to States and local governments to accept new 
offshore oil activities. Offshore oil development brings with it water 
pollution, air pollution, the potential for oil spills, as well as 
onshore roads, pipelines, refineries and other infrastructure that pose 
a major threat to coastal and marine areas. The problem of incentives 
has arisen in the context of the allocation formula of these bills, and 
in the source of OCS revenues used to fund all programs in CARA.
    1. The allocation formula. S. 2123 allocates 50 percent of the $1 
billion provided under Title 1 to the seven OCS States based on 
proximity to OCS leasing; this allocation is revisited every 5 years. 
The allocation scheme excludes leased tracts within the moratorium 
areas on which there was no production as of 1/1/99 from the 
calculation of which States get money and how much they get, a helpful 
step forward. However, since Alaska (outside of Bristol Bay) is not 
subject to the moratorium, the State will have an incentive to accept 
new leasing, given that the more leasing it has, the greater its share 
of the $500 million pie.
    Compounding this problem, S. 2123 requires OCS States to directly 
pass through to local governments 50 percent of the State's total 
allocable share based in part (50 percent) on the locality's proximity 
to leasing. In the past, many local communities in Alaska have 
successfully fought offshore leasing, succeeding in getting sales 
canceled or modified in ways that reduce the impact. Local communities 
were key in getting the Governor of Alaska to oppose leasing in Bristol 
Bay, Shelikoff Strait, Lower Cook Inlet, and elsewhere. The proximity-
linked pass through will undermine this opposition by providing a major 
incentive for local governments and the State to accept more OCS 
leasing. Without effective State and local opposition, there will be 
more leasing in Alaska, threatening national parks, wildlife refuges, 
wilderness areas and marine and coastal areas in the State.
    Alaska has more coastline than the continental United States and 
some of the nation's richest and most productive marine areas. 
Sensitive areas in or adjacent to OCS areas open for potential leasing 
include the Bering Sea, one of the world's most productive fishing 
grounds, the Gulf of Alaska, Glacier Bay National Park, the Tongass 
National Forest and two dozen national wildlife refuges, parks and 
forests. These coastal and marine resources constitute national 
treasures too precious to risk. The incentives for offshore oil 
activity off Alaska in these bills must be removed.
    S. 2181 makes a very helpful step toward this goal by eliminating 
the pass through to local governments, an improvement we very strongly 
support. Deleting the pass through not only dramatically reduces the 
incentive for OCS development, but also eliminates concerns about the 
uses of Title I money by local governments (see discussion below). In 
addition, the overall allocation to the OCS States based on proximity 
is much smaller in S. 2181 ($100 million vs. $500 million in CARA), 
which has the effect of reducing the incentive. For these reasons, we 
view S. 2181 as a critical step forward. At the same time, however, we 
remain concerned that the State of Alaska will continue to benefit 
financially from accepting new OCS activity under S. 2181. We recommend 
that this incentive be removed from the final bill.
    The approach in S. 25 is similar to that in S. 2123, except that S. 
25 does not exclude the moratorium States and their local governments 
from receiving money based on new production, providing an incentive 
for the moratorium States and their local governments to eliminate the 
moratorium and accept new leasing and production on existing leases. 
For this and other reasons discussed below, we oppose S. 25.
    The House-passed version of CARA represents an important 
improvement over S. 2123 with respect to the allocation formula. The 
House managers agreed to an amendment that removed the 5-year 
revisitation of the State allocation, in essence adopting the snapshot 
approach. Under the House-passed version of CARA, a State's allocation 
will not change, no matter how much leasing it accepts. There is some 
remaining ambiguity regarding whether local government allocation is 
subject to the same snapshot approach, although in a colloquy the 
managers indicated that was their intent. While we strongly recommend 
eliminating the pass through to local governments altogether, if there 
is to be a pass through, clarifying language in the bill itself to 
ensure the snapshot applies to the local government allocation is 
essential. Other changes needed to the House-passed bill are addressed 
below.
    2. Revenues Under S. 2181, S. 2123, and the House-passed version of 
CARA., ``Qualified OCS revenues'' fund all three Titles of CARA. All of 
these bills exclude revenues from tracts within the moratorium areas on 
which there was no production as of 1/1/99, which is a helpful step 
forward (in contrast, S. 25 does not). However, revenues from leasing 
and production in Alaska (outside of Bristol Bay) would fund all titles 
of these bills. As we have noted, this creates a major incentive for 
various beneficiaries of the bill to support new leasing and 
development in Alaska in order to provide sufficient revenues for the 
activities funded by the bill. This is particularly the case if OCS 
revenues from the Gulf of Mexico start declining and revenues from 
Alaska are needed to make up the shortfall. As the Oil and Gas Journal 
noted in January, ``oil lobbyists would like to see it [CARA] pass in 
the hope that it would give inland States a vested interest in ensuring 
that offshore drilling continues at current levels.'' We favor removing 
Alaska revenues from funding any of the titles of these bills in the 
same way that revenues from the moratorium areas are excluded.
B. Uses of Title I funds and oversight
    CARA and its relatives have the potential to become among the most 
important conservation initiatives of the new century. By providing 
landmark levels of permanent funding for critical wildlife, land, and 
historic preservation programs, these bills will significantly advance 
conservation and protection of our nation's natural heritage. We 
strongly believe that the coastal and ocean titles of these bills must 
be equally conservation oriented. To accomplish this, it is crucial 
that Title I funds be used to help, not harm the environment. 
Unfortunately, S. 2123, S. 25 and the House passed version of CARA do 
not achieve this goal.
    As noted above, Title I of S. 2123 and the House-passed version of 
CARA provide $1 billion per year to coastal States, the bulk of which 
goes to the seven OCS States, (California, Alaska, Florida, Louisiana, 
Texas, Mississippi and Alabama). These bills require the States to 
spend the money on one or more uses, most of which are environmentally 
beneficial. Unfortunately, however, there is nothing in these bills to 
prevent the OCS States (and some non-OCS States that may be affected by 
OCS activity in another State) from spending most or all of the more 
than $700 million they will collectively get each year on 
environmentally damaging onshore infrastructure, including roads, 
ports, jetties, groins, and similar activities. While the bills provide 
for Federal oversight, such oversight is of limited utility in the 
absence of standards in the bill ensuring that the money will be spent 
in a manner that does not harm the environment.
    In addition, we have major concerns about the pass through to local 
governments contained in both bills. Local governments may lack 
jurisdiction or expertise to carry out many if not most of the 
conservation uses permitted in the bill, leaving them with few options 
other than construction.
    Furthermore, both bills give the Interior Department oversight 
authority over State expenditures of Title I funds, even though the 
majority of the permitted uses fall under the jurisdiction and 
expertise of the Commerce Department. Neither bill provides desperately 
needed funding for existing Federal coastal and marine programs. 
Finally, the 60 day approval process in Title I would preclude 
meaningful review of State plans under NEPA, CZMA, etc.
    S. 25 places virtually no restrictions on the uses of Title I 
money. While the States may use the money for good environmental 
projects, there is no requirement that they do so. Indeed, States and 
localities could use the money for a huge array of purposes. While S. 
25 requires the States to develop plans for use of the money and to 
certify the plans to the Secretary of the Interior, the Secretary is 
given no authority to review and approve the plans. We are extremely 
concerned about allocating huge sums to the States with essentially no 
controls and no Federal oversight.
    In contrast, S. 2181 establishes an ``Ocean and Coast Conservation 
Fund'' of $365 million and requires coastal States to spend their 
revenues on an array of environmentally beneficial purposes based on 
demonstrated conservation and protection needs. The Fund prioritizes 
State plans supporting State and Federal laws governing coastal and 
marine protection. S. 2181 also provides modest funding for Federal 
coral reef protection, a step in the right direction of providing 
critically needed funding to supplement appropriations for existing 
Federal marine and coastal protection programs. The impact assistance 
section of the bill requires the OCS States to spend the additional 
$100 million provided only to them only to mitigate the many 
environmental impacts associated with offshore oil. Finally, by 
avoiding the pass-through and giving principal oversight authority to 
the Secretary of Commerce, S. 2181 helps ensure that funds will be used 
to help, not hurt, the environment. Thus, S. 2181 represents a very 
important step forward.
    In conclusion, it is critically important that the coastal and 
marine title of the final legislation be a positive step forward for 
the environment. To achieve this, the final legislation must adhere to 
the following principles:
    1. The allocation to coastal States and local governments should be 
principally based on shoreline miles and population. If OCS activity 
must be a factor, it should be based on leasing as of the date of 
enactment (the ``snapshot approach'') to avoid creating incentives for 
new OCS activity.
    2. Revenues funding the legislation should not include revenues 
from OCS activity in the moratorium areas (with the exception of tracts 
already in production as of the date of enactment) or off Alaska.
    3. There must be clear standards in the bill specifying that Title 
I funds must be used ONLY to benefit the environment. Infrastructure 
that does not satisfy this requirement is not an appropriate use of 
Title I funds. Such standards must be accompanied by effective 
oversight by the Federal agency with relevant jurisdiction and 
expertise to ensure that the standards in the bill are met.
    4. There must be no mandatory pass through as long as the allowable 
uses in Title I remain potentially destructive and as long as the local 
government allocation is linked to new leasing; and
    5. The bill should include supplementary, critically needed funding 
for existing Federal coastal and marine conservation programs.
      iv. s. 2181 would ensure full and permanent funding for lwcf
    One of the major tools we have available to us to protect the 
habitat essential to maintain our biodiversity heritage is the Land and 
Water Conservation Fund (LWCF). Full and dedicated funding for the LWCF 
has been a top priority for the environmental community for many years 
and has been a driving force in the various conservation funding 
proposals currently in play. We strongly support full and mandatory 
funding for LWCF without any burdensome new restrictions. Of the bills 
covered in our testimony today, only S. 2181 meets these criteria. Full 
and guaranteed funding for LWCF is needed both to address the estimated 
$10-12 billion in current acquisition needs for our National Wildlife 
Refuges, Forests, Parks, and Bureau of Land Management special areas 
and to give States and local entities the resources they need to 
preserve dwindling vestiges of habitat and green space.
    The ability to acquire land across a continuum of jurisdictions 
Federal, State, and local is a critical tool in the increasingly 
difficult battle to preserve what remains of our nation's dwindling 
wildlife habitat and natural ecosystems. Land acquisition of core 
habitat reserve areas and green space must serve as the essential 
anchor for other conservation tools funded in these bills such as 
easements, private landowner incentives, and State wildlife 
conservation programs. As our nation's population grows by about 2.5 
million people annually, accompanying development and sprawl continue 
to fragment and destroy habitat. Loss of habitat is the primary cause 
of species endangerment and will lead to more listings under the 
Endangered Species Act.
    In addition to the 1995 DOI report cited earlier, a1995 report by 
Defenders, ``Endangered Ecosystems: A Status Report on America's 
Vanishing Habitat and Wildlife'' found that extensive habitat 
destruction is reaching the point where the Nation faces the loss of 
not just thousands of species, but hundreds of natural ecosystems as 
well. The report identified the 21 most endangered ecosystems which 
include the south Florida landscape, southern Appalachian spruce fir 
forest, California native grasslands, southwest riparian forests, 
southern California coastal sage scrub, and tallgrass prairie. The 10 
States with the greatest overall risk of ecosystem loss were found to 
be Florida, California, Hawaii, Georgia, North Carolina, Texas, South 
Carolina, Virginia, Alabama, and Tennessee; however all States were 
found to have serious problems.
    A secure and adequate stream of LWCF funding is absolutely 
necessary to help slow this loss before it accelerates further. S. 2181 
provides full mandatory funding for both Federal and State LWCF, at 
$450 million each, but still gives Congress oversight by requiring the 
President to submit a list of proposed projects each year which 
Congress can then change through legislation. We strongly support this 
approach.
Concerns with LWCF titles in S. 25 and S. 2123
    In contrast, S. 25, which funds LWCF as a percentage of OCS 
receipts and funds the Urban Parks and Recreation Recovery program out 
of LWCF, does not provide full LWCF funding. S. 25 also imposes 
unacceptable restrictions on Federal LWCF projects; restrictions that 
would limit needed flexibility and could result in unforeseen obstacles 
and unnecessary delays for high priority projects and ``willing 
seller'' landowners.
    The first of these restrictions would require subsequent and 
specific authorization for funding of each Federal acquisition in 
excess of $5 million. This is unnecessary and duplicative, as Federal 
acquisition is already authorized in a number of statutes. And it would 
put numerous Federal projects right back where they are now--
unnecessarily delayed because funding is unavailable. For example, even 
under the existing acquisition process, landowners are routinely told 
by the Fish and Wildlife Service that they must wait at least one and 
one-half to 2 years for Congress to provide funding. Examples of 
projects that could be affected are numerous, including some in excess 
of $5 million proposed in the President's fiscal year 2001 budget such 
as acquisitions for BLM California Wilderness, Florida's Archie Carr, 
Florida Keys, Ding Darling, and Pelican Island National Wildlife 
Refuges, Colorado's Great Sand Dunes National Monument, Virginia's 
Fredericksburg and Spotsylvania County Battlefields Memorial National 
Military Park, Pennsylvania's Gettysburg National Military Park, 
Wyoming's Grand Teton National Park and Uncompahgre (CO), Deerlodge 
(MT), and Coconino (AZ) National Forests.
    The second restriction, requiring that two-thirds of yearly funding 
be spent east of the 100th meridian imposes an arbitrary geographic 
limitation that could affect new opportunities similar to the recent 
Headwaters Forest and New World Mine projects and timely acquisitions 
from willing sellers of inholdings in a number of western States 
including Washington, Oregon, California, Montana, Wyoming, Idaho, 
Nevada, Utah, Colorado, New Mexico, and Arizona. Flexibility must be 
maintained to take advantage of conservation opportunities where they 
exist, rather than imposing arbitrary geographic limitations on where 
moneys can be spent.
    The third restriction would limit expenditure of funds to lands 
exclusively within exterior boundaries of our current land management 
systems. While most acquisition takes place within boundaries, Federal 
agencies have been allowed flexibility in this area, for example, where 
single ownerships transect agency boundaries. Without this flexibility, 
such landowners would be forced to split their acreage or sell 
privately. Moreover, this provision would affect the National Forest 
System's current authorization allowing acquisition of lands adjacent 
to its boundaries. The ability of the National Forest System to acquire 
adjacent lands can be particularly important in preventing 
fragmentation of habitat and establishing wildlife corridors. A prime 
example of an ongoing project which could be jeopardized by this 
language is the North Florida Wildlife Corridor or Pinhook Swamp which 
eventually will provide a linkage between the Okeefenokee National 
Wildlife Refuge in Georgia and the Osceola National Forest in Florida. 
This linkage would complete a large, regionally significant 
conservation area providing a stronghold for wide-ranging species such 
as the Florida black bear, a species that has pushed into areas so 
small that a predominant cause of mortality is motor vehicle 
collisions. The North Florida Wildlife Corridor is looked to nationally 
as an example of a successful public-private-non-profit cooperative 
venture to enhance the value of protected areas by establishing their 
connection as one major ecosystem and for this reason was identified as 
a model for future land acquisitions in the 1993 National Research 
Council study Setting Priorities for Land Acquisition. This purchase is 
also important in protecting a recharge area for the aquifer that 
supplies drinking water for more than 20.5 million citizens of Florida 
and Georgia and will be open as a recreation area for hiking, fishing, 
hunting, camping, and wildlife observation.
    We also have concerns with the LWCF title in S. 2123. We are 
pleased that S. 2123 does provide the full $900 million for LWCF, split 
evenly between Federal and State programs. However, Federal LWCF is 
singled out to be treated differently from every other program in the 
bill by still requiring action by the appropriators before moneys can 
be spent. Furthermore, if the Appropriations Committee does not expend 
the full $450 million for Federal LWCF in a given year the unobligated 
balances do not remain available; thus a subsequent Congress is 
prevented from making up the prior year's shortfall in a subsequent 
year. We are also concerned that administrative costs for all 
activities funded under S. 2123 are limited to not more than 2 percent 
of their total operation, a provision that could be crippling for the 
Federal LWCF program. Currently, the land agencies' administrative 
expenses range from 10-20 percent, since the appropriators fund realty 
staff and other needed activities such as appraisals through the LWCF 
account. We were also very pleased that S. 2123 removed some of the 
most crippling procedural restrictions in S. 25; however S. 2123 still 
contains some potentially problematic procedural restrictions. One of 
these would require consideration of other alternatives to acquisition 
before moving forward with Federal land acquisition projects and could 
provide a basis for future litigation and interpretation by the courts 
that could be detrimental to future land acquisitions. Another would 
require a willing seller or Congressional authorization before 
acquisition projects could proceed. While adverse condemnation seldom 
ever happens, this flexibility should be maintained if needed for quick 
protection of important national resources.
    An additional concern is that neither version of CARA contains a 
flexible funding program to allow land acquisition for non-Federal 
lands of regional and national significance. These projects, such as 
the Northern Forest of New England, may go unaddressed because funding 
available through stateside LWCF is inadequate to meet these needs, 
especially in regions of low population which do not fare well in the 
stateside formula. In contrast, S. 2181 provides $125 million for 
competitive grants to help conserve these critical areas. It should 
also be noted that the House-passed version of CARA, H.R. 4377, has 
been amended to include such a program, however no funding has been 
identified and allocated for it.
Conclusion
    In conclusion, our organizations believes there is an historic 
opportunity in the 106th Congress to pass landmark legislation to fund 
the menu of programs needed to help protect our magnificent natural 
heritage as we move into the 21st century. We look forward to working 
with the members of this committee, the Senate Energy and Natural 
Resources Committee, and with sponsors of all the various bills to pass 
a sound conservation funding bill this year. Thank you.
                                 ______
                                 
   International Association of Fish and Wildlife Agencies,
                             Washington, DC 20001, August 31, 1999.

Hon. Don Young, Chairman,
Committee on Resources,
U.S. House of Representatives,
Washington, DC 20515.

Dear Congressman Young: We write to express our sincere appreciation 
for your continued efforts to come to consensus language on the 
``Conservation and Reinvestment Act'' (H.R. 701) which can be reported 
out of the Resources Committee with a strong, bipartisan vote. Your 
efforts over the last year to move ahead will result ultimately, we 
believe, in the most comprehensive and significant conservation funding 
initiative in the last half of this century. President Theodore 
Roosevelt's efforts on one end, and yours on the other to provide the 
conservation ``bookends'' for this century. We appreciate your 
willingness to work with us and others to achieve this objective.
    Toward this end, we enclose a product of several weeks of 
deliberation within the wildlife conservation community, which includes 
a new finding and sets forth in more detail the strategy for a wildlife 
conservation program called for in Title III of H.R. 701. This language 
simply outlines a process of assessing species population status and 
distribution, habitat availability, and factors contributing to the 
decline of species or habitat, which the State fish and wildlife 
agencies will use in determining the needs for fish and wildlife 
conservation in their States. Through this process the States will then 
determine whate their priorities are for spending funds available under 
CARA (Title III) to address the needs of the diverse array of fish and 
wildlife species in their State. H.R. 701 calls for a State process for 
public involvement as program decisions are made and implemented. We 
urge you to ensure that the opportunity for broad public involvement is 
retained in the final legislation. We, as do you, recognize substantial 
unmet conservation needs for so-called ``non-game'' species, and this 
language outlines a process for unmet needs to be identified and 
spending priorities decided by the States. The strategy language 
anticipates that low population and declining species in most cases 
will be non-game species.
    The undersigned organizations strongly support the attached 
language and believe it will significantly improve Title III. We 
encourage you to incorporate this language during markup.
    A few organizations are interested in further improvements to Title 
III. All of our organizations are committed to working with you to 
achieve successful legislation this year.
    Thank you again for your efforts.
            Sincerely,
                                   Roger Holmes, President,
           International Association of Fish and Wildlife Agencies.

               Bruce Shupp, National Conservation Director,
                                                         BASS, Inc.

                                 Charles Duncan, President,
                               Association of Field Ornithologists.

                 Craig Hanson, Vice Chair for Conservation,
                                             Pacific Seabird Group.

                            Paul Green, Executive Director,
                                         American Bird Association.

                                Stephen Brown, Coordinator,
                                  U.S. Shorebird Conservation Plan.

                                    James Corven, Director,
                      Western Hemisphere Shorebird Reserve Network.

                Steve Walker, Associate Executive Director,
                                    Bat Conservation International.

                                         John Flicker, CEO,
                                          National Audubon Society.

                                Daniel Pedrotti, President,
                                             Boone & Crockett Club.

                              Mike Dennis, General Counsel,
                                            The Nature Conservancy.

                                    Paul Baiach, President,
                                                 Birder's Exchange.

                          Mark Van Putten, President & CEO,
                                      National Wildlife Federation.

                            Rodger Schlickeisen, President,
                                             Defenders of Wildlife.

                               Doug Grann, President & CEO,
                                                  Wildlife Forever.

                                Rollin Sparrowe, President,
                                      Wildife Management Institute.

                 Thomas Franklin, Wildlife Policy Director,
                                              The Wildlife Society.

                           Paul Hansen, Executive Director,
                                      Issak Walton Lead of America.

                  Rob Keck, Executive Vice President & CEO,
                                   National Wild Turkey Federation.
                                 ______
                                 
 AMENDMENT TO PROVIDE FOR STATE WILDLIFE CONSERVATION STRATEGIES UNDER 
   TITLE III OF H.R. 701, THE ``CONSERVATION AND REINVESTMENT ACT OF 
                                 1999''
    ``(e) Wildlife conservation strategy--Any State that receives an 
apportionment pursuant to section 4(c) shall within 5 years of the date 
of the initial apportionment develop and begin implementation of a 
wildlife conservation strategy based upon the best available and 
appropriate scientific information and data that----
    ``(1) uses such information on the distribution and abundance of 
species of wildlife, including low population and declining species as 
the State fish and wildlife department deems appropriate, that are 
indicative of the diversity and health of the wildlife of the State;
    ``(2) identifies the extent and condition of wildlife habitats and 
community types essential to the conservation of species identified 
under paragraph (1);
    ``(3) identifies the problems which may adversely affect the 
species identified under paragraph (1) or their habitats, and provides 
for priority research and surveys to identify factors which may assist 
in restoration and more effective conservation of such species and 
their habitats;
    ``(4) determines those actions which should be taken to conserve 
the species identified under paragraph (1) and their habitats, and 
establishes priorities for implementing such conservation actions;
    ``(5) provides for periodic monitoring of species identified under 
paragraph (1) and their habitats and the effectiveness of the 
conservation actions determined under paragraph (4), and for adapting 
conservation actions as appropriate to respond to new information or 
changing conditions;
    ``(6) provides for the review of the State wildlife conservation 
strategy and, if appropriate, revision at intervals of not more than 10 
years; and
    ``(7) provides for coordination to the extent feasible by the State 
fish and wildlife department, during the development, implementation, 
review, and revision of the wildlife conservation strategy, with 
Federal, State and local agencies and Indian tribes that manage 
significant areas of land or water within the State, or administer 
programs that significantly affect the conservation of species 
identified under paragraph (1) of their habitats.
                                 ______
                                 
 Responses by Rodger Schlickeisen to Additional Questions from Senator 
                                 Crapo

    Question 1. The maintenance backlog on our public lands is immense, 
however, these bills propose to increase Federal ownership of lands. 
Does it make sense to require a cost analysis of future operations and 
maintenance costs associated with land to be acquired? If not, why?
    Response. As we said in our testimony, the backlog of needed 
acquisitions in existing Federal land management units is estimated at 
$10-12 billion. Moreover, loss of habitat is the primary cause of 
species endangerment and will lead to more listings under the 
Endangered Species Act. Equally troubling as the demise of wild species 
is the loss and degradation of entire ecosystems. A 1995 U.S. 
Department of the Interior report identified 82 ecosystem types in the 
United States that have lost more than 70 percent of their extent since 
European settlement. Of these, 27 have declined by more than 98 
percent. Land acquisition must move forward as conservation 
opportunities arise to address these pressing needs and before 
inflation escalates purchase prices beyond reach. Once we acquire the 
lands we can turn to ensuring operations and maintenance needs are 
accurately estimated and then funded through the Interior and Related 
Agencies appropriations bill. The bottom line is that both of these 
areas--acquisition and operations/maintenance--must be prioritized in 
the Federal budget; up until now, that has not happened.

    Question 2. The House-passed version of CARA, H.R. 701, includes an 
amendment that would preclude the transfer of money to the CARA fund if 
the CBO does not certify that Congress is on-track to eliminate the 
national debt by 2013, or meet Social Security or Medicare obligations. 
Do you support a similar amendment to the Senate bills and why? If not, 
why?
    Response. No. We opposed that amendment in the House and oppose any 
similar amendment in the Senate. Any legislation that is passed should 
follow the principles established in the original Land and Water 
Conservation Fund Act and Congressional intent at the time--that the 
funding from the depletion of one non-renewable resource ought to be 
dedicated to protect another nonrenewable resource and its spending 
guaranteed. This promise was made with the passage of LWCF more than 30 
years ago--had it been kept there would be no need for the current 
legislation. Protection of our environment is no less important than 
other priorities, such as transportation, and its funding should be 
assured.

    Question 3. Do you believe that the Federal Government is a better 
steward of land than private ownership? Why?
    Response. Yes, in many cases. However, it is clear that the total 
amount of land needed for wildlife conservation will never be achieved 
by outright acquisition. Management of private working lands to 
maintain the current habitat base will complement protection afforded 
by Federal and state-owned lands.

    Question 4. S. 2181 provides full funding for PILT. S. 2123 
provides a match for PILT and Refuge Revenue Sharing. S. 25 is silent 
on both points. Given the impact of increased Federal land ownership on 
local communities, do you support providing full funding for PILT and 
Refuge Sharing as part of CARA? If not, why?
    Response. Yes, we support full funding for both as part of CARA.

    Question 5. Do any of the CARA bills adequately address the 
operations shortfalls or maintenance backlog on Federal lands? If not, 
should the CARA bills address this problem? If not, why?
    Response. No, the CARA bills should not address this problem. 
Providing funding for the operations and maintenance needs of the 
agencies is not the purpose of the CARA bills. These needs could be 
handled in the regular appropriation process if the Interior 
Appropriations Subcommittee were given an adequate 302(b) allocation. 
However, we do not oppose the inclusion of a title that provides a 
modest amount to meet some of these needs, such as Title VI, Federal 
and Indian Lands Restoration in S. 2123 and H. R. 4377, the House-
passed CARA bill. We would not support reducing funding for any of the 
conservation titles in the bill in order to provide this operations and 
maintenance funding, however--this amount would either have to be 
additive or come out of the coastal impact assistance portion.
                                 ______
                                 
 Responses by Rodger Schlickeisen to Additional Questions from Senator 
                                 Inhofe

    Question 1. Please elaborate on the Federal Government's role in 
State and local planning decisions under S. 25, S. 2123, and S. 2181.
    Response. A key purpose of these bills is to transfer revenues to 
State and local governments for worthwhile conservation purposes. The 
requirements for State and local planning under the bills are currently 
minimal and, if anything, should be expanded. For example, S. 25 and S. 
2123 should include the language currently in S. 2181 requiring 
development and implementation of comprehensive State wildlife 
conservation strategies for Title III, which provides funding for State 
wildlife conservation.

    Question 2. If the Department of the Interior disagrees with a 
State's or locality's planning decision, could DOI withhold funds?
    Response. The current planning requirements in the bill are so 
general and minimal we find it difficult to foresee a circumstance 
under which DOI would be able to withhold funds.

    Question 3. I am concerned with the impact of S. 25, S. 2123, and 
S. 2181 on lands used for hunting and fishing. The flood of money 
provided by CARA will enable buying and turning over to the government, 
private lands currently used for hunting and fishing. This will subject 
the property's sporting use to the whim of public opinion, and a 
bureaucracy increasingly hostile to sport fishing, trapping, and gun 
ownership.
    An example of my concern is what happened in New York last year 
with the largest land purchase in that State's history. For over one 
hundred years, Champion International Timber Company and previous 
private owners has leased out 139,000 acres of its holdings for 
recreation, including fishing and hunting. When the State of New York 
purchased the land, the State's first ``management'' action was to 
eliminate hunting access and drastically limit other recreation uses. 
Included with these mandates was ordering the destruction of 298 
hunting cottages used by 3,000 sportsmen each year.
    Under S. 25 , S. 2123, and S. 2181, how likely are scenarios like 
this?
    Response. We believe it is purely speculative that acquisition of 
lands by Federal and State governments would result in a decrease of 
use by sporting interests. In fact, many hunting and fishing groups, 
for example the Izaak Walton League, Wildlife Management Institute, and 
the National Wild Turkey Federation, support the legislation.

    Question 4. Under S. 25, S. 2123, and S. 2181, how is the 
applicability of the Pittman-Robertson Act expanded?
    Response. The applicability of the Pittman-Robertson Act (P-R) is 
not expanded under these bills--the bills simply utilize P-R to set up 
a new program/subaccount for wildlife conservation. Funding and any 
requirements would be separate from the current P-R program.

    Question 5. Could the additional funds lead to abuses of the 
Pittman-Robertson fund?
    Response. No, again, a new subaccount is established.

    Question 6. Under S. 25, S. 2123, and S. 2181, what is the total 
scope of potential land acquisition?
    Response. The bills provide up to $900 million per year for LWCF, 
the primary conduit for land acquisition in the bills.

    Question 7. Under S. 25, S. 2123, and S. 2181, how much land 
acquisition power has any restrictions or protections placed upon it?
    Response. As we said in our testimony, under S. 25 and S. 2123, the 
Federal LWCF is subject to burdensome and unnecessary new restrictions 
which we unequivocally oppose. These restrictions would limit needed 
flexibility and could result in unforeseen obstacles and unnecessary 
delays for high priority projects and ``willing seller'' landowners.
    S. 25 has three unacceptable restrictions. The first of these 
restrictions would require subsequent and specific authorization for 
funding of each Federal acquisition in excess of $5 million. This is 
unnecessary and duplicative, as Federal acquisition is already 
authorized in a number of statutes. . And it would put numerous Federal 
projects right back where they are now--unnecessarily delayed because 
funding is unavailable. For example, even under the existing 
acquisition process, landowners are routinely told by the Fish and 
Wildlife Service that they must wait at least one and one-half to 2 
years for Congress to provide funding. Examples of projects that could 
be affected are numerous, including some in excess of $5 million 
proposed in the President's fiscal year 2001 budget such as 
acquisitions for BLM California Wilderness, Florida's Archie Carr, 
Florida Keys, Ding Darling, and Pelican Island National Wildlife 
Refuges, Colorado's Great Sand Dunes National Monument, Virginia's 
Fredericksburg and Spotsylvania County Battlefields Memorial National 
Military Park, Pennsylvania's Gettysburg National Military Park, 
Wyoming's Grand Teton National Park and Uncompahgre (CO), Deerlodge 
(MT), and Coconino (AZ) National Forests.
    The second restriction, requiring that two-thirds of yearly funding 
be spent east of the 100th meridian imposes an arbitrary geographic 
limitation that could affect new opportunities similar to the recent 
Headwaters Forest and New World Mine projects and timely acquisitions 
from willing sellers of inholdings in a number of western States 
including Washington, Oregon, California, Montana, Wyoming, Idaho, 
Nevada, Utah, Colorado, New Mexico, and Arizona. Flexibility must be 
maintained to take advantage of conservation opportunities where they 
exist, rather than imposing arbitrary geographic limitations on where 
moneys can be spent.
    The third restriction would limit expenditure of funds to lands 
exclusively within exterior boundaries of our current land management 
systems. While most acquisition takes place within boundaries, Federal 
agencies have been allowed flexibility in this area, for example, where 
single ownerships transect agency boundaries. Without this flexibility, 
such landowners would be forced to split their acreage or sell 
privately. Moreover, this provision would affect the National Forest 
System's current authorization allowing acquisition of lands adjacent 
to its boundaries. The ability of the National Forest System to acquire 
adjacent lands can be particularly important in preventing 
fragmentation of habitat and establishing wildlife corridors. A prime 
example of an ongoing project which could be jeopardized by this 
language is the North Florida Wildlife Corridor or Pinhook Swamp which 
eventually will provide a linkage between the Okeefenokee National 
Wildlife Refuge in Georgia and the Osceola National Forest in Florida. 
This linkage would complete a large, regionally significant 
conservation area providing a stronghold for wide-ranging species such 
as the Florida black bear, a species that has pushed into areas so 
small that a predominant cause of mortality is motor vehicle 
collisions. The North Florida Wildlife Corridor is looked to nationally 
as an example of a successful public-private-non-profit cooperative 
venture to enhance the value of protected areas by establishing their 
connection as one major ecosystem and for this reason was identified as 
a model for future land acquisitions in the 1993 National Research 
Council study Setting Priorities for Land Acquisition. This purchase is 
also important in protecting a recharge area for the aquifer that 
supplies drinking water for more than 20.5 million citizens of Florida 
and Georgia and will be open as a recreation area for hiking, fishing, 
hunting, camping, and wildlife observation.
    Under S. 2123, Federal LWCF is singled out to be treated 
differently from every other program in the bill by still requiring 
action by the appropriators before moneys can be spent. Furthermore, if 
the Appropriations Committee does not expend the full $450 million for 
Federal LWCF in a given year the unobligated balances do not remain 
available; thus a subsequent Congress is prevented from making up the 
prior year's shortfall in a subsequent year. We are also concerned that 
administrative costs for all activities funded under S. 2123 are 
limited to not more than 2 percent of their total operation, a 
provision that could be crippling for the Federal LWCF program. 
Currently, the land agencies' administrative expenses range from 10-20 
percent, since the appropriators fund realty staff and other needed 
activities such as appraisals through the LWCF account. Other 
restrictions in S. 2123 would also be damaging to the Federal LWCF. One 
of these would require consideration of other alternatives to 
acquisition before moving forward with Federal land acquisition 
projects and could provide a basis for future litigation and 
interpretation by the courts that could be detrimental to future land 
acquisitions. Another would require a willing seller or Congressional 
authorization before acquisition projects could proceed. While adverse 
condemnation seldom ever happens, this flexibility should be maintained 
if needed for quick protection of important national resources. Still 
another requires extensive notification before acquisition projects can 
move forward.

    Question 8. Under S. 25, S. 2123, and S. 2181, what is the 
potential for significant increases in discretionary spending above and 
beyond what would be dedicated to the trust fund?
    Response. Assuming the question refers to programs funded in the 
CARA legislation, we would not foresee significant increases in 
discretionary spending for these programs as long as the bills truly 
provide full and mandatory funding.

    Question 9. Does creating a CARA trust fund violate the fiscal year 
2001 budget resolution?
    Response. The CARA legislation anticipates that the budget 
resolution would be reconciled to provide the mandatory funding levels, 
a task that should prove simple given the ever-increasing surplus.
                               __________
   Statement of Michael J. Hardiman, American Land Rights Association
    Thank you Mr. Chairman for inviting me to testify today.
    I represent the American Land Rights Association. ALRA is a twenty-
three year old nationwide grassroots organization that advocates 
private property rights and recreational and commercial access to 
Federal lands. Our membership includes small property owners and 
Federal permitees in all 50 States.
    Personally, I am an inholder of private property located in 
California that is surrounded by the Bureau of Land Management. I 
purchased the parcel 11 years ago, anticipating that access to 
government owned land would continue to be cutoff by the Desert 
Protection Act and other laws. That prediction has certainly held true. 
I use the property for recreational purposes such as camping and as a 
base camp for rock climbing and hiking.
    On a per capita basis, S. 2123 is a remarkable cash cow for two 
States, Louisiana and Alaska. The average State benefits less than $11 
per person, per year from CARA. Louisiana benefits $71 per capita, more 
than six times the average, and Alaska rakes in $266 per capita 
annually, or twenty-four times what the average State receives.
    These two States may have legitimate claims to the funds. However, 
I implore the Senate to avoid the creation of a $45 billion, 15 year 
land acquisition trust fund in order to satisfy those claims. It will 
provide the power and money for government agents to kick people like 
me off my land.
    Overzealous regulators, joined by environmental pressure groups, 
both have a front row seat on the CARA grant money gravy train. They 
will make folly of the ``willing seller'' clause by harassing owners of 
properties targeted for acquisition and discouraging other potential 
buyers. It is not possible to negotiate as a ``willing seller'' when 
government is the only buyer.
    Every owner of a ranch, woodlot, or game preserve will be at risk 
of being targeted by government agencies working in tandem with 
environmental, anti-hunting and animal rights pressure groups. 
Ironically, since they hold the most desirable properties, private 
landowners who have been the most diligent caretakers of their holdings 
will be on top of the land grab list for government takeover.
    The umbrella group that is coordinating the campaign in support of 
CARA is an outfit called Americans for Heritage and Recreation. Proudly 
displayed on their website are their Guiding Principles which include 
this statement regarding property rights protections:
    ``AHR adamantly opposes any restrictions on the Land and Water 
Conservation Fund, especially those that limit acquisition to Federal 
inholdings or adjacent lands, employ arbitrary geographic restrictions 
on the use of funds, require new authorizations, or prevent 
condemnation.''
    The differences between S. 25 and S. 2123 kowtow to AHR's demands. 
I will quote here a transcript of Senator Murkowski discussing land 
acquisition on Alaska Public Radio on May 9, just 2 weeks ago.
    Murkowski: ``This is the Senate Bill 25. It has to be within units 
established by an act of Congress. It has to be two thirds of the money 
spent east of the 100th meridian, which is primarily east of the 
Mississippi, and the purchases of over $5 million require Congressional 
approval. So we've got some safeguards in here that are responsible.''
    Caller: ``Is the Senator willing to filibuster if those property 
protections are stripped out?''
    Murkowski: ``Well, I'll be happy to respond to the caller based on 
what kind of a debate we get in and whether this bill ultimately moves 
or not.''
    Those protections are in fact not included in S. 2123.
    Furthermore, in accordance with AHR's wishes, amendments to 
prohibit use of CARA funds for condemnation of private property were 
rejected by the bill's sponsors both in committee and on the floor on 
the House side.
    There are some hoops that the government is required to jump 
through on the Federal side of Title 2, which is Land and Water 
Conservation Fund. But those minimal protections in S. 2123 apply to 
only $450 million out of nearly $3 billion per year that is disbursed.
    S. 2181, Senator Bingaman's bill, is honest. It is a 
straightforward wish list from the most extreme elements of the 
environmental movement.
    On the other hand, S. 2123 and its companion legislation H.R. 701 
is a fraud. It is a political sell out of land owners in exchange for 
huge piles of cash for Louisiana and Alaska. In per capita terms, 
nickels and dimes are handed out to other States to buy them off. It is 
a tragic and unprecedented attack on private property ownership in the 
United States.
    Attached to my testimony are additional statements opposing CARA 
from the Gun Owners of America, from a former Executive Vice President 
of the National Rifle Association, Citizens Against Government Waste, 
the Sixty-Plus seniors association and others.
    Thank you for the opportunity to testify today, Mr. Chairman.
                                 ______
                                 
  Responses by Michael Hardiman to Additional Questions from Senator 
                                 Inhofe

    Question 1. Please elaborate on the Federal Government's role in 
State and local planning decisions.
    Response. The Federal Government, through the approval process of 
State plans, maintains control of CARA funds, and also gains effective 
control over State matching money as well.
    For example, in S. 2123, Section 102(b)(1) states, ``The Secretary 
shall approve the Statewide plan if the Secretary determines that the 
plan is consistent with the uses set forth in subsection (c).'' And 
Section 304 (page 49) states, ``If the Secretary finds that the 
comprehensive plan submitted by a State complies with paragraph (1), 
the Secretary shall approve . . . .''

    Question 2. If the Department of Interior disagrees with a State's 
or locality's planning decision, could DOI withhold funds?
    Response. Both DOI and the Department of Agriculture can withhold 
funds by claiming that a State plan is not ``consistent with uses set 
forth . . . .'' A State could disagree, but the desire for an 
uninterrupted flow of funds will place pressure on non-Federal entities 
to give in to Federal demands.

    Question 3, 4, and 5. I am concerned with the impact on lands used 
for hunting and fishing . . . How is the applicability of the Pittman-
Robertson Act expanded . . . Could the additional funds lead to abuses 
of the Pittman-Robertson fund?
    Response. This is one of the most disturbing parts of the CARA 
debate. Most of the sportsmen's community has expressed support for S. 
2123, because the trust fund grant money available for their government 
agencies, foundations and non-government entities will nicely pad their 
budgets.
    Abuses of the Pittman-Robertson fund have been well documented over 
the past year, and even acknowledged by supporters of CARA such as the 
International Association of Fish and Wildlife Agencies (IAFWA). At 
their 89th Annual Convention in September 1999, they approved a 
resolution critical of abuses committed by the United States Fish and 
Wildlife Service.
    Legislation to correct these abuses has been approved by the House 
and has moved to the Senate. However, CARA's sponsors have refused to 
attach that legislation, H.R. 3671, to CARA proposals.
    Pittman-Robertson is expanded considerably under S. 2123. For 
example, Section 302 (page 45) includes ``public outreach'' as a 
permitted use, which could lead to taxpayer financing of political 
agendas. Section 302 (page 44) also includes introducing species into 
``previously occupied range,'' with no further definition or 
restriction. Section 301 and 303 refer to financing for the ``unmet 
needs'' of ``all wildlife,'' which could lead to all sorts of 
unintended consequences.
    The example in your question of New York State converting private 
hunting land to non-hunting use immediately upon government purchase 
has become very controversial. The State bureaucracy insists that it 
will not be the case, but local residents strongly disagree. See 
December 17, 1999 news article from the Adirondack Daily Enterprise 
attached. An amendment for no net loss of hunting lands under Title 3 
of CARA was defeated in the House Resources Committee. See also 
attached a letter from the Gun Owners of America, which is not on the 
Federal grant money gravy train and so may have a more independent 
view. They oppose CARA because of the condemnation threat to private 
outdoor shooting ranges being converted to government owned, non-
firearms use.

    Question 6 and 7. What is the total scope of potential land 
acquisition? How much land acquisition power has any restrictions or 
protections placed on it?
    Response. Under S. 2123, the only effective protection for property 
owners is in half of Title 2, Federal acquisitions under the Land and 
Water Conservation Fund (LWCF). These funds do not have power of 
eminent domain. The other alleged protections in Section 205 are window 
dressing. They amount to nothing because of the use of qualifying 
phrases such as ``consider the use.'' Other so-called protections will 
actually harm property owners, such as the creation of a ``hit list'' 
of properties targeted for acquisition.
    Here is the annual total available for acquisition. There are many 
other permitted uses for these funds, and it is highly unlikely that 
all of it would be spent for acquisition in any 1 year. However, the 
threat that this trust fund represents both in amount of money and 
scope of purposes available for acquisition, combined with limited 
protections for property owners and this trust fund's lack of State or 
Federal legislative oversight, is incredibly dangerous.


------------------------------------------------------------------------

------------------------------------------------------------------------
    Eminent domain prohibited:
Title 2 (Federal) LWCF............  $450 million/year
    TOTAL.........................  $450 million/year
No eminent domain restrictions, no
 protections for property owners:
Title 2 (State) LWCF..............  $450 million/year
Title 3 Pittman-Robertson.........  $350 million/year
Title 4 urban parks (UPAR)........  $125 million/year
Title 5 historic preservation.....  $100 million/year
Title 7 endangered species........  $150 million/year
    TOTAL.........................  $1.175 billion/year
        GRAND TOTAL...............  $1.625 billion/year
------------------------------------------------------------------------


    Question 8 and 9. What is the potential for significant increases 
in discretionary spending above and beyond what would be dedicated to 
the trust fund? Does creating a CARA trust fund violate the fiscal year 
2001 budget resolution?
    Response. A CARA trust fund will create a floor, not a ceiling, on 
land acquisition and grant money. There is undetermined and unlimited 
potential for additional discretionary spending. CARA was not included 
in the fiscal year 2001 budget resolution, and is opposed by major 
fiscal responsibility organizations. These include the National 
Taxpayers Union, Citizens Against Government Waste, Citizens for a 
Sound Economy, and Americans for Tax Reform.
                                 ______
                                 
                       THIS IS HOW CARA WILL WORK
    Ray Susice, D-St. Regis Falls, chairman of the Franklin County 
Board of Legislators, is concerned because land use restrictions that 
apply to State land do not apply to private land. Snowmobilers, 
hunters, anglers, mountain bikers, and people who ride four-wheelers 
come to the area to use land leased by hunting clubs. He fears that 
these activities would not be permitted as freely as they were under 
private ownership of the land.
    ``It's also a way of life for the people of the North Country,'' 
said Susice. ``It's our way of life and they are taking it away from 
us.''
    William Manning, president of the Benz Pond Hunting Club, said that 
another aspect of the hunting club is stewardship. He wonders if the 
DEC can handle the added responsibility of patrolling another 139,000 
acres.
    See article attached from the Adirondack Daily Enterprise, December 
17, 1999. The land was purchased with New York State bond money, and 
the effect is the same as what CARA would do. It will allow 
preservationists and animal rights groups to target privately owned 
land for acquisition, then lobby for elimination of hunting, fishing 
and other recreational use. This includes hunt clubs, and private land 
leased to sportsmen including farms, ranches, woodlots, and any other 
suitable private land. CARA is a $3 billion per year trust fund, with 
one to two billion annually for land acquisition, including up to $450 
million annually for adverse condemnation. No property owner is safe.
                                 ______
                                 
            [Adirondack Daily Enterprise, December 17, 1999]
                  CARA Is Anti-Sportsmen, Anti-Hunting
                  suit attacks champion land purchase
                            (By Jonah Bruno)
    CANTON--St. Lawrence County and several hunting clubs recently 
joined a lawsuit protesting the State's $24.9 million acquisition of 
139,000 acres of land in the Adirondack Park.
    The land, originally owned by Champion International, a 
Connecticut-based timber company, was purchased by the State in June. 
As a condition of the purchase, 110,000 acres will be granted to 
Heartwood Forestland Fund III, LP, a timber investment group, for 
harvesting and development. This land will eventually be returned to 
the State through a conservation easement. The State will keep the 
remaining 29,000 acres.
    Along with the county, three hunting clubs--Benz Pond Hunting Club, 
Potsdam; the Azure Mountain Club, Ogdensburg; and the Quebec Brook 
Hunting Club, Lisbon--also joined the suit. The clubs all lease land on 
the property formerly owned by Champion.
    As a condition of the purchase, the clubs will be denied exclusive 
access to their land from January to September and, within the next 15 
years, will have to remove their camps. Their leases will all be 
reduced to one acre surrounding the camps.
    The Franklin County Board of Legislators Thursday passed a 
resolution endorsing the suit, although it not choose to join at this 
time.
    The suit is based on charges by the Property Rights Foundation of 
America, Inc. (PRFA) that the State violated its own laws in the 
purchase of the Championship lands.
    ``The State failed to abide by the State Environmental Quality 
Review Act (SEQRA), requiring social and economic impact analysis of 
major actions,'' said Carol LaGrasse, president of PRFA.
    The plaintiffs hope to have the sale reversed through the suit. 
LaGrasse hopes that the processes of land acquisition and easement 
granting by the State would be more public in the future. She feels it 
is fairly secretive, and she would like to see the processes subject to 
public hearing.
    Jennifer Pose, press officer for the State Department of 
Environmental Conservation one of the parties named in the suit, said 
the DEC was hesitant to comment in depth endorsing the suit, although 
it did not choose because the case is currently in litigation.
    ``We're still studying the allegations,'' The suit is based on 
charges by the said Post. ``The Department views this purchase as a 
magnificent step in our continuing effort to preserve our natural 
resources for future generations.
    William Manning, president of the Benz Pond Hunting Club, would 
also like to see the sale reversed.
    ``We are very upset with the way the State and Champion handled 
this,'' said Manning. ``They didn't go to the townships.''
    The plaintiffs also contend that the State violated the 1993 
Environmental Trust Fund legislation and the 1996 Clean Water Clean Air 
bond Act. These regulations require local approval for large purchases. 
The Champion purchase is the largest State land acquisition in the 
State's history.
    Part of the SEQRA process also requires the State to consider the 
opinions of local municipalities before making any large land 
purchases. Part of environmental quality is the economy, and SEQRA is 
intended, in part, to protect the economic stability of municipalities 
affected by this type of purchase.
    The DEC feels that it did adhere to the proper regulations in the 
acquiring the land for the State.
    We are confident that the transaction was handled appropriately,' 
Post said.
    Ray Susice, D-St. Regis Falls, chairman of the Franklin County 
Board of Legislators, fears the economy of the county will suffer 
greatly as a result of the Champion land acquisition.
    ``I believe that we're going to lose a lot of revenue due to the 
loss of the revenue from the camps in our county,'' said Susice.
    People with camps in the North Country buy supplies from area 
stores, including gas for cars, snowmobiles, four-wheelers, and 
generators; food; and hunting and fishing supplies.
    Susice is also concerned because land use restrictions that apply 
to State land do not apply to private land. Snowmobilers, hunters, 
anglers, mountain bikers. and people who ride four-wheelers come to the 
area to use land leased by hunting clubs. He fears that these 
activities would not be permitted as freely as they were under private 
ownership of the land.
    ``It's also a way of life for the people of the North Country,'' 
said Susice. ``It's our way of life and they are taking it away from 
us.''
    Manning said that another aspect of the hunting club is 
stewardship. He wonders if the DEC can handle the added responsibility 
of patrolling another 139,000 acres.
    ``We take care of our clubs,'' said Manning. ``Nobody throws junk 
or anything else.''
    A hunting club is about much more than hunting, according to 
Manning. The clubs are about having a cabin in the middle of the woods 
to use as a retreat or get-away. He said that the land in the Park, 
like the land his club has leased from Champion, is not ideal hunting 
ground. The brush is thick and visibility is low. He said that he 
actually hunts on public land north of Park.
    The Benz Pond Hunting Club has about 54 members. According to a 
release from the PRFA, ``the State is mandating that 298 hunting camps 
be demolished.'' If all the clubs affected were approximately the same 
size as Benz Pond, it could impact more than 16,000 people.
    However, Post told the Enterprise that she had recently heard 
several people in the St. Lawrence County area had spoken out in 
opposition to the suit.
    ``We continue to believe much of the public in that region was very 
supportive of that land purchase,'' Post said.
    The nearly $25 million the purchase is costing the State, Susice 
contends, is a burden for taxpayers.
    ``The cost of the easement is going to be coming out of taxpayers' 
pockets,'' Susice said.
    As a condition of the purchase, I 10,000 acres will be acquired by 
Heanwood Forestland Fund III, LP, a timber investment group, for 
harvesting and development. This is in violation of Article XIV of the 
New York State Constitution, known as the ``Forever Wild Clause,'' 
according to LaGrasse. The forever wild clause prohibits commercial 
harvesting of timber on State-owned land.
    The governor's office was not available for comment at press time.
                                 ______
                                 
                                     Gun Owners of America,
                                                      May 10, 2000.

Dear Representative: Today, the House will be asked to consider H.R. 
701, the Conservation and Reinvestment Act.
    On behalf of 200,000 gun owners nationwide, I would ask that you 
give serious consideration to the possibility that the bill will:
    <bullet>  encourage the governmental condemnation of large amounts 
of private property--particularly property which is being used for 
firing ranges and other Politically incorrect'' purposes;
    <bullet>  provide extensive government funding for the political 
Left and its agenda; and
    <bullet>  ultimately reduce the amount of land available for 
hunting and sporting purposes by creating large new public tracts 
eligible for wilderness designation.
    H.R. 701 expends $45 billion over 15 years on a trust fund which 
will be applied to pork projects, government land acquisition, and 
other purposes. This will be money which cannot be used for tax cuts, 
debt reduction, or other salutary purposes--but which will be used to 
seize property currently in private hands. (The ``just compensation'' 
provision in section 11 will be cold comfort to a lifelong resident who 
loses his home or business. Neither does the fact that an acquisition 
must be part of a large congressionally approved list provide 
landholders with any significant protection.)
    Western States which have suffered under government ownership of 80 
to 90 percent of their lands can readily appreciate the ramifications 
of this fact. Easterners who have seen the government seize their 
lands--and then charge them admission fees for access to the natural 
wonders in their towns and localities--can hardly be more sanguine 
about the impact of this bill.
    While we understand that H.R. 701 enjoys broad congressional 
support, we would ask that you step back and give consideration, for 
one final time, as to whether the recent Clinton administration Land 
grabs'' represent the sort of practice which you wish to be replicated 
on a large scale. Thank you.
            Sincerely,
                           Larry Pratt, Executive Director.
                                 ______
                                 
  Responses by Michael Hardiman to Additional Questions from Senator 
                                 Crapo

    Question 1. Proponents of the bill contend that this bill actually 
improves on property rights protections. As someone who is intimately 
involved as a private property advocate, what is your position on this?
    Response. This legislation is a disaster for private property 
rights, and in that respect is the worst bill to move in Congress since 
the American Heritage Trust Act in 1989. Statements suggesting 
otherwise by the CARA sponsors are fraudulent, a deliberate deception.
    Attached is an article from Nampa, Idaho land use consultant Fred 
Kelly Grant outlining several claims made by CARA's sponsors, and 
comparing those claims to the actual language of the bill.
    Proponents of the bill from the Louisiana and Alaska delegations 
have made a political decision to cashier their credibility in exchange 
for a pile of money, literally for 30 pieces of silver.
    Attached is a letter from ALRA Executive Director Charles Cushman 
to members of the House outlining the legislative history of CARA on 
the House side. It demonstrates that legitimate protections for 
property owners and multiple use of Federal lands has been rejected by 
CARA sponsors.
    The so-called protections in Section 205 are a fig leaf. For 
example, the legislation asks Federal agencies to ``consider the use 
of'' land exchanges and conservation easements as alternatives to 
acquisition. With the fire hose of guaranteed annual land acquisition 
funds under CARA, such legislative suggestions will be swept aside and 
will provide virtually no protection for land owners.

    Question 2. How might the existence of a Department of Interior 
acquisition list effect property values, or the potential to obtain 
operating loans?
    Response. An Interior or Agriculture Department ``hit list'' of 
desired properties makes a joke of the ``willing seller'' clause in 
CARA.
    Attached is a letter from Ray Arnett, former President of the 
National Wildlife Federation and former Executive Vice-President of the 
National Rifle Association, sent to the bicameral Sportsmen's Caucus. 
It demonstrates that such a list would depress property values by 
chasing off all buyers except the government, and make it irresponsible 
for a financial institution to loan funds on a property with an 
uncertain future.

    Question 3. How can the private property provisions of this bill be 
improved?
    Response. First, by prohibiting power of eminent domain using CARA 
funds by Federal and non-Federal agencies in the entire bill. 
Currently, eminent domain is prohibited only in the Federal half of 
Title 2, the Land and Water Conservation Fund (LWCF). Land acquisition 
is permitted in the State side of Title 2, and in Titles 3 (Pittman-
Robertson), 4 (urban parks), 5 (historic preservation), and 7 
(endangered species) with no restrictions on use of eminent domain.
    In total, over $1 billion per year can be used to threaten adverse 
condemnation of private property, with an additional $450 million 
(Federal LWCF) available for land acquisition without condemnation 
power.
    Second, by eliminating the trust fund, and having CARA subject to 
the annual appropriations process. ALRA supports the regular 
appropriations process, where everyone has a say. Sometimes we win, 
sometimes we lose, but at least we have a chance.
                                 ______
                                 
Analysis of the Conservation and Reinvestment Act of 1999 as passed by 
the House Resources Committee, H.R. 701/S 2123, as printed in Stewards 
                              of the Range
                         (By Fred Kelly Grant)
          1. THE BILL DOES NOT PROTECT PRIVATE PROPERTY RIGHTS
    Supporters of the bill have claimed far and wide that it protects 
private property rights from ``takings'' by the government. They have 
claimed that purchases would be made only from ``willing sellers'' and 
that there would be no authority extended to government to ``condemn'' 
private property for purposes under this act.
    They have also claimed that mere use of funds appropriated under 
the bill would not extend the regulatory authority of Federal agencies.
    But the claims are simply not true. They are directly contradicted 
by the specific provisions within the bill.
A. The bill does not protect against condemnation
    Section 11 of the bill is entitled ``Protection of Private Property 
Rights''. Subsection (a) is entitled ``Savings Clause'' and it is this 
clause which many supporters refer to as the clause which protects 
private property from condemnation. That claim does not withstand even 
cursory review.
    The subsection States that ``Nothing in the Act shall authorize 
that private property be taken for public use, without just 
compensation as provided by the Fifth and Fourteenth amendments to the 
United States Constitution.'' If the subsection ended with the first 
clause, the supporters could justifiably defend their claim that no 
condemnations of land were authorized. If the subsection said only that 
there would be no taking of private property, then there would be no 
authority for condemnation.
    But, the subsection does in fact contain the second clause 
``without just compensation''. The combination of the two clauses 
precisely defines what a condemnation is in fact. The term 
``condemnation'' is defined as the ``process of taking private property 
for public use through the power of eminent domain. ``Just 
compensation'' must be paid to owner for taking of such.'' Black's Law 
Dictionary, Sixth Edition.
    The language of the subsection provides a textbook illustration of 
what condemnation is all about. In spite of appearing in a section 
called ``Protection of Private Property Rights,'' the subsection 
provides no protection other than that already provided by the Fifth 
and Fourteenth Amendments. It certainly does not protect against 
condemnation.
    No one can claim, in good faith, that this bill does not authorize 
condemnation of property in view of the language of Section 11 (a).
B. The bill does not prevent Federal agencies from extending the impact 
        of their regulations beyond land actually acquired
    Subsection (b) of Section 11 purporting to protect private property 
rights provides that ``Federal agencies, using funds appropriated under 
this Act, may not apply any regulation on any lands until the lands or 
water, or an interest therein, is acquired, unless authorized to do so 
by another Act of Congress.'' What an intriguing attempt to assure a 
scanner of the bill that Federal regulation cannot be extended to 
private property. But, the last clause of the subsection makes one 
aware of the deceit.
    Most of the Acts of Congress extending management of Federal lands 
to the Federal agencies contain language which authorizes the agency 
management to take actions necessary to protect the Federal lands. So, 
Section 11 (b) does not protect against the exercise of such protective 
authority. Courts have made it clear that under protective provisions 
of such acts of Congress, the Federal agencies have the power to 
control land use of private property which adjoins Federal lands. In 
Camfield v. United States, 167 U.S. 518, the U.S. Supreme Court 
confirmed the power of the Federal Government to abate fences on 
adjoining land. In United States v. Lindsey, 595 F.2d 5 (9th Cir. 
1979), the Ninth Circuit Court of Appeals recognized the power of the 
Federal Government to punish persons who built a campfire on non-
Federal land adjacent to a national recreation area. In United States 
v. Arbo, 691 F.2d 862 (9th Cir. 1982) the same Court ruled that a 
person could be charged with interference with a Federal Forest Service 
officer even when the interfering action took place on non-Federal 
property which was adjacent to Federal property. In Free Enterprise 
Canoe Renter Association v. Watt, 549 F. Supp. 252 (E.D. Mo. 1982) the 
Federal court held that the National Park Service could prohibit the 
use of State roads for canoe pickups within a Federal Scenic Riverway.
    Thus, the last clause of Section 11 (b) makes it clear that this 
section changes nothing in current law, and extends no protection to 
private property rights which do not already exist under the 
Constitution. With or without the clause, the Federal agencies can 
impact any private property adjoining Federal lands by extension of 
their regulations. With or without the clause, the Federal agencies can 
extend their regulatory authority to hunters, campers and fishermen 
even when they are on private or State property.
    Neither does Section 11(b) protect against the expansion of 
regulations regarding protection of species. We have already seen that 
the courts have allowed the agencies to extend their regulatory 
protections of species to private property. Now, under this bill there 
will be money authorized to States to extend species protection and to 
enter into cooperative management agreements with the Federal agencies 
in order to implement the species protection plans which are developed. 
This provides a means of expanding Federal regulations, established 
pursuant to the Endangered Species Act, through such cooperative 
management plans even though the Federal Government has acquired no 
interest in the land covered by the plans.
    So, the ``protection of private property rights'' set forth in 
Section 11 offers no protection against condemnation, no protection 
against expansion of Federal regulations, no protection which does not 
already exist under the United States Constitution.
C. The claim that land will be acquired only from ``willing sellers'' 
        is inconsistent with the specific terms of the bill
    The main sponsor of the bill in the House has defended the bill by 
claiming that all land purchases will be only from ``willing sellers.'' 
He thus chides private property advocates for opposing the bill, saying 
that such advocates should support the opportunity for ``willing 
sellers'' to dispose of their land.
    Apparently the claim is based upon Section 205 which contains the 
``Willing Seller Requirement.'' The very title would lead one to 
believe that in fact no acquisition could be made other than from a 
``willing seller.'' But, the language of the section belies the title.
    The first two clauses of the section would seem to be consistent 
with the title: ``The Federal portion may not be used to acquire any 
property unless (A) the owner of the property concurs in the 
acquisition.'' Accept for a moment that this statement defines a 
``willing seller.'' It really does not, but for our initial purpose 
accept that it does. One would read this as fulfilling the ``Willing 
Seller Requirement.'' But, the next clause of the Section states:

    ``or (B) acquisition of that property is specifically approved by 
an Act of Congress.'' So much for the ``requirement'' that there be a 
``willing seller.'' The Section is written in the alternative: Federal 
acquisitions must be from a concurring owner OR under approval by an 
Act of Congress. So, if Congress approves an acquisition, it matters 
not whether the owner concurs.

    In touting this bill why would anyone contend that all acquisitions 
had to be made from a ``willing seller'' when the language of the bill 
is to the contrary. There is only one logical explanation: the claim is 
made to try to thwart the impact of the opposition from private 
property advocates by misleading those who have not studied the actual 
terms of the bill.
    Now that we have seen that the Federal acquisition can be made from 
an unwilling seller if Congress approves the sale, let us consider what 
that means. Some might say, ``well, if Congress does specifically 
consider and approve an acquisition it will happen only after the 
people have received notice and an opportunity to express their 
opinions on the acquisition to their representatives.'' Not 
necessarily. How many projects were approved in the infamously complex 
appropriations bill for Fiscal 1999 without any specific advance 
notice? Has anyone in the public ever seen the thousands of pages of 
that appropriations bill put together? How many projects of various 
types have been approved by Congress as an amendment to a bill 
completely unrelated to the project?
    So, the provisions of Section 205 allow the agencies to push 
through acquisitions without the necessity of securing concurrence from 
the owner of the land. Why then title the Section ``Willing Seller 
Requirement,'' and why claim that purchases will be made only from 
willing sellers, unless the purpose is to deceive those who might worry 
about private property rights being lost through forced purchases by 
the government.
    One other consideration should be taken into account. The Section 
is based on the premise that an owner who ``concurs'' in the 
acquisition is ``willing.'' In a condemnation case, where ``fair market 
value'' must be determined as a standard for ``just compensation'', the 
question is not whether the seller ``concurs'', but whether under all 
the circumstances it can be found that the seller ``wants'' to sell. A 
land appraiser will tell you that market value is based upon the amount 
which would exchange between a knowledgeable and willing seller, who is 
under no compulsion to sell (no compulsion of any kind) and a willing 
buyer under no compulsion to buy. In finding whether a seller is 
``willing'', the trier of fact must determine whether the seller was 
under compulsion of any kind and whether he wanted to sell, not merely 
whether he concurred with the sale.
    So, the bill does not really define a ``willing seller'' as that 
term is traditionally used in the real estate market and in courts 
which determine condemnation cases. It calls any seller who says ``ok'' 
to the acquisition a ``willing'' seller, even if he says ``ok'' after 
being told that all the land adjoining his is going to be acquired in a 
manner which will severely restrict the use and value of his land. 
Those who have studied the growth of conservation and scenic easements 
in this country are familiar with the scenario in which an owner sells 
in desperation because of the threats of regulatory restrictions which 
will otherwise be placed on his property.
    In short, the bill does not require that all acquisitions by the 
Federal Government be from a ``willing seller.''
D. Protections, such as they are, do not specifically extend to State 
        government acquisitions
    The ``willing seller'' restriction, such as it is, is applicable 
only to Federal acquisitions. This means that an acquisition made by a 
State or local government which receives funds is not bound by even the 
color of an attempt to restrict condemnation. The supporters may say 
that Congress has no such right. Wrong. The bill could restrict the 
funding of States and local governments to only those instances in 
which the State or local government agreed that land acquisitions would 
be made only from a true ``willing seller'' and that condemnation would 
not be used.
    The same is true for the language that seems to attempt to restrict 
the Federal regulatory authority. Funding to States and local 
governments could be limited to those cases in which States and local 
governments would agree that their regulations would note be extended 
to any lands until they were actually acquired from a true ``willing 
seller.''
    Given the provisions that call for joint and cooperative management 
plans, it would make sense to extend these protections of private 
property to the State and local government use of funds, IF the bill 
really were intended to protect private property rights.
E. Water rights are not adequately protected
    Section 210 is entitled ``Water Rights,'' but it does not contain 
the language that would most assuredly protect vested water rights: 
``nothing in this Act shall effect any existing water right.'' 
Throughout history, Congress has used language to that effect when it 
intended to protect already existing and vested water rights. Not so in 
this bill.
    The language of 210 rather talks in terms of State and Federal 
relationships regarding water. Nothing in the section pertains to 
protecting existing private water rights.
    Neither is there specific language which States a Congressional 
intent that there be no implication of reservation of water for any 
purpose stated in the Act.
II. THE BILL PAVES THE WAY FOR CREATION OF STATE PROTECTION OF SPECIES 
          EVEN BROADER THAN THE FEDERAL ENDANGERED SPECIES ACT
    Through the Wildlife Conservation and Restoration Program, the bill 
provides for State programs of species protection that is far broader 
than the protection which has lead to destruction of private property 
rights under the Endangered Species Act (ESA). Section 302 (d) defines 
the ``conservation'' use to which funding may be put by the States as 
including:
    ``use of means and procedures necessary or desirable to sustain 
healthy populations of wildlife including all activities associated 
with scientific resources management such as . . . . acquisition, 
improvement and management of habitat . . . and periodic or total 
protection of a species or population.''
    This language is all-inclusive. It does not pertain merely to 
endangered or threatened species as now recognized by the ESA. It 
applies to all:
    ``wildlife'' which would include even non-sport (hunting and 
fishing) species. The breadth of this provision is awesome. It extends 
to the States the funding to create species bills that the Federal 
Government can't reach. That will allow the Federal Government, through 
cooperative management plans called for by the bill, to extend its 
regulations of use of land to any species related to any State program 
funded under this bill.
    The same section provides that such State programs must be 
``approved by the Secretary,'' so the Federal Government can insist on 
the broadest possible restrictions on species by the State in order to 
gain funding. Section 304 provides that in order to gain the 
Secretary's approval, the State must submit a ``comprehensive plan'' 
which provides that the State Fish and Game Department will have 
overall responsibility for the program. By this provision, the Federal 
Government can dictate to the State seeking funds as to which 
department of government must run the program. The comprehensive plan 
must also provide that this agency will develop and implement wildlife 
conservation programs, giving ``appropriate consideration to all 
wildlife.''
    This bill has been touted by its supporters as a boon for hunters 
and fishermen. Various sporting organizations have supported the bill 
in reliance upon these claims. But, if they read the bill they will see 
how the Federal Government can use the funding to gain control over the 
State species protection programs. Once that happens, is there anyone 
on the scene today who does not see that restriction of access is next 
on the agenda. The Federal agencies have launched a massive effort to 
restrict access during the past 18 months. This bill permits the 
expansion of that effort to any land acquired by the State for its 
wildlife programs.
III. THE BILL AUTHORIZES FUNDING TO NON-GOVERNMENT ORGANIZATIONS OF THE 
     TYPE WHICH HAVE FOUGHT PRIVATE PROPERTY RIGHTS AND OPEN ACCESS
    Section 704 of the bill authorizes the funding of conservation 
easement purchases by non-government organizations that qualify as a 
non-profit, tax exempt organization. This allows the Secretary to fund 
project purchases by the extremist environmentalist organizations which 
have fought to overcome private property rights and to deny access to 
Federal lands through the past two decades.
    These same groups have filed lawsuit after lawsuit against the 
government, costing advocates of private property rights millions of 
dollars in attorneys fees to defend property rights and to seek and 
defend open access to Federal lands. Now, the Federal Government will 
fund their efforts. They can receive funds to use in purchasing 
conservation easements that will extend the domain which they can 
control. Then, they will be free to use their own revenue to continue 
to battle private property rights and open access through their 
debilitating litigation strategy. With the Federal funding, they can 
acquire control over even more land, which they can close down to 
multiple uses including hunting, fishing and motorized recreation uses.
 IV. THE EXPENDITURES TO IMPLEMENT THIS BILL DO NOT ADEQUATELY ADDRESS 
                        THE MAINTENANCE BACKLOG
    Last year the Congress identified $15 billion needed for backlogged 
maintenance of the federally owned lands. This government cannot even 
afford to maintain the land already owned. Why does the government need 
more land--when it cannot maintain and care for that already owned? 
There is only one logical answer: the more land owned by the Federal 
Government, or by State governments entangled through cooperative 
management agreements with the Federal Government, the more power the 
Federal Government has over local land use decisions and over the 
operation of local governments themselves. Marx would be pleased.
                                 ______
                                 
  THE H.R. 701 CARA LAND GRAB: A FRONTAL ASSAULT ON PRIVATE PROPERTY 
                                 RIGHTS
                          American Land Rights Association,
                                   Battle Ground, WA, May 11, 2000.

    Dear Member of Congress: Congressmen Billy Tauzin and Don Young 
have continued to perpetrate the fraud that their massive, 
unprecedented pork barrel land grab in some way actually benefits 
property owners.
    After watching Wednesday's debate, I felt it was necessary to write 
letter to make it as absolutely clear as possible that CARA is an 
unmitigated disaster. It the worst legislation of its kind to move in 
Congress in 12 years, since the American Heritage Trust Act in 1989.
    Congressmen Tauzin and Young have served in Congress for a combined 
total of nearly 50 years. They had been consistent advocates for 
property owners on land use issues. By sponsoring CARA, they have made 
a personal and political decision to cashier their credibility for a 
fat pile of money for Louisiana and Alaska.
    The property rights protections they claim are in the bill are 
nothing more than a fig leaf, a lame excuse for them to hang their hat 
on. They consist of making Federal agencies jump through a few extra 
hoops in order to have access to Federal Land and Water Conservation 
Fund money, which is half of Title 2. Title 1, the other half of 2, 3, 
5, 6 and 7 have no protection. And in Title 4, protections in existing 
law were stripped out!
    There are two basic flaws in their claim. First, these minimal 
protections impact $450 million out of a $3 billion annual payout. 
There are no restrictions and no protections, in particular prohibiting 
adverse condemnation of private land, included in the remaining $2.5 
billion of this guaranteed annual gravy train. 83 percent of CARA has 
no private property protections.
    Second, even these minimal protections will certainly be stripped 
from the bill at the behest of their allies in the preservationist 
community, who also stand to gain millions each year from CARA. 
Property rights language that appeared in H.R. 701 as introduced was 
stripped under orders from George Miller and the ``greens'' when the 
bill was marked up in the House Resources Committee.
    Tauzin and Young have dollar signs in their eyes, and they are 
plainly willing to sell out property owners in their home States and 
across the country. Here are the numbers. The average State benefits 
less than $11 per person, per year from CARA. Louisiana benefits per 
capita, and Alaska, $272 per capita annually.
    Here are results from the Resources Committee markup in November 
1999, some of which are being repeated in debate this week:
    <bullet>  Amendment to require 2/3 of the funds to be spent east of 
the Mississippi River, in order to protect westerners and direct money 
to where it is wanted most. This was included in H.R. 701 as 
introduced. REJECTED by Tauzin and Young.
    <bullet>  Amendment to have no net gain of Federal lands. REJECTED 
by Tauzin and Young.
    <bullet>  Amendment to prohibit adverse condemnation of private 
property. REJECTED by Tauzin and Young.
    <bullet>  Amendment to protect private property inholders. REJECTED 
by Tauzin and Young.
    <bullet>  Amendment to fully fund PILT payments. REJECTED by Tauzin 
and Young.
    <bullet>  Amendment that requires State approval for Federal LWCF 
expenditures in that State. REJECTED by Tauzin and Young.
    <bullet>  Amendment to prohibit large LWCF acquisitions in Idaho. 
REJECTED by Tauzin and Young.
    <bullet>  Amendment to prohibit LWCF purchases in large public 
lands counties without local approval. REJECTED by Tauzin and Young.
    <bullet>  Amendment to prohibit funds from being used for the 
American ``Heritage Rivers'' Initiative. REJECTED by Tauzin and Young.
    <bullet>  Amendment to require a published plan for land 
acquisitions in Montana. REJECTED by Tauzin and Young.
    Actions speak louder than words. This bill has nothing to do with 
property owner protection, and little to do with protecting the 
environment, hugging trees, or coddling warm fuzzy creatures. It has 
everything to do with grant money for left wing environmental groups, 
land acquisition money for Federal and State agencies, and pork money 
for Louisiana and Alaska.
    If you have any remaining doubt that CARA is a frontal assault on 
private property rights, I invite you to view the website of the 
lavishly financed umbrella group that is coordinating the campaign for 
CARA. It is called Americans for Heritage and Recreation 
(www.ahrinfo.org). Click onto `Get Involved,' and you will view'' AHR 
Guiding Principles.'' Here is what they think about property rights 
protections:
    ``AHR adamantly opposes any restrictions on the Land and Water 
Conservation Fund and its 35-year tradition as the cornerstone of 
American conservation and recreation, especially those that limit 
acquisition to Federal inholdings or adjacent lands, employ arbitrary 
geographic restrictions on the use of funds, require new 
authorizations, or prevent condemnation. In addition, any legislation 
must protect the traditional use of stateside funds for recreation 
enhancement.''
            Sincerely,
                         Chuck Cushman, Executive Director,
                                  American Land Rights Association.
                                 ______
                                 
             campaign to revitalize the lwcf--get involved!
    Americans for Our Heritage and Recreation (AHR), has launched an 
ambitious grassroots campaign in key States across the country to renew 
the Federal commitment to open space protection by revitalizing the 
Land and Water Conservation Fund (LWCF). The campaign has identified 
these simple, guiding principles that will serve as the cornerstone to 
all education and advocacy efforts:
                    LAND AND WATER CONSERVATION FUND
AHR Guiding Principles
    <bullet>  Americans for Our Heritage and Recreation (AHR) is 
committed to full and permanent funding for the Land and Water 
Conservation Fund (LWCF) and an equitable allocation of funds between 
its Federal and state-matching grants programs. In addition, AHR 
supports a revived and substantially funded Urban Park and Recreation 
Recovery program (UPARR).
    <bullet>  AHR adamantly opposes any restrictions on the Land and 
Water Conservation Fund and its 35-year tradition as the cornerstone of 
American conservation and recreation, especially those that limit 
acquisition to Federal inholdings or adjacent lands, employ arbitrary 
geographic restrictions on the use of fiends, require new 
authorizations, or prevent condemnation. In addition, any legislation 
must protect the traditional use of stateside funds for recreation 
enhancement.
    <bullet>  AHR recognizes the original purpose of the Land and Water 
Conservation Fund as a long-term investment of non-renewable resources, 
specifically offshore oil and gas revenues, to protect America's 
natural resources and enhance recreation opportunities. However, AHR 
will support only legislation that contains no incentive for additional 
offshore oil or gas leasing, exploration, or development that should 
continue to be governed solely.
                                 ______
                                 
                                             G. Ray Arnett,
                                   Stockton, CA, December 18, 1999.

To: The Congressional Sportsmen's Caucus

Dear Caucus Members: I am writing today on three subjects of great 
importance--1) the protection of private property rights, 2) the 
conservation of our nation's natural resources, and 3) the preservation 
of sport hunting, sport fishing and sport trapping. My good and 
longtime friends with the Alaska congressional delegation have been 
strong proponents of these issues for decades. Unfortunately, today I 
must state my opposition to Representative Don Young's proposed 
legislation, The Conservation and Reinvestment Act of 1999 (CARA), H.R. 
701 and its Senate counterpart, S. 25.
    My credentials in the area of sportsmen's activities and natural 
resource conservation stretch back more than a had century. They 
include 18 years on the board of directors, National Wildlife 
Federation, and 3 years as NWF president; and serving on the National 
Rifle Association of America board of directors before being elected to 
NRA Executive Vice President in 1985. I was Director, California 
Department of Fish and Game under Governor Reagan (196?1975) before 
coming to Washington in 1980 to serve President Reagan again, this time 
as Interior Department Assistant Secretary for Fish and Wildlife and 
Parks (1981-1985).
    Despite the best intentions of its authors, CARA fails on all 
counts. It spells disaster for property owners. Overzealous regulators, 
joined by environmental pressure groups and other extremists, will make 
folly of the ``willing seller' clause by harassing owners of properties 
targeted for acquisition and distracting potential buyers. Very few 
families and small businesses in particular, have the financial and 
emotional ability to stay over an extended period, government agencies 
and foundation-funded, richly financed pressure groups. It is not 
possible to negotiate as a ``willing seller' when government is the 
only buyer.
    With enormous riches of funds provided by CARA, agencies will have 
an unprecedented incentive to engage in the ``willing seller' charade. 
Every owner of a ranch, farm, woodlot, or game preserve will be at risk 
of being targeted by government agencies working in tandem with 
environmental, anti hunting, animal rights, pressure groups. 
Ironically, since they hold the most desirable properties, private 
landowners who have been the most diligent caretakers of their holdings 
will be on top of the land grab list for government takeover.
    CARA is destined to be a disaster for one of its intended 
beneficiaries, the sporting community of hunters and fishermen who are 
the true and most able conservationists in America. The unprecedented 
flood of money provided by CARA will enable buying and fuming over to 
the government, private lands historically and currently used for 
hunting and fishing. This will subject the property's sporting use to 
the whim of public opinion, and a bureaucracy increasingly hostile to 
sport hunting, fishing, trapping, and gun ownership.
    A harsh example of my concern is what transpired in New York 
earlier this year with the largest land purchase in that State's 
history. For over one hundred years, Champion International Timber 
Company and previous private owners had leased 139,000 acres of its 
holdings for recreation, including sport hunting and fishing. When the 
State of New York purchased the land. The State's first Management 
action was to eliminate hunting access and drastically limit other 
recreation uses. Included with these mandates was ordering the 
destruction of 298 hunting cottages used each year by almost 3,000 
sportsmen.
    Animal rights extremists have already taken aim at the Pittman-
Robertson fund in an effort to deny access for hunting and fishing. The 
Animal Protection Institute is an umbrella coalition of 38 of the 
largest of these anti sportsmen groups. One of the goals within APl's 
effort to abolish hunting is to ``change the constituency of power 
within our wildlife management agencies and the funding sources that 
maintain these government agencies.''
    CARA fits perfectly into the plans of API, since it wilt provide a 
revenue source outside of the sportsmen-paid excise taxes to fund 
Pittman-Robertson. There is no question that animal rights activists 
will target for acquisition, fish and game clubs, leases, and other 
private land where the taking of renewable wildlife resources is 
permitted. Once the land is purchased and under government control, 
these welt-funded, anti sportsmen groups will lobby Congress and 
government agencies for the elimination of any consumptive use of 
wildlife resources.
    I commend the House Resources Committee for its series of hearings 
exposing abuses in the Pittman-Robertson fund, and its publicizing 
whistle blowers who have spoken out against U. S. Fish and Wildlife 
Service actions. Unfortunately, the arrogance of FWS and its refusal to 
acknowledge mistakes serves as further reason not to hand over to that 
troubled agency billions of dollars that would be available should CARA 
be passed into law.
    I urge Sportsmen's Caucus Members to prevent the passage of CARA. 
No trust fund, period. CARA (H.R. 701 and S. 25) is bad proposed 
legislation with serious flaws that can not be made acceptable with 
minor amendments here and there. At best, this rearranging of the 
Titanic's deckchairs, so to speak, may result in outwardly making a 
rotten apple appear to be palatable, but the apple is still rotten.
    Thank you for your attention to my concerns.
            Sincerely,
                                             G. Ray Arnett.
                               __________
  Testimony of Charles R. Niebling, Senior Director, Policy and Land 
    Management, Society for the Protection of New Hampshire Forests
    Thank you Mr. Chairman, and honorable members of the committee on 
Environment and Public Works. I am Charles Niebling, Senior Director 
for Policy and Land Management with the Society for the Protection of 
New Hampshire Forests. Founded in 1901, the Forest Society is a non-
profit membership organization dedicated to the wise use of New 
Hampshire's natural resources, and their complete protection in places 
of special environmental or scenic quality. In addition to our role as 
a land trust and conservation advocate, we are unique among state-based 
conservation organizations in that we also own and sustainably manage 
33,000 acres of productive woodlands in 123 reservations across the 
State. We not only preach good forestry and conservation, but we 
practice it as well. We have 9,600 members.
    Since our founding, the Forest Society has played a role in 
permanent conservation of over 1 million acres in New Hampshire. We led 
efforts to create the White Mountain National Forest in the early part 
of the 20th century. We have worked closely with the State and with 
communities to establish State and local parks and forests. In the late 
1980's, we spearheaded creation of the Trust for NH Lands and the Land 
Conservation Investment Program, which protected over 100,000 acres of 
working farms, forests and recreation lands.
    And just last week, the New Hampshire General Court passed and 
funded the New Hampshire Land and Community Heritage Investment 
Program. The Forest Society led a coalition, known as Citizens for New 
Hampshire Land and Community Heritage, involving 120 farm and forest 
industry, business, civic, tourism, recreation, wildlife, historic 
preservation and land conservation organizations over a 2-year period 
to secure passage of this landmark legislation.
    This coalition has also actively lobbied for the Conservation and 
Reinvestment Act since 1999. The same sense of common interest and 
concern for the New Hampshire's future that brought these diverse 
organizations together around State legislation has brought us together 
around the Federal legislation as well.
    In the next few weeks and months Congress will decide whether to 
make good on its 35 year old promise to dedicate a portion of the 
revenues for Outer Continental Shelf oil and gas leases to conserve 
some of our nation's most prized possessions: its lands, its water, its 
wildlife, its legacy. Proposals now before the Senate offer the 
opportunity to put words into action, and join the House and all 50 
Governors in supporting a dedicated source of funding for conservation.
    For the record, we support passage of the Conservation and 
Reinvestment Act, S. 2123. There are elements of the Conservation and 
Stewardship Act, S. 2181, introduced by Senator Bingaman, that we 
support and would like to see incorporated into S. 2123. There are 
elements of the recently passed H.R. 701, the House version of CARA, 
that merit serious consideration by this committee.
    While there are many important provisions within S. 2123, the most 
important accomplishment is the restoration of full and permanent 
funding for the Land and Water Conservation Fund. Revitalizing this 
fund will have a direct impact on conservation efforts not only in New 
Hampshire, but in every region of the country. We are particularly 
supportive of the significant dedicated funding allocated to the 
``state-side'' program of LWCF. With the recent passage of our State 
conservation bill, which also has a matching funding requirement, New 
Hampshire communities are ready, willing and able to take advantage of 
state-side LWCF funding.
    This legislation would be significantly improved, however, by 
modifications embodied in S. 2181. In particular, Senator Bingaman's 
bill would:
    1. Create an additional, more flexible fund which is capable of 
addressing important state-led projects of local, regional or national 
significance which exceed the capacity of traditionally administered 
state-side grants. And while the Northeast is particularly poised to 
take advantage of such a provision, its benefits will be realized 
nationwide.
    2. Encourage the private/public partnership embodied in the Forest 
Legacy Program and Farmland Protection Program. This provides a 
critically important tool by allocating funds to purchase conservation 
easements from willing sellers, thereby keeping our most productive 
forest and farm lands in private ownership.
    3. Provide for the full Payment in Lieu of Tax Obligation owed by 
Federal Government to local communities and county governments with 
acreage in national forests, national parks, wildlife refuges, bureau 
of land management lands, and other Federal ownerships.
    These three provisions will measurably improve S. 2123, increase 
support for the bill, and should be incorporated in any legislation 
that makes its way to the President's desk. The Senate Environment and 
Public Works Committee can play a pivotal role in helping to forge a 
broadly supported and strong conservation measure from these three 
proposals. The conservation community in New England is committed to 
working hard with you toward this end. I want to address each of these 
three provisions in greater detail.
I. Flexible Funding
    There is a critical component of conservation legislation that is 
essential to regions of the country, including the Northern Forest of 
Maine, New Hampshire, Vermont and New York, with important lands of 
compelling public interest but without access to adequate Federal or 
State LWCF funding. Title II of S. 2123 reauthorizes the Land and Water 
Conservation Fund and provides land acquisition funding for Federal 
land units, such as national forests, national parks or wildlife 
refuges. It also directs grants to States on a 50/50 matching basis for 
acquisition and development of State and local parks, forests and 
outdoor recreation lands. Both are highly successful programs serving 
critical needs, and both deserve full and permanent funding.
    LWCF currently does not provide funding for larger State or local 
projects of regional and national significance that exceed the capacity 
of traditionally administered state-side grants. In addition, States 
with few Federal land units or with low populations (e.g. New 
Hampshire) do not have access to significant Federal funding.
    To provide funding for the full array of project needs, the final 
package voted on by Congress should fully and permanently fund LWCF at 
its authorized level of $900 million and equally distribute the money 
between traditional Federal and State programs. In addition, it should 
include a provision that would add new funding for important projects 
that exceed the capacity of the population-based, state-side formula or 
that are outside of Federal land units. Without a source of flexible 
Federal funds, States and local communities alone will be unable to 
protect some of America's most important undeveloped forest and farm 
lands, including those found in the Northern Forest of Maine, New 
Hampshire, Vermont, and New York.
    Many States most notably New Hampshire--are looking for ways to 
protect important working forests, and natural, cultural, and 
recreational areas without creating or expanding Federal units. 
Supporting alternatives to new Federal ownership promotes local control 
and partnerships that respect local values and priorities. Protecting 
national interest lands without new Federal ownership is also cost-
effective since State, local, and private partners will assume the 
responsibilities of long term management.
II. Forest Legacy and Farmland Protection Programs
    New Hampshire has a long history of using conservation easements to 
permanently protect land from development, while retaining private 
ownership and control. Our State has utilized Forest Legacy funds to 
protect thousands of acres of productive, managed woodlands. These are 
lands that stay on the tax roles, and require no on-going Federal 
obligations because the State of New Hampshire holds and monitors these 
conservation easements.
    For example, there is much current interest in New Hampshire in 
acquiring a conservation easement on 171,000 acres of productive 
timberlands owned by Champion International Corporation in the northern 
part of the State. Champion is a willing party to these discussions. A 
Forest Legacy easement, held by the State or a qualified non-profit 
organization, will keep these lands in private ownership, keep them 
contributing to the tax base and local economy, and will protect both 
economically important uses and ecologically important features of the 
land.
    Under Title VII, S. 2123 authorizes a conservation easement 
program. Yet it is unclear how this program relates to existing Federal 
programs, such as Forest Legacy or the Farmland Protection Program, 
that authorize Federal funds for purchase of conservation easements. 
Title VIII of S. 2181 addresses this by authorizing funding for Forest 
Legacy, the Farmland Protection Program, and a new program to be called 
the Ranchland Protection Fund. H.R. 701, as passed by the House on May 
11, includes language that we support allowing qualified non-profit 
organizations to hold easements under these programs. We hope the 
committee will work to reconcile these slightly varying approaches.
III. Full Payment in Lieu of Tax
    If the Federal Government is going to continue to acquire lands for 
addition to national forests, national parks, wildlife refuges and 
other Federal ownerships, it must fully fund its authorized payment in 
lieu of tax obligations. Maintaining strong relationships with local 
governments is as important an aspect of Federal land stewardship as is 
the responsible management of the land.
    Currently, the US Forest Service pays about 46 percent of the 
authorized PILT payment on lands of the White Mountain National Forest. 
This is a significant local issue in New Hampshire, and is the source 
of much tension between our rural northern communities and the US 
Forest Service.
    Title II of S. 2123 funds Federal land acquisition at $450 million 
per year. With few exceptions, these acquisitions will involve 
privately owned lands that are now contributing property taxes to local 
communities or county governments. We urge the committee to consider 
adding language from Title X of S. 2181 to fund payments in lieu of tax 
at the maximum level authorized under Federal statute. To fund 
continued Federal land acquisition without making a commitment to fully 
fund PILT is simply irresponsible.
    Mr. Chairman, we strongly urge you to use this hearing and other 
means to communicate with the bi-partisan leadership of the Senate and 
the Energy and Natural Resources Committee to insist that differences 
be bridged, and sound conservation legislation be enacted this year. 
Voters from States across the country have indicated at the ballot box 
that they cannot afford to lose more opportunities to protect the lands 
they consider important to their quality of life. The overwhelming 
support of the NH General Court for the recently passed NH Land and 
Community Heritage Investment Program is evidence of this (the bill 
passed our House of Representatives 326-9, and our Senate 24-0). We can 
assure you that your efforts in this regard will be noticed, 
appreciated and rewarded.
    If we are successful in passing a permanent conservation funding 
bill, it would be a conservation milestone comparable to the passage of 
landmark laws like the Clean Air and Clean Water Acts, and the original 
Land and Water Conservation Fund. There are considerable hurdles, 
budgetary and otherwise, yet to be overcome. Like you, however, we 
recognize that the recent passage of H.R. 701 in the House provides us 
with a rare window of opportunity to pass significant legislation.
    Thank you very much for the opportunity to appear before the 
committee on this important legislation. I would be pleased to answer 
any questions.
                                 ______
                                 
  Responses of Charles Niebling to Additional Questions from Senator 
                                 Inhofe

    Question 1. Please elaborate on the Federal Government's role in 
State and local planning decisions under S. 25, S. 2123, and S. 2181.
    Response. The Federal Government may assume certain new authorities 
with respect to State and local planning to the extent that States may 
only receive funding (for example, under Title I, section 101, 102 of 
S. 2123--approval of Coastal State Conservation and Impact Assistance 
Plan) if certain plans are approved by the Secretary of the Dept. of 
Interior. Approval of such plans is intended to ensure consistency with 
provisions of the act, and ensure fiscal accountability to Congress.

    Question 2. If the Department of Interior disagrees with a State's 
or locality's planning decision, could DOI withhold funds.
    Response. Only if such planning decisions are fundamentally 
inconsistent with the purposes of these acts.

    Question 3. I am concerned with the impact of S. 25, S. 2123, and 
S. 2181 on lands used for hunting and fishing. The flood of money 
provided by CARA will enable buying and turning over to the government, 
private lands currently used for hunting and fishing. This will subject 
the property's sporting use to the whim of public opinion, and a 
bureaucracy increasingly hostile to sport, fishing, trapping, and gun 
ownership.
    An example of my concern is what happened in New York last year 
with the largest land purchase in that State's history. For over one 
hundred years, Champion International Timber Company and previous 
private landowners has leased out 139,000 acres of its holdings for 
recreation, including fishing and hunting. When the State of New York 
purchased the land, the State's first ``management'' action was to 
eliminate hunting access and drastically limit other recreation uses. 
Included with these mandates was ordering the destruction of 298 
hunting cottages used by 3,000 sportsmen each year.
    Under S. 25, S. 2123, and S. 2181, how likely are scenarios like 
this?
    Response. Federal aid guidelines will require some level of public 
access, and State wildlife agencies to which Title III funds are 
allocated are charged with providing for continued public access, 
especially for fishing and hunting.
    In general, US Fish and Wildlife Refuges to which Title II (L WCF) 
funds may be allocated all allow public access, including hunting and 
fishing with certain limited restrictions at some refuges.
    The New York example is not a good example because these lands were 
specifically acquired for addition to the Adirondack Park, which, since 
1891, has been constitutionally mandated to be managed in a ``forever 
wild'' status that expressly prohibits hunting and lease camps.

    Question 4. Under S. 25, S. 2123, and S. 2181, how is the 
applicability of the Pittman-Robertson Act expanded?
    Response. I am not an expert on the Pittman-Robertson Act and am 
not qualified to answer this question.

    Question 5. Could the additional funds lead to abuses of the 
Pittman-Robertson Fund?
    Response. I am not an expert on the Pittman-Robertson Act and am 
not qualified to answer this question.

    Question 6. Under S. 25, S. 2123, and S. 2181, what is the total 
scope of potential land acquisition?
    Response. Under Title I of these acts (Coastal Assistance), land 
acquisition may be authorized (e.g., S. 2123, Sec. 102 (c)(2)). Under 
Title II (LWCF), land acquisition is explicitly authorized through the 
Federal or stateside programs. Under Title III of these acts (Wildlife 
Conservation and Restoration), land acquisition is authorized (e.g. S. 
2123, sec. 302 (d)). Under the conservation easement titles of these 
bills, acquisition of less-than-fee interest in private lands--where 
title to the lands is retained in private ownership--is authorized.

    Question 7. Under S. 25, S. 2123, and S. 2181, how much land 
acquisition power has any restrictions or protections placed upon it?
    Response. I do not entirely understand the question, but I'll do my 
best.
    In title I of these bills (Coastal Assistance), and land 
acquisition must be consistent with an approved Coastal State 
Conservation and Impact Assistance Plan, developed by each State, and 
approved by the Secretary of the Dept. of Interior for consistency with 
the act. These plans will require extensive public and community input. 
fit is the consensus of the citizens of the State that land acquisition 
should be limited, or prohibited, under this Title, then the plan will 
reflect that.
    Under Title II, Congress will decide as part of the appropriations 
process which Federal projects are funded using the LWCF funds that are 
allocated to the Federal program. Under the stateside LWCF program, any 
acquisition must be consistent with the objectives set forth in the 
State Action Agenda. This agenda will be developed with extensive 
public involvement. The same is true for Title III.
    In general believe strongly that there are sufficient checks and 
balances incorporated into these bills to ensure the land acquisition 
authorities set forth will not be abused by the Federal, State or local 
governments.

    Question 8. Under S. 25, S. 2123, and S. 2181, what is the 
potential for significant increases in discretionary spending above and 
beyond what would be dedicated to the trust fund?
    Response. The Federal Government will assume increased costs, and 
thus increased discretionary spending if funds are appropriated to 
cover such costs, if under Title II of these bills it adds additional 
lands to our existing system of national parks, national forests, 
wildlife refuges, etc. There will be no additional Federal costs 
associated with administration of the stateside LWCF program (State and 
local governments will assume these costs). There will be no additional 
costs associated with Title III of these bills, because the Wildlife 
Conservation and Restoration program is handled as a pass through to 
States. There will be no increased costs associated with the 
conservation easement titles of these bills, because State or local 
governments, or qualified non-profit organizations will assume 
monitoring and enforcement responsibilities for conservation easements.
    It should be noted that there may be increased Federal costs 
associated with NOT passing CARE legislation, because of increased 
coastal damage; habitat loss; increased costs associated with more 
expensive endangered species recovery; flooding from accelerated 
wetlands loss; loss of economic contributions from working forest and 
farmland that is otherwise developed, etc., etc.

    Question 9. Does creating a CARA trust fund violate the fiscal year 
2001 budget resolution?
    Response. I do not know.
                               __________
  Testimony By Dr. Rollin D. Sparrowe, President Wildlife Management 
                               Institute
    Mr. Chairman:
    The Wildlife Management Institute, founded in 1911, is a nonprofit 
organization staffed by experienced resource management professionals 
dedicated to improving the management of wildlife and wildlife habitat. 
Our focus is wildlife policy both at the Federal and State level, with 
a special emphasis on the administration and function of agencies. As 
an example, each decade for the past four the Institute has conducted a 
review of the organization, authorities, and programs of the 50 State 
fish and wildlife agencies. We have also reviewed fish and wildlife 
functions of the U.S. Forest Service on two occasions, and parts of 
numerous other agencies at other times at their request. We have been 
intimately involved in virtually all Federal legislation concerning 
those agencies and their fish and wildlife and habitat programs.
    Our Institute is pleased to lend its strong support for a 
consolidated approach to legislation reflected in the three pending 
Senate bills (S. 25, S. 2123, S. 2181) to fund conservation programs 
through use of revenues received from outer continental shelf oil and 
gas production. We have been strong supporters of H.R. 701 recently 
passed by the House, and believe that the sportsmen and women of 
America would clearly be well served by passage of comparable 
legislation by the Senate.
    This year more than $450 million for wildlife and fisheries 
conservation will go to State agencies on a (75:25) matching basis. 
Under the Pittman/Robertson, Dingle/Johnson-Wallop/Breaux programs, 
excise tax revenues from arms and ammunition, archery equipment, and 
fishing equipment provide stable funding that is the foundation of 
wildlife and fishery management in all 50 States. This constitutes a 
conservation legacy involving hunters and anglers that has persisted 
for more than 60 years. We in the wildlife management and hunting 
community are justly proud of the status of waterfowl, elk, wild 
turkey, whitetailed deer, and many other species that have recovered 
under Pittman/Robertson over those decades.
    Other remedies have failed to address the needs in most States. In 
1975, the Wildlife Management Institute worked with the Council on 
Environmental Quality and conducted a national assessment of needs for 
non-game fish and wildlife programs in the United States. Based on that 
information, an alliance of about 200 groups successfully supported 
passage of the Fish and Wildlife Conservation Act of 1980. This act 
outlined great intent to fund non-game programs, and was amended by 
this committee in 1988 to try to strengthen it. Congress has never 
funded the Act. Those legitimate needs for funding to manage fish and 
wildlife that are neither hunted nor fished continue today, and in fact 
have accelerated greatly over the past 25 years.
    The need is clear for our States to effectively manage the more 
than 1,800 wildlife and fish and their habitats that currently receive 
little attention, and that increasingly are been driven to scarcity and 
even listing under the Endangered Species Act because of human 
pressures on the land.
    Our State fish and wildlife agencies are under tremendous pressure 
from declining funding, and increasing responsibilities. These agencies 
are forced to spend scarce sportsmen's dollars to conduct the extensive 
environmental review involved in State responses to Federal actions 
regarding public lands, and endangered species work. This has become a 
significant burden on limited funding for wildlife conservation.
    Most States receive 60-70 percent of their funding directly from 
excise tax funded programs and license revenues, and programs are 
vulnerable because of their limited sources. As an example, a 1993 die-
off of several big game species has led the State of Wyoming to make 30 
percent reductions in staff and programs because of reduced license 
sales. This not only reduced services to hunters beyond the recovery of 
the herds, but affected the overall function of the agency in 
delivering its broader programs. It is neither to the benefit of 
sportsmen nor advantageous to the vast array of other fish and wildlife 
species that need management, for such major fluctuations in programs 
to occur. Currently there are no buffers to excise tax or license sale 
decreases. Other fund raising devices like fees onsite, speciality 
license plates, or tax checkoffs have had very limited success. Only a 
small handful of States have been able to independently take 
significant steps to provide alternative funding for broad fish and 
wildlife programs.
    We have worked with a large array of wildlife and fishery 
organizations to support new funding to broaden wildlife management 
programs through the existing State agencies to cover all wildlife, and 
meet the needs of all of the public. It is clear that both hunters and 
non-hunters would benefit from these programs. In fact, we think all 
those interested in the future of wildlife in America have a stake in 
not only new funding, but the continued flow of dollars to conservation 
from hunting and fishing excise taxes and license fees. We are not 
replacing programs with new funding proposals, but rather building on 
the success of the past, with our eyes on a better future.
    Looking practically at the role of State fish and wildlife agencies 
and management needs, such new funding would:
    Maintain the leadership role of the sporting community in fish and 
wildlife conservation that has made so much progress.
    Reduce the financial pressure on license fee and current excise tax 
revenues derived from hunters and anglers.
    Spread the cost of habitat and wildlife and fishery conservation to 
the broader American public.
    Add more habitat accessible to traditional uses like hunting and 
fishing as a dividend from broader conservation actions.
    Strengthen existing fish and wildlife agencies that have the legal 
authorities for necessary management of all wildlife.
    Widely expand the public involvement in guiding and supporting 
those broader fish and wildlife agencies.
    Build on the existing, proven administrative system of Pittman/
Robertson, Dingell/Johnson-Wallop/Breaux programs.
    Allow the State fish and wildlife agencies to satisfy their broader 
responsibilities to all wildlife.
    Traditional fish and wildlife management organizations in America 
believe very strongly that active management programs through our 
agencies are essential to complement any investment in conserving the 
land base. Certainly, we all recognize that habitat conservation is 
essential for the future of wildlife. As important as acquisition is, 
provision of stable funding for active management programs is an 
equally important investment to assure that those lands return the 
values for fish and wildlife and people that the Congress intends.
    The need by the 50 States is clearly more than the $350 million per 
year included in H.R. 701. While that will be a major step in the right 
direction, down the road additional funding will be necessary to 
satisfy what is currently a need more than three times that large. The 
States have documented the size of that need and it will continue to 
grow.
    Mr. Chairman, I do not presume to speak for the millions of hunters 
and anglers in America or for their organizations. I do know that they 
strongly support the legislation that passed the House, and their 
outspoken support played a role in that success. I know you will hear 
directly from many of them.
    The common message on the need for legislation you will hear is:
    The need is clear and well documented.
    We have a model with a good record in Pittman/Robertson and 
Dingell/Johnson.
    The authority and responsibilities for broader fish and wildlife 
management lie with the 50 States.
    Traditional wildlife management, and sportsmen and women themselves 
will benefit from proactive conservation for all wildlife.
    We request that you act now to meet a real need and take advantage 
of an opportunity of strong bipartisan support for this landmark 
legislative initiative.
    Much of the publicity about the passage of H.R. 701 has incorrectly 
cast it as a ``land acquisition bill''. In fact, the majority of the 
money that would go to the State fish and wildlife agencies will 
support long-term management programs, with professionally trained 
staff, to ensure that those lands and other lands in each State 
adequately provide for the fish and wildlife resources that we value. 
We believe that concerns of private property owners have been fairly 
addressed in the legislation that has passed the House. The Congress 
will have solid oversight over all Federal land acquisition.
    All of this should be viewed as a reinvestment in critical 
resources for the future, providing environmental and conservation 
values far beyond the dollar cost of this annual funding. It will 
leverage additional funds for conservation. It provides a base for 
proactive action to keep the States in control of wildlife management, 
within their authority. This can avoid further erosion of State 
management authority over wildlife, and reduce the need for Federal 
control, by avoiding species declines to the point of listing. While 
this is not an endangered species bill, it is an investment in 
forestalling the rate of loss and decline of our valued wildlife and 
fishery resources. Moreover, it continues the very successful flow of 
funding to the States to be used at the local level to solve real 
problems.
    The original vision of Teaming With Wildlife that brought a large 
coalition of interests together was to broaden wildlife and fisheries 
programs to address species that are neither hunted or fished. After a 
decade of work to reach the current opportunity, clearly the need for 
such work remains highest priority for the States. We are ready to work 
with the Senate on these and other details of legislation.
    Mr. Chairman, the wildlife management and hunting community has an 
equal stake in appropriate expenditures under the Land and Water 
Conservation Fund for the conservation of habitats. It was the Izaak 
Walton League of America that lead other old-line traditional 
conservation groups that supported the original Land and Water 
Conservation Fund, before many current organizations even existed. 
Careful addition to the Federal land base is still an important 
wildlife conservation and public access need in America. We believe 
that the additional protections for property rights written into H.R. 
701 provide a model the Senate can use to cover such concerns. We urge 
you to deal positively with both State and Federal programs to finally 
deliver the true promise of the Land and Water Conservation Fund as an 
investment in the quality of life for future Americans.
    We appreciate the opportunity to comment on this extraordinary 
legislative opportunity.
                                 ______
                                 
 Responses by Rollin D. Sparrowe to Additional Questions from Senator 
                                 Crapo

    Question 1. The maintenance backlog on our public lands is immense, 
however, these bills propose to increase Federal ownership of lands. 
Does it make sense to require a cost analysis of future operations and 
maintenance costs associated with land to be acquired? If not, why?
    Response. It would make good business sense for every Federal 
agency to analyze the cost of future operations and maintenance of any 
land acquisition. This would provide an objective assessment of needs 
for the future to make the land produce what it was intended to produce 
for the American people. This would allow agencies and the Congress to 
budget for needed operations and maintenance on an orderly basis. Such 
an analysis may or may not have an influence on a subsequent decision 
to acquire land, since various threats like development or special 
needs for unique properties may make them a high priority for 
acquisition apart from assessing their future cost.

    Question 2. The House passed version of CARA, H.R. 701, includes an 
amendment that would preclude the transfer of money to the CARA fund if 
the CBO does not certify that Congress is on-track to eliminate the 
national debt by 2013, or meet Social Security or Medicare obligations. 
Do you support a similar amendment to the Senate bills and why? If not, 
why?
    Response. As supporters of H.R. 701 and companion legislation now 
pending before the Senate, we expect that the Congress will meet any of 
its other budgetary requirements before it initiates new programs. Our 
knowledge of whether CBO can truly estimate the detail of future 
overall government finances is limited. We and other supporters would 
prefer as few amendments as possible to Senate legislation for the CARA 
fund, especially if the ability to carry out those stringent fiscal 
requirements is not clear.

    Question 3. Do you believe that the Federal Government is a better 
steward of land than private ownership? Why?
    Response. We firmly believe that significant land should be managed 
by the Federal Government for the broad values they provide to the 
American people. Public ownership of wild landscapes has provided 
millions of people with scenic, recreational, and spiritual values 
which will endure for our children and our grandchildren. We believe in 
private land stewardship of private land, and equally effective 
stewardship of the public lands.
    We don't think it is appropriate to pit one against the other in an 
``either or'' fashion in most cases. We believe that professional 
management of Federal land provides stewardship when it is allowed to 
proceed without interference.

    Question 4. S. 2181 provides full funding for PILT. S. 2123 
provides a match for PILT and Refuge Revenue Sharing. S. 25 is silent 
on both points. Given the impact of increased Federal land ownership on 
local communities, do you support providing full funding for PILT and 
Refuge Sharing as part of CARA? If not, why?
    Response. Full funding for PILT and Refuge Revenue Sharing would be 
an asset both to communities in areas with Federal landownership, and 
to Federal agencies. This has been a longtime problem in 
appropriations, and should be resolved. We would endorse consideration 
of the full funding provisions as presented in S. 2181.

    Question 5. Do any of the CARA bills adequately address the 
operations shortfalls or maintenance backlog on Federal lands? If not, 
should the CARA bills address this problem? If not, why?
    Response. All of the versions of CARA legislation have been 
designed to deal with increased needs by the American people for lands, 
management of their wildlife, and restoration of areas impacted by 
development. Only Title 2, and half of its revenues at that, address 
Federal lands at all. Under the original H.R. 701 (now S. 2123), Title 
1 funding goes directly to the States, Title 2 is appropriately half 
state-related and half Federal-related for land acquisition, and Title 
3 is in fact operations money for State wildlife programs. 
Realistically, if the maintenance backlog that has buildup over many 
years for only Federal lands were included then the other objectives of 
CARA could not be carried out.
    As an organization, we have led a group of 18 organizations that 
have worked for almost 6 years to deal effectively with the operation 
and maintenance shortfalls of the national wildlife refuges. With the 
help of Congress we have made progress both in documentation and 
accountability for the use of such funds, and the Congress has found 
several ways to enhance funding to solve the problem.

    Question 6. In your submitted testimony, you mention the success of 
the Federal Aid in Wildlife and Sport Fish programs. You suggest that 
new funding would ``build on the existing, proven administrative system 
of Pittman-Robertson and Dingell-Johnson/Wallop Breaux programs.'' Are 
you aware that legislation has been introduced, and passed in the 
House, that would reform the administration of the Federal Aid dollars? 
Legislation that was prompted by a congressional and GAO investigation 
of the misuse of the administrative funds by the Fish and Wildlife 
Service. In your opinion, why is this not indicative of what the 
government may do with permanent, entitlement funding?
    Response. Our Institute was directly involved in passing the 
original Pittman-Robertson legislation in 1937, and has been closely 
involved in all aspects of the Federal aid program since that time. Our 
staff worked directly with Chairman Young's committee in the House in 
the development of reformed legislation. Our position has been 
consistent, that the Fish and Wildlife Service misused some 
administrative funds but also lacked clear guidance from the Congress 
about how those administrative funds should be used. Proposed 
legislation in both the House and Senate would fix that key problem by 
clarifying what is appropriate administrative use. We still feel that 
some details of that legislation need work to avoid problems in the 
future, and we continue to work on the committees on that topic.
    Most of the activities reported upon span several administrations, 
and are not indicative of what has happened with the entire program. By 
far, most of the money has been effectively delivered to the States. 
Further, the key problems first surfaced both by GAO and the House 
Resources Committee have been rectified by the Fish and Wildlife 
Service. Some of the most acrimonious debates focus on personnel 
actions and other details which none of us are privy to under the law. 
We are confident that those will be dealt with by duly appointed 
investigative officers . . . Once again, we believe it has been well 
demonstrated that over 95 percent of the funding has been delivered as 
designed, and this is not indicative of a larger problem likely with 
new money.
                                 ______
                                 
 Responses by Rollin D. Sparrowe to Additional Questions from Senator 
                                 Inhofe

    Question 1. Please elaborate on the Federal Government's role in 
State and local planning decisions under S. 25, S. 2123, and S. 2181.
    Response. The three bills pending in the Senate differ in their 
approach to the Federal Government's role in State and local planning 
decisions. Some of those decision tracks, such as under Title 1 of S. 
2123, are controlled by the 34 States that would receive coastal 
restoration funding. Title 3 would be managed through the existing 
mechanisms of the Pittman/Robertson and Dingell-Johnson programs of the 
U.S. Fish and Wildlife Service. In essence, they would be annual grants 
to the States through an established process. Considerable discussion 
has centered around the role of the Federal Government in Federal land 
acquisition to protect the property rights of individuals. S. 2123 
incorporates the increased oversight by the Federal Government that 
helps bring about the tremendous support for this legislation in the 
House. Some feel that this may be even too restrictive and impede an 
orderly process. We would support starting with the provisions under S. 
2123 and incorporating the best parts of the other legislation on this 
issue.
    The role of this legislation and land acquisition is often 
overstated. It is not clear at all how much acquisition there would be 
under Title 1, which is half the funding, and in Title 2, half the 
funding would go to the States and the other half to the Federal 
Government. The money to the Federal Government would be roughly twice 
what has gone in recent years, under very close scrutiny by the 
Congress. Finally, Title 3 primarily is funding for operation and 
maintenance of expanded State fish and wildlife programs. While there 
might be some acquisition, it would occur under existing processes that 
have worked very well in the past.

    Question 2. If the Department of Interior disagrees with a State's 
or locality's planning decision, could DOI withhold funds?
    Response. It is our understanding that under the Land and Water 
Conservation Fund, the Congress will have the final word on 
acquisition. Under Title 3, there is an existing process through which 
the Fish and Wildlife Service reviews principal aspects of the land 
acquisition proposed by a State wildlife agency and approves or 
disapproves it. Generally, these work well and have not been a problem.

    Question 3. I am concerned with the impact of S. 25, S. 2123, and 
S. 2181 on lands used for hunting and fishing. The flood of money 
provided by A wait enable buying and turning over to the government, 
private lands currently used for hunting and fishing. This will subject 
the property's sporting use to the whim of public opinion, and a 
bureaucracy increasingly hostile to sport fishing, trapping, and gun 
ownership.
    An example of my concern is what happened in New York last year 
with the largest land purchase in that State's history. For over one 
hundred years, Champion International Timber Company and previous 
private owners has leased out 139,000 acres of its holdings for 
recreation, including fishing and hunting. When the State of New York 
purchased the land, the State's first ``management'' action was to 
eliminate hunting access and drastically limit other recreation uses. 
Included with these mandates was ordering the destruction of 298 
hunting cottages used by 3,000 sportsmen each year.
    Under S. 25, S. 2123, and S. 2181, how likely are scenarios like 
this?
    Response. America is putting increasing pressure on its lands and 
having to make many decisions about what are appropriate uses. Seventy 
percent of the landscape is still privately owned, and while it is open 
for hunting and fishing, it is not open to the general public unless 
the landowner so chooses. For Title 3, the State wildlife agencies are 
the agencies that provide the hunting and fishing opportunities. Lands 
that would be acquired with half of the Title 2 money may go into 
varying types of public ownership, and we agree that there will be some 
hard choices about appropriate public uses. Wildlife organizations are 
paying more attention to the designated land uses for lands that are 
put into different categories of Federal control. We will continue to 
work on this problem. We recognize that segments of society are hostile 
to some of our favorite outdoor pursuits and to gun ownership. We do 
not see a connection with most of the activities that we anticipate 
under CARA legislation.
    A good example of the way it can work positively is recent activity 
in the State of Missouri. Significant private timber lands of over 
80,000 acres were transferred to the Missouri Department of 
Conservation and The Nature Conservancy. A few necessary natural areas 
have been protected for their intrinsic values, but by and large the 
lands are available to appropriate public uses and it all has occurred 
without controversy. Local laws and local land situations may make each 
outcome a bit different than the other. But in the end, the interest of 
the sporting public can be protected.
    The Champion International transaction last year is actually an 
excellent example of how the significance of public conservation 
dollars can be increased through public/private partnerships. The 
Conservation Fund orchestrated the transaction in which critical 
habitats and important access areas were acquired by the New York 
Department of Conservation (DEC), while productive forest lands were 
acquired by private timber investors. Of the 140,000 acres offered for 
sale by Champion, 110,000 acres were kept within the private sector 
after the New York DEC had acquired a conservation easement that 
protected the land from development and insured free access to all 
citizens. The remaining 30,000 acres of Champion land were acquired by 
New York DEC to protect important river corridor habitats but will also 
be open to free access by all citizens. From a public hunting 
perspective, the transaction substantially increases available hunting 
areas for sportsmen. Under the terms of the easements and acquisition, 
lands that had been closed to public access for over 100 years are now 
open for fishing, hunting and trapping. In keeping with the long 
standing DEC policy of not segregating use to one special interest or 
group, existing hunting leases and camps have been given a 15 year 
lease on the private lands and a 5-year lease on public lands before 
they are to be removed. Public/private partnerships afford great 
potential to multiply the conservation benefits of CARA moneys. We 
think they, as the Champion/Conservation Fund project illustrates, have 
the greatest potential to secure lands for hunting and fishing in the 
future.

    Question 4. Under S. 25, S. 2123, and S. 2181, how is the 
applicability of the Pittman-Robertson Act expanded?
    Response. Title 3 under all three of these bills would use the 
Pittman-Robertson Act to add funding for State wildlife agencies to 
expand their wildlife programs. The main purpose is to deal with the 
vast array of wildlife and fish that have not received as much 
management attention as some game species. Funding for projects still 
would go to the States through the Fish and Wildlife Service with the 
established system that has worked well under Pittman-Robertson in the 
past.

    Question 5. Could the additional funds lead to abuses of the 
Pittman-Robertson fund?
    Response. Our Institute was directly involved in passing the 
original Pittman-Robertson legislation in 1937, and has been involved 
in all aspects of the Federal aid program since that time. Our staff 
worked directly with Chairman Young's committee in the House to develop 
reformed legislation. Our position has been consistent, that the Fish 
and Wildlife Service misused some administrative funds but also lacked 
clear guidance from the Congress about how those administrative funds 
should be used. Proposed legislation in both the House and Senate would 
fix that key problem by clarifying what is appropriate administrative 
use. We still feel that some details of that legislation need work to 
avoid problems in the future, and we continue to work on the committees 
on that topic.
    Most of the activities reported upon span several administrations, 
and are not indicative of what happened with the entire program. By 
far, most of the money has been effectively delivered to the States. 
Further, the key problems, first surfaced both by GAO and the House 
Resources Committee, have been rectified by the Fish and Wildlife 
Service. Some of the acrimonious debates focus on personnel actions and 
other details which none of us are privy to under the law. We are 
confident that those will be dealt with by duly appointed investigative 
officers . . . Once again, we believe it has been well demonstrated 
that over 95 percent of the funding has been delivered as designed, and 
this is not indicative of a larger problem likely with new money.

    Question 6. Under S. 25, S. 2123, and S. 2181, what is the total 
scope of potential land acquisition?
    Response. We believe the scope of potential land acquisition has 
been considerably overstated by opponents of CARA. Title 1, generally 
passes funding to the States to restore coastal areas affected by 
development. We do not know how much acquisition would be involved, but 
have not had that described to us as an acquisition fund. Title 2 would 
provide the $900 million to the Land and Water Conservation fund, with 
half going to State and local governments for recreational and outdoor 
needs, and half going to Federal Government through the normal channel 
for Federal acquisition. Specifically, the Federal Government is 
required to consider land trades, easement, and other options before 
dealing with willing sellers on fee-title acquisitions and with an 
array of new steps of oversight before a final decision is made. Under 
Title 3, some lands would be acquired, to complement the lands already 
acquired under Pittman-Robertson funding from the past. This fund, 
however, deals primarily with operation and management of broader 
programs for wildlife and will fund biologist and on-the-ground science 
and educational work for the public.

    Question 7. Under S. 25, S. 2123, and S. 2181, how much land 
acquisition power has any restrictions or protections places upon it?
    Response. The answer given to question 6 comes as close as our 
Institute can to answering this question. A large amount of CARA is not 
likely to be used for land acquisition, and that which will be used, 
particularly for Federal acquisition, has new and strong controls and 
Federal oversight.

    Question 8. Under S. 25, S. 2123, and S. 2181, what is the 
potential for significant increases in discretionary spending above and 
beyond what would be dedicated to the trust fund?
    Response. The only part of the pending legislation that would seem 
to have a potential for increases in discretionary spending in the 
future would be the operation and maintenance of new lands purchased. 
To the extent that lands are traded, easements are developed, or 
inholdings are purchased, it would not seem to be a large amount. 
Certainly, there would be some greater cost in the future if an 
individual knew a large block of land was purchased and had to be 
managed.

    Question 9. Does creating a CARA trust fund violate the fiscal year 
2001 budget resolution?
    Response. We are not experts on the details of the Congress' action 
on budget resolutions. At the hearing on this legislation Chairman 
Smith pointed out that over $500 billion had been put in a trust fund 
for transportation, and over $40 billion had been dedicated to 
aviation.
    The Congress has been able to do this for other programs, and we 
assume could accomplish this action as well.
                               __________
              Statement of the National Rifle Association
                                                      May 31, 2000.

The Honorable Robert C. Smith, Chairman,
Committee on Environment and Public Works,
SD-410 Dirksen Senate Office Building,
Washington, DC 20510.

    Subject: Conservation and Reinvestment Act (CARA)

Dear Mr. Chairman: The National Rifle Association (NRA) would 
appreciate having this letter placed in the record for the May 24, 2000 
hearing held on CARA legislation by the Committee on Environment and 
Public Works.
    The NRA supports CARA because of Title III--Wildlife Conservation 
and Restoration. A year ago, we submitted a statement in support of S. 
25 when the Senate Energy and Natural Resources Committee held a 
hearing on CARA. However, given the number of legislative days 
remaining, we encourage the Senate to take up H.R. 701, the version of 
CARA that recently passed the House of Representatives, although all 
the bills under consideration contain a Title III whose provisions are 
similar to each other.
    Title III is of vital importance to our 3.5 million members who 
engage in recreational shooting and hunting because it amends the 
Federal Aid in Wildlife Restoration Act commonly referred to as the 
Pittman-Robertson Act or PR. When it was enacted in the 1930's, PR was 
an innovative and farsighted response to rapidly declining wildlife 
populations and their habitats. The highly successful and highly 
enviable trust fund created by the enactment of PR has provided the 
States with over $3 billion in its six-decade history. The required 
State matching share has boosted that figure to over $4 billion. It 
makes the greatest sense to channel new funds to the States for 
wildlife conservation purposes through this same trust fund, as Title 
III in all of its legislative versions specifically directs.
    In a Board resolution adopted in 1996, the NRA agreed that in spite 
of the largess provided by PR and its partner, the Federal Aid in Sport 
Fish Restoration Act, the States had insufficient funds to meet all of 
its wildlife management responsibilities, not only for game species but 
for nongame and threatened and endangered species as well. The NRA, 
therefore, supports CARA because it not only taps into a new source for 
funding much needed wildlife work, but it provides for a generous level 
of funding to assist the States in addressing the unmet needs of 
wildlife species.
    The NRA is pleased to be able to take a position in support of a 
proposal that increases wildlife revenue to the States. This was not 
the case with respect to the ``Teaming with Wildlife'' concept which 
Title III replaced. Although the NRA did not take a position on 
``Teaming with Wildlife'' because the concept was never introduced into 
legislation, we nevertheless expressed serious concerns over the effect 
it would have on our members. The fact that CARA imposes no new excise 
taxes resolves those earlier concerns.
    The NRA is in support of language in Title III that allows the OCS 
funds to be used for a ``diverse array of species'' and would strongly 
oppose having those funds earmarked exclusively for nongame wildlife, 
as some environmental groups have urged. With the infusion of OCS 
dollars, there is every expectation that all manner of wildlife will 
benefit. Indeed, Title III states that the funds should be used for 
``unmet'' wildlife needs. CARA provides guidance because there is no 
reason to dictate to professional wildlife managers, who are in the 
best position to identify wildlife conservation priorities, how to 
spend these new funds. PR neither earmarks nor dictates the use of 
excise tax dollars that the States have received over the past 60 years 
and no reason has emerged to do otherwise.
    Title III meets the desire of the hunting community to find 
additional funds to assist the States in addressing the needs of all 
wildlife, including nongame and threatened and endangered species. 
Title III provides relief to the hunter who has shouldered the 
responsibility for wildlife conservation and restoration for most of 
the last century and into the 21st century. Using PR as the vehicle for 
distributing these OCS funds to the State fish and wildlife agencies 
also acknowledges and protects the vital role that the hunter plays in 
the conservation of our nation's fish and wildlife resources. The NRA 
offers its assistance to the Chairman in helping to make the goals and 
objectives of CARA, especially Title III, a reality.
    Sincerely,
                                 Susan R. Lamson, Director,
                      Conservation, Wildlife and Natural Resources,
                                  Institute for Legislation Action,
                             National Rifle Association of America.
                               __________
       Statement of Ted Miller, 387 Main Street, Gorham, NH 03581
    Honorable Senators,
    My name is Ted Miller. I am an elected trustee of Local 75, a part 
of PACE International Union representing about 700 millworkers in the 
pulp and paper mills of Berlin and Gorham, NH. I am also active in the 
Pulp and Paperworkers Resource Council, an organization representing 
labor in over 100 wood product mills throughout the country. I have run 
for public office in the past as a Democrat, and I will be doing so 
again. I am requesting that the article below, which I wrote as an 
editorial for a local paper be placed on the record regarding the CARA 
hearing to be held on Wednesday, May 24, 2000. Thank you for your time 
and this opportunity. TM
The Government vs rural Americans
    ``There can be no permanent democracy. A democracy can only exist 
until voters discover that they can vote themselves money from the 
nations treasury. From that time on, the majority of the voters will 
always vote for the candidates promising the most money from the public 
treasury. The eventual result is a collapse of the democracy due to a 
loose fiscal policy. This is always followed by a dictatorship.''--
Alexander Tyler.
    Item: 1989. Federal judge rules the spotted owl must be protected, 
places over 20 million acres government land in the northwest off-
limits to timber harvesting despite there being no scientific need 
demonstrated for this action. Ten years later, over 300 mills have 
closed, among the 100,000 jobs lost besides millworkers and loggers, 
are teachers, firemen, and law enforcement.
    In Catron County, New Mexico, which was dependent on Federal 
timber, the spotted owl claimed more victims, the people who once used 
to work for the county's largest sawmill. After the mill closure, 
families were forced to leave, the communities declined. With the 
families, went the children. In the town of Reserve, NM, the graduating 
class size shrank from as many as 25 down to 9 students.
    In 1998, Liberty County, Florida saw their paper mill close as 
their timber industry had its access to timber from the Apalachicoala 
National Forest severely reduced. The cutback on timber harvesting came 
in the name of protecting the red-cockaded woodpecker. In 2 years, 
their school system lost 175 students. Many of the 6700 people 
remaining in Liberty County still dependent on the forest for living, 
have annual incomes of just over $19,000. No wonder the most popular 
bumper sticker reads ``Save a logger. Eat a woodpecker''.
    Item: Wolves reintroduced into Arizona by the US Fish & Wildlife 
Service in 1998, have migrated into blew Mexico where they have killed 
family pets and scores of ranchers' cattle. After a pack of wolves 
killed a bull two miles away from the Glenwood Elementary School, a 
lone male wolf began hanging around a bus stop in tiny Alma, New 
Mexico. Fearful for their children's safety towns people kept their 
children inside until the USFWS trapped the pack and removed the lone 
wolf away from the community. USFWS wants to introduce more wolves into 
New Mexico. USFWS also intends to introduce wolves to Maine, upstate 
New York. and possibly Vermont.
    Item: Trinity County, Northern California, 1999 The Bureau of Land 
Management starts a series of controlled bums that quickly burn out of 
control, consuming thousands of acres and several houses over a period 
of weeks.
    Item: May, 200(). National Park Service sets a fire at Bandelier 
National Monument in New Mexico that quickly goes out of control, burns 
hundreds of homes in the town of Los Alamos, forces the evacuation of 
30,000 people, and threatens a government nuclear testing lab. A Grand 
Canyon fire set by the UPS also rages out of control.
    For over 900 years, generations of hard working rural Americans 
have provided food, oil, minerals, and forest products for the people 
of this country. Ranchers have proven that well-managed working 
grasslands are healthier than those that are set aside as preserves. 
Since 1920, forests have been growing faster than they have been 
harvested.
    So why has our government declared war on rural Americans? The 
government cannot take care of the third of the country it already 
owns, now it wants even more land.
    It is ironic that on the same day the NPS set the fire that 
destroyed Los Alamos, Congress passed the Conservation and Reinvestment 
Act, a bill that allows the government to spend three billion dollars a 
year on more land for parks and recreation programs. In Maine, New 
Hampshire, Vermont, hundreds of thousands of acres have already been 
bought by the Nature Conservancy and the Conservation Fund in 
anticipation of a massive government preserve.
    As the government buys more land, the tax base of communities and 
counties shrinks. Local economies are stifled, and rural people are 
forced to move elsewhere to look for work. The only hope for many rural 
Americans is that CARA (Senate Bill 25) will fail in the Senate. Yet, 
the pressure is on from the people who are standing in line waiting for 
money from the public treasury. Senator Judd Gregg supports S. 25, and 
Senator Bob Smith is wavering toward also supporting that bill, which 
could go before the Senate anytime. If this bill is to be defeated, 
they need to hear you tell them to vote no on Senate Bill 95, the 
Conservation and Reinvestment Act. If this bill passes, we will surely 
be one step closer to the collapse of democracy envisioned by Alexander 
Tyler.
                               __________
          New Hampshire Division of Historical Resources,  
                          Department of Cultural Resources,
                   Concord, New Hampshire 03302-2043, May 24, 2000.

The Hon. Bob Smith, Chairman,
Committee on Environment & Public Works,
U.S. Senate,
Dirksen Senate Office Building,
Washington DC 20510.

RE: S. 25, S. 2123, and S. 2181 [Conservation & Reinvestment Act 
(CARA)] and related legislation

Dear Senator Smith: Thank you for inviting the New Hampshire Division 
of Historical Resources (DHR) to present testimony concerning S. 25, S. 
2123, S. 2181, and related legislation.
    We are a State agency within the New Hampshire Department of 
Cultural Resources, and our director, Nancy C. Dutton, is also the 
State Historic Preservation Officer. The DHR receives Federal funding 
through an annual grant from the Historic Preservation Fund (HPF), 
which we match with State appropriations, with donated cash, services, 
and equipment, and with reimbursements from other State agencies for 
specialized historic preservation services that we provide for them. 
Although we are a State agency, a substantial part of our statutory 
responsibilities under both State and Federal law is to conduct the 
Federal historic preservation program in New Hampshire. (This system of 
Federal/State cooperative administration of Federal statutory 
requirements at the State level has been hailed as a worthwhile model 
for other Federal grant and assistance programs.) Some of the principal 
HPF program components are the National Register of Historic Places; 
Federal tax incentives for income-producing historic preservation rehab 
work; the statewide survey of historic properties; the New Hampshire 
State historic preservation plan; Certified Local Governments (a best-
practices incentive program for municipalities); review of Federal 
projects and mitigation of their impacts on historic properties; 
historic preservation technical assistance; and matching grants for 
historic preservation ``brick and mortar'' projects.
    Unfortunately, in recent years the annual appropriations for the 
Historic Preservation Fund have been less than $50 million annually 
despite a statutory authorization of $150 million dollars a year and 
that has resulted in an annual HPF grant to New Hampshire of less than 
$390,000. per year. As a result, the DHR's matching grants program for 
``brick and mortar'' projects has been suspended since 1980, except for 
a one-time demonstration program of ``Jobs Bill'' grants in 1983-1984, 
and for current preservation and restoration work at the Grasmere 
Grange in Goffstown, assisted through the Certified Local Governments 
program rather than with the regular HPF grants.
    This is a triple burden; it means that we have a twenty-year 
backlog of work needed to rescue our distinctive historic properties 
from oblivion, or destruction, and to return them to the tax rolls or 
to civic and community service. It means that our ability has been 
diminished to compete globally in attracting high-quality visitors, 
workers, businesses, and entrepreneurs to enjoy our distinctive 
heritage resources, and to bring capital into our State economy. It 
also means that we have lost 20 years of investment potential for 
rehabilitating historic buildings and protecting historic places from 
inappropriate development. This is particularly distressing because 
economic studies, based on both national and New Hampshire data, 
consistently show that reinvesting in historic properties generates 
more jobs, accomplishes more work, and generates more money that 
remains in the local economy longer, in comparison to new construction.
    Yet another dimension of the problem is that in the past 20 years 
the conversion of open land to new development has consumed important 
aspects of our archaeological heritage before we could save or salvage 
it.
    In addition, the Division of Historical Resources is on the front 
line for anxious calls from citizens and local officials who have just 
learned that a treasured local landmark or historic district is at 
risk. Almost every day brings more painful stories which are all the 
more poignant because, without the Historic Preservation Fund at its 
fully authorized level, there is no financial help we can offer until 
July 2001 at the earliest, when limited and competitive funding from 
the newly enacted ``NH Land Community Heritage Investment Program'' 
will be available. In that interim, we risk losing irreplaceable parts 
of our heritage.
    For example, not far from Concord is a historic farm that was the 
home of one of the nation's most illustrious statesmen, one whom New 
Hampshire is proud to call a native son. It has been designated as a 
National Historic Landmark (one of only twenty-two in New Hampshire). 
It is also a local landmark, a special place beloved by the people of 
its community. In addition to architecturally and historically 
significant buildings on the property, it also contains a historic 
family cemetery, prehistoric archaeological resources, and fertile 
agricultural fields which have been farmed by a neighboring family for 
many years.
    The religious order that owns the property is under orders to sell 
it. If, as is likely, a developer purchases the place, the cemetery and 
archaeological sites possibly even the historic buildings will be at 
risk, and the farmland may soon be growing houses instead of corn and 
hay. If the multi-generational farm family loses the use of this land, 
the family members will not be able to sustain their operation solely 
on their own acreage, and will no longer be able to farm. The community 
will find itself pressured by development in an outlying area which has 
little infrastructure in place; and even if costly utility extensions 
are not needed, the added expenses of providing municipal services and 
schooling for the residents of the new houses will cost more than any 
real estate taxes generated by the new development.
    If New Hampshire's share of the Historic Preservation Fund at the 
authorized level of $150 million were available, our annual HPF grant 
would increase to $1.2 million dollars. It would be possible for the 
municipality or non-profit preservation agencies to apply for funds to 
purchase an easement on the farm or to make a pre-acquisition, holding 
the property until more extensive fundraising and private initiatives 
could secure its future. Lacking the fully funded historic preservation 
component in S. 25, S. 2123, and S. 2181, and with New Hampshire's new 
State Land & Community Heritage Investment Program funding unavailable 
for at least another year, no other readily available means have been 
found to respect and retain the history and current use of this 
nationally significant property, and that of the people whose lives are 
linked to it. Surely our heroes of history (and our present-day 
farmers) deserve better treatment!
    This is but one of many such stories. Our conservation colleagues 
at the Society for the Protection of New Hampshire Forests could relate 
an equally compelling narrative of their efforts to preserve the large 
and varied complex of nationally significant buildings at The Rocks 
Estate (the former Glessner estate) in Bethlehem, New Hampshire, in an 
area where buildings are subject to extreme weathering. The spirit and 
the strength for preservation are present, but the necessary money a 
prudent investment in the past for the future is not.
    We also hope that the Senate will allow States the maximum 
flexibility for allocating and expending the HPF money in accordance 
with a state-focused consensus about pressing priorities--developed at 
the State level through a long-established and well-functioning public 
participation process. One-size-fits-all national mandates and special 
set-asides based on Washington views rather than documented State and 
local needs are impractical and inefficient when applied to resources 
as individualized and character-defining as historic properties and 
places.
    In addition, we should note that the actual system by which HPF 
grant reimbursements are made has been functioning well for a third of 
century, and is fully tested by programmatic and fiscal audits on a 
recurring basis.
    An interlocking system of experienced staff and internal and 
external controls, both State and Federal, precludes the possibility of 
a ``Big Dig'' debacle. More money available for the HPF would be a 
difference of degree rather than kind; it would mean more projects, not 
more problems.
    For these, and many other such reasons, we hope that in its 
consideration of S. 25, S. 2123, and S. 2181, and any other legislation 
related to the ``Conservation & Reinvestment Act,'' the Senate 
Committee on Environment and Public Works will include the Historic 
Preservation Fund at the full $150 million annual authorization, and in 
so doing will recognize that an annual HPF appropriation at $150 
million would be an investment, not an expense.
    If you have any questions or concerns that you would like for us to 
address, we will be happy to respond and to provide additional 
information.
            Sincerely,
                                          Linda Ray Wilson,
                        Deputy State Historic Preservation Officer.
                               __________
Testimony of the Honorable Bobby Whitefeather, Chairman, Red Lake Band 
                   of Chippewa Indians Tribal Council
    Mr. Chairman, I thank you and the other distinguished members of 
the committee for this opportunity to provide testimony on behalf of 
the Red Lake Band of Chippewa Indians, concerning the Conservation and 
Reinvestment Act of 1999 (CARA). The Red Lake Band is a Native American 
Indian tribal government recognized by the U.S. Government.
    Red Lake and, I believe it is safe to say, most of the 557 
federally recognized Indian tribes across the country, strongly support 
CARA and the lasting benefits it will provide for conservation and 
future generations of Americans.
    My testimony today will focus on Titles III and VI of S. 2123, as 
these are of critical concern to tribes. Title III of CARA, Wildlife 
Conservation and Restoration, provides up to $350 million annually to 
the States, the District of Columbia, and the territories to conduct 
fish and wildlife restoration projects. I am extremely concerned that 
Title III apportions nothing to federally recognized Indian tribes, and 
I am seeking an amendment to fix this. I also want to express our 
requests in the strongest terms, that Title VI, Federal and Indian 
Lands Restoration, be kept intact as part of the final legislation. I 
will justify my requests momentarily, but first I want to provide some 
background information about Red Lake which I believe will assist you 
in judging the merits of my requests.
Red Lake People and Resources
    Red Lake is a relatively large Tribe with 9,300 members. Our 
841,000 acre Reservation, located in northwestern Minnesota, is held in 
trust for the Tribe by the United States. While it has been diminished 
in overall size, our Reservation has never been broken apart or 
allotted to individuals. Nor has our Reservation ever been subjected to 
the criminal or civil jurisdiction of the State of Minnesota. 
Consequently, we have a relatively large land and water area over which 
the Tribe exercises full governmental authority and control, in 
conjunction with the United States.
    Red Lake Band members' lives center around a seasonal cycle of 
reliance on natural resources. Fishing, hunting, and gathering 
activities are as important today as they were 200 years ago. Time has 
certainly changed some aspects of this cycle. The desires of Band 
members to purchase modern-day products and goods has led to a 
resource-based cash economy of fishing and logging that began early in 
the 20th century and continues today. However, concerns about resource 
depletion in recent years have led us to seek out economic 
diversification.
    Due in part to our Reservation's location far from centers of 
population and commerce, we have few jobs available in the private 
sector economy. While unemployment rates throughout America have 
dropped to historically low levels, our unemployment rate remains at an 
outrageously high level of 60 percent. The lack of good roads, 
communications, and other necessary infrastructure continues to hold 
back economic development and job opportunities. We have had limited 
success with gaming, but our remote location prevents the type of 
often-cited, large-scale gaming operations run by a small handful of 
tribes throughout America. The limited gaming revenues we do receive 
are devoted to human-services programs like meals for the elderly, our 
nursing home, and community-based activities. Unfortunately, given the 
pressing needs of people who live on the edge of survival on our 
impoverished Reservation, none of these funds can be devoted to natural 
resource protection on our Reservation.
    Relatively speaking, our resources are vast and important to many 
people who are our neighbors beyond our Reservation borders. The 
resources for which the Red Lake Band, not the State of Minnesota, is 
responsible, include 350,000 acres of forests, 471,000 acres of 
wetlands (including forested wetlands), 237,000 acres of lakes, and 55 
miles of rivers and streams. Title to all of these resources are held 
in trust status for the benefit of the Red Lake Band by the United 
States. Many of our resources are truly unique.
    Our Reservation includes much of northern Minnesota's patterned 
peatlands, which have received worldwide scientific recognition because 
ours is the largest peatland resource outside of Alaska and because 
many rare and endangered species reside in these areas.
    Our Tribe's natural namesake, the Red Lake, is the sixth largest 
natural, freshwater lake in the United States. It is larger than Lake 
Champlain, a lake which may be more familiar to you.
    Until just recently, Red Lake was home to the largest and longest 
continuously operated freshwater commercial fishery in America and 
provided important employment for some 500 reservation families. 
Unfortunately, similar to the fate of commercial fisheries the world 
over, stocks of walleye, which were the principal commercial Red Lake 
species, collapsed in the mid-1990's forcing the closure of our fishery 
for the first time since the beginning of World War I. The Tribe has 
since implemented an aggressive recovery plan in conjunction with the 
Federal Government and the State of Minnesota, which represents the 
largest freshwater fish species recovery program in America today.
    I have provided the above information to help you understand that 
we have been blessed with abundant natural resources, and the 
conservation and perpetuation of these resources is extremely important 
to my people and their direct survival needs.
Resource Management
    Our tribal resources are managed by a small but dedicated group of 
biologists, technicians, and wardens. Our relatively meager natural 
resources funding comes primarily from Bureau of Indian Affairs (BIA) 
programs. Unfortunately, recent Federal budget cuts in BIA natural 
resource funding has diminished our resource management capacity by 20 
percent in just the last 5 years. We have attempted to make up the 
difference by seeking outside grant funds, but the opportunities are 
very limited, especially for fish and wildlife conservation. Still, we 
do the best we can with the limited funds we have.
Tribal Access to CARA Title III
    Tribes have proposed that on the basis of fairness and equity, we 
should receive 2.25 percent of the new ``wildlife conservation and 
restoration account'' subaccount created by Title III in the Federal 
aid to wildlife restoration fund. This percentage is based on the ratio 
of Indian trust land, which tribes have the responsibility for 
protecting and for which no Federal Aid funds go toward fish and 
wildlife conservation, to the rest of the land area of the United 
States.
    Targeting such a percentage allocation to Indian tribes for the 
benefit of trust land and water resources is necessary in order to 
provide a critically needed, recurring source of funds like what the 
Act provides to the States and territories--one that is allocated based 
on equitable principles. The tribal amendment would distribute the 
tribal allocation among the various Indian tribal governments according 
to an inter-tribal formula that divides the tribal funds, one-third of 
which is based on the ratio to which the trust land area of each tribe 
bears to the total trust land area of all tribes and two-thirds of 
which is based on the ratio to which the population of each tribe bears 
to the total population of all tribes.
    The argument for tribal access to these funds is based primarily on 
two factors. First, the underlying principles of CARA, which tribes 
strongly support, are to protect all of America's land and water 
resources. Among the most important of these resources to the American 
public is fish and wildlife. Like the States and territories, tribes 
have a critical need for a dedicated, recurring source of funds for 
fish and wildlife restoration, and only Title III provides this. 
Second, for a very long time, tribes have argued that the apportionment 
of other Federal Aid funds is unfair, in that tribes are not included 
in the apportionment formulas, even though our members, like all 
Americans, pay the same excise taxes on hunting and fishing equipment. 
Tribal attempts to amend these acts in the past have met with 
opposition from the States during periods of time when the Federal Aid 
fund allocations were not expanding and States were relying heavily on 
these recurring funds to finance fish and wildlife restoration projects 
With the new Title III fund, this basic inequity, and the frustration 
experienced by tribes, can be remedied by ensuring access by tribes to 
the new Title III Federal Aid funds through a statutory provision.
    If the tribal amendment were to be extended, as a matter of equity, 
to the previously authorized Federal Aid in Fish and Wildlife 
Restoration Act base apportionment formulas, we believe that could 
engender State opposition since the allocations to the States and 
territories under those formulas are longstanding. Therefore, our 
proposed Title III amendment is in effect a compromise. The amendment 
would affect only new CARA subaccount allocations never before raised 
and distributed. The basic apportionment formulas under the Federal Aid 
Acts would remain as they currently exist, with no apportionment going 
to tribes.
Keep CARA Title VI Intact
    Title VI of S. 2123, Federal and Indian Lands Restoration, provides 
up to $200 million annually for a coordinated program on Federal and 
Indian lands to restore degraded lands, protect resources that are 
threatened with degradation, and protect public health and safety. Of 
this amount, 60 percent would be allocated for Department of Interior 
lands, 30 percent would be allocated for Department of Agriculture 
lands, and 10 percent would be allocated for Indian lands. This 
allocation formula is based on acreage.
    Like the Federal Government and the States, tribes have an immense 
wealth of natural resources under their management and care. However, 
tribes lag far behind the Federal Government and the States in our 
capacity to protect these resources. The development of this capacity 
takes time and dedicated financial resources, and tribes have long been 
disadvantaged in this area.
    The $20 million allocated to tribes under this title is modest when 
you consider that it must be spread among more than 550 tribal 
governments and 56 million acres of Indian trust land. However, it does 
represent a critically important source of funds, and I strongly urge 
you to ensure that Title VI is kept intact in the final CARA 
legislation. A final request I have regarding Title VI is that language 
be included requiring the Secretary of Interior to consult with tribes 
in the development of the competitive grant program for allocation of 
funds to tribes. We have attached a proposed amendment that would do 
this.
Conclusion
    The protection of America's natural resources is of immense 
importance. CARA represents perhaps the greatest opportunity ever to 
provide a lasting legacy of resource preservation for future 
generations of Americans. CARA is consistent with the first Americans' 
view of protecting Mother Earth.
    The equitable inclusion of tribes in the apportionment of CARA 
Titles III and VI as I have described today is fair and reasonable. 
More importantly, if tribes hope to preserve our resources and our way 
of life, we need access to funds in a manner similar to other agencies 
charged with the protection of America's land and water. I sincerely 
hope that you will take my words to heart, and do the right thing on 
behalf America's Indian tribes.
    I have attached to this testimony proposed amendment language for 
CARA Titles III and VI. Also attached is additional background 
information which justifies my request. I would be pleased to provide 
any additional information you need. I thank you for the opportunity to 
present testimony today on behalf of the Red Lake Band of Chippewa 
Indians.
                               __________
Statement of Wayne E. Vetter, President, Northeast Association of Fish 
                         and Wildlife Agencies
    I would like to thank Senator Smith and this committee for allowing 
me the opportunity to provide testimony on this very important 
conservation funding bill. As you all know, conservation funding is one 
of the most popular issues with voters. You also undoubtedly know that 
it is extremely difficult to get conservation funding bills passed, or 
even heard, because there's always something else more critical. This 
is truly a once in a lifetime opportunity to pass a popular and pro-
active bill to guarantee funding for the protection and management of 
our invaluable natural resources.
    This committee can greatly assist us in the implementation of these 
programs by supporting the amendments suggested by the International 
Association of Fish & Wildlife Agencies for Title III of these bills. 
In particular:

    Increasing the floor for minimum states from \1/2\ of 1 percent to 
1 percent, Implementing a 5-year phase-in period with 90 percent 
Federal to 10 percent State match, Remove the 10 percent cap on 
wildlife associated recreation spending, Reinstate the provision for up 
to 10 percent of the funds to be used for law enforcement, Including 
wildlife conservation planning language, and Increasing the level of 
wildlife funding in Title III to $450 million or 10 percent of OCS 
revenues, whichever is greater.
    Increasing the floor for minimum States from \1/2\ of 1 percent to 
1 percent will have a great effect on small States like mine. This is a 
more fair distribution of funds since all States, small and large, need 
to fund a full range of wildlife programs. While our State is small, it 
is within a 1-day drive of all the major northeastern cities, and is a 
playground for many of those outdoor enthusiasts. This money is 
desperately needed as development and recreational use pressures on our 
landscape are intense. Remember, green space doesn't cost, it pays. We 
currently have about 75 percent of over 500 vertebrate wildlife species 
found in New Hampshire which don't qualify for State funding. This 
minor change, which is supported by the State fish & wildlife agency 
directors, would double the amount of money coming to New Hampshire 
from $1.75 to $3.5 million. Our total nongame program budget is just 
over $130,000 annually (including salaries) to manage over 400 species 
of wildlife. While the CARA funds would be spread over several programs 
within the Department I think you can understand the impact this 
amendment could have on New Hampshire and several other small States, 
with minimal impacts on larger States. I like to say that \1/2\ of 1 
percent will support the infrastructure necessary for a full range of 
wildlife programs within the State, and the other percent of a percent 
will provide the money necessary to make sure those programs have the 
dollars necessary to actually do the work.

    Second, a 5 year phase-in period where the Title III money would be 
available with a 90 percent Federal and 10 percent State match rate 
would allow all States the necessary time to develop better funding 
mechanisms for the state side match. We support moving the cost share 
ratio to 75 percent Federal and 25 percent State funds after 5 years as 
it will increase the overall scope of the program by mandating 
increased State contributions. This is in the best interest of our 
wildlife resources, but may be hard for some States to achieve in the 
short term. It only makes sense to assure the Federal funds 
appropriated are used rather than reverted for redistribution simply 
because a State in need couldn't meet the cost share. This will 
eliminate unnecessary stress on State fish and wildlife agencies who 
currently receive no general fund moneys and/or have small programs. 
New Hampshire Fish and Game is one of those agencies.
    Third, eliminating the ceiling on wildlife associated recreation 
projects will allow States to make a ``big bang'' early by putting 
programs and facilities in place which will touch large numbers of non-
traditional resource users, thereby generating support for fund raising 
efforts to make the increased match later. Recreation is the 
springboard for a conservation ethic-it is how people begin their love 
affair with the outdoors. Recreation related projects may well be one 
of the best ways of launching CARA activities within our State. To 
limit those funds may not be in anyone's best interest.
    Fourth, reinstating the provision, which would allow up to 10 
percent for conservation law enforcement will recognize the role they 
play in protecting our resources. State fish and wildlife conservation 
officers have many opportunities to work with landowners and the public 
to implement voluntary, proactive fish and wildlife protection and 
public education and outreach programs. By reinstating this language 
you will give agency directors the ability to make the decision on how 
best to use the CARA money, and the tremendous opportunity to increase 
that face to face contact with the public that conservation law 
enforcement officers present.
    The fifth amendment referenced above requests that planning 
language be added which will help to guide all States to develop a 
comprehensive wildlife program with the funds provided, and to 
strategically prioritize and target Title III conservation funds to 
most effectively address the unmet needs of a diverse array of wildlife 
species and their habitats. This language will set the stage for a 
substantive public input process, which will strengthen the 
relationship between the public and State agencies, and work toward 
maximizing the benefits of this program.
    And, finally, I ask you to consider increasing the level of 
wildlife funding under Title III to $450 million or 10 percent of OCS 
revenues, which ever is higher. As good as this program is for 
wildlife, it still falls well short of the estimated $1 billion 
additional dollars necessary to fully fund wildlife programs in the 
States. Our profession has perhaps suffered at times in the past by not 
asking for what is really needed to fulfill our mandates. This is our 
opportunity to ask, and we are. This would make a good program great.
    Mr. Chairman, on behalf of the International Association of Fish 
and Wildlife Agencies, the Northeast Association of Fish and Wildlife 
Agencies and the New Hampshire Fish and Game Department, I thank you 
for the opportunity to speak before you today, and urge you to pass 
this Legislation and the amendments suggested by IAFWA. Together we can 
keep common species common.
    Wayne E. Vetter, Executive Director New Hampshire Fish & Game 
Department 2 Hazen Dr. Concord, NH 03301 (603) 271-3511
                               __________
Statement of Thomas M. Franklin, Wildlife Policy Director, The Wildlife 
                                Society
    The Wildlife Society thanks Chairman Bob Smith, Ranking Member Max 
Caucus, and the members of this committee for the opportunity to 
provide testimony on S. 2123, the Conservation and Reinvestment Act of 
1999, S. 2181, the Conservation and Stewardship Act, and S. 25, the 
Conservation and Reinvestment Act. The Wildlife Society is the 
association of wildlife professionals dedicated to excellence in 
wildlife stewardship through science and education. We have worked 
since 1937 to encourage a scientific approach to managing and 
protecting the Nation's wild living resources. Our members are the 
``front line'' professionals who are employed in the private sector, 
academia, and in State and Federal agencies to ensure the wise 
stewardship of wildlife resources.
    If ever there were an opportunity to help ensure long-term 
conservation of wildlife resources, that opportunity is before us now 
with the conservation funding legislation that has passed the House and 
currently exists in the Senate. Just as the Wildlife Society has 
actively participated in the development and implementation of some of 
the most historically significant conservation legislation of the last 
century, so we begin this century by supporting the passage of a 
conservation funding bill that provides dependable, long-term funding 
for our Nation, imperiled wildlife populations.
    The need for sufficiently funded proactive wildlife management 
continues to grow, as does the public demand for the responsible 
stewardship of wildlife. These public demands are reasonable and should 
be met: without proper conservation, more and more species will become 
threatened and endangered. Trying to reverse these trends, rather than 
preventing them, is extremely expensive and inefficient, and the public 
foots the bill. Annual expenditures for recovery efforts of listed 
species have risen from $43 million in 1989 to $312 million in 1995. In 
addition, although funding exists for game management through the 
Pittman-Robertson Federal Aid in Wildlife Restoration Act of 1937, the 
public's interest in wildlife observation is substantial. According the 
U.S. Fish and Wildlife Service, wildlife-watchers spent $29 billion in 
State and local economies in 1996, 39 percent more than that spent just 
5 years before. And nature-based tourism is increasing, at a higher 
rate than any other segment of tourism worldwide. We would like to 
offer recommendations for the wildlife title of a compromise bill based 
on elements found in Title III of S. 2123, S. 2181, and S. 25. The 
Wildlife Society recommends that the following specific elements be 
included in the final wildlife title of the bill:

    Wildlife conservation strategy found in S. 2181. This language 
provides for efficient and effective use of Title Ill funds to address 
all wildlife species needs and has broad support among wildlife 
conservationists. No cap on wildlife recreation program spending. 
Success of wildlife conservation and management programs relies on 
public support. Public support is fostered when people are engaged in 
wildlife-related recreation from which they can develop a personal 
connection to wildlife values. These recreational programs should not 
be limited by a 10 percent funding cap. Both S. 25 and S. 2181 already 
address this concern.
    Increased base funding for States from \1/2\ to 1 percent to 
benefit small population/small land-base States. The benefits to 
wildlife conservation in these 11 small States (NH, SD, NJ, CT, DE, RI, 
VT, ME, ND, HI, and WV) would greatly outweigh the minimal reduction in 
funds distributed to all other 39 States (a total reallocation of $11.9 
million, or 3.4 percent of the total, would result from this change). 
In many of the small northeastern States, wildlife managers face many 
unique challenges due to rapid development and increasing human 
populations. The problems they face are no less pressing than those of 
larger States. No existing bill currently addresses this issue. Assure 
adequate funding for wildlife conservation, recreation and education. 
The $350 million specified in CARA and CASA is the minimum necessary to 
allow State wildlife agencies to begin addressing the estimated $1 
billion per year need.

    If States continue to be deprived of dependable funding for 
wildlife conservation, the declining trends of many species will 
continue to accelerate over the next few years. More than 2,000 non-
game, non-listed species of fish and wildlife in the ITS are lacking 
the attention that they need. Without sufficient funding, State 
resource managers will be unable to act as more and more species reach 
a critical status and are listed as threatened or endangered. We all 
know that our diverse wildlife is a source of pride for the citizens of 
this country--so why wait until conditions are severely degraded before 
taking action? There are cost-efficient, effective and popular ways of 
providing, landowners with incentives to conserve wildlife habitat, by 
providing States with the resources they need to be proper stewards of 
this nation's wildlife, these responsible conservation techniques will 
be implemented.
    The Wildlife Society commends the members of this committee who 
have sponsored or cosponsored some form of conservation funding 
legislation. All of the existing bills are worthy of praise, and are a 
testament to the commitment and foresight of this Congress to have a 
conservation legacy that benefits all American citizens. We are 
confident that your commitment to bipartisan legislation will produce a 
compromise bill that preserves the integrity of the original bills and 
provides for thorough, effective use of wildlife conservation funding. 
Wildlife professionals, the American public, and their children will 
thank you for it.
                               __________
Statement of Chuck Cushman, Coordinator, Keep Private Lands in Private 
                   Hands Coalition, Battle Ground, WA
     SUBMITTED TO THE HOUSE COMMITTEE ON RESOURCES, JUNE 12, 1999, 
        CONSIDERING H.R. 701, CONSERVATION AND REINVESTMENT ACT
    We regret that we were denied the opportunity to testify in person 
at the hearing in Salt Lake as were many other organizations that 
requested to testify. We will share our concerns about H.R. 701, the 
Conservation and Reinvestment Act of 1999, H.R. 798 and the Clinton/
Gore Lands Legacy Initiative. We have considerable personal on the 
ground experience with how the Land and Water Conservation Fund really 
works, and the policies and practices of the Federal land agencies as 
they carry out their land acquisition programs. If H.R. 701 or any of 
these other bills and initiatives become law it will make land 
acquisition in America far more threatening to the future of America.
    We compliment Chairman Don Young on his most distinguished career 
in Congress and the good he has done for multiple use and conservation 
in general. We feel, however, that H.R. 701 is a misguided response to 
a demand by several powerful special interest groups for a new 
entitlement and subsidy giving them a disproportionate share of our 
country's natural resources and an automatic yearly hand in the Federal 
treasury.
    I am Charles S. Cushman, Coordinator of the Keep Private Lands in 
Private Hands Coalition and Executive Director of the American Land 
Rights Association. My father was a ranger for the National Park 
Service and I served the Park Service in the second Student 
Conservation Corps in Olympic National Park in 1959. I also served as a 
volunteer with the Audubon Society at what is now known as Channel 
Islands National Park. My son worked for the Park Service in the living 
history center in Wawona, Yosemite National Park and I served as a 
member of the National Park System Advisory Board from 1981 to 1984. I 
have personally visited most Park Service areas where land acquisition 
has taken place in recent years as well as many other Federal areas.
    The Keep Private Lands in Private Hands Coalition opposes H.R. 701, 
H.R. 798 and the Lands Legacy Initiative. It has over 600 organizations 
supporting it including the following:

Citizens for a Sound Economy
Americans For Tax Reform
Independent Forest Products Association
National Tax Limitation Committee
Alliance for America
National Wilderness Institute
American Agri-Women
Defenders of Property Rights
Pennsylvania Landowners Association
Private Landowners of Wisconsin
Riverside Farm Bureau CA
Schohrie Farm Bureau NY
Republican Party of Riverside County CA
Women Involved In Farm Economics--WIFE
Stop Taking Our Property--IN
Niobrara Basin Dev. Association NE
Small Property Owners Association
American Policy Center
Mt. St. Helen Trackriders WA
Multiple Use Association ME/NH
Associated Industries of Vermont
Frontiers of Freedom
American Land Rights Association--WA
Citizens For Constitutional Property Rights FL
People for the Constitution NV
Public Lands for the People CA
Competitive Enterprise Institute DC
New Mexico Public Lands Council
Environmental Conservation Organization
Frontiers of Freedom WY
Property Rights Foundation of America--NY
Alabama Family Alliance
NY Blue Line Council
Property Rights Alliance WA
Klamath All. for Resources and Environment CA
Eastern Oregon Mining Association
Citizens for Private Property Rights MO
Keep ME Posted ME
Maine Property Rights Alliance
NW Council of Governments WA
Riverside & Landowners Protection Coalition TX
Clearwater Resource Coalition MT
Montana Women Involved In Farm Economics
Take Back Kentucky
High Desert Multiple-Use Coalition CA
People for the USA Rio Virgin--UT
American Agriculture Movement, Inc.
Common Sense for Maine Forests
Washington Contract Loggers Association
Exotic Wildlife Association TX
Center for the Defense of Free Enterprise
Northeast Regional Forest Foundation VT
National Taxpayers Union
Montanans for Multiple-Use
Grassroots ESA Coalition
U. S. Taxpayers Alliance
Communities for a Great Northwest
Black Hills Women In Timber--SD
Property Owners Standing Together--VT
Citizens for Private Property Rights CA
Fairness to Land Owners Committee--FLOC
Vermont Forest Products Association
Montana Mining Association
Illinois Agri-Women
NM Woolgrowers Action Committee
East Mojave Property Owners (CA)
Bootheel Heritage Association--TX
Fire Island Nat. Seashore Adv. Board NY
California Outdoor Recreation League
People for the USA--Dent County, MO
People for the USA--Lander Valley, WY
Keep Maine Free
Washington County Alliance--ME
Blue Ribbon Coalition
Western Mining Council CA
Chamber of Commerce, Wrangell AK
Arizona Trail Riders
Alaska Wildlife Conservation Assoc.
New Mexico Cattle Growers
New Mexico Woolgrowers
Maine Conservation Rights Institute
League of Private Property Voters
Texas Wildlife Association
Nat Assoc of Reversionary Prop Own. WA
Idaho Cattle Association
Curry County Oregon Project
Vermont Cabinet Makers
Clallam County WA
Adirondack Solidarity Alliance
Unorganized Territories United, Maine
Columbia Basin Environ. Council--WA
People for the USA Beaverhead MT Pennsylvania Landowners Association
Rhode Island Wiseuse
Pennsylvania Forest Industry Association
North Shore Association--MI
Wind River Multiple Use Advocates--WY
Family Water Alliance--CA
Take Back Arkansas
Citizens Against Refuge Proposal--OH
Hill Country Heritage Association--TX
Kankakee River Prop. Rts. Task Force--IN
Davis Mountains Trans-Pecos Herit. TX
Trans Texas Heritage Association

    The American Land Rights Association, formerly the National 
Inholders Association, represents private landowners throughout the 
United States. Of special interest are those people owning private land 
or other interests within Federal boundaries or who are affected by 
Federal statute such as the Endangered Species Act and various Wetlands 
regulations. ALRA has over 18,000 members in 50 States and over 200 
federally managed areas. There are an estimated 1.2 million inholders 
nationwide. Many of these live in communities in National Forests who 
have now idea they are now threatened by a massive increase in land 
acquisition caused by H.R. 701.
    Inholders are landowners in National Parks, refuges, forests and 
other Federal areas, recreation residence cabin owners and other 
special use permittees in National Forests, ranchers in areas managed 
by the Bureau of Land Management and Forest Service, small miners on 
Federal lands, all kinds of inholders in and adjacent to FWS Wildlife 
Refuges and many other types of rights holders. They are also people 
who are impacted by the management, regulation of and access to Federal 
areas.
    The American Land Rights Association also works to support 
continued multiple-use and productive contributions from our Federal 
lands. Recreationists, miners, hunters, sportsmen, ranchers, 
landowners, permittees, handicapped, elderly, and many others are 
encouraged to cooperate to support access and multiple-use on our 
Federal lands and to oppose selfish single-use designations that limit 
access to millions of American families.
    American Land Rights, National Inholders Association as it was 
called then, made a fateful decision in 1980 with the proposal by 
former Senator Alan Cranston to make Big Sur, California into a 
National Park. The idea of opposing parks was foreign to my personal 
beliefs but in the 2 years since our association was formed in 1978, we 
had been unable to stem the tide of abuses against landowners inside 
federally managed areas. We had reduced them and stopped some when we 
heard about them in time, but overall, the wave continued.
    We made a conscious decision that since we could not get the Park 
Service, and to a lesser extent other agencies, to stop abusing 
inholders inside Federal areas, we would begin to fight to keep people 
from becoming inholders. It was not an anti park decision. It was a pro 
people decision. Simply put, if we couldn't get the Federal Government 
to take care of the inholders they already had, we would try not to let 
them have any more inholders.
    H.R. 701 clearly justifies our decision. If H.R. 701 passes, any 
families we had allowed to become inholders would now be subject to 
being aggressively eliminated over time. H.R. 701 is actually anti-
conservation because it says that if people do a good job of taking 
care of nice places, they will be rewarded by being thrown out of those 
places.
    ``Those That Fail to Remember History Are Bound To Repeat It''
    To date little has been done by the Congress or the Federal 
agencies to respond to the following reports by the General Accounting 
Office critical of land acquisition policies and practices carried out 
by those agencies. In large measure, the response by Congress has been 
to give the Park Service, Forest Service, Fish and Wildlife Service and 
Bureau of Land Management less money to buy land. That greatly reduced 
the problem. More money will start the problems all over again. We're 
reminded of the Clinton campaign motto in 1992, ``It's the Economy 
Stupid.'' In the case of land acquisition, ``It's the Money Stupid.'' 
The scope and harm caused by land acquisition is simply a function of 
how much money the Federal agencies get and the type of oversight they 
receive. H.R. 701 over time will increase the money and reduce the 
oversight. The result will be severe economic and cultural damage to 
rural America.
    Today there is largely a new generation of Members of Congress and 
staff who do not remember the horror stories of the 1960's, 1970's and 
1980's and even the 1990's. Most Members of Congress don't remember the 
days when every Member of Congress had to become a management 
consultant to the Park Service because the agency was unable to solve 
its conflicts. The current situation at Saddleback Mountain Ski Area in 
Maine is a perfect example. For over 20 years the landowner has been 
unable to get the Park Service to resolve the route of the Appalachian 
Trail. Without Congressional intervention, there is no hope.
    The owner of the ski area has been prevented from upgrading and 
expanding his potentially world class facility because the Park Service 
has continually refused to settle on a trail route. If the Park Service 
can't get it right on less than three miles of trail, why should the 
public in Maine or anywhere else trust them with billions of additional 
dollars for land acquisition.
    It is critical that the House hold regional oversight hearings so 
that it can get a better sense of the land acquisition abuses of the 
past. If the Resources Committee does not want to face up to the 
history of land acquisition, then individual Congressmen should take 
the initiative and hold their own hearings in their own districts.
    Some will say that the GAO reports listed below are dated. They are 
the most current reports on a problem that was greatly reduced with the 
reduction in funding. Since Congress is considering greatly expanded 
and guaranteeing the funding, these reports must be examined carefully 
to try to make sure any potential legislation does not cause a repeat 
of the same mistakes.
     general accounting office (gao) reports about land acquisition
    <bullet>  The Federal Drive To Acquire Private Lands Should Be 
Reassessed'' (CED-80-14) (December 14, 1979).
    <bullet>  ``Federal Land Acquisition and Management Practice'' 
(CED-81-135) (Sep. 11, 1981).
    <bullet>  ``Lands In The Lake Chelan National Recreation Area 
Should Be Returned To Private Ownership'' (CED-81-10) (Jan. 22, 1981).
    <bullet>  ``The National Park Service Should Improve Its Land 
Acquisition and Management At Fire Island'' (CED-81-78) (May 8, 1981).
    <bullet>  ``Federal Protection of Wild and Scenic Rivers Has Been 
Slow and Costly'' (CED-78-96) (May 22, 1978).
    <bullet>  ``Federal Land Acquisitions By Condemnation Opportunities 
To Reduce Delays and Costs'' (CED-80-54) (May 14-, 1980).
    <bullet>  ``Limited Progress Made In Documenting and Mitigating 
Threats To Parks'' (RCED-87-36) (February 1987).
    <bullet>  ``New Rules for Protecting Land In The National Park 
System Consistent Compliance Needed'' (RCED-86-16) (October 16, 1985).
           PBS FRONTLINE DOCUMENTARY, ``FOR THE GOOD OF ALL''
    The committee should watch the hour long documentary, Public 
Television's ``Frontline' about the Cuyahoga Valley NRA in Ohio which 
aired on June 6, 1983. It could have been filmed in areas managed by 
the Park Service, Forest Service and Fish and Wildlife Service. The 
only difference between when this film was made and today is money. You 
give the Park Service the money, and in 5 years, you'll get another 
film.
    This tragic film documents the broken promises by the Congress and 
the Park Service in the Cuyahoga Valley National Recreation Area 
between Akron and Cleveland, Ohio. Only 29 homes were to be taken for 
the park. The law even promised the use of easements. Yet the number of 
homes purchased was well over 300, the small community was destroyed, 
churches and schools closed, their tax base eroded by unnecessary land 
acquisition. Cuyahoga Valley could have been a success without much 
land acquisition.
Willing Seller A Myth
    ``John Jones is a willing seller. He didn't want to sell and held 
out as long as he could. First the Park Service came in and purchased 
the, homes, farms and timberlands of his neighbors who did want to 
sell. There will always be some. Then the agency began to search out 
those families who were in some kind of financial distress such as from 
a death, divorce, loss of job and other reason.
    ``Jones watched as his community was checker boarded by the Park 
Service. He remembered being told when the park was created that he 
would not be forced out. But now the agency was targeting local 
businesses and the county itself. Many small businesses were purchased 
and put out of business. The Park Service purchased the holdings of 
several large timberland companies. Smaller timber owners began to sell 
as they saw that the logging infrastructure might eventually not be 
there. The mill eventually had to close because it could not get enough 
wood. Like a natural ecosystem, the economic ecosystem, of a community 
is very fragile.
    ``As more timberland was purchased, more homes and farms began to 
disappear. Many residents wanted to hold out but with fewer jobs in the 
county, the value of their homes and property began to go down. As the 
Park Service purchased them, they lay empty for months or even years 
because the agency said they did not have the funds to clear them out. 
They became havens for vandals and drug houses.
    ``The Nature Conservancy and other land trusts began to circle like 
buzzards. They would buy from financially distressed landowners, then 
turn the land over to the Federal Government. Time after time this 
happened, quietly, secretly arid silently they helped undercut the 
community.
    ``As properties were taken off the tax rolls, the schools and 
county services bean to suffer. Several closed making longer trips to 
school necessary for families. The school district didn't have the 
money for the necessary busses. Roads began to close. As the Park 
Service purchased large areas, the agency put up chains across the 
roads. Some of these roads had been used for years by neighbors as 
access points to the river or to go camping, wood cutting or berry 
picking. Usually we knew another way but over time, all the access was 
closed off.
    ``Churches, clubs and other community services began to close. The 
library was in trouble. The hours were cut for it and other county 
services. There had been several markets in town and three gas 
stations. There is only one of each now and it looks like the store 
will close. That means an 80 mile drive to Millersville for groceries. 
Over time, other essential services and stores began to disappear.
    ``When the park was created they promised tourism. I don't know 
where it is. We gave up a lot of good jobs for this park and the 
tourists don't come. Several motels and restaurants were built in 
anticipation of the visitors. All but one restaurant is closed, and it 
cut its hours back. We have two motels still open but they are 
struggling.
    ``We have a very nice ski area but a Park Service trail runs 
through it. The agency has harassed the owners so often that they're 
close to giving up. They can't get any kind of commitment from the Park 
Service as to a final trail location so they can't invest in 
modernizing and expanding the ski area. There sure are a lot of people 
in town who would benefit if the ski area was allowed to meet its 
potential. We thought the Park Service supported recreation. Now it 
seems the opposite is true. We heard from people out West that the Park 
Service and the environmental groups were becoming anti-recreation. It 
couldn't be true we said. It looks like we were wrong. They seem to be 
against skiing and snowmobiling. It doesn't make sense.
    ``The county had no choice but to raise our taxes. The tax base for 
the county was shrinking almost daily. We had one local bank and 
several bank branches. Now there is only one branch open as part of the 
market, but it may go away too. The banks have not made loans in our 
town for several years now because the future is unstable. They won't 
make loans to loggers, equipment suppliers, or small businessmen 
because of threat from the Feds. No new houses have been built in some 
time. The theater closed and the cable television company is 
considering shutting down. It feels like a ghost town.
    ``Some of my neighbors are determined to stay and suffer the 
consequences and severe hardships of living within a now nearly all 
Federal enclave. I love my town. I was born and raised here, went away 
to college and came back. It looks like that even though I stood up to 
those Federal land acquisition agents, there will soon be nothing left 
to stand up for. I never thought I'd be a willing seller. But I am 
now.''
    The ``willing buyer, willing seller procedure of acquiring land 
touted by park officials is `meaningless' and a more proactive method 
is generally used,'' said William Kriz, Chief of Land Acquisition in an 
article in the Concord Journal in 1988.
    Do Most People in Parks Want to Sell?
    That's Nonsense!
    The American Land Rights Association would not exist if that were 
true. People would not support us with their membership dues and extra 
contributions if all they wanted to do is sell. A very small part of 
the authorized backlog is people who are willing sellers.
    But these relatively few cases are hyped by the green groups and 
some in Congress to justify their land acquisition goals. Let there be 
no mistake. If a person wants to sell, we support his ability to do so. 
But having the government involved corrupts the whole system. Once a 
person makes the mental decision to sell, he'll sell the easiest way 
possible. The Park Service and other agencies will have little reason 
not to want to buy with a trust fund behind them. The result will be 
even more of what has happened in the past the Park Service and other 
agencies have become a dumping ground for open space.
    However, often the only reason a landowner wants to sell is that he 
has been harassed and driven half-crazy trying to deal with the Park 
Service who generally fails to negotiate in good faith. After enough 
pressure and abusive tactics, almost any landowner can become a willing 
seller.
    But the bottom line is that most landowners still do not wish to 
sell their land and GAO says that it is not necessary to buy them to 
achieve project objectives.
    In the 1970's it was clear the Park Service and other agencies 
didn't bother to prioritize their acquisitions. In their view they were 
going to buy it all so who cared. The trust fund will simply restart 
that mindless attack on rural America. In a 1979 interview with the 
then Carter Administration Deputy Assistant Secretary of Interior David 
Hales and the author, Hales said, ``If Congress puts a circle around 
it, we're going to buy it all.''
                                 ______
                                 
                       Neighbors Follow The Money
   THE MORE MONEY THE FEDERAL AGENCIES GET, THE WORSE NEIGHBORS THEY 
                                BECOME.
Some Specific Case Studies from the 1970's
    Lake Chelan National Recreation Area in Washington State--was 
created at the same time as the North Cascades National Park. Lake 
Chelan was made a NRA so that the small community of Stehekin could 
continue its pioneering subsistence way of life. It was necessary for 
the community to have access to wood, water and power to continue.
    Lake Chelan offered a unique opportunity to provide the 
handicapped, elderly, and children a truly wild experience at the end 
of a 40 mile boat ride, the only regular method to get into Stehekin. 
There were only 1,600 acres of private land. According to the GAO, the 
Park Service purchased most of these, cutting off the ability of the 
community to provide for many visitors.
    In fact, it has been said that by 1980 there were half as many beds 
available to disadvantaged recreationists as there had been in 1968 
when the area was made a National Recreation Area. The Park Service had 
purchased some of the facilities and closed them down.
    Lake Crescent in Olympic National Park--There had been more than 15 
recreation resorts and destinations at Lake Crescent before the Park 
Service went on its land acquisition rampage. Now there are only two. 
How many handicapped, elderly and children will not get that fine 
experience they would have had with those facilities still operating?
    The Buffalo National River in Arkansas--While preparing for a 
debate on the ``Today'' show on NBC in 1988 between myself and Denis 
Galvin of the Park Service, the NBC staffers found that the Park 
Service had started out with 1,103 landowners. The law clearly 
encouraged easements and did not intend to destroy the special cultural 
communities along the river. The culture was so unique it was featured 
in National Geographic. However, NBC said there were only eight 
landowners left in 1988, the 20th anniversary.
    I served with former Parks Committee Chairman Roy Taylor on the 
National Park System Advisory Board and Council in 1982. He told me 
personally that Congress never intended for the people of the Buffalo 
to be destroyed.
    St. Croix River in Minnesota--According to a 1978 report on rivers 
by GAO, they found the Park Service had acquired 21,000 acres when they 
were only supposed to acquire 1,000 acres of access sites according to 
the legislative intent.
    St. Croix River--Another GAO report issued in 1979 found the Park 
Service had 2,100 acres under condemnation, which was 900 acres over 
the legal limit. The Park Service agreed but said that when they 
concluded the condemnation trials on people enough to reach the limit, 
the rest would receive scenic easements.
    St. Croix River--Park Service was found guilty by the Justice 
Department of using project influence to pay landowners less than fair 
market value. Justice planned to make the agency go back and re-
appraise the land and pay for what it had taken illegally. American 
Land Rights had to pressure the Justice Department to follow through.
    St. Croix River--Park Service is now over its legal limit for using 
condemnation to buy fee title. They are now threatening landowners with 
excessively restrictive public access easements that only leave the 
landowner with the right to pay taxes and liability for personal 
injury.
    St. Croix River--Ironically, one of the best examples of the use of 
easements was not by the Park Service. The Kettle River is a tributary 
under the responsibility of the State of Minnesota. The State purchased 
land protection in the form of easements for a fraction of the average 
cost paid by the Park Service in adjacent areas.
    Boundary Waters Canoe Area, Minnesota--The Forest Service used LWCF 
funds to buy up and remove many resorts throughout the whole region of 
Minnesota. The result was not more recreation but recreation 
transferred to the young and healthy at the expense of the elderly, 
handicapped and children. There was a massive loss of access to 
traditional hunting and fishing areas further reducing broad-based 
family recreation.
    Voyageurs National Park, Minnesota--The Park Service admitted in a 
1979 GAO report that they had acquired enough land for the park from 
the timber companies and did not need to acquire all the private 
landholdings that dotted this sparsely populated area. The agency went 
on to acquire the inholders.
    Fire Island National Seashore in New York--The Park Service was 
found guilty by the GAO in a 1981 report of acquiring an expensive home 
completely surrounded by other homes and not available for any form of 
public recreation. The Park Service justified its condemnation simply 
because the landowner had built his deck a little too large and had 
received a zoning variance from the local town. The cost to the 
taxpayer was $100,000 for nothing.
    C & O Canal in Maryland--The Park Service threatened all landowners 
with condemnation in the years around 1974. Even though they were 
required to offer landowners a life tenancy under the 1969 Uniform 
Relocation Act, the agency failed to provide each landowner notice of 
his rights because park officials wanted to limit any use and occupancy 
reservations to 25 years. The result is that now the landowners are 
fighting to get what was fairly theirs. Their Congressman, Roscoe 
Bartlett, has worked tirelessly to try to save the former landowners 
from Park Service eviction.
    Mt. Rogers National Recreation Area in Southwest Virginia--A Forest 
Service area created in 1966. Congress had specified that the agency 
should acquire 39,500 acres, 40 percent of them in fee title that would 
have allowed the communities to stay. When questioned by congressional 
investigators and the author in 1979 about how many acres they had 
purchased in fee and how many easements, they responded that they had 
purchased over 26,000 acres in fee and no easements. The agency thought 
Congress didn't really mean what they said in the law. They viewed it 
as just a suggestion. It took a surprising amount of hard work by 
former Congressman Bill Wampler of Virginia to stop a massive new round 
of condemnation actions planned by the Forest Service.
    Yosemite National Park in California--76 year old James Downey, a 
survivor of the 1906 San Francisco Earthquake, was threatened with 
condemnation in 1971 because he wanted to add a bathroom. He had no tub 
and had a double size septic tank and there was a covered breezeway 
under which the bathroom was to be built. There would be no new land 
coverage. The Park Service said what he was doing was an incompatible 
act and he would be condemned. They came back to him 2 weeks later 
after realizing their political insensitivity and said that if he would 
sell them his home, they would lease it back to him and then it would 
be OK to build his bathroom. Was the goal to stop the bathroom or buy 
the house?
    Yosemite National Park--Harold Tischmacher's home burned down in 
December 1977. When he tried to rebuild it on the same foundation, the 
Park Service started condemnation proceedings because they said it was 
an incompatible act. He was saved by congressional intervention by 
Congressman Bernie Sisk (D-CA).
    Foresta Fire, Yosemite National Park--In the late 1980's a fire got 
out of control in Yosemite National Park, roared up a canyon and wiped 
out the entire village of Foresta, about 80 homes. Park Service 
Superintendent Michael Findley had turned down help from the Forest 
Service and the State forestry service. After the fire, Findley 
requested that Congress give him immediate permission to condemn all 
the home sites because he could buy them cheaply since fire insurance 
would pay for the lost houses. When he was denied, he then set up as 
many roadblocks as possible to prevent the landowners from rebuilding, 
thereby forcing some to sell.
    Unfortunately these cases are just the tip of the iceberg. Hundreds 
and perhaps thousands more have not been recorded. Investigators can 
find these kinds of stories at nearly every park or other special 
designation Federal area.
             NO LAW TO PREVENT THESE ABUSES HAS BEEN PASSED
    In the 1980's condemnations went down because the Reagan 
Administration opposed the use of this tool wherever possible. Offshore 
oil and gas money was reassigned to other social priorities by sending 
it directly to the treasury.
There Were Abuses in the 1980's
    Grand Teton National Park in Wyoming--In an important national case 
a landowner had been trying to sell his 160 acres to the Park Service 
for 10 years. They've had the money. The problem was the bad faith 
negotiations extending all the way up the highest levels of Park 
Service management. The landowner finally had to threaten to subdivide 
his land in order to get them to make the purchase. The landowner did 
not want to subdivide and had been a good steward.
    The agency condemned him. During the next 5 years this case took, 
the landowner offered to settle with the Park Service and it was agreed 
to right up to the Directors level. William Mott overturned the 
agreement for $1.8 million. The case then went to trial and ultimately 
cost the government over $3.2 million, far more than the agreed upon 
settlement. The judge was not complimentary to the bad faith 
negotiating by the Park Service. To make the case more bizarre, this 
piece of land was the highest priority acquisition for the Park Service 
in the country and they still could not manage to negotiate in good 
faith.
    Santa Monica Mountains NRA in California--In the Murphy Duane case 
the landowner spent years going through all the vast permitting process 
and Coastal Commission approval to get to the point were he could build 
his dream home. The Park Service strategy was to let him go. Only when 
he had spent thousands of dollars and man-hours to get local approval, 
did they say they were going to condemn his land. Intervention by 
Members of Congress stopped this abusive example.
    Chesboro Canyon, Santa Monica Mountains NRA in California--The Park 
Service had enough money to purchase this Trust For Public Land 
Property for $8 million leaving hundreds of small landowners in another 
area of the NRA laying helpless and strangling. This is the exact kind 
of case that gives the impression that lots of landowners want to sell 
and that there is the need for H.R. 701 because there isn't enough 
money.
    The plain fact is that if the Park Service had used its money 
wisely to buy hardships and willing sellers they knew existed, there 
would be no cry for more money. It was lobbying by the Trust For Public 
Land that allowed the $8 million to go for property the Park Service 
did not need to purchase thereby preventing the truly needy landowners 
from being paid.
    Golden Gate National Recreation Area, Sweeney Ridge in California--
The Trust For Public Land acquired an option on this property for $8.5 
million. They then negotiated a sale to the Park Service for $9.6 
million. The Park Service really did not want to buy the property at 
all. Both the Carter and Reagan Administrations agreed that the land 
was not of park quality and should not be purchased.
    However, as is often the case with large land trusts, TPL 
orchestrated a political campaign and forced a political confrontation. 
They obtained appraisals to show that the land was valued at anywhere 
from $21 million to $24 million. The landowner, part of a large oil 
company, hoped to obtain a large tax deduction. Our investigation 
showed the land worth from $7 to $10 million.
    Interior Secretary Bill Clark ultimately negotiated a sale near the 
$8.5 figure, due in part to our campaign against this unfortunate use 
of land acquisition funds. The figure was 8 percent of the entire land 
acquisition budget for the Park Service. Many other deserving 
landowners were left out because of this misuse of money. The problem 
is not that there wasn't enough money, but that the money was spent 
unwisely.
    Appalachian Trail, Hanover, New Hampshire--The Park Service, 
working closely with the Dartmouth Outing Club, attempted to use LWCF 
funds to buy a greenway around Dartmouth College. They did this by 
moving the Appalachian Trail over to make it go through the middle of 
farmlands rather than along the fence lines as they were supposed to do 
and using a 1000 foot corridor to build their impact. They were found 
to be lying to Washington officials about their activities when called 
in to explain and ultimately had to move the trail back to the fence 
line and share the impact among adjacent owners. They were forced to 
use easements even though they tried to avoid using them. Only American 
Land Rights intervention saved their lands.
    Appalachian Trail, Sheffield, Massachusetts--Park Service ignored 
the Land Protection Planning Process and ran the trail through town 
without consulting local officials, holding hearings or meetings or 
producing a land protection plan for the area that had been shown to 
either local landowners or officials. In fact, the Park Service had 
deliberately rerouted the trail at the request of the green groups to 
run it through the land that was planned to be used for a high tech, 
low impact recycling plant the greens wanted to stop. The Appalachian 
Trail has often been used as a weapon. Park Service officials repeated 
this kind of abuse over and over along the Appalachian Trail.
    As in the earlier examples, this is the tip of the iceberg. When 
there is little oversight there is no reason for the agency to even 
attempt to obey the law. And they end up spending billions of dollars 
that do not have to be spent.
How About the 1990's? The Abuses Continued
    Sleeping Bear Dunes National Lake Shore in Michigan--Riverside 
Canoes owned by Kathy and Tom Stocklen has been serving the public well 
for many years. Even the Park Service admitted they ran a good clean 
recreation business. But they would not sign over an easement type 
contract to the Park Service without compensation. The Park Service had 
already purchased two other canoe liveries and a campground either in 
condemnation or under threat of condemnation.
    Finally, in 1990, the Park Service condemned the Stocklens. After 
several meetings with Park Service officials in Washington, no one at 
the agency could justify the condemnation, yet it went forward none the 
less. Finally, in 1992 just before the election, American Land Rights 
planned a huge demonstration in front of the Interior Building in 
Washington, DC. The Interior Department forced a settlement that gave 
the Stocklens back their land and compensated them for their attorney's 
fees prior to the demonstration.
    Sleeping Bear was originally set up as a National Recreation Area. 
That is what a National Lakeshore is. It is tough to have full access 
to recreation when the managing agency buys out all the services 
providing certain types of recreation.
    Moosehorn Wildlife Refuge in Maine--The FWS wanted to expand the 
refuge. They promised the local people they would only buy from willing 
sellers. The others relaxed. After the willing sellers had been 
purchased, the agency came back, denied they had ever said they would 
only buy from willing sellers, and began threatening condemnation. This 
is a pattern that repeats itself over and over again.
    Saddleback Mountain Ski Area in Maine--Time after time, for over 20 
years, the family that owns Saddleback has tried to work out a 
settlement of the route for the Appalachian Trail so that they could 
modernize and complete their ski area. Bad faith followed by bad faith 
by the Park Service in negotiations continues to this day. In fact, 
Saddleback recently offered the Park Service twice the land they could 
condemn under law just to settle the matter. Yet Saddleback sits 
twisting in the wind. The losers are the family, the community that 
loses jobs and $40 million of much needed economic activity per year 
for the region. The recreation ski community loses access to what would 
become one of the finest ski areas in America. The greens want new 
National Parks in Maine. It is hard to imagine why Maine or Congress 
would allow the Park Service to take over 5 to 10 million more acres in 
Maine when they cannot seem to solve problems and get along on a simple 
trail.
    Little River Canyon National Preserve in Alabama--Here is an 
example of pure politics at work. The former Congressman from the area 
essentially told the Park Service to find him a park in his district. 
He apparently needed another monument. Fortunately, the agency found 
the Little River Canyon, which we consider of national significance. 
The State of Alabama and the Alabama Power Company owned it. As usual, 
the Park Service wanted much more. They tried to include the homes and 
farms of over 500 nearby landowners. American Land Rights helped fight 
the proposal, which ultimately was settled by Congress using just the 
State and power company land. The cost to the Park Service was minimal. 
It was totally unnecessary to include the 500 landowners. This kind of 
expansionist process that is embedded in the Park Service culture 
raises the cost of parks and hurts the taxpayer.
                          Can It Happen Again?
H.R. 701 Makes It Appear Impossible To Avoid!
    Congress has passed no law that would prevent a return to the 
terrible days of the 1970's. The only difference is money. A simple 
change in policy by the Interior Department or less enforcement of the 
present policy that already falls short is all it would take. H.R. 701 
will bring on a nightmare to rural communities across America.
                               A SUMMARY
The Problem
    While H.R. 701 starts out more modestly, it will ultimately and 
inevitably increase to over $1 billion per year and probably more with 
modest additions each election cycle. That is not counting the likely 
possibility of a compromise with the more aggressive bills proposed by 
others. Once the Trust Fund is set up, the gradual expansion process is 
inevitable. There will be no going back. The cow will be out of the 
barn and down the road. Just like the Endangered Species Act, Congress 
will be cowed into allowing a law that hurts people to continue to hurt 
people.
    Why should the Park Service, Forest Service or Fish and Wildlife 
Service be given a new entitlement by this Congress which gives those 
agencies a higher priority for funding than the Defense Department, 
education, aids research, and many other important issues. Every 
program should have to compete for appropriations. No more 
entitlements.
    No private property will be safe with the funds from H.R. 701 
available. Gradually, over time, all inholder families will be wiped 
out. Special Interest Groups will seek to create new congressionally 
designated lands to apply their newfound largess. As was said about 
former Congressman Phil Burton, ``if the only tool he had was a hammer, 
everything he saw would look like a nail.'' With H.R. 701, everything 
will begin to look endangered to certain special interest groups and in 
need of Federal purchase.
    How much is enough? Is it the policy of this Congress to buy up all 
America? There should be a no net loss of private land policy in 
America so that any new acquisitions are accompanied by a corresponding 
sale of government lands.
    What is the end game? Many Members of Congress keep asking how 
America is going to extract itself from Kosovo and the Balkans. We 
would ask how Congress would be able to shut off this new 
unappropriated, dedicated and off-budget trust fund entitlement once it 
is started. The experience of the past says you will be unable to do 
so. The end result for anyone who cares to look beyond the years of his 
own term is obvious. The solution is so much bigger than the problem 
that the solution becomes the problem. Land acquisition will overwhelm 
rural America.
    There is little oversight of land acquisition now. There will be 
virtually none if this bill passes.
    Why are inholder families targeted for acquisition and removal? 
Senator Orrin Hatch once referred to this process as ``cultural 
genocide.'' Why cannot Federal areas be managed with families and 
communities still there? Why this hysterical rush to wipe out this 
cultural resource? Hundreds of small communities in existing Federal 
areas will be wiped off the map.
    Land acquisition has always been used as a weapon to regulate and 
control private landowners. With billions of dollars to spend in a 
dependable and continuing stream, Federal agencies will be able to 
threaten landowners and control their activities. The reach of H.R. 701 
into the very underpinnings of our Republic is remarkable.
    Land acquisition destroys the culture and history of the US, often 
driving out old families. The Park Service is essentially the curator 
of our nations history and culture. Yet, Park Service practice in the 
past has been to buy out and destroy much or our cultural heritage.
    Special Interest Groups will seek to designate hundreds of areas of 
private land as new government reservations. It will never stop. Just 
look at their current attempt to convert the 26 million-acre Northern 
Forests of Maine, New Hampshire, Vermont and New York into new Federal 
parks, refuges and other reservations of various kinds. Even the bill 
language of H.R. 701 appears to encourage this massive government 
sponsored population relocation plan.
    Billions of dollars of private land will be taken off the tax 
rolls, forcing local taxes up. The taxes for those people who are not 
acquired will go up forcing some to sell, others not to invest and 
generally place a negative push against community development.
    The basic tax base of many jurisdictions will be damaged or 
destroyed. It is true that H.R. 701 will provide money to the States, 
which they can choose to build swimming pools and other recreation 
alternatives. But H.R. 701 also funds the purchase of land by the State 
and Federal Government which ultimately and permanently weakens that 
community or jurisdictions ability to provide basic services or even 
maintain those same swimming pools.
    Reports over the past 20 years by the General Accounting Office 
document an ever increasing trend of poorly maintained National Parks. 
From an estimate of $2 billion in maintenance backlog in 1981, the 
estimate by some seems to indicate that the backlog may approach $10 
billion or more. Does it make sense for this country to buy more land 
when it cannot take care of what it already owns?
    The Payments In-Lieu of Tax Program, PILT, has never been fully 
funding by Congress. Local communities don't get near enough money to 
replace the tax revenue they lost to Federal land acquisition. What is 
worse, PILT is essentially a ``snapshot'' concept where future payments 
are based on the value of land as of the date of acquisition. Thus a 
county that must meet the needs of 1999 gets payments based on 1976 
values for example.
    H.R. 701 will fund the buying out of new mining ventures, a vast 
array of the timber supply and ranching operations all over America. 
Thousands of jobs will be lost and with them a tremendous loss in 
economic opportunity and vitality. Rural communities don't take much 
economic upheaval to permanently damage the economic ecosystem.
Park Service Is Being Damaged
    Unfortunately, Cuyahoga Valley is not an isolated example of how 
our Park Service areas are being managed. It is rather common place. 
Yet Congress has largely failed to examine the abuses discussed in this 
important film or how they could be corrected. The loss is to the Park 
Service. Because Congress failed to provide proper oversight, the Park 
Service feels it is immune from criticism. People who don't have to 
compete generally fail to be the best they can be. Congress, the 
Administration and yes, even the environmental groups, are cheating 
themselves and the American public out of a better Park Service.
Conservation and Reinvestment Act Will Buy Land and Destroy People
    Inholders are the targets of H.R. 701. They are the families in 
communities that will be removed at will by the National Park Service 
and other Federal agencies who will no longer be constrained to attempt 
to be good neighbors because they don't have enough money. If they 
cannot condemn people, they will simply threaten them, harass them, 
cutoff their access, cutoff Federal loans and grants and disaster 
relief and eventually drive them out. It's easy. It just takes a little 
more time.
    The Conservation and Reinvestment Act (H.R. 701) will make victims 
out of people who are discriminated against because of where they live. 
These people will be rewarded for taking care or their land by having 
it taken from them.
    Condemnation is a terrible tool often abused in its use in the past 
by the Park Service and Forest Service. Only limited funds have kept it 
under control. It is vital that any legislation adding financial 
strength to the Land and Water Conservation Fund also carry with it the 
restraints necessary to monitor and control that strength. We would be 
glad if H.R. 701 ultimately applies funds only to willing sellers but 
find the likelihood of that happening not very high. Even if willing 
seller passes this Congress, it will be easy to add condemnation back 
in next Congress. It's the Trust Fund, the money that does the damage.
    In the near term, the Fish and Wildlife Service may be the most 
dangerous Federal agency. They are the only agency that can set up a 
Federal area without authorization by Congress. H.R. 701 says that 
money will only go to areas designated by Congress. It will be a simple 
matter for the Fish and Wildlife Service to set up a new refuge, then 
go for congressional designation. The FWS has such a huge constituency 
behind it that Members of Congress are afraid to put any real oversight 
into this agency or its abuses. H.R. 701 will only make matters worse.
Millions of Acres Inside National Forests Will Now Be New Targets Of 
        Land Acquisition
    Perhaps the most amazing aspect of H.R. 701 is that it will make 
tens of thousands of landowners with millions of acres of private land 
inside National Forests almost entirely new targets of land 
acquisition. They don't even know it is coming. They have no experience 
with land acquisition because the Forest Service has never focused on 
land acquisition other than specially designated areas like National 
Recreation Areas and Wild and Scenic Rivers. And there hasn't been the 
money. Now there will be a massive attempt to consolidate all the 
checkerboarded private lands and inholdings in the National Forests. 
Hundreds of small, unincorporated communities will find that if H.R. 
701 passes, life in the National Forests will be changed forever.
    Members of Congress with National Forests in their districts ought 
to hold a few hearings where they explain clearly to their constituents 
that they are supporting a bill that would target these people. You 
would see a huge uprising. As of now, the potential victims have no 
idea of the impending danger. Who do you think they'll blame when they 
figure it out? It will certainly be their Congressman who failed to 
tell them. Then he'll spend the rest of his career being a management 
consultant trying to mitigate the damage and hold off the Forest 
Service.
Hunters and other Sportsmen Are In For A Surprise
    Hunters and other sportsmen who count on private lands intermingled 
with Federal land as their access to those lands that are often closed 
because they're designated as Wilderness will find their favorite 
hunting and fishing spots closed as the government targets these areas 
for acquisition to eliminate the access.
    Some sportsmen's organizations have recommended buying out the 
ranchers and farmers around the forests and the parks to protect the 
winter range for their hunting targets. We support hunting. But some 
sportsmen seem to think that those farms and ranches will supply the 
same level and quality of forage when the farmer or rancher is no 
longer their. It is the working farm or ranch that provides the quality 
winter range. Sometimes the farmer or rancher is not happy about it 
because he is actually subsidizing the government and the hunters with 
his private property. But the fact is that these farms and ranches 
provide far more in winter range than they would if land acquisition 
cleared out the occupants.
Trails Will Become the New Battlegrounds
    Congress is creating a number of new trails across the nation. They 
are trying to make sure there will not be massive land acquisition. But 
like night follows day, the Appalachian Trail will be the model.
    First, each new trail is a model of cooperation with landowners. 
There are no threats. Deals are struck to run the trail across the land 
of willing participants. Eventually this arrangement gets too 
cumbersome so the trail society (like the Appalachian Trail Conference 
and all its local groups) lobby Congress to add land acquisition. 
Gradually the power of the managing agency is ratcheted up as the 
lobbying intensifies. Because a trail is a long string of land, the 
trail clubs have the power of many Congressional delegations supporting 
them while the poor landowner only has one Congressman and two Senators 
and virtually no chance to fight back. The result is generations of 
anger and frustration as landowner after landowner loses his land. 
Examples along the Appalachian Trail are numerous.
    Another problem with trail management is that the support groups or 
clubs like the Appalachian Trail Conference largely run the agency in 
charge of the trail. In the case of most people who manage parks, they 
are routinely rotated from park to park. But in a few cases they 
develop fiefdoms and spend most of their careers in one place. The 
current management of the Appalachian Trail is one example. The current 
project manager has been at that one location for over 20 years. The 
Appalachian Trail Conference wants consistent power. They constantly 
lobby to keep ``their'' person in charge. The result is bad management 
and political nest building that damages the Park Service and strains 
relations with local governments and others who must deal with trail 
management.
H.R. 701 Will Help Create a Slush Fund Subsidy or Entitlement
    Certain powerful special interest groups have lobbied to set up 
their own single-use entitlement program, the Conservation and 
Reinvestment Act. It is curious that under the cover of the ``word-
tool'' called ``recreation'' these groups actually support legislation 
such as H.R. 701 which is anti-recreation. At least for the broad 
spectrum of the American public families; children, handicapped and the 
elderly are largely locked out of areas created with the Land and Water 
Conservation Fund. Instead these areas are set aside for the privileged 
few that are young and healthy enough to gain access and enjoy them.
    Why an entitlement or subsidy? Should we be setting up special 
interest entitlements for every segment of society? Shouldn't resource 
preservation and limited-use recreation have to stand in line with 
everyone else during the budget process? Shouldn't wilderness and parks 
have to compete with other important social priorities like the Defense 
Department, education, AIDS research, childcare, and children's 
programs.
    Why should the environmental groups get a special deal? They have 
become the privileged class. The Sierra Club advertises that the median 
income of its members is well in excess of $60,000 yet it joins other 
environmental groups equally as wealthy standing in front of the line 
to the door to the Federal treasury. And they do it with tax-exempt 
dollars too. How many subsidies would they like?
                 THE LAND TRUSTS LEADING OR FOLLOWING?
Who is Setting the Priorities?
    It is very clear that the Nature Conservancy, Trust for Public 
Land, Conservation Fund and other giant trusts are essentially taking 
over the role of deciding where our new national parks and other 
conservation areas will be. They are setting our future conservation 
policy instead of Congress. This seems to us to be a very dangerous 
course of action.
    Already the land trusts are buying huge amounts of land in the 
Northern Forests of Maine, New Hampshire, Vermont and New York in what 
appears to be a plan to render moot what Congress thinks or plans. The 
land trusts would not do this if they didn't think there was a very 
good chance they would eventually be reimbursed by the Federal 
Government for their efforts. Most of the land they purchase is 
eventually transferred in some way to the Federal agencies.
    Local officials in New England cannot go to bed at night knowing 
they will still have a tax base in their town or county the next 
morning. These land trusts are essentially deciding who lives and who 
dies from a community standpoint. The potential for corrupting the 
system and the Federal agencies is tremendous. The land trusts stand to 
make huge profits as they often do from sales to the government. Yet 
they are deciding where our next parks are coming from. Congress needs 
to visit this issue and make some decisions. Who is in charge? We 
believe the land trusts need to be put on notice that just because they 
buy something, there is no obligation to Congress to reimburse them. 
Further, as we have said elsewhere in this testimony, no land trust 
should be able to sell land to the government that does not make their 
books available for review by the General Accounting Office and 
Congress.
    Congress needs to decide just who is in charge. One Nature 
Conservancy official said several years ago that no developer or 
community should make plans about undeveloped land without going to the 
Nature Conservancy first. Their reach and their computer data base are 
so large that they have that kind of power. In fact, the Nature 
Conservancy gave parts of its data base to each State along with an 
operator so that hidden in all State land agencies is a computer data 
base with virtually single piece of private land listed and 
categorized. This data base would never have passed the State 
legislature in each State but the Nature Conservancy sneaked it in 
through the back door. If that sounds scary, it is. It is clear that 
Congress needs to take charge of this situation. The self initiating 
park manufacturing system now in place with the large land trusts 
offers too much money, profits and opportunities for corruption without 
some careful regulation.
                       NATIONAL NATURAL LANDMARKS
The Secret Park Service Land Grab
    In the early 1960's Interior Secretary Stuart Udall initiated a 
program whereby the National Park Service would reward landowners for 
being good stewards. If they met certain criteria, their land would be 
nominated as a National Natural Landmark. They would receive 
recognition and awards as good stewards. Interior Department and Park 
Service policy said the government had to ask permission of the 
landowner before moving forward so things seemed reasonable.
    Somewhere in the 1970's the Park Service got impatient. They 
stopped telling the landowners they were nominating and began quietly 
designating their land as National Natural Landmarks without telling 
them. Hundreds were designated and several thousand were nominated. 
Landowners only found out they had a problem when they went to do 
something with their property and were told by local and State 
authorities that they couldn't because their land was of ``national 
significance.''
    When the program began to unravel, no one was prepared for the 
scope. One landmark nomination was for 10,000,000 acres. Huge amounts 
of private and public land were included. The National Parks and 
Conservation Association in their massive 1988 plan for park expansion 
called these areas ``ladies in waiting.''
    In the early 1990's the story broke courtesy of American Land 
Rights and a network of other private property advocacy groups. Various 
newspaper organizations and the Interior Department Inspector General 
investigated the Park Service. The agency was found to be guilty of 
taking control of private land or putting a legal cloud on that private 
land without telling the landowners. The National Natural Landmarks 
program was put in limbo. It just sat there for a number of years.
    Just recently, the Clinton Administration has restarted the 
program. They have a cute way of saying will never going to let go of 
those properties. Most of their announcement said they were backing off 
but if you read between the lines, the landowners are going to have one 
heck of a time getting released. So much for stewardship and a 
partnership with the Park Service. The landowners continue to have a 
cloud on their title and fear in their hearts. The Park Service knows 
it stole something and got away with it.
                    LAND AND WATER CONSERVATION FUN
No Money For Maintenance
    The General Accounting Office, the ``non-partisan'' investigative 
arm of Congress has released several reports over the past 20 years 
that say Park Service superintendents believe there is a shortfall in 
maintenance funding ranging in the billions of dollars. None of the 
money for Federal agencies from H.R. 701 can go for anything but buying 
land. Shouldn't we be able to take care of what we already own?
Parks Will Become Political Trading Stock
    For those with short memories, the late Congressman Philip Burton 
used parks as a tool to achieve great political success in Congress. A 
billion dollar Trust Fund with a dedicated money source will allow all 
Members of Congress to create new parks and other reserves at will. 
They can say, ``Let the trust pay for it.'' No one will be financially 
responsible . . . . except the taxpayer.
    Actually, it was Burton who hosted a secret meeting in 1979 with 
key Congressmen and staff from both parties along with agency officials 
and land trust executives who first planned out how to set up a billion 
dollar land acquisition trust fund and remove Congressional oversight.
    H.R. 701 will make parks the political trading stock of the 1990's. 
The Park Service will become the ``Pork Service'' as we head into the 
era of what the Washington Post referred to in 1980 as ``one man one 
park.'' In the late 1970's the Park Service became a dumping ground for 
open space because they were used in the pork barrel trading process. 
The University of California Press has released an important book about 
the life of Phil Burton called A Rage For Justice by John Jacobs. This 
book rivals the Power Broker, Robert Moses and the Fall of New York, 
written in 1975 by Robert Caro. Both books document the use of parks as 
political trading stock to control the political playing field and 
Congress.
    During my term on the National Park System Advisory Board, other 
members appointed by the previous Administration, may not have agreed 
with me on some issues. But they were almost united in feeling that the 
resources and the will of the Park Service were being diluted by areas 
not deserving of inclusion in the National Park System. They felt that 
the National Park System was being damaged by its use as a political 
tool by trading parks for votes.
    Park Service Has Taken the Land of Over 115,000 Landowners Through 
1995
    Even though H.R. 701 says the LWCF will only buy from willing 
sellers, we believe it will eventually allow for the condemnation and 
destruction of landowners and small communities all across America. It 
may happen with amendments in other Congresses but eventually this 
unappropriated off budget trust fund will fund condemnation. More than 
115,000 landowners have already lost their land to the Park Service 
alone since 1966 because of the Land and Water Conservation Fund, which 
will be amended by H.R. 701.
Lack of Congressional Oversight
    The National Park Service and to a lessor extent other agencies, 
have been immune from Congressional oversight because they manage nice 
places. Parks are good in political terms and it is bad to appear to be 
against parks. The result is a runaway bureaucracy with little or no 
accountability. These land buying agencies are buffered by support 
groups who intimidate and overwhelm opposition.
Land Protection Planning Process
    There has been a definite trend for the better. Mostly related to 
funding. One of the true success stories of the Reagan Administration 
was the Land Protection Planning Process. The fact that the planning 
process is largely still in place testifies to the common sense nature 
of the policy. Responding to the severe criticism by the General 
Accounting Office in previous years, the Interior Department published 
the Land Protection Regulations in 1982. And many in the Park Service 
and Fish and Wildlife Service have made an effort to make them work.
    Land Protection Plans were supposed to help the Park Service and 
other Federal agencies obtain protection for more land at less cost. 
They were supposed to encourage the use of cost effective easements and 
other alternatives to fee acquisition. They were supposed to buy the 
least amount of an interest necessary to meet congressional objectives.
    Unfortunately, lack of support from certain Members of Congress and 
the long held belief that we will buy everything anyway so why bother 
prioritizing has led the Park Service and other agencies to largely 
ignore the Land Protection Planning Process. H.R. 701 could be improved 
by including the 1982 Land Protection Planning Policy into the bill.
    We should make it clear that even though we have suggested 
improvements to H.R. 701 in various places in this testimony, we do 
that only to help landowners should this bill be made into law. As long 
as it creates a Trust Fund, increases land acquisition funding and 
those funds do not have to go through the appropriations process each 
year; our opposition remains total, complete and unequivocal.
The East-West Conflict Over Parks
    The East is overcrowded and needs more open space according to 
some. The West feels it has been abused by having too much land locked 
up. H.R. 701 may well be a response to calls for more parks in the 
East, but much of the damage will still be in the West. The West 
understands what condemnation, land acquisition and loss of tax base 
will do. In some cases, the West never was given the tax base in the 
first place. The East kept control by keeping the land in government 
ownership to restrict Western growth.
    We hope Eastern Congressmen and Senators will be truthful with 
their citizens about what H.R. 701 means. Massive land acquisition of 
private lands, much of it in the Northern Forests of Maine, New 
Hampshire, Vermont and New York. Yet, the public wants parks near where 
they live. Ask them if they want their neighbor to lose his home as a 
price for making the park? Ask the urban resident if he is willing to 
pull the dollars out of his pocket to pay for the park? Don't extort 
the money from him without letting him understand the price he is 
paying.
Let's Be Honest, H.R. 701 Is A Billion Dollar Tax Increase
    Let's be honest about the Land and Water Conservation Fund. Any 
money that is appropriated for the fund, or that comes from the sale of 
public assets and put in the fund, is public money. Money that comes 
from off-shore oil and gas sales would normally go into the treasury to 
reduce taxes. Under H.R. 701, it will automatically be siphoned off for 
special interest groups and land acquisition and the taxpayer will have 
to make up the money. Lets not kid the folks back home and tell them 
they won't have to pay for all this land acquisition. They are paying 
for it all right . . . . only it's being done in a sneaky underhanded 
way.
H.R. 701 Says Only Willing Seller, But Congress May Decide Otherwise
    H.R. 701 contains no oversight provisions. The numerous General 
Accounting Office reports listed above have criticized the Park Service 
in particular and other Federal agencies for buying more land than they 
are supposed to; creating projects with huge cost overruns; not 
prioritizing their land acquisition so that they buy land they don't 
need instead or lands intended by Congress; failure to use easements 
and other cost effective protection alternatives; and failure to pay 
attention to the needs of local communities, landowners, and local 
government.
    Use of eminent domain or condemnation must be severely restrained 
if money is added to the Land and Water Conservation Fund. On the St. 
Croix River the Park service has exceeded its condemnation limit. It 
continued to threaten to condemn easements that include public access 
over a person's entire property instead of just river access as the law 
intended. Otherwise unwilling sellers have gladly sold willingly rather 
than have nearly all the value of their land taken leaving them with 
little resale value but the right to pay taxes.
    Land acquisition money is used as a giant regulatory umbrella. The 
Niobrara River Wild and Scenic River had a provision that limited 
condemnation to 5 percent of the land. When asked by the author how 
they would use this limited condemnation power, the Park Service said 
they would hold back condemnation and threaten everyone with it to keep 
them from making unwanted developments to their property.
    The agency pays little or no attention to the legislative history 
of areas managed by them. According to GAO, they are just as apt to buy 
land they don't need as land that is critical. They assume they will 
buy it all anyway so why plan. Therefore, many condemnations take place 
that wouldn't have if more easements and other alternatives were used.
    A court will not examine the taking it is assumed that if it is for 
a ``public purpose'' then it is OK. The power comes with the power to 
govern. Courts only ask two questions. Does the agency have the money 
and the authority to spend it? They never ask if they have the 
authority to spend it on that land or at that project.
    Therefore, the landowners cannot contest the taking. The Park 
Service uses condemnation as an abusive tool to intimidate. They know 
that the only thing that can stop them is congressional oversight and 
they have little to fear from that. Many landowners are squashed like 
bugs without a chance to fight back. Yes, they get paid. And sometimes 
they even get enough to replace what they had. But what is the price of 
land you don't want to sell?
    The Reagan and Bush Administrations held down condemnations and 
funding for mass condemnation but even their Justice Department would 
not review the thousands of condemnations in process when they came 
into office. If the willing seller provision fails to survive, H.R. 701 
will allow the Federal agencies to return to the wholesale condemnation 
era of the late 1960's and 1970's. According to a report to Senator Ted 
Stevens by the Justice Department released in 1979, of 21,000 
condemnations in process nationwide by all Federal agencies that year, 
the Park service had over 10,000 of them. That number is skewed 
somewhat by the Big Cypress condemnations.
    Despite the Willing Seller Willing Buyer provision in H.R. 701, we 
believe that any bill coming out of Congress will include condemnation. 
Declarations of Taking will increase if H.R. 701 passes. DT's, as they 
are called, are used by the Park Service as an abusive tool to 
intimidate and depress opposition to local land acquisition projects. 
They give the government immediate title to the property and can be 
used to force the landowner off the land in 90 days even if he has no 
other place to go. Small businesses and farmers have been especially 
hard hit by the use of this tool.
    In the past, the congressional committees have often approved a DT 
without ever taking the care to ask local elected officials or 
landowners whether a DT is appropriate. Some are but most are not. The 
Resources Committee in the past was often counted on by the Park 
Service as an automatic sign-off to get a DT approved. It failed to 
investigate the facts. As a result the Park Service often gave Congress 
information that was not accurate. The Park Service did not have to 
tell the truth because it knew the Committee was not likely to check.
    The Committee has often not fulfilled its oversight role. By 
passing H.R. 701, Congress would be placing a loaded gun in the hands 
of the Park Service. H.R. 701 should carry some very carefully crafted 
oversight provisions for the use of Declarations of Taking.
    H.R. 701 will eliminate any motivation on the part of the Federal 
agencies and particularly the Park Service to use easements to protect 
land while saving money. The GAO says that the Park Service objections 
to easements are more perceived than real. For example, on the St. 
Croix, (Kettle River Section) the State of Minnesota purchased hundreds 
of easements at a cost of 30 percent or less of fee title. On the St. 
Croix just a few miles away, the Park Service was condemning fee title 
costing far more money for the same kind of land. The difference in 
management is money. If they have enough money they don't have to 
negotiate. They take the easy way out. They don't have to be a good 
neighbor. They always threaten condemnation. They use condemnation. The 
use of a high percentage of easements would cut land acquisition costs 
by a minimum of 40 percent while saving valuable cultural communities. 
More land could be protected at less cost if Congress enforced the use 
of easements.
    Public Law 91-646, the Uniform Relocation Act is supposed to 
protect landowners from overly aggressive bureaucracy. IT DOES NOT 
WORK. If H.R. 701 passes it will be turning loose powerful 
bureaucracies to prey on their own people. Money is the key. If the 
land acquisition agencies do not have quite enough money to do their 
job in the old way, they become creative and fiscally responsible. To 
some extent this has happened in recent years. Without very tight 
controls over land acquisition and the condemnation process, private 
land in rural America will face a grave threat at the hands of its 
government.
    Multiple-use on Federal lands will be damaged by H.R. 701. 
Multiple-use lands will be converted into single purpose restricted 
areas where only a small minority of citizens can go. Congressmen and 
Senators are able to change multiple-use lands into parks now, but they 
must be responsible for huge costs associated with buying private lands 
in those areas. Mineral rights, grazing rights, water rights and other 
private interests must be paid for too.
    If there is a billion dollar Trust Fund, Congressmen will simply 
have to say: ``Let the trust PAY for the new Park.'' They will not have 
to take fiscal responsibility for their actions. H.R. 701 will lead to 
virtually no congressional oversight over land acquisition. H.R. 701 is 
not the final Trust Fund. It is a transition bill that amends the Land 
and Water Conservation Fund so that it has a dedicated source of funds 
that will eventually grow to $1 billion and more. The goal is to 
position the LWCF so that it will be removed from the congressional 
appropriations and oversight process. This would complete the plan laid 
out in June 1979 in the late Phil Burton's secret seminar where this 
whole process was planned. The goal of that meeting was ``to get the 
Land and Water Conservation Fund out from under congressional oversight 
and give as much money as possible to land trusts'' where there would 
be even less oversight.
    Anyone who pays recreation or user fees on Federal land will 
eventually have to pay higher fees because of H.R. 701. Like night 
follows day. The environmental groups will use the excuse of paying for 
the Trust to prod Congress into raising user fees. Their goal, of 
course, is not really to raise money, but drive commodity production 
and other multiple-uses off the Federal lands.
    H.R. 701 will eventually give the Park Service, Forest Service, 
Fish and Wildlife Service and Bureau or Land Management 200 percent, 
300 percent and even 400 percent of the land acquisition funding that 
has been provided by Congress over the past 10 years. The threat to 
rural America is staggering.
    If H.R. 701 passes we will end up with a $25 billion backlog in 10 
years. The appetite of some in Congress, the Park Service, and the 
environmental groups is very big. Their eyes are bigger than their 
funding. Instead of the current $8 billion backlog as we have now (if 
you can believe the President's Commission on Americans Outdoors 10 
years ago) you'll simply see a $25 billion backlog as Congress loads up 
the process with new ego-political parks. Remember, they no longer have 
to be accountable for costs because the ``Trust will pay.''
    We will be mortgaging our children's future and setting impossible 
goals while guaranteeing to raise their taxes because LWCF funds that 
could have passed through to the general fund to help reduce the 
deficit will now be siphoned off.
    It is suggested that we must take funds from an asset we are using 
up (off shore oil) to build another asset. There is some logic to that 
argument. Often, however, the Land and Water Conservation Fund is 
taking assets or their uses important to all Americans from them. We 
may buy land, but it is placed in a non-use category. Small communities 
are being destroyed and the local tax base damaged. H.R. 701 will 
remove millions of additional acres from the tax rolls throwing the 
burden of supporting necessary community services on other property 
owners. Often counties support the LWCF to pay for the swimming pool 
while giving up the tax base that could pay to keep up the swimming 
pool.
    None of the money from H.R. 701 can be used by the Park Service, 
Fish and Wildlife Service or Forest Service for anything but buying 
land. No maintenance, no rehabilitation, nothing else. Yet the backlog 
in maintenance grows bigger with each passing year.
    It seems inconsistent for the environmental groups to be suggesting 
the sky is falling about the preservation of land when advocating huge 
land acquisition increases while at the same time resisting to the 
death any attempt to add maintenance and rehabilitation funding to the 
Land and Water Conservation Fund.
    If Congress passes H.R. 701, it will send a message to the Federal 
agencies. Remove private uses and commodity production from Federal 
lands. The logic is that if the government is spending so much money to 
buy private land for recreation and preservation then of course 
Congress must mean to rid existing Federal land of permits, leases, and 
other private uses for the same reasons.
    The President's Commission on Americans Outdoors recommended 
massive increases in land use controls. These will be paid for by the 
billion dollar Land Acquisition Trust Fund. Examples: 2,000 Wild and 
Scenic Rivers by the year 2000; a national network of greenways modeled 
after the 1,000 foot wide Appalachian Trail from Maine to Georgia; a 
nationwide ``scenic byway'' program placing half-mile viewshed or 
buffer zones on either side of secondary highways across America; 
expansive new wetland and shoreline controls; growth shaping controls; 
and many more costly red-tape regulations. Some of these proposals like 
the ``scenic byways'' have been put into place on Federal land in areas 
managed by the Forest Service. Also the wetland, shoreline and growth 
controls. So far the impact on private land from the ``scenic byways'' 
has been minimal. What happens when there is a billion dollar Trust 
Fund?
    Where Will The Trust Funds Be Spent?
    There is a whole list of programs and plans ready and waiting for 
the money from this new Trust Fund. The National Parks and Conservation 
Association 1988 Park Plan Hit List included 88 new national parks and 
additions of 10 million acres to 212 existing parks. 25 percent of the 
additions would come from private landowners. No one knows how much 
private land is in the 88 new areas. Conservative estimates in 1988 
suggested this plan would have cost a minimum of $30 billion and could 
well be more than twice that.
    The Wilderness Society and other groups have followed suit with the 
``Blueprint For The Environment'' which sets out a huge agenda. Dozens 
of other groups have their own ideas how to spend the new slush fund.
    What is more onerous though are the secret future park projects 
that exist within the Park Service. The Park Service has one called the 
National Natural Landmarks program. Never authorized by Congress, this 
back room project gets landowners to list their property by promising 
that it will not be purchased and that they do not list people against 
their will. It rewards them with special ceremonies and other ego 
gratification. On the surface, it sounds like a good program.
    However, lots of evidence surfaced a few years back that in fact 
people's land is listed against their will without even telling them. 
Despite protests to the contrary, this program is really a plan for 
future additions to the National Park System. The NPCA calls them 
``Ladies in waiting''. An Interior Department Inspector Generals 
investigation has clearly shown that the Park Service grew impatient 
waiting for landowners to give their permission and simply began 
bypassing them, designating millions acres of private land as landmarks 
without even telling the landowner they were under consideration. Land 
Trusts like the Nature Conservancy eagerly participated in this secret 
process in places such as Waas Island and Beals, Maine. Many more acres 
of Federal lands were planned to be designated with the result that 
other uses would eventually be removed.
    The Biosphere Reserve and World Heritage Site program also appears 
to be tied into a program for expanding the parks while locking out the 
people. The first tangible evidence that these programs would be used 
in this manner was by the Superintendent of Yellowstone National Park, 
Michael Findley again, when he called in a United Nations inspection 
team several years ago to examine the New World Mine and its supposed 
threat to Yellowstone. The U.N. team recommended a huge buffer zone 
around Yellowstone and was the moral authority upon which the Clinton 
Administration based its successful efforts to shut down the project 
buy using LWCF funds to buy it out thereby depriving Montana of much 
needed jobs. It is our view that any threat to Yellowstone was largely 
successful propaganda.
    The 26 million-acre Northern Forests of Maine, New Hampshire, 
Vermont and New York are the primary initial target of the green groups 
for much of the new Trust Fund. There are timber companies going 
through an economic transition and seem willing to again sell Manhattan 
Island to the Indians for beads, foregoing the economic future of the 
area. Vast numbers of communities and thousands of jobs lay in the 
balance.
    The billion dollar Trust Fund was originally recommended by the 
President's Commission on Americans Outdoors (PCAO). The General 
Accounting Office released a report (RCED-88-86) in 1988 concluding 
that the PCAO violated the Federal Advisory Committee Act by writing 
its recommendations in closed, secret meetings excluding the public and 
press. Lamar Alexander was the Chairman of that Commission and Victor 
Ashe was the Executive Director.
    According to the President's Commission on Americans Outdoors, 
visitation to Park Service areas close to where people live has 
increased modestly. However, visits to parks and Wilderness areas away 
from population centers are moving steadily downward as the nations 
population ages. Yet the PCAO, NPCA, and other plans include massive 
land acquisition in areas away from where the trends say people now 
generally go.
    Some of the money from H.R. 701 will undoubtedly go to support 
national and local land trusts. There are very grave dangers in that. 
There are some large land trusts like the Nature Conservancy, Trust for 
Public Land, The Conservation Fund and others that portend to save the 
government money but there are indications now that they may in fact 
increase the cost of acquisition. They are acting very much like tax-
exempt real estate companies, which cost the government (taxpayer) much 
more, when they stand between the landowner and the government than if 
the government could deal direct with the landowner. It is likely when 
the dust clears that these land trusts have cost the taxpayer the 
purchase price plus large deductions for perceived donations using 
``special appraisers.'' In the end, the taxpayer could pay twice as 
much ore more.
    In an investigation several years ago by GAO, they reported that 
they were not able to get the information necessary on the land trust 
in question because the trust would not supply the required financial 
records.
    The Interior Department Inspector General was able to convict two 
real estate agents that were involved in a scheme to sell land to the 
Park Service at Santa Monica Mountains NRA at an inflated price through 
a land trust. The land trust was not convicted of any wrongdoing.
    H.R. 701 should carry with it a requirement that any land trust who 
receives Land and Water Conservation Fund money should be required to 
make full financial disclosure of its financial records in order to 
qualify for participation in the LWCF.
    Local land trusts are a good idea. They promote conservation and 
enthusiasm on the local level. If they get Federal money they will 
become extended arms of the land acquisition agencies. This condition 
exists to some extent now but will be greatly expanded if H.R. 701 
passes. Even the managers of local land trusts won't recognize their 
organizations in a few years if they accept Federal money. One of the 
main ideas of local land trusts is to raise public awareness and build 
public involvement in local projects. That comes from fund raising. If 
these trusts are financed with Federal dollars through the Land and 
Water Conservation Fund, that local spirit will die.
    Most of the Federal part of the over $8 billion spent by the Land 
and Water Conservation Fund since 1966 is not available for general 
public recreation. It has been locked up with people uses generally 
limited and sometimes eliminated altogether. Recreation is an excuse or 
a code word to develop public support for preservation projects when 
the real goal is the elimination of people. Someday a major event will 
bring this process of exclusion to the attention of the public. The 
results will be dramatic and tragic. Those who now have the power to 
swing the pendulum need to be careful not to swing it too far. It 
always comes back with equal force.
    The LWCF presently does not have money in it unless Congress 
appropriates the funds first. Trust Fund proponents carry on the myth 
that the fund has money in it or that money is owed to it. Congress 
passed legislation authorizing $900 million per year for the fund in 
1978. It only approached appropriating that figure in 1979. That was 
also the year the former Congressman Sid Yates committee suspended the 
Park Service condemnation authority because of all the abuses. Congress 
must appropriate money each year from the present source of funds, 
offshore oil and gas leasing money, or the money will pass through the 
fund to support the general government treasury and reduce your taxes. 
The greens and some Members of Congress who know better encourage the 
fiction that somehow $900 million per year has built up in the fund and 
now $8 billion is owed to the fund and that it doesn't cost the 
taxpayer.
    H.R. 701 dedicates up to $1 billion per year from offshore gas and 
oil money to the Land and Water Conservation Fund, thus making it a 
Trust. The Trust Fund does not have to compete against other important 
national social priorities in the yearly budget process. Somehow, Trust 
Fund proponents think that the environmentalists and hunters need a 
special subsidy or entitlement to support their activities. Or perhaps 
they think they cannot compete in the budget process like everyone else 
and must receive special treatment.
    If H.R. 701 passes, every special interest should insist on a 
dedicated Trust Fund for their own pet projects. Congress should 
consider doing away with the appropriations committees since they will 
no longer be needed.
    H.R. 701 or the Land and Water Conservation Fund should not be used 
as a bargaining tool or trading stock to open the Arctic National 
Wildlife Refuge. While we support opening ANWAR, the funds from ANWAR 
should not be used to condemn land and destroy private property and 
communities in the rest of the country. We oppose making H.R. 701 part 
of other legislation involving ANWAR. It must stand alone and have to 
compete on its own merits and not be a result of election year vote 
trading. It would be appropriate to separate the LWCF from the current 
H.R. 701 so that Congress will not sell out private property rights as 
part of some goal to gain access to the Federal treasury by Coastal 
States or the Safari Club. We're not making a judgment here over 
whether that access for Coastal States is right or wrong. Slipping a 
billion dollar Trust Fund in the bill is wrong.
    Park Service land acquisition has led to condemnation and removal 
of special cultural populations in small communities across America. 
H.R. 701 will fund the continuation of this process.
    Over 115,000 landowners have lost their land to the Park Service 
alone since 1966 as a result or the Land and Water Conservation Fund. 
The impact on rural America has been destructive and tragic.
    It is very important that field hearings be held around the country 
on H.R. 701. This bill is too important to have just a few carefully 
scripted hearings in selected States.
    The Chairman of the old Interior and Insular Affairs Committee 
promised oversight hearings and a review of mistreatment of inholders 
in 1980. He failed to deliver on his promise.
    H.R. 701 contains protection against condemnation if that provision 
passes Congress, a possibility we consider very unlikely. Whether or 
not condemnation is included in any final version of H.R. 701, the bill 
will do terrible social and cultural damage to rural communities across 
America. Willing seller, willing buyer is largely a myth. The 
government has ways to make you sell. It just takes the agencies 15 
years to do what they can complete in 5 years with condemnation.
    The conclusions of GAO report after GAO report confirm past abuses. 
Newspaper and magazine stories by the hundred have told the story. 
National television shows documenting the horror stories on public 
television and network news magazine shows add to the documentation. 
Purchase and relocation by the thousand. It is true . . . . terrible 
things have been done to the American people and their communities in 
the name of preservation.
    HOW did this happen?
    There are lots of little reasons, and TWO BIG REASONS.
    First, our Constitution is written the way it is because the 
founding fathers knew that big government would always try to expand 
its power over those beneath it. It's why we have all those laws about 
unreasonable search and seizure. Big government, even big corporate 
government, always tried to get bigger and more powerful.
    Second, for many reasons, most of them good, we have a huge and 
powerful movement for the conservation and preservation of our natural 
resources in this country. The American Land Rights Association 
believes in sensible conservation . . . . some of our volunteers helped 
found conservation organizations.
    But this movement, this bureaucracy, is like all the rest. It 
believes in itself . . . and its goals . . . above anything else . . . 
including your rights and the rights of every American.
    And they are very smart. They know that American politics and 
politicians depend upon organizations like the environmentalists for 
political support through their publications and for money . . . money 
at election time and money to expose them in a good light in their many 
and large publications and broadcasts of a ``non-political'' nature.
    So they have power and influence. And they are dedicated. 
Regardless of what they sometimes say, the basic goal of the 
environmentalists is to ``get people off the land.'' There are many 
quotes from the leaders of these groups to show that they really want 
to keep everyone out of as much of the Federal lands . . . our land . . 
. as they can.
    One example is a 1991 statement by Brock Evans, then Vice President 
and Chief Lobbyist for the National Audubon Society. He was comparing 
the environmental groups (greens) campaign for Federal acquisition of 
26 million acres of the Northern Forests of New England to his 
successful campaign to shut down the forests and rural communities of 
the Northwest, using the spotted owl as the tool. He told a group of 
environmentalist leaders at an activist workshop at Tufts University:

    ``This will be an even bigger campaign in the next few years than 
the Ancient Forest Campaign we're just going through in the Pacific 
Northwest . . . I don't agree that we can't get it all back [sic] . . . 
I don't agree that it shouldn't all be in the public domain.''

    And they don't give a rat for your rights . . . or my rights. They 
get most of their money from people who don't depend on the land . . . 
who pay their dues and lend their names to ``good causes,'' because its 
the ``right thing to do.''
    These good people, as many Members of Congress, never think about 
the human rights being trampled every day in the name of their good 
cause.
    'So what can I do about it?'' you ask. That's what I thought when 
it happened to me. I have a cabin-inholding in Yosemite that the Park 
Service decided to take. My family had been there for a long time, and 
I didn't believe in simply being tossed out because some bureaucrat 
said I was in the way.
    So a group of us started the National Park Inholders Association 
which became the American Land Rights Association. And it has become my 
life.
    God has given me reasonably good health, good friends and 
employees, and dozens, even hundreds of intelligent hard-working 
volunteers, decent people to help me.
    And we have made a difference.
    Before we were here, the National Park Service had seized nearly 
100,000 pieces of property from American Citizens since 1966. Thousands 
of others . . . miners, stockmen, ranchers, farmers, cabin owners, 
landowners, recreationists, and other users of the Federal lands have 
been told they had to go . . . that they ``didn't belong.''
    Thousands of people were being deprived of rights and property that 
had been assured by their government that they could stay. Families of 
good men and women had to pack their bags and leave. Why? For 
preservation. Never mind the promises that were made to create the new 
parks. Forget about the assurances that the new funding would not take 
their home. They had to go.
    And so it goes . . . in hundreds of ``preservation'' areas across 
the country. Rare and beautiful cultures and lifestyles are broken up 
and destroyed. In America a culture must be 100 years old to be valued. 
The Park Service has committed ``cultural genocide'' or ``cultural 
cleansing'' over and over and Congress often has seemed not to care. 
But we fight on.
    We can't say we have stopped the carnage every time. But we have 
stopped it, slowed it, made it more fair and made the bureaucrats think 
twice about doing it again, just about every time.
    Park service bureaucrats talk in jargon that makes people feel 
stupid real stupid . . . and intimidated. They do that without 
maliciousness these are not bad people, but they are people. Even 
ranchers, miners, and truckers have jargon . . . we all do it . . . 
it's human.
    But it does make it hard on ordinary citizens . . . and it does 
make the bureaucrats see the world in a special way. They come to see 
their actions as part of a huge complex operation of which they are 
only a part. To them, as to us, their job takes over their life.
    Help us keep the system fair . . . help us protect the rights of 
rural Americans. Don't give the giant environmental industrial complex 
free access to the Federal treasury with an unappropriated trust fund. 
Why do they need a subsidy or entitlement?
    Write strict protections for families and communities into H.R. 701 
defeat this bill. Don't discriminate against certain groups of people 
because of where they live. Remember that the issue is not just a few 
people in one place, it is the freedom of us all.
    We do what we do because we believe that this system, this country, 
is based on some remarkable ideas, principal among which is that 
individuals and individual rights are important. Our Constitution was 
designed to protect the individual against the overwhelming power of a 
huge government that would take away rights and property.
    We are Americans who are willing to work for our belief that it is 
individuals. . . and individual rights. . . who make this country 
important. We must never allow the single-use people to make their 
world better at the expense of the rights of all Americans. That's what 
this country's about.
    Please. . . we cannot afford to buy all the nice places in this 
country. Try making landowners into partners. . . not enemies. H.R. 701 
will not help this country. . . it will destroy the fabric of its rural 
communities.
Suggestions to Improve H.R. 701
    Often when legislation is introduced that has the potential to 
cause adverse and sometimes unintended consequences, we may make 
recommendations. In the case of H.R. 701, these suggestions to improve 
the bill should not be taken as ANY support for this bill. H.R. 701 is 
so dangerous that we are unalterably opposed to it. But in the off 
chance that it does pass, the suggestions below will at least mitigate 
to some degree some of the terrible damage this bill will cause.
    1. The Land Protection Planning Policy of the Interior Department 
was created in 1982 and is still place and should be included in H.R. 
701. While this is still the written policy of the Interior Department 
and Agriculture Departments, a good many of the regulations have been 
ignored. Also the Park Service, Fish and Wildlife Service and Forest 
Service implementing regulations should be included as amendments to 
H.R. 701.
    The Land Protection Planning Policy for the first time got the 
agencies to create a Land Protection Plan in each park or management 
area. That plan set priorities for which parcels were of high priority 
and which were of a lessor priority. Before that, the agencies didn't 
bother, feeling that they would ultimately buy it all so who cared.
    The Land Protection Plan also had each agency identify the least 
amount of interest in the land that needed to be purchased to meet the 
intent of Congress. In some cases fee acquisition was recommended while 
in others it was easements, purchase and sell back, memorandums of 
understanding, cooperative agreements and other less invasive 
agreements. Before Land Protection Plans, the agencies had just 
purchased in fee title with little thought to alternatives. This 
dramatically raised the cost of many projects by hundreds of millions 
of dollars. Congress should instruct the agency to buy the least 
expensive alternative that meets Congress' intent unless the landowner 
wishes to sell a higher interest.
    The Land Protection Planning Policy also requires the agencies to 
hold public hearings (not workshops) so that local elected officials 
and landowners can be involved and know what is going on.
    2. Another amendment to H.R. 701 should require that each Federal 
area be required to hold a public hearing once year on their Land 
Protection Plan, what they purchased during that year and what 
interests were acquired. That way the public and local officials can 
see if the agency is following their Land Protection Plan. This 
provision in the current policy is usually ignored by the agencies 
which is why making it part of H.R. 701 would increase its strength.
    3. Another amendment should require that the agencies not buy land 
inside unincorporated and incorporated communities and seek ways to 
protect the local community and culture. Otherwise the agency 
checkerboards the community undermining its social function and tax 
base and ultimately destroys it.
    4. The agency using Land and Water Conservation Fund (LWCF) money 
funds should be required to notify the local county of any acquisitions 
of developed property, either a home or business, at least 60 days 
before closing and be required to seek approval from the local county 
or other elected body. Notice should also be required of any 
acquisition of undeveloped land of over 100 acres. That way the county 
could monitor their tax base and object to the agency action in time to 
make a difference if they felt that economic damage was taking place.
    5. H.R. 701 should be amended to require all acquisition funds to 
go through the appropriations process. There should be no entitlement. 
The existing $1,000,000 threshold protects larger landowners to some 
degree but ignores the needs of smaller landowners that constitute 99 
percent of the land purchases. The bill should specify that there will 
be no net loss of private property. If the agency wants to buy private 
land, they should be required to identify land that will be sold to 
off-set the loss just like Congress does now in the budget process.
    6. The LWCF should be amended to allow moneys to be used for 
maintenance and rehabilitation. Right now the Appropriations Committee 
has said that the four key Federal land agencies are $12 billion behind 
in maintenance funding. We should take care of what we have before 
buying more.
    7. Another amendment should say that the agencies may not buy any 
land where the government already owns over 70 percent of the land and 
that they must get permission from the local county in order to buy 
land where the government owns a minimum of 20 percent of the private 
land. This way the local county can be involved in protecting its tax 
base and making sure there is enough private land to support basic 
economic services to the people who live within the county.
    8. An Environmental Impact Statement amendment should be included 
in the LWCF to require an EIS for any area where the Federal Government 
is carrying out large scale land acquisition and the Federal Government 
already owns 40 percent of the land base.
    9. Every landowner should be given a copy of a booklet with his or 
her rights. They should be guaranteed a life tenancy if they choose 
that option. At the present time the agencies do not always follow the 
Uniform Relocation Act (91-646) and often deny the landowner the option 
of staying on his property for 25 years or life. The agency goal, of 
course, is to get the landowner off the property as quickly as 
possible.
    10. No LWCF funds should be allowed to buy mining properties with 
documented reserves. If the agencies are allowed to buy the mining 
properties the country is deprived of new wealth and possibly important 
strategic minerals. Where would the country be today if the Free 
World's only supply of Rare Earth in the California Desert had been 
purchased by the Park Service before it was developed? It was years 
before we learned how important these minerals were to saving energy 
and lowering the weight of electric motors and much more.
    11. LWCF funds should go to the State and local governments with 
the restriction that they can only be used with willing sellers. As of 
now, H.R. 701 allows the States and local jurisdictions to use 
condemnation.
    12. Any lands purchased with LWCF funds must remain open to 
hunting, fishing and trapping. The irony of H.R. 701 is that the exact 
people who are pushing the bill are people who stand to lose a great 
deal in the long run. You can't hunt where you can't go. For example, 
the millions of acres of Forest Service lands now checkerboarded with 
private land will become targets for land acquisition for the first 
time. Many hunters and fishermen use these lands now. In the long run, 
H.R. 701 will Federalize those lands.
    13. The Payments In Lieu of Taxes (PILT) program should be amended 
into the LWCF so that the full PILT payments are made to local counties 
before any land acquisitions take place.
    14. The Tauzin amendment to the California Desert bill should be 
added to the LWCF. This amendment was adopted by a large majority in 
the 103d Congress. It prohibited the Federal agencies from using 
environmental regulations such as the Endangered Species Act when 
appraising property for potential Federal acquisition.
    15. The LWCF should be amended to lower the authorization to the 
historic level of appropriations, $200 to $300 million per year.
    16. Another amendment should say that any lands purchased outside 
existing designated Wilderness with LWCF Funds may not be put into 
Wilderness in the future or put into any Wilderness Study category.
    17. Land trusts that convey land to the Federal Government should 
be required in the LWCF Act to provide a complete accounting of how 
much the land cost and what kind of tax deductions were taken in the 
acquisition. That is the only way Congress can know what it is really 
spending on a piece of property. The land trusts should be limited to 
making no more than 10 percent profit on sales to the Federal agencies 
and that any purchases must fit into that agencies Land Protection 
Plan.
    ALRA
    Assorted reading opportunities: (Available on the ALRA WEB site at 
www.landrights.org)
    A SOCIO-CULTURAL ASSESSMENT OF INHOLDERS ALONG THE APPALACHIAN 
TRAIL IN THE STATE OF NEW HAMPSHIRE by Kent Anderson. A report funded 
by the American Land Alliance located in Mountain View, California in 
1983. Copies may be obtained through the American Land Rights 
Association, P. O. Box 400, Battle Ground, WA 98604. (360) 687-3087. 
FAX: (360) 687-2973.
    PEOPLE OF THE BLUE RIDGE: A SOCIO-CULTURAL ASSESSMENT OF INHOLDERS 
ALONG THE BLUE RIDGE PARKWAY by Kent Anderson. A report funded by the 
Institute For Human Rights Research located in San Antonio, Texas in 
1980. Copies may be obtained from the American Land Rights Association.
    THE PEOPLE OF THE BUFFALO: A SOCIO-CULTURAL ASSESSMENT OF INHOLDERS 
ALONG THE BUFFALO NATIONAL RIVER by Kent Anderson. A report funded by 
the Institute for Human Rights Research in 1981.
    A SOCIO-CULTUREAL ASSESSMENT OF INHOLDERS IN THE MOUNT ROGERS 
NATIONAL RECREATION AREA (US Forest Service) by Kent Anderson. A report 
funded by the Institute for Human Rights Research in 1980.
    AN ASSESSMENT OF THE ADMINISTRATION AND DEVELOPMENT OF VOYAGEURS 
NATIONAL PARK by Donald D. Parmeter. Mr. Parmeter was Executive 
Director of the Citizens Committee on Voyageurs National Park under the 
State of Minnesota. Copies may be obtained from the Committee in 
International Falls, Minnesota.
    NATIONAL PARK SERVICE LAND ACQUISITION HEARINGS, SUMMER 1978
    These were the only real hearings ever held on land acquisition by 
the Park Service. Former Congressman Sidney Yates Appropriations 
Interior Subcommittee took away the authority of the Park Service to 
use condemnation until they held hearings. The agency expected just a 
few people to show up but hundreds attended nationwide.
    The hearings were held in Fresno, California; Seattle, Washington; 
Denver, Colorado; Atlanta, Georgia; and Washington, DC. Verbatim 
transcripts are available from the Park Service.

                                 BOOKS
    The Power Broker, Robert Moses and the Fall of New York. By Robert 
Caro. 1974, Vintage Press, New York. Originally published in 1974 by 
Alfred A. Knopf. Still in print. Winner of the Frances Parkman Prize 
and the Pulitzer Prize in 1975.
    Wilderness Next Door by John Hart. Foreword by Cecil Andrus. 1979 
Presido Press, San Rafael, California.
    The Adirondack Rebellion by Anthony N. D'Elia. 1979 Onchiota Books, 
Glens Falls, New York.
    The Taking by Joseph Gughemetti and Eugene Wheeler, 1981 Hidden 
House Publications, Palo Alto, California.
    At The Eye Of The Storm, James Watt and the Environmentalists by 
Ron Arnold, 1982 Regnery Gateway, Chicago, Illinois.
    Playing God In Yellowstone by Alston Chase, 1986 Harcourt Brace 
Javanovich, Orlando, Florida.
    Wake Up America, They're Stealing Your National Parks by Don 
Hummel. 1987 Free Enterprise Press, Bellevue, Washington. Mr. Hummel 
was the former mayor of Tucson, Arizona, an Assistant Secretary in the 
Kennedy Administration and former concessionaire in Glacier National 
Park, Lassen National Park and Grand Canyon National Park.
    Cades Cove, The Life and Death Of a Southern Appalachian Community 
by Durwood Dunn, 1988 University of Tennessee Press.
    A Rage for Justice, The Passion and Politics of Phillip Burton, 
1995, University of California, Berkeley and Los Angeles, California.
                                 FILMS
    ``For The Good Of All'', an episode of the Public Television 
``Frontline'' series first aired on June 6, 1983. Copies are available.
    ``For All People, For All Time'', a film by Mark and Dan Jury that 
documented land acquisition in the Cuyahoga Valley National Recreation 
Area in Ohio. Portions of this film were used by Public Television when 
they produced the ``Frontline'' episode above. Copies are available.
                                 ______
                                 
                                           Wednesday, May 24, 2000.
To: U.S. Senate Committee on Environment and Public Works.

Re: H.R. 701/S. 25: Outer Continental Shelf Revenue Sharing Land 
Acquisition Trust Proposals
Views of Keep Private Lands in Private Hands Coalition (Chuck Cushman, 
Coordinator)
    The leading organization educating the public about the harm 
expected from enactment of H.R. 701/S. 25 is the Keep Private Lands in 
Private Hands Coalition. The individual with the greatest knowledge in 
the country about the problems with this bill is undoubtedly their 
coordinator, Chuck Cushman. Mr. Cushman has over 30 years experience 
representing landowners in federally managed areas. He founded the 
National Inholders Association and is now also Executive Director of 
the American Land Rights Association.
    He prepared a superb history and analysis for the June 1999 House 
Resources Committee hearing on H.R. 701 in Salt Lake City. Not only was 
Mr. Cushman not allowed to testify, his testimony wasn't even printed 
in the hearing record! The proceedings were heavily slanted in favor of 
hearing instead the pleas of agencies and organizations that were to 
receive the largesse of funds to be distributed under the bill 
certainly self serving testimony of highly predicable and minimally 
informative content.
    This suppression of an outstanding scholarly treatise on the 
subject of Federal Government land acquisition and accompanying 
destruction of communities and citizen abuse has deprived the Congress 
and the public of critical information needed to evaluate and improve 
the subject bills. Grave doubt is cast on the credibility of the 
process in the House when a hearing is slanted in this way.
    I have faith that the Senate will do a much better job of 
thoughtful deliberation on such a fundamental matter as buying massive 
amounts of private land with off budget trust funds.
    I ask that the attached testimony of Mr. Cushman be included in the 
printed record of your committee hearing.
            Sincerely yours,
                                           Lee Ann Gerhart,
                                           3818 Clay Products Road,
                                             Anchorage Alaska 99517
                                 ______
                                 
                Statement of Ray Kreig, Anchorage Alaska
    My name is Ray Kreig. I have lived in Alaska since 1970 and I am an 
inholder in four places: Kantishna in Denali National Park; Millers 
Camp in Yukon Charley National Preserve; Three Saints Bay in Kodiak 
National Wildlife Refuge; and Treat on the Big Piney Creek National 
Scenic River in the Ozark National Forest, Arkansas. I am Chairman of 
the Kantishna Inholders Association and Chairman of the Arkansas Scenic 
Rivers Landowner Association. I testifying in an individual capacity.
    I wish to bring to the attention of the Committee three recently 
released major studies critical to an understanding of the Conservation 
and Reinvestment Act (CARA) H.R. 701-S25.
    I ask that they be included (in their entirety) in the official 
hearing record. Each item here includes quotes from the publication or 
summary provided by the authors:

  NO. 1--HERITAGE FOUNDATION WHY CARA IS FISCALLY IRRESPONSIBLE AND A 
  THREAT TO LOCAL LAND USE DECISIONS, BY GREGG VANHELMOND AND ANGELA 
   ANTONELLI (HERITAGE BACKGROUNDER NO. 1370, MAY 9, 2000, 10 PAGES).
    ``The intention of H.R. 701--to improve land conservation and 
recreation in the United States--at first glance is noble, but in 
reality the bill represents little more than a pork-filled land grab by 
Federal and State land management and recreation agencies . . . Making 
CARA's proposed programs off-budget also violates the spirit of the 
budget resolution, incorporating accounting gimmicks to increase 
spending in fiscal year 2001 beyond what Members had agreed to spend . 
. . Congress would be dedicating money to CARA that it otherwise would 
have saved to shore up Social Security, reduce the debt, or give 
Americans a tax cut. CARA also represents a vast expansion of Federal 
and State roles in local land management decisions . . . Unlike the 
practice in many of the programs that CARA would replace, H.R. 701 
would require the U.S. Department of the Interior to review and approve 
many of the plans the States submit for the use of the funds . . . 
Finally, CARA is inherently unfair because it empowers government at 
all levels and special interests to buy land, placing average Americans 
at a disadvantage.''
 NO. 2--STEWARDS OF THE RANGE FATAL FLAWS OF CARA, BY FRED KELLY GRANT 
                            (2000, 9 PAGES).
    ``Much has been said and written about the benefits of and the 
flaws in H.R. 701 (CARA). Its supporters have defended the bill against 
advocates of private property rights by claiming that the bill protects 
property rights while extending funding to Federal, State and local 
agencies to preserve the great openness remaining in our nation.
    ``The supporters have utilized summaries of the bill and its 
supposed benefits, and asked for support by the grassroots on faith 
that the supporter's claims are factual. But, if one reads the 
provisions of the bill--the provisions which will be binding Federal 
law if the bill passes--the fallacies of the supporting claims become 
evident.
    ``Because so much has been written, and because of the imminence of 
the vote on the bill, the attempt here is to relate the actual language 
of the bill as to limited specific issues regarding private property 
rights, the potential spread of Federal control over land, and the 
impact on other programs of importance to the grassroots. When the 
actual language and the potential impact of the bill is studied, it 
becomes apparent that H.R. 701 is the greatest threat to private 
property rights ever conceived in this country. ``
  NO. 3--POLITICAL ECONOMY RESEARCH CENTER FEDERAL ESTATE: IS BIGGER 
 BETTER?, BY HOLLY LIPPKE FRETWELL (PUBLIC LANDS REPORT III, 2000, 24 
                                PAGES).
    ``As Congress prepares to add more land to the Federal estate for 
conservation purposes, the condition of lands already under Federal 
control continues to decline. Current Federal land stewardship is doing 
more harm than good . . . . one-third of the land area of the United 
States is under Federal control. Acreage continues to be added at a 
rate of more than 800,000 acres per year and will rapidly increase if 
the proposed legislation specifically for land acquisitions is passed. 
While Federal land ownership expands, funds for managing these new 
lands are not forthcoming . . . Any land manager whether working for a 
Federal agency or overseeing a private farm or ranch, knows that 
protecting resources requires management and that comes at a price. 
Merely placing land into Federal ownership without addressing its 
management needs in no way ensures conservation and can actually lead 
to greater degradation. . . To protect valuable Federal lands, managers 
must face economic realities rather than kowtowing to Congress for 
their budgets.''
    Thank you Mr. Chairman for providing this forum for examining CARA.
                              attachments
    No. 1 Heritage Study--Adobe PDF file ``bg--1370.pdf''
    Also available at: http://WWW.Heritage.org/library/backgrounder/
bg1370.html
    No. 2 Stewards of the Range Study--WordPerfect file ``CARA.Fatal--
Flaws.wpd''
    Also available at: http://www.stewardsoftherange.org/fatal--
flaws.htm
    No. 3 PERC Study--Adobe PDF file ``pl3.pdf''
    Also available at: http://www.PERC.ORG/pl3sum.htm
                                 ______
                                 
                     [Stewards of the Range, 2000]
                          Fatal Flaws of CARA
AN ANALYSIS OF THE CONSERVATION AND REINVESTMENT ACT OF 1999 AS PASSED 
                    BY THE HOUSE RESOURCES COMMITTEE
                         (By Fred Kelly Grant)
    Much has been said and written about the benefits of and the flaws 
in H.R. 701 (CARA). Its supporters have defended the bill against 
advocates of private property rights by claiming that the bill protects 
property rights while extending funding to Federal, State and local 
agencies to preserve the great openness remaining in our nation.
    The supporters have utilized summaries of the bill and its supposed 
benefits, and asked for support by the grassroots on faith that the 
supporter's claims are factual. But, if one reads the provisions of the 
bill--the provisions which will be binding Federal law if the bill 
passes--the fallacies of the supporting claims become evident.
    Because so much has been written, and because of the imminence of 
the vote on the bill, the attempt here is to relate the actual language 
of the bill as to limited specific issues regarding private property 
rights, the potential spread of Federal control over land, and the 
impact on other programs of importance to the grassroots. When the 
actual language and the potential impact of the bill is studied, it 
becomes apparent that H.R. 701 is the greatest threat to private 
property rights ever conceived in this country.
  I. the claim that the bill adequately protects private property is 
                           misleading at best
    Supporters of the bill have claimed far and wide that there are 
provisions in this bill which protect private property rights from 
``takings'' by the government. They have claimed that purchases would 
be made only from ``willing sellers'' and that there would be no 
authority extended to government to ``condemn'' private property for 
purposes under this act. They have also claimed that mere use of funds 
appropriated under the bill would not extend the regulatory authority 
of Federal agencies. These claims seem to have placated many Members of 
Congress who are otherwise staunch supporters of private property 
rights.
    But the claims are simply not true. They are directly contradicted 
by the specific provisions within the bill.
A. The Claim that the bill does not authorize condemnation is 
        incorrect. The bill does not protect against condemnation, thus 
        does authorize, condemnation
    Section 11 of the bill is entitled ``Protection of Private Property 
Rights''. Subsection (a) is entitled ``Savings Clause'' and it is this 
clause which many supporters refer to as the clause which protects 
private property from condemnation. That claim does not withstand even 
cursory review.
    The subsection states that ``Nothing in the Act shall authorize 
that private property be taken for public use, without just 
compensation as provided by the Fifth and Fourteenth amendments to the 
United States Constitution.'' If the subsection ended with the first 
clause, the supporters could justifiably defend their claim that no 
condemnations of land were authorized. If the subsection said only that 
there would be no taking of private property, then there would be no 
authority for condemnation.
    But, the subsection does in fact contain the second clause 
``without just compensation''. The combination of the two clauses 
precisely defines what a condemnation is in fact. The term 
``condemnation'' is defined as the ``process of taking private property 
for public use through the power of eminent domain. `Just compensation' 
must be paid to owner for taking of such.'' Black's Law Dictionary, 
Sixth Edition.
    The language of the subsection provides a text-book illustration of 
what condemnation is all about. In spite of appearing in a section 
called ``Protection of Private Property Rights,'' the subsection 
provides no protection other than that already provided by the Fifth 
and Fourteenth Amendments. It certainly does not protect against 
condemnation.
    No one can claim, in good faith, that this bill does not authorize 
condemnation of property in view of the language of Section 11 (a).
B. The bill does not prevent Federal agencies from extending the impact 
        of their regulations beyond land actually acquired
    Subsection (b) of Section 11 purporting to protect private property 
rights provides that ``Federal agencies, using funds appropriated under 
this Act, may not apply any regulation on any lands until the lands or 
water, or an interest therein, is acquired, unless authorized to do so 
by another Act of Congress.'' What an intriguing attempt to assure a 
scanner of the bill that Federal regulation cannot be extended to 
private property. But, the last clause of the subsection makes one 
aware of the deceit.
    Most of the Acts of Congress extending management of Federal lands 
to the Federal agencies contain language which authorizes the agency 
management to take actions necessary to protect the Federal lands. So, 
Section 11(b) does not protect against the exercise of such protective 
authority. Courts have made it clear that under protective provisions 
of such acts of Congress, the Federal agencies have the power to 
control land use of private property which adjoins Federal lands. In 
Camfield v. United States, 167 U.S. 518, the U.S. Supreme Court 
confirmed the power of the Federal Government to abate fences on 
adjoining land. In United States v. Lindsey, 595 F.2d 5 (9th Cir. 
1979), the Ninth Circuit Court of Appeals recognized the power of the 
Federal Government to punish persons who built a campfire on non-
Federal land adjacent to a national recreation area. In United States 
v. Arbo, 691 F.2d 862 (9th Cir. 1982) the same Court ruled that a 
person could be charged with interference with a Federal Forest Service 
officer even when the interfering action took place on non-Federal 
property which was adjacent to Federal property. In Free Enterprise 
Canoe Renter Association v. Watt, 549 F. Supp. 252 (E.D. Mo. 1982) the 
Federal court held that the National Park Service could prohibit the 
use of State roads for canoe pickups within a Federal Scenic Riverway.
    Thus, the last clause of Section 11(b) makes it clear that this 
section changes nothing in current law, and extends no protection to 
private property rights which do not already exist under the 
Constitution. With or without the clause, the Federal agencies can 
impact any private property adjoining Federal lands by extension of 
their regulations. With or without the clause, the Federal agencies can 
extend their regulatory authority to hunters, campers and fishermen 
even when they are on private or State property.
    Neither does Section 11(b) protect against the expansion of 
regulations regarding protection of species. We have already seen that 
the courts have allowed the agencies to extend their regulatory 
protections of species to private property. Now, under this bill there 
will be money authorized to States to extend species protection and to 
enter into cooperative management agreements with the Federal agencies 
in order to implement the species protection plans which are developed. 
This provides a means of expanding Federal regulations, established 
pursuant to the Endangered Species Act, through such cooperative 
management plans even though the Federal Government has acquired no 
interest in the land covered by the plans.
    So, the ``protection of private property rights'' set forth in 
Section 11 offers no protection against condemnation, no protection 
against expansion of Federal regulations, no protection which does not 
already exist under the United States Constitution.
C. The claim that land will be acquired only from ``willing sellers'' 
        is inconsistent with the specific terms of the bill
    The main sponsor of the bill in the House has defended the bill by 
claiming that all land purchases will be only from ``willing sellers.'' 
He thus chides private property advocates for opposing the bill, saying 
that such advocates should support the opportunity for ``willing 
sellers'' to dispose of their land.
    Apparently the claim is based upon Section 205 which contains the 
``Willing Seller Requirement.'' The very title would lead one to 
believe that in fact no acquisition could be made other than from a 
``willing seller.'' But, the language of the section belies the title.
    The first two clauses of the section would seem to be consistent 
with the title: ``The Federal portion may not be used to acquire any 
property unless (A) the owner of the property concurs in the 
acquisition.'' Accept for a moment that this statement defines a 
``willing seller.'' It really does not, but for our initial purpose 
accept that it does. One would read this as fulfilling the ``Willing 
Seller Requirement.'' But, the next clause of the Section states: ``or 
(B) acquisition of that property is specifically approved by an Act of 
Congress.'' So much for the ``requirement'' that there be a ``willing 
seller.'' The Section is written in the alternative: Federal 
acquisitions must be from a concurring owner OR under approval by an 
Act of Congress. So, if Congress approves an acquisition, it matters 
not whether the owner concurs.
    In touting this bill why would anyone contend that all acquisitions 
had to be made from a ``willing seller'' when the language of the bill 
is to the contrary. There is only one logical explanation: the claim is 
made to try to thwart the impact of the opposition from private 
property advocates by misleading those who have not studied the actual 
terms of the bill. Rep. Young made the statement that ``Those who 
oppose this bill are going to get run over.'' But, those who study the 
actual language of this bill and compare it to Rep. Young's claims will 
clearly see that the claims are bogus.
    Now that we have seen that the Federal acquisition can be made from 
an unwilling seller if Congress approves the sale, let us consider what 
that means. Some might say, ``well, if Congress does specifically 
consider and approve an acquisition it will happen only after the 
people have received notice and an opportunity to express their 
opinions on the acquisition to their representatives.'' Not 
necessarily. How many projects were approved in the infamously complex 
appropriations bill for Fiscal 1999 without any specific advance 
notice? Has anyone in the public ever seen the thousands of pages of 
that appropriations bill put together? How many projects of various 
types have been approved by Congress as an amendment to a bill 
completely unrelated to the project? One that comes to mind is the 
Quincy Library Group bill related to central and northern California 
which was enacted as an amendment to an Indian land lease authorization 
relating to lands in the Dakotas. More recently, $2 million have 
reportedly been included in the Interior Department appropriations bill 
for the purchase of additional scenic easements in the Sawtooth 
Recreation Area in central Idaho. The projects have not been identified 
in that appropriation, but by allocating the money, Congress will have 
approved acquisition of the easements.
    So, the provisions of Section 205 allow the agencies to push 
through acquisitions without the necessity of securing concurrence from 
the owner of the land. Why then title the Section ``Willing Seller 
Requirement,'' and why claim that purchases will be made only from 
willing sellers, unless the purpose is to deceive those who might worry 
about private property rights being lost through forced purchases by 
the government.
    One other consideration should be taken into account. The Section 
is based on the premise that an owner who ``concurs'' in the 
acquisition is ``willing.'' In a condemnation case, where ``fair market 
value'' must be determined as a standard for ``just compensation'', the 
question is not whether the seller ``concurs'', but whether under all 
the circumstances it can be found that the seller ``wants'' to sell. A 
land appraiser will tell you that market value is based upon the amount 
which would exchange between a knowledgeable and willing seller, who is 
under no compulsion to sell (no compulsion of any kind) and a willing 
buyer under no compulsion to buy. In finding whether a seller is 
``willing'', the trier of fact must determine whether the seller was 
under compulsion of any kind and whether he wanted to sell, not merely 
whether he concurred with the sale.
    So, the bill does not really define a ``willing seller'' as that 
term is traditionally used in the real estate market and in courts 
which determine condemnation cases. It calls any seller who says ``ok'' 
to the acquisition a ``willing'' seller, even if he says ``ok'' after 
being told that all the land adjoining his is going to be acquired in a 
manner which will severely restrict the use and value of his land. 
Those who have studied the growth of conservation and scenic easements 
in this country are familiar with the scenario in which an owner sells 
in desperation because of the threats of regulatory restrictions which 
will otherwise be placed on his property.
    In short, the bill does not require that all acquisitions by the 
Federal Government be from a ``willing seller.''
D. Protections, such as they are, do not specifically extend to State 
        government acquisitions
    The ``willing seller'' restriction, such as it is, is applicable 
only to Federal acquisitions. This means that an acquisition made by a 
State or local government which receives funds is not bound by even the 
color of an attempt to restrict condemnation. The supporters may say 
that Congress has no such right. Wrong. The bill could restrict the 
funding of States and local governments to only those instances in 
which the State or local government agreed that land acquisitions would 
be made only from a true ``willing seller'' and that condemnation would 
not be used.
    The same is true for the language that seems to attempt to restrict 
the Federal regulatory authority. Funding to States and local 
governments could be limited to those cases in which States and local 
governments would agree that their regulations would note be extended 
to any lands until they were actually acquired from a true ``willing 
seller.''
    Given the provisions that call for joint and cooperative management 
plans, it would make sense to extend these protections of private 
property to the State and local government use of funds, IF the bill 
really were intended to protect private property rights.
E. Water rights are not adequately protected
    Section 210 is entitled ``Water Rights,'' but it does not contain 
the language that would most assuredly protect vested water rights: 
``nothing in this Act shall effect any existing water right.'' 
Throughout history, Congress has used language to that effect when it 
intended to protect already existing and vested water rights. Not so in 
this bill.
    The language of 210 rather talks in terms of State and Federal 
relationships regarding water. Nothing in the section pertains to 
protecting existing private water rights.
    Neither is there specific language which states a Congressional 
intent that there be no implication of reservation of water for any 
purpose stated in the Act. It would be very simple to insert specific 
language that there was no reservation intended: ``Nothing in this Act 
is intended to reserve water, or impliedly reserve water, for use of 
any projects or acquisitions funded by this Act.'' It would be simple, 
if it really were the intent of the sponsors to protect private 
property rights.
 II. this bill threatens the economic stability of county governments, 
      and threatens to cut vital local services for the taxpayers
    In most States, the taxpayers are most directly served by local 
government. County governments furnish the seats of justice in the 
forms of lower and upper level trial courts, law enforcement and 
detention facilities, official recording of documents, road and highway 
maintenance, and the fiscal services necessary to collect and disburse 
taxes for various local taxing districts such as school districts, 
highway districts, ambulance districts, fire districts, library 
districts, and agricultural fair districts. The taxpayers are in fact 
served by county functions that are funded by ad valorem (property) 
taxes which are based on assessed valuation of private property within 
the county.
    As the amount of private property is decreased in the county, the 
tax base of the county is decreased. The acquisitions of private 
property, which will be possible under the bill, threaten the very 
existence of many county governments, particularly in rural areas. When 
private property is purchased by a governmental entity, there will be 
no revenue payable to the county which will replace the loss of tax 
base.
    This bill will accommodate land purchases that will dwarf the 
purchases made by the Forest Service in the Sawtooth Recreation Area in 
central Idaho. Yet, those purchases alone have devastated the tax base 
of Custer County in Idaho.
    The enabling statute which created the Sawtooth National Recreation 
Area stated the clear intent of Congress that the Federal agency should 
purchase, in fee simple, no more than 5 percent of the private land in 
the proposed Recreation Area. In spite of that mandate, the Forest 
Service has purchased, in fee simple, 17 percent of the private land in 
the Area and are still buying. In fact, another $2 million have been 
included in the appropriation for next year for further purchases in 
the Area. This massive removal of private land from the tax base of 
slightly populated Custer County endangers continuation of county 
services.
    In addition to the absolute removal of private property from the 
tax rolls, the purchase of scenic easements by the government further 
depletes the revenue of the County. The impact of the scenic easements 
is to prevent all development, even when the development would not 
detract at all from the visibility of the Scenic Area (which is the 
stated purpose for the easement purchases). As a result, the tax base 
for all private properties covered by the scenic easements is 
permanently frozen at a much lower level than the tax base would be on 
developed property. This means that county revenue is cut. So is 
revenue for the school districts and all other local taxing and service 
districts. The assessor and a former assessor of the County provided an 
example: The owner of an 11.5 acre parcel sold a scenic easement to the 
Forest Service for $306,000. Neither the county nor any taxing district 
received any revenue benefit from that sale. The sale prevented 
development of three residences that could have been constructed 
without effecting in any way visibility of the Scenic Area. The former 
assessor estimates that the three lots and buildings would have an 
assessed value of nearly $2 million. Based on that valuation, the 
school district alone would have received $14,571 each year in tax 
revenue from those lots. Without that development, the owner who sold 
the easement to the Forest Service pays only $5,296 in total property 
tax revenue, with only a portion of that going to the school district.
    The adverse impact of the Federal Government's purchase of private 
land and of scenic easements, which decrease the valuation and 
prospective valuation of property, is obvious from this example. Custer 
County Idaho's experience is critical to that county, but it is 
miniscule compared to the adverse impact on counties throughout the 
Nation which will result from the massive land acquisitions to be 
funded by H.R. 701. Federal agencies will push their agenda to further 
decrease private property that is more difficult for them to control. 
In the Sawtooth National Recreation Area, the Forest Service did not 
deem itself bound by Congressional limitations on the amount of private 
property which could be purchased. Congress said, ``buy no more than 5 
percent of the private land.'' The Forest Service has already bought 17 
percent of the private land and still spending. So, even the slight 
limitations placed on the agencies in H.R. 701 will be meaningless to 
the agencies. Armed with the almost unlimited discretion given to the 
Secretary of Interior throughout this bill, the agencies will be in a 
position to make the biggest grab of private land in history.
III. the bill paves the way for creation of state protection of species 
          even broader than the federal endangered species act
    Through the Wildlife Conservation and Restoration Program, the bill 
provides for State programs of species protection that is far broader 
than the protection which has lead to destruction of private property 
rights under the Endangered Species Act (ESA). Section 302 (d) defines 
the ``conservation'' use to which funding may be put by the States as 
including ``use of means and procedures necessary or desirable to 
sustain healthy populations of wildlife including all activities 
associated with scientific resources management such as . . . . 
acquisition, improvement and management of habitat . . . and periodic 
or total protection of a species or population.''
    This language is all-inclusive. It does not pertain merely to 
endangered or threatened species as now recognized by the ESA. It 
applies to all ``wildlife'' which would include even non-sport (hunting 
and fishing) species. The breadth of this provision is awesome. It 
extends to the States the funding to create species bills that the 
Federal Government can't reach. That will allow the Federal Government, 
through cooperative management plans called for by the bill, to extend 
its regulations of use of land to any species related to any State 
program funded under this bill.
    The same section provides that such State programs must be 
``approved by the Secretary,'' so the Federal Government can insist on 
the broadest possible restrictions on species by the State in order to 
gain funding. Section 304 provides that in order to gain the 
Secretary's approval, the State must submit a ``comprehensive plan'' 
which provides that the State Fish and Game Department will have 
overall responsibility for the program. By this provision, the Federal 
Government can dictate to the State seeking funds as to which 
department of government must run the program. The comprehensive plan 
must also provide that this agency will develop and implement wildlife 
conservation programs, giving ``appropriate consideration to all 
wildlife.''
    This bill has been touted by its supporters as a boon for hunters 
and fishermen. Various sporting organizations have supported the bill 
in reliance upon these claims. But, if they read the bill they will see 
how the Federal Government can use the funding to gain control over the 
State species protection programs. Once that happens, is there anyone 
on the scene today who does not see that restriction of access is next 
on the agenda. The Federal agencies have launched a massive effort to 
restrict access during the past 18 months. This bill permits the 
expansion of that effort to any land acquired by the State for its 
wildlife programs.
    Those who have fought re-authorization of the Endangered Species 
Act, those who have rallied against the abuses of private property and 
the closing of access under the Endangered Species Act, should take 
note that under this bill the Congress will be setting up the Federal 
agencies to take a position as commissar of a vast extension of 
authority and control which can restrict private property rights and 
access under the guise of protection of a whole new body of species 
which it cannot touch under the ESA.
IV. the bill authorizes funding to non-government organizations of the 
     type which have fought private property rights and open access
    Section 704 of the bill authorizes the funding of conservation 
easement purchases by non-government organizations that qualify as a 
non-profit, tax exempt organization. This allows the Secretary to fund 
project purchases by the extremist environmentalist organizations which 
have fought to overcome private property rights and to deny access to 
Federal lands through the past two decades.
    These same groups have filed lawsuit after lawsuit against the 
government, costing advocates of private property rights millions of 
dollars in attorneys fees to defend property rights and to seek and 
defend open access to Federal lands. Now, the Federal Government will 
fund their efforts. They can receive funds to use in purchasing 
conservation easements that will extend the domain which they can 
control. Then, they will be free to use their own revenue to continue 
to battle private property rights and open access through their 
debilitating litigation strategy. With the Federal funding, they can 
acquire control over even more land, which they can close down to 
multiple uses including hunting, fishing and motorized recreation uses.
    Meanwhile, the taxpayers who have to defend their rights will be 
paying the costs of the extremists through tax dollars. It is 
remarkable to see that Members of the Congress who profess to be 
advocates of private property would actually consider such funding of 
organizations dedicated to the destruction of private property rights.
 V. the expenditures to implement this bill will attack the `surplus' 
                    and threaten important programs
    Some conservative Members of the Congress have warned that the bill 
will deplete the ``surplus'' which is critical to various trust type 
programs. One of those, which has not been mentioned widely, is social 
security. The chief sponsor has proclaimed widely that he is a friend 
of the senior citizens and he managed to get the support of a national 
organization representing seniors. But one wonders what will happen to 
those Members of Congress who support this bill, when the grassroots 
seniors realize that this bill will in fact deplete the surplus. That 
means that all programs reliant on that surplus must compete for a 
smaller amount of money. Social security will be pitted against 
military appropriations and other appropriations critical to our 
nation's safety and health.
    Sooner or later the seniors in the country will realize that the 
bill provides a threat to the funds available to support long-time 
health of the social security program. Then, we will see the impact 
that can be made by the grassroots.
 VI. massive decreases in private property endanger the philosophical 
                basis upon which this nation was founded
    It is not necessary, surely, to set forth the factors that evidence 
the importance of private property ownership to the Founders of this 
nation and to the philosophy of republican government that they 
documented in the Constitution. Neither should it be necessary to set 
forth the factors which evidence the importance to our enemies of 
destroying the independence of our citizens which results from 
ownership of property. In the Communist Manifesto, Marx warned the non-
communist world: ``In one word you reproach us with intending to do 
away with your property. Precisely so; that is just what we intend.''
    The Federal Government currently owns at least 30 percent of all 
land in the United States. In the western States, the government owns 
more than two-thirds of the land. Now, H.R. 701 authorizes vast 
increases in this ownership, and with each increase we lose more 
private property. We lose more of the resource that has always afforded 
us the basis for independence.
    Last year the Congress identified $15 billion needed for backlogged 
maintenance of the federally owned lands. This government cannot even 
afford to maintain the land already owned. Why does the government need 
more land--when it cannot maintain and care for that already owned? 
There is only one logical answer: the more land owned by the Federal 
Government, or by State governments entangled through cooperative 
management agreements with the Federal Government, the more power the 
Federal Government has over local land use decisions and over the 
operation of local governments themselves. Marx would be pleased.
    Fred Kelly Grant is a native of Nampa, Idaho. He attained his B.A. 
from the College of Idaho in 1958, majoring in History; with 
specialization in Constitutional History and Law. He then attended the 
University of Chicago School of Law. He served as Law Clerk to Chief 
Judge Brune, in the Maryland Court of Appeals.
    He first worked as an associate at Lord, Bissell, and Brook; a 
Chicago law firm representing Lloyd's of London. He continued to 
practice law in the District of Maryland, where he was an Assistant 
United States Attorney. He later became Assistant State Attorney of 
Baltimore, and then Chief of the Organized Crime Unit, State's Attorney 
of Baltimore. He spent his remaining time in Baltimore involved in 
criminal defense.
    Grant has since returned to Idaho where he is an expert on land use 
issues. He is the owner of Fred Kelly Grant Ltd., providing consulting 
services in personnel and land use, and legal research. He is also 
consultant to Owyhee County Land Use Planning Committee and to the 
Board of County Commissioners regarding Land Use Planning for the 
federally managed lands in the county. Grant has also been a consultant 
to Stewards of the Range since 1997.
    Liberty Matters, American Land Foundation and Stewards of the Range 
are national property rights organizations whose members would be 
directly affected by the Conservation and Reinvestment Act of 1999.
    Reprint permission is granted in whole or in part with attribution 
to Liberty Matters, Stewards of the Range, and American Land 
Foundation.
                               __________
             Western States Land Commissioners Association,
                                          Helena, MT, May 24, 2000.

The Honorable Robert Smith
Senate Environment and Public Works,
Dirksen Senate Office Building,
Washington, DC 20510.

Dear Senator Smith: This letter is written for consideration by the 
Senate Committee on Environment and Public Works at upcoming hearings 
regarding the Conservation and Reinvestment Act (H.R. 701).
    The Western States Land Commissioners Association (WSLCA) consists 
of 23 States, which together manage 447 million acres of land, mineral 
right properties and land beneath navigable waterways. Although the 
management structure varies between the member States, the mandate to 
manage the State trust resources for current and future beneficiaries 
is the same. Actions and decisions made by Congress and Federal Land 
Management agencies often have direct impacts and influence 
expectations for the management of State trust lands. As such, the 
WSLCA has closely followed the Conservation and Reinvestment Act over 
the past several months.
    The WSLCA has generally supported the concept of providing adequate 
financial resources to deal with natural resource management needs. The 
WSLCA is particularly interested in the use of Land and Water 
Conservation Funds to resolve longstanding inholding issues through 
exchanges and other means that would be highly beneficial to the 
respective States and Federal land management agencies. The WSLCA 
passed the attached resolution regarding the Conservation and 
Reinvestment Act at its annual winter meeting this past January and 
would like that resolution to be considered as part of the record of 
comments received by the Senate Committee on Environment and Public 
Works.
    Thank you for this opportunity to comment on H.R. 701.
            Sincerely,
                                M. Jeff Hagener, President.
                                 ______
                                 
                           RESOLUTION--2000-1
 a resolution regarding the conservation and reinvestment act of 1999, 
     and recurring funding for the land and water conservation fund
    WHEREAS, Congress established the Land and Water Conservation Fund 
Act, the Urban Park and Recreation Recovery Act, and the Federal Aid in 
Wildlife Restoration Act as means of investing in the environment and 
our communities; and
    WHEREAS, the challenges of maintaining and preserving that which 
makes the Western States unique, including the conservation of wildlife 
habitat and outdoor recreational opportunities, is becoming 
increasingly difficult; and
    WHEREAS, human demands are increasing, whether they are for 
recreational pursuits, economic benefit, community bonding or caring 
for the environment; and
    WHEREAS, many of those demands have direct consequence on the 
ability of the State land trusts to fulfill their respective mandates; 
and
    WHEREAS, Congress is considering the Conservation and Reinvestment 
Act of 1999 which will serve as a means of funding the Land and Water 
Conservation Fund which would provide a means of purchasing easements 
and inholdings, and facilitating exchanges to resolve trust valuation 
issues; and
    WHEREAS, the Conservation and Reinvestment Act would provide for 
funding of other programs that are important to enhancing the quality 
of life in our communities and the States by sharing Federal offshore 
mineral leasing revenues with the States; and
    WHEREAS, the Congressional Acts supported by the Conservation and 
Reinvestment Act emphasize the need to conserve public spaces and to 
acquire national, State and local natural areas in anticipation of 
increasing population to respond to rapid changes in land use and 
availability; and
    WHEREAS, the Western States have in the past benefited immensely 
from the acquisition and development of neighborhood parks, open space, 
wildlife habitat, baseball parks, soccer fields, picnic areas, bike 
trails, playgrounds, scenic areas, and the preservation of cultural 
sites; and
    WHEREAS, investments from the fund can be used for acquisition or 
conservation easements to secure areas that can contribute 
significantly to the conservation of habitat and provide for 
recreational opportunities for the citizens of the United States; and
    WHEREAS, investments of these types serve as economic catalysts 
that can benefit both the environment and community,
    NOW, THEREFORE, BE IT RESOLVED, that the Western States Land 
Commissioners Association encourages its members to urge Congress to 
ensure passage of the Conservation and Reinvestment Act and that future 
recurring Land and Water Conservation Fund appropriations occur at the 
authorized level.
            Approved this 14th day of January, 2000.
                                   Jeff Hagener, President.

                                Kevin S. Carter, Secretary.

                                   - 
</pre></body></html>
